NO. ________

IN THE

Supreme Court of the United States
STEPHEN K. WALTON, SR.,
Petitioner,

v.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF VIRGINIA

APPENDIX

Lance A. Jackson
Counsel of Record
MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello Avenue
Norfolk, Virginia 23510
(757) 622-8100
ljackson@montagnalaw.com
Counsel for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

TABLE OF CONTENTS

Page

Supreme Court of Virginia Order Denying Petition for Appeal,
entered 09/11/20 ........................................................................................... A1
Opinion and Order of the Circuit Court of the City of Norfolk .................. A2
Statutes ...................................................................................................... A13
Complaint, filed 3/11/19 ............................................................................. A23
Amended Complaint, filed 7/12/19 ............................................................ A33
Brief in Support of Plea in Bar and Demurrer, filed 9/3/19 ..................... A48
Brief in Opposition to Plea in Bar and Demurrer, filed 9/13/19 ............ A135
Petition for Appeal to the Supreme Court of Virginia, filed 2/21/20...... A155
Ocean Shipping Reform Act Senate Report 1997 ................................... A195

i

VIRGINIA:
3n ~ Sup~tmre &uutt oj, Viltginia /Utd at~ Supwne &uvd !1luildiJu; in tAe

eJbj oj, !iliJunMul on 91tkimJ, tlu lltlt dmJ oj, Septemkt-, 2020.
Stephen K. Walton, Sr.,
against

Appellant,

Record No. 200275
Circuit Court No. CL19-2417

Virginia International Terminals, LLC,

Appellee.

From the Circuit Court of the City of Norfolk
Upon review ofthe record in this case and consideration of the argument submitted in
support of and in opposition to the granting of an appeal, the Court is of the opinion there is no
reversible error in the judgment complained of. Accordingly, the Court refuses the petition for
appeal.
A Copy,
Teste:
Douglas B. Robelen, Clerk

By:

Deputy Clerk

A1

FOURTH JUDICIAL CIRCUIT OF VIRGINIA
CIRCUIT COURT OF THE CITY OF NORFOLK

MICHELLE J. ATKINS

150 ST. PAUL'S BOULEVARD

JUDGE

NORFOLK, VIRGINIA 23510

November 12,2019
Jon J. Montagna, Esq.
Montagna Klein Camden LLP
425 Monticello Avenue
Norfolk, Virginia 23510
John E. Holloway, Esq.
Ryan T. Gibson, Esq.
Troutman Sanders LLP
222 Central Park A venue, Suite 2000
Virginia Beach, Virginia 23462

Re: Stephen K. Walton, Sr. v. Virginia International Terminals, LLC, et al.
Civil Docket No.: CL19-2417
Dear Counsel:
Today the Court rules on Virginia International Terminals' ("VIT") Motion for Swnmary
Judgment on its Plea in Bar. This case was last before the Court on October 8, 2019, when it was
scheduled for a hearing (the "Hearing") on motions and responsive pleadings filed by both
parties whereupon the Court took the instant Motion under advisement.
The specific issue before the Court is whether VIT's Schedule of Rates ("SOR") is a
valid and enforceable contract. Because the Court fmds that the SOR is an implied contract
pursuant to 46 U.S.C. § 40501(f) with an enforceable time bar provision pursuant to VA Code§
8.01-243(A) the Court GRANTS VIT's Plea in bar. Consequently, the court also finds that there
are no material facts at issue and GRANTS VIT's Motion for Summary Judgment on its plea in
bar.

Background
On March 15, 2017, Plaintiff, Stephen K. Walton Sr, ("Walton") was performing work as
a reefer mechanic and container repair mechanic at Norfolk International Terminals ("NIT"),
within his employment as a longshoreman for Marine Repair Services, Inc. ("MRS"). (Pl.'s
Amend. Compl., 4, 8.) At all pertinent times, Defendant Virginia International Terminals
("VIT'') operated, occupied, and maintained the NIT premises. (Id ~ 9-10.) Several business
entities operated at NIT on a daily basis including Walton's employer MRS and defendants VIT,
Ceres, and CP&O. (ld ~ 14.) MRS performed all of the container maintenance and repair work
at NIT. (Id ~ 18.) Specifically, MRS employees, like Walton, were in charge of disconnecting
1

A2

reefer containers stored at "reefer row" to prepare the reefers for transportation away from NIT.
(Id.) VIT typically stored its equipment, including its forklifts, at the VIT maintenance facility
next to reefer row, and no other entities were permitted to park or store equipment at the
maintenance facility. (Id ~ 25.) At all relevant times, VIT's forklifts at the NIT facility were
used by three entities: VIT, Ceres, and CP&O. (Id., 27.) VIT marked their forklifts with a VIT
sticker. (Id)
On the day in question, VIT maintained exclusive control over the VIT maintenance
facility, including the lighting and all available forklifts, permitting only VIT employees to drive
equipment on to the VIT maintenance facility. (Id ~ 30,49.) Moreover, VIT occupied, controlled,
and maintained a walkway that ran along the south side of the N4 row (''the walkway"), where
Walton was injured. (Id ~ 31.) After Walton fmished disconnecting reefer units in the walkway,
he proceeded a short distance down the walkway when he tripped over the blade of a VIT forklift
projected out into the walkway from the VIT maintenance area, causing him to fall and be
injured. (Id, 40.) The blade of the forklift was obscured by shadows in the walkway. (Id ~ 41.)
On previous occasions, VIT usually stored and placed its forklifts at the northern border of the
maintenance facility, either facing away from the walkway or with the blades removed. ·(Jd ~
42.)
· On March 11, 2019, Walton, filed the initial complaint for an action by a longshoreman
for personal injuries that occurred at a marine terminal in Norfolk, Virginia. (Pl.'s. Compl.) On
May 20,2019, Defendants responded with a demurrer. (Def.'s Dem.) Defendants also filed a
Motion Craving Oyer on May 20, 2019, the Court entered an Order on July 3, 2019, upon
consent of the parties on the Motion Craving Oyer. The Order granted Walton leave to amend
the complaint and stayed Defendant's Motion Craving Oyer. (Order 7/3/19.) On July 12,2019,
Walton filed an Amended Complaint. (Pl.'s Am. Compl.) Defendants filed a Plea in Bar and
Demurrer (Def. Plea in Bar & Dem.), and a Motion for Summary Judgment on its Plea in Bar,
(Mot. Sum. Jon Plea in Bar). Both parties have filed briefs in support and opposition of the
aforementioned motions and VIT has filed a reply brief addressing Walton's opposition brief.
The parties also presented arguments before this Court at a hearing for VIT's Motion for
summary judgment on its plea in bar on October 8, 2019. (Hearing Transcript, Oct. 8, 2019.)

Party Positions
VIT' s Position
At all relevant times, VIT maintained a Schedule of Rates ("SOR") governing rates,
regulations, and practices at marine terminals operated by VIT, including NIT. (VIT's Brief in
Supp of Plea in Bar & Dem. & Mot. Sum. J. on Plea in Bar, 3.) VIT made their SOR available to
the public via VIT's website in accordance with FMC regulations. (Id at 7.) VIT argues that it's
SOR is enforceable, even without proof that Plaintiff had actual knowledge of its provisions. (/d.
at 6.) VIT argues that 46 U.S.C. § 40501(±), permits marine terminal operators to publish a
schedule of rates, which may include limited liability provisions. (!d) VIT further argues that
where a SOR is made public, it is enforceable as an implied contract without proof of actual
knowledge of its contents~ (Id at 7.) Accordingly, VIT argues that Walton, in his capacity as a
2

A3

longshoreman using the NIT premises, is considered a "USER;' under the tenns of the SOR and
so agreed to the terms and provision of the SOR via implied contract, despite his lack of actual
knowledge. (/d at 8.) To the extent thatVIT's SOR is enforceable as an. implied contract, VIT
argues enforceability and implied consent extend to the entirety ofthe SOR, not just selected
provisions. (Id)
VIT specifically argues that its SOR provisions requiring notic~ of.injUry and limiting
time to bring suit are enforceable and bar Walton's claim. (/d. at 10.) VIT's SOR contains a ·
specific provision .that requires Users to notify VIT, in writing, of any occurrenc·e of loss, injury,
or damage to person or property caused by VIT within thirty days of the occurrence, and the·
injured party must bring suit within one year of the occurrence. (/d) Under VI::f's· SOR, ifnotiee
is not given or suit is not brought within one year, the ~!aim is time"barred. (/d.) VIT argues that
contractual provisions like the SOR time-bar provision are permissible and n,ot contrary to public
policy. (ld) In fact, VIT argues it assistS the public policy behind the statute oflimitations: · -, ·
.
preventing stale claims. (Id.) VIT further alleges that Virginia has permitted contractUal
linlitations period shorter than the relevant' statute of limitations period, as long as, the agreed
time is not unreasonably short. (/d) Moreover, VIT alleges that notice requirements and time-bar
provisions are a recognized aspect of general maritime "law, limit~, only by the reasonableness of
the provision. (ld. at 11.) VIT argues that the SOR provisio~ an~ the time frame ~ reasonable
because it investig~tes all claims of loss, injury, o.r damage occUrring on the marine t~ls it ·
operates. (Id at-13.) Accordingly, VIT defends its' thirty-~ay notice provision by noting that tqere
is a pressing need to acquire security footage and that time is of the essence in its investigations
b«:ause security footage is not held indefinitely. (/d)·
·
·
VIT also notes that WaltOn is not a party to any actual contract. that may nullify the
'soR's enforceability as an implied contract. (VIT's.Reply Brief in SuJ>p..ofMot. for Sum. J. on
Plea in Bar:& Dem.;3-4.) Alternatively, VIT argues that even if the actual contract between VIT
and MRS nullified t}J.e SORas an implied contract, the terms of the actual contract validly
incorporate the entire SOR by reference. (/d at 4-5.) Moreover, VIT argues that even ifWalton
were a party to the actual contract, the location of his injury was outside of the specified area· _
covered-by that contract. (Id at 5.) As such, the SOR was the only contract capab~e of governing
his conduct and presence at the terminal. (Id)
VIT also argues fu the alternative, that paragraph 60 of the Amended Compl¢nt, which
l.ists multiple defendants that may have breached a duty owed to ·Plaintiff, is deficient and should
be dismissed With.prejudice via demurrer. (VIT's Brief in Supp, ofPlea in Bar & Del,ll. & Mot.
for S~: ~L .on Plea "in Bar at 15.) VIT argues that Virginia dotis not permit plaintiffs to joih two
or more defendants• in the alternative where the facts pleaded indicate that oi1ly one" of the
defendants may be .liable. (Id at 16.) VIT argties that by joining the ~efendants. in the alternative,
Plaintiff fails to inform VIT and the otqer defendants of the trUe t:Utture of the cause of action.
(/dat 16.)_

Walton's Position
Walton asserts th~t VIT's Motion for Summary Judgment should be denied and its
Demurrer overruled. (PPs brief in Opp':p. to Def. Mot for Sum. J. on Plea in Bar & Opp'n to Def.
Deni., 1.) First, Walton argues, as a matter oflaw, the act upon'whichVIT relies to support tiie
3

A4

/

eriforceability of the SOR's notice and time bar provision, is contrarY to Virgiltia law. (/d at 4.)
Accordingly, Walton argues that Virginia law applies, that he is not subject to the SOR's pre-suit
notice requirement, and his claim is not til;ne.barred under the· two-year statute of limitations for
Virginia personal injury claims. (Id at 4-5.) Walton argues that the Shipping Act of 1984,46
U.S.C. §40101, is the sole basis for VIT's argument that its SOR applies instead ofVirginia
pers6nal injury law. (/d. at 6.) Walton argues that VIT's reliance on the Shipping Act is flawed
because the purpose and language of the Act make it clear that it does n~t pre-empt applicable
Virginia Law. (/d at 6-8,) Moreover, .Walton point~ out that VIT never addresses the issue of
pre:.emption, i.\Ild simply asserts the authority of its SOR. (ld ·at 6.) Walton also attempts to
distinguish the ca8es VIT cited in support of its SOR and notes t_hat ali of the maritime cases
cited did not apply Virginia law, moreover, all of the non-maritime cases involved limitations
imposed by an actual written contract, unlike the SORs in place in this case. (Id at 9.)
'Walton.argues that there is no actual contractual relationship betwe~n VIT and·.himself.
(ld at 10.) Walton also argues that VIT's SORs and time limitations cannot be enforced against
him as. aD. implied contract because there were separate, actual contrac~ with his employer MRS,
that governed his terminal use. (ld. at 11-12.) Additi<;mally, Plaintiff bolsters its argument by
asserting that the SOR does not apply because or the multi-party Collective Bargaining ·
Agreement between VIT, MRS, and ILA Union Locall970. (Id at 14-15.) The collective
bargaining agreement specifically address the u8e of the kind ofm$tenance Walton was to
perform on waterfront.facilities.like NIT. (ld at 15.) Walton argues ihat the Collective
Bargaining Agreement was the act~l contract in place leaving no rooni for an implied contract
via VIT's SOR. (/d. at 15.)
.. Walton also argues that VIT's s·oR is not enfo.rceable as an implied in fact contract,
because'he ~as not aware of it and h~ perso'nally never agreed to it. (/d.; Trans. 34:--36.) Walton
notes that VIT has the burden of proving an implied in fact contract, which requires a mutuality
of assent. (Id at 16.) Plaintiff argues that VIT has failed to meet that burden as it applies to ,
VIT's·SOR. (ld.) Plaintiff also argues that VIT's SOR is not enfo~ceable unde~ the equitable
remedy as an implied-in-law contract because time-barring a perso~ injury claim through ari
implied-in-law contract is im~ermissibl~·as a matter of ~quity an~ good conscience; (ld at 18.)
Finally, Walton argues that the demurrer sho~d be overruled becalise Virginia law permits
a plaintiff to sue alternative parties where the allegation ofliability anses from the same·
transaction or occurrence. (ld. at 19.) Plaintiff clarifies that he is alleging liability of each
defendant named in the amended complaint based on their role in the same transaction and
occurrence. (Id)
·

·Discussion
Legal. Stan~ard .'

· A plea iii ·b13F presents a·distiriet issue offacfwhich, if proven, creates a bar to the
plaintiff's right of recovery, and the moving party has the burden ofproof on ~tissue. Hilton
v. Martin, 275 Va. 176, 177; 654-S.·E.2d 572 (2008). The function of a plea in bar is to narrow
the litigation by resolving ari· issue that'
d~termine whether a plaintiff may proceed tQ trial on

will

4

A5

a particular cause of action. Hawthorne v. VanMarter, 279 Va. 566, 578, 692 S.E.2d 226 (2010).
The issue raised by a plea in bar may be submitted to the circuit court for decision based on a
discrete body of facts identified by the parties through their pleadings, or developed through the
presentation of evidence supporting or oppo~ing the plea. ld at 577.
If the facts underlying a plea in bar are contested, a party may demand that a jury decide
the factual issues raised by the plea Hawthorne, 279 Va. at 577. However, according to.Kohn v.
Marquis, 288 Va. 142, 146, 762 S.E.2d 755, 757, there is "no constitutional right to a jury trial if
the case can be determined as a matter of law based ~pon material facts not genuinely in
dispute." Conversely, if the facts are disputed and no demand for a jury is made, the "whole
matter oflaw and fact" may be decided by the court. /d. at 578. In addition, a trial court may
take evidence when considering a plea in bar. See, e.g., Cooper Indus., Inc. v. Melendez, 260 Va.
578, 594-95, 537 S.E.2d 580, 590 (2000) (acknowledging that the trial col.ll't heard evidence
pertaining to a plea in bar); Broad Run Vill., L.C. v. Loudoun County Bd ofSupervisors, 59 Va.
Cir. 96, 96 (Loudon 2002) ("To the extent the parties have sought to introduce evidence outside
the four comers of the pleadings in support of their positions, such evidence will only be
considered in relationship to the plea in bar.").
Any party may make a motion for summary jt,tdgment at any time after the parties
are at issue . . . . If it appears from the pleadings, the orders, if any, made at a
pretrial conference, the admissions, if any, in the proceedings, or, upon sustaining
a motion to strike the evidence, that the moving party is entitled to judgment, the
court shall enter judgment in that party's favor .... Summary judgment shall not be·
entered if any material fact is genuinely·in dispute.
Va. Sup. Ct. R. 3:20.
A trial court considering a motion for summary judgment must "accept as true those
inferences from the facts that are most favorable to the nonmoving party, unless the inferences
are forced, strained, or contrary to reason." Fultz v. Delhaize Am., Inc., 278 Va. 84, 88 (2009)
(citing Dickerson v. Fatehi, 253 Va. 324, 327 (1997); Carson v. LeBlanc, 245 Va. 135, 139-40
(1993)). While summary judgment is available in certain circumstances, it is well settled that it
"is a drastic remedy, available only when there are no material facts genuinely in dispute." /d.
(citing Stockbridge v. Gemini Air Cargo, Inc., 269 Va. 609, 618 (2005); Smith v. Smith, 254 Va.
99, 103 (1997); Slone v. General Motors Corp., 249 Va 520, 522 (1995)). "[I]fthe evidence is
conflicting on a material point or if reasonable persons may draw different conclusions from the
evidence, summary judgment is not appropriate." ld (citing-Jenkins v. Pyles, 269 Va. 383
(2005)).

A. Demurrer
A demurrer tests the legal sufficiency of the. claims stated in the pleading challenged.

Drayv. New Mkt. Poultry Prods., Inc., 258 Va.l87, 189,518 S.E.2d 312,312 (1999). On
demurrer, the court must admit the truth of all material facts properly pleaded, facts that are
impliedly alleged, and facts that may be fairly and justly inferred from the alleged facts. Cox
Cable Hampton Rds., In_c. v. City ofNorfolk, 242 Va. 394, 397, 410 S.E.2d 65~, 653 (1991). A
5

A6

demurrer does not admit the correctness of any conclusions of law. Ward's Equip., Inc. v. New
Holland N Am., Inc., 254 Va. 379, 382, 493.S.E.2d 516, 518 (1997). The only question for the
court to decide is whether the facts are legally sufficient to state a cause of action against the
defendant. Thompson v. Skate Am., Inc., 261 Va. 121, 128, 540 S.E.2d 123, 126-27 (2001).
Even if imperfect, a complaint drafted such that a defendant cannot mistake the true
nature ofthe claim should withstand demurrer. Catercorp, Inc. v. Catering Concepts, Inc., 246
Va. 22, 24,431 S.E.2d 277,279 (1993). The court will not consider any factual assertions
outside the pleadings for purposes of a demurrer. See Va. Code Ann. § 8.01-273.'
Virginia Courts have recognized,
[a] party asserting either a claim, counterclaim, cross-claim, or third-party claim
... may plead alternative facts and theories of recovery against alternative parties
... provided that such claims ... so joined arise out of the same transaction or
occurrence.
VA Code§ 8.01-281(A).
In their brief in support of Demurrer, VIT relies on Baker v. Doe, to prove that a plaintiff
in a personal injury case may not join multiple defendants in the alternative. Baker is both
factually and leg~ly distinguishable from the facts in this case. Legally, the aforementioned
governing statute and its relevant language incorporating the suit of alternative parties was
enacted in 1974. Notably, the statutory language was enacted after the cited authority, Baker v.
Doe, which VIT relies on in support of its argument that Plaintiff impermissibly joined
alternative parties, in its amended complaint. 211 Va. 15'8 (1970). While there is no case law
expressly overruling Baker, there is case law that expressly overrules Norfolk Union Bus Term.
v. Sheldon, 188 Va. 288, 296,49. S.E.2d 338, 341, the case .upon which Baker relies for its
interpretation of alternative joinder.
The defendants rely primarily upon Norfolk Bus Term. v. Sheldon ... Norfolk Bus Term.,
however, it was decided ... before the 1974 enactment of Code §8.01-281. ... the
foregoing statutes and rUle represent a radical departure from the common-law pleading
rule stated in Norfolk Bus Term.

Fox v. Deese, 234 Va. 412, 423, 362 S.E.2d 699, 705. Accordingly, the statutory language
governs and permits the naming of defendants in the alternative, so long rui, the nature of the
joinder arises out of the same transaction or occurrence.
Moreover, the Baker court specifies that defendants may not be named in the alternative
unless "their interests were joint ... In the case of tort feasors, they could be joined as party
defendants only if their acts concurred to produce a single injury to the plaintiff." Baker at 160,
176 S.E.2d at 427.
Factually, Baker is distinguishable as the party Plaintiff's sought to join in the alternative
was unknown. Here, Plaintiff is aware of everyone who had access and control of the forklift and
6

A7

I·

,

walkway w:here he was injured, and he has named them as defendants in the alternative; pursuant
to§ 8.01-28l(A), alleging that theybreached a duty owed to him.
Amended Complaint~ 60 states that "the defendant VIT ... and/or the defendant Ceres ...
and/or the defendant CP&O" breached a duty owed to the Plaintiff. The specific duty owed
reference.s the negligent placement of the forklift that ullimately lead to the Plaintiff's injuries.
The placement and resulting inj~ are the transaction and occurrence at issue. Furthermore, all
three of the named defendants may properly be considered alternative parties under §8.01281(A), because the plaintiff is alleging liability pased on.their respective involvement. The
naming of the alternative defendants does not render the amended complaint deficient, nor is
there any other alleged grounds to find the complaint deficient, warranting a demurrer.
·
Therefore, VIT's Demurrer is OVERRULED.

B. VII's Schedule ofRates is anL/mplied Contract
Virginia Code§ 8.0l-243(A) states in·part, ·"Unles~ otherwis,e provided in this section ot
by other statute, every·action for personal injuries, whatever the theory of recovery . ;·.. shall be·
brought within two years after the cause of action accrues!' However, "parties· to a contract may
agr.ee that any action to enforce the contract must be filed within a shorter period of time than
that established by an otherwise applicable·statute of limitations." Massie v. Blue Cross & Blue
Shield, 256 Va. 161, 164,500 S.~.2ci 509, 509 (1998). Accordingly, VIT's SOR states,
USERS must notify VIT in writing of the occurrence·ofloss, injury, or damage to
person or property caused by VIT immediately upon discovery, and in no event
more that thjrty (30) days from occurrenpe, or all claims based on the loss, injury,
or damage shall be time-barred If suit ... based on th'e occurrence is not filed ·
within one (1) 'year after the occurrence, the claim shall be time-barred.
(SOR No. 207, Notification of Loss, Injury, or damage; time l~its; jurisdiction and venue;
applicable law) (emphasis in original).. The Schedule ofRates defines a ''USER" as "(i) each.
VESSEL and CARRIER, (ii) stevedore, (iii) shipper, consignee, and beneficial cargo owner, (iv)
contractor, subcontractors. and vendor ofVIT, VPA, HRCP II, or another USER, (v) licensee and
permittee, and (vi) and every other person or entity '!ISing, coming onto, or berthing at a
Terminal." (Sc?-edule of Rates, Section XI)
The Court finds that VIT' s SOR meets all ofthe requiremen~ ·of an effective contract.
Specifi.cally, the SOR functions as an implied contract pursuant to 46 U.S.C. § 40501. "A marine
terminal operator may make ~vailable to the public a schedule of rates, regulations .... Any
such schedule made available to the public is enforceable by an appropriate court as an implied
contract without proof of actual knowledge of its provisions." 46 U.S.C. § 40501(f). Walton, in·
his capacity-as a refrigerator mechanic for MRS, fell within the anticipated category of a USER
pursuant to SOR Section XI. Walton may reasonably be eonsidered either a licensee and
permittee ofVIT or a person coming onto a VIT Terminal, both of whom are subject'to.the SOR
as parties to the implied contract..
'

'r

7

A8

The Court accepts as true the inferences from Walton's brief, affidavit, and testimony at
the October 8, 2019, hearing. Specifically, the Court accepts Walton's representation that he was
not made aware of the SOR or any changes to the SOR. The Court also accepts Walton's
representation that he was familiar with the customs and practices of NIT and VIT based on his
time working at the facility and his role on the local union, ILA Local1970. However, Walton's
lmowledge, or lack thereof, does not nullify his status as a USER and the enforceability of the
SOR as an implied contract. Walton may have been misinformed as to what his reporting
responsibility was after the injury, but he was still a USER under the SOR obligated to comply
with all of its notice requirements.

C. Pre-suit Notice and Time Bar Requirements
The two relevant provisions at issue are the pre-·suit notice requirement and time bar
provision. Here, Walton argues that those provisions are not enforceable, and he is not a party to
the SOR. Walton specifically alleges that the existence of an actual con~act between MRS and
VIT nullify the enforceability of the SOR, he was not a signed party to any of the contracts in
place, and he lacked notice of the relevant SOR requirements. None of these arguments are
persuasive and the two relevant provisions are enforceable.
The SOR's time bar provision provides a maximum of thirty days to notify VIT of any
injury on the premises and one year to flle suit for any such injury. Walton violated both
requirements. Walton did not provide notice of the injury to VIT at all. Furthermore, VIT was
not notified of the injury until Walton filed suit two years later.
Walton's argument that the e~istence of an actual contract nullifies the iniplied
contractual nature of the SOR is moot. The actual contract between VIT and MRS incorporates
the entirety of the SOR, preserving any enforceability that would have otherwise been nullified
by the existence of an actual contract VIT correctly argued in their.brief and at the hearing that
Walton manifest his assent to the terms of the SOR, despite his lack of notice, by entering VIT's
premises. Both parties agree that Walton entered VIT's premises as a Reefer mechanic for MRS.
By entering the premises, Walton immediately qualified as a USER under the SOR and assented
to the terms required by every person on VIT property. It makes no difference.that Walton was
not made aware of the requirements in his individual capacity. Put simply, the enforceability of
the SOR is not contingent upon an individual user's failure to read its terms.
The SOR in this case anticipates that anyone on VIT premises may develop a claim
against VIT. Accordingly, the SOR specifically lays out definitional categories for its users and
procedUral requirements for notifying VIT of any injury or claim developed on the premises.
VIT alleged in their brief and proffered at the hearing that the time bar provision is reasonable
because time is of the essence after any injury on the terminal. The purpose of these
requirements is not merely to limit liability and litigation, instead these requirements ar~ in place
to ensure that VIT has adequate time to investigate and collect security footage of the injury.
Walton, a USER by the terms ofVIT's SOR, failed to adhere to these requirements and does not
present an adequate justification for why he should be exempt from the SOR's requirements.

8

A9

The Court finds that the SOR is an enforceable implied contract between VIT and all
USERS of VIT' s premises, including Walton. Therefore, the court GRANTS the Plea in Bar
finding that the SOR's time bar provision applies to Walton as a USER and bars his right to
recovery against VIT. Accordingly, there are no material facts genuinely in dispute, so the court
also GRANTS VIT's motion for summary judgment.

Conclusion
In accordance with the analysis set forth in this opinion, the Court GRANTS VIT' s Plea
in Bar and Motion for Summary Judgment on its Plea in Bar.
The attorney for the Defendant (VIT) is directed to prepare an Order consistent with this
ruling within seven (7) days and forward same to the Court after counsel for the Plaintiff has
signed the Order and noted any objections.

Michelle J. Atkins
Judge

MJA/wmp

9

A10

r

VIRGINIA: IN THE CIRCUIT COURT FOR THE CITY OF NORFOLK
STEPHEN K. WALTON, SR.,

.,
ic

Plaintiff,

v.
VIRGINIA INTERNATIONAL
TERMINALS, LLC, et al.
Defendants.

*
.,*

Case No. CL 19·2417

*
*
*
*
*

*
ORDER ON DEFENDANT'S DEMURRER, PLEA IN BAR, AND
MOTION FORSUMMARY JUDGMENT ON ITS PLEA IN BAR

On October 8, 2019, the parties appeared, by counsel, upon the Demurrer and the Motion
for Summary Judgment on its Plea in Bar filed by Defendant Virginia International Terminals,
LLC ("VIT''). Upon due consideration of the parties' briefs and oral arguments, and for the
reasons set forth in detail in the Court's Opinion Letter dated November 12,2019, the Court
hereby ORDERS that:
I.

Defendant VIT' s DemUll'Cl" is OVERRULED;

2.

Defendant VIT's Plea in Bar and Motion for Summary Judgment on its Plea in

Bar are GRANTED; and
3.

Plaintiff's Amended Complaint and all claims therein are hereby DISMISSED

WITH PREJUDICE ~ to Defendant VIT.

It is so ORDERED.

ENTERED:·_ ____./_ _~/2019
Michelle J. Atkins, Judge
November 25, 2019

Michelle J. Atkins, Judge

Page 1 of3

A11

The Foregoing Document Copy Teste:
George E. Schaefer, Clerk
Norfolk Circuit Court

~!rri~nto,

Deputy Clerk
Authorized to sign on behalf
of George E. Schaefer, Clerk
Date: November 25 , 2019

(
SEEN AND AGREED TO with resped; to the
niling on VIT's Plea in Bar and Motion for
Summa.rf Judgment on its Plea fn Bar and
OBJECTED TO with respect to the ruling on
VIT's Dem111Ter for the reasons set .f orth on
brlef and In oral argument

Jo

E. Holloway, Esq. (VSB No. 28145)
"el T. Berger, Esq. (VSB No. 81861)
yan T. Gibson, Esq. (VSB No. 83183)

TRoUTMAN SANDERS LLP
222 Central Park Avenue, Suite 2000

Vtrginia Beach, Virginia 23462
Telephone: 757-687-7724
Email: john.holloway@troutman.com
Email: daniel.berger@troutman.com

Email: ryan.g~'bson@troutman.com
Counael for Defendant Virginia International
Terminals, UC
SEEN AND OBJEGfED TO with respect to
the ruling on VIT's Plea in Bar and Motion
·cor Summary Judgment for reasons stated In
the Plaintiff's Brlef in Opposition to
Defendant VIT's Motion for Summary
Judgment on Plea In Bar and in Opposition
to Defendant VIr's Demurrer, ftled on
September 13, 2019, and for the reasons set
forth Jn oral argument on October 8,.2019;
and SEEN AND AGREED TO·witb. respect
to the
on Vll''s Demurrer.

Lance A. JacksOn, E .
JonJ. Montagna, Es .
MONTAGNA KLEIN CAMDEN, L.L.P.

425 Monticello Avenue
Norfolk, Virginia 23510
Tel: (757) 622-8100
Fax: (757) 622-8180
Email: ljack:son@montagnalaw.com
Email: jmontagna@mkclawyers.com
Cmmsel for Plaintiff

Page2 of3

A12

§40101

TITLE 46---SHIPPING

Sec.

40102.
40103.
40104.

Definitions.
Administrative exemptions.
Reports filed with the Commission.

§ 40101. Purposes

The purposes of this part are to(1) establish a nondiscriminatory regulatory
process for the common carriage of goods by
water in the foreign commerce of the United
States with a minimum of government intervention and regulatory costs;
(2) provide an efficient and economic transportation system in the ocean commerce of
the United States that is, insofar as possible,
in harmony with, and responsive to, international shipping practices;
(3) encourage the development of an economically sound and efficient liner fleet of
vessels of the United States capable of meeting national security needs; and
(4) promote the growth and development of
United States exports through competitive
and efficient ocean transportation and by
placing a greater reliance on the marketplace.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1523.)
HISTORICAL AND REVISION NOTES
Revised

Section
40101 ..........

Source (U.S. Code)

46 App.:1701.

Source (Statutes at Large)

Pub. L. 98-237, §2, Mar. 20,
1984, 98 Stat. 67; Pub. L.
105-258, title I, § 101, Oct.
14, 1998, 112 Stat. 1902.

EFFECTS ON CERTAIN AGREEMENTS AND CONTRACTS

Pub. L. 98-237, §20(d), Mar. 20, 1984, 98 Stat. 90; Pub.
L. 105-258, title I, §117(1), Oct. 14, 1998, 112 Stat. 1914,
provided that; "All agreements, contracts, modifications, licenses, and exemptions previously issued, approved, or effective under the Shipping Act, 1916
[former 46 U.s.a. App. 801 et seq., see Disposition Table
preceding section 101 of this title], or the Shipping Act
of 1984 [former 46 u.s.a. App. 1701 et seq., see Disposition Table preceding section 101 of this title], shall continue in force and effect as if issued or effective under
this Act, as amended by the Ocean Shipping Reform
Act of 1998 [Pub. L. 105-258, Oct. 14, 1998, 112 Stat. 1902],
and all new agreements, contracts, and modifications
to existing, pending, or new contracts or agreements
shall be considered under this Act, as amended by the
Ocean Shipping Reform Act of 1998."
§ 40102. Definitions

In this part:
(1) AGREEMENT.-The term "agreement"(A) means a written or oral understanding,
arrangement, or association, and any modification or cancellation thereof; but
(B) does not include a maritime labor
agreement.
(2) ANTITRUST LAWS.-The term "antitrust
laws" means(A) the Sherman Act (15 U.S.C. 1 et seq.);
(B) sections 73 and 74 of the Wilson Tariff
Act (15 U.S.C. 8, 9);
(C) the Clayton Act (15 U.S.C. 12 et seq.);
(D) the Act of June 19, 1936 (15 U.S.C. 13,
13a, 13b, 21a);
(E) the Federal Trade Commission Act (15
U.S.C. 41 et seq.);
(F) the Antitrust Civil Process Act (15
U.S.C. 1311 et seq.); and

Page 242

(G) Acts supplementary to those Acts.
(3) ASSESSMENT AGREEMENT.-The term "assessment agreement" means an agreement,
whether part of a collective bargaining agreement or negotiated separately, to the extent
the agreement provides for the funding of collectively bargained fringe-benefit obligations
on other than a uniform worker-hour basis, regardless of the cargo handled or type of vessel
or equipment used.
(4) BULK CARGO.-The term "bulk cargo"
means cargo that is loaded and carried in bulk
without mark or count.
(5) CHEMICAL PARCEL-TANKER.-The term
"chemical parcel-tanker" means a vessel that
has(A) a cargo-carrying capability consisting
of individual cargo tanks for bulk chemicals
that(i) are a permanent part of the vessel;
and
(ii) have segregation capability with piping systems to permit simultaneous carriage of several bulk chemical cargoes
with minimum risk of cross-contamination; and
(B) a valid certificate of fitness under the
International Maritime Organization Code
for the Construction and Equipment of Ships
Carrying Dangerous Chemicals in Bulk.
(6) COMMON CARRIER.-The term "common
carrier"(A) means a person that-(i) holds itself out to the general public
to provide transportation by water of passengers or cargo between the United
States and a foreign country for compensation;
(ii) assumes responsibility for the transportation from the port or point of receipt
to the port or point of destination; and
(iii) uses, for all or part of that transportation, a vessel operating on the high seas
or the Great Lakes between a port in the
United States and a port in a foreign country; but
(B) does not include a carrier engaged in
ocean transportation by ferry boat, ocean
tramp, or chemical parcel-tanker, or by vessel when primarily engaged in the carriage
of perishable agricultural commodities(i) if the carrier and the owner of those
commodities are wholly-owned, directly or
indirectly , by a person primarily engaged
in the marketing and distribution of those
commodities; and
(ii) only with respect to the carriage of
those commodities.
(7) CONFERENCE.-The term "conference"(A) means an association of ocean common
carriers permitted, pursuant to an approved
or effective agreement, to engage in concerted activity and to use a common tariff;
but
(B) does not include a joint service, consortium, pooling, sailing, or transshipment
agreement.
(8) CONTROLLED CARRIER.-The term "controlled carrier" means an ocean common car-

A13

Page 271

TITLE 46--SIDPPING

sponse to a request under section 40304(a)(2) of title
46, United States Code; or
"(3) to limit the authority of the Commission torequest information under section 40304(d) of title 46,
United States Code."
§ 40305. Assessment agreements

(a) FILING REQUIREMENT.-An assessment
agreement shall be filed with the Federal Maritime Commission and is effective on filing.
(b) COMPLAINTS.-!! a complaint is filed with
the Commission within 2 years after the date of
an assessment agreement, the Commission shall
disapprove, cancel, or modify the agreement, or
an assessment or charge pursuant to the agreement, that the Commission finds, after notice
and opportunity for a hearing, to be unjustly
discriminatory or unfair as between carriers,
shippers, or ports. The Commission shall issue
its final decision in the proceeding within one
year after the date the complaint is filed.
(c) ADJUSTMENTS OF ASSESSMENTS AND
CHARGES.-To the extent that the Commission
finds under subsection (b) that an assessment or
charge is unjustly discriminatory or unfair as
between carriers, shippers, or ports, the Commission shall adjust the assessment or charge
for the period between the filing of the complaint and the final decision by awarding prospective credits or debits to future assessments
and charges. However, if the complainant has
ceased activities subject to the assessment or
charge, the Commission may award reparations.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1531.)
HISTORICAL AND REVISION NOTES
Revised
Section

40305 ..........

Source (U.S. Code)

46 App.:1704(e) (less
last sentence).

Source (Statutes at Large)

Pub. L. 98--237, §5(e) (less
last sentence), Mar. 20,
1984, 98 Stat. 70; Pub. L.
105-258, title I, § 104(a)(2),
(b)(1), Oct. 14, 1998, 112
Stat. 1904, 1905.

§ 40306. Nondisclosure of information

Information and documents (other than an
agreement) filed with the Federal Maritime
Commission under this chapter are exempt from
disclosure under section 552 of title 5 and may
not be made public except as may be relevant to
an administrative or judicial proceeding. This
section does not prevent disclosure to either
House of Congress or to a duly authorized committee or subcommittee of Congress.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1531.)

§40307

(2) an agreement that is exempt under section 40103 of this title from any requirement of
this part;
(3) an agreement or activity within the
scope of this part, whether permitted under or
prohibited by this part, undertaken or entered
into with a reasonable basis to conclude that
it is(A) pursuant to an agreement on file with
the Federal Maritime Commission and in effect when the activity takes place; or
(B) exempt under section 40103 of this title
from any filing or publication requirement
of this part;
(4) an agreement or activity relating to
transportation services within or between foreign countries, whether or not via the United
States, unless the agreement or activity has a
direct, substantial, and reasonably foreseeable
effect on the commerce of the United States;
(5) an agreement or activity relating to the
foreign inland segment of through transportation that is part of transportation provided
in a United States import or export trade;
(6) an agreement or activity to provide
wharfage, dock, warehouse, or other terminal
facilities outside the United States; or
(7) an agreement, modification, or cancellation approved before June 18, 1984, by the Commission under section 15 of the Shipping Act,
1916, or permitted under section 14b of that
Act, and any properly published tariff, rate,
fare, or charge, or classification, rule, or regulation explanatory thereof implementing that
agreement, modification, or cancellation.
(b) EXCEPTIONS.-This part does not extend
antitrust immunity to(1) an agreement with or among air carriers,
rail carriers, motor carriers, tug operators, or
common carriers by water not subject to this
part relating to transportation within the
United States;
(2) a discussion or agreement among common carriers subject to this part relating to
the inland divisions (as opposed to the inland
portions) of through rates within the United
States;
(3) an agreement among common carriers
subject to this part to establish, operate, or
maintain a marine terminal in the United
States; or
(4) a loyalty contract.

HISTORICAL AND REVISION NOTES
Revised
Section

40306 ..........

Source (U.S. Code)

46 App.:1705(j) .

Source (Statutes at Large)

Pub. L. 98--237, § 6(j), Mar. 20,
1984, 98 Stat. 73.

The words "judicial proceeding" are substituted for
"judicial action or proceeding" to eliminate unnecessary words.
§ 40307. Exemption from antitrust laws

(a) IN GENERAL.-The antitrust laws do not
apply to(1) an agreement (including an assessment
agreement) that has been filed and is effective
under this chapter;

(c) RETROACTIVE EFFECT OF DETERMINATIONS.A determination by an agency or court that results in the denial or removal of the immunity
to the antitrust laws under subsection (a) does
not remove or alter the antitrust immunity for
the period before the determination.
(d) RELIEF UNDER CLAYTON ACT.-A person
may not recover damages under section 4 of the
Clayton Act (15 U.S.C. 15), or obtain injunctive
relief under section 16 of that Act (15 U.S.C. 26),
for conduct prohibited by this part.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1531;
Pub. L. 115-282, title VII, §709(c), Dec. 4, 2018, 132
Stat. 4297.)

A14

HISTORICAL AND REVISION NOTES
Revised

Source (U.S. Code)

Section
40307 ..........

46 App. :1706.

Source (Statutes at Large)

Pub. L. 98--237, §7, Mar. 20,
1984, 98 Stat. 73; Pub. L.
105-258, title l, § 105, Oct.
14, 1998, 112 Stat. 1905.

Subsection (a)(1) is substituted for "any agreement
that has been filed under section 1704 of this Appendix
and is effective under section 1704(d) [redesignated as
(e)] or section 1705 of this Appendix" for clarity and to
eliminate unnecessary words.
Subsection (a)(2) is substituted for "any agreement
that ... is exempt under section 1715 of this Appendix
from any requirement of this chapter" in 46 App. U.S.a.
1706(a)(1) for clarity.
In subsection (a)(7), the words "subject to section
1719(e)(2) of this Appendix" are omitted as obsolete.
REFERENCES lN TEXT

Section 15 of the Shipping Act, 1916, referred to in
subsec. (a)(7), which was classified to section 814 of the
former Appendix to this title, was repealed by Pub. L.
104-88, title III. §335(b)(3), Dec. 29, 1996, 109 Stat. 954.
Section 14b of the Shipping Act, 1916, referred to in
subsec. (a)(7), which was classified to section 813a of
former Title 46, Shipping, was repealed by Pub. L.
98-237, §20(a), Mar. 20, 1984, 98 Stat. 88.

AMENDMENTS
2018-Subsec. (b)(1). Pub. L. 115--282 inserted "tug operators," after "motor carriers,".

CHAPTER 405-TARIFFS, SERVICE
CONTRACTS, REFUNDS, AND WAIVERS
Sec.

40501.
40502.
40503.

Page 272

TITLE 46-SHIPPING

§40501

General rate and tariff requirements.
Service contracts.
Refunds and waivers.

§ 40501. General rate and tariff requirements

(a) AUTOMATED TARIFF SYSTEM.(1) IN GENERAL.-Each common carrier and
conference shall keep open to public inspection in an automated tariff system, tariffs
showing all its rates, charges, classifications,
rules, and practices between all points or ports
on its own route and on any through transportation route that has been established. However, a common carrier is not required to state
separately or otherwise reveal in tariffs the
inland divisions of a through rate.
(2) ExcEPTIONS.-Paragraph (1) does not
apply with respect to bulk cargo, forest products, recycled metal scrap, new assembled
motor vehicles, waste paper, or paper waste.
(b) CONTENTS OF TARIFFS.-A tariff under subsection (a) shall(1) state the places between which cargo will
be carried;
(2) list each classification of cargo in use;
(3) state the level of compensation, if any, of
any ocean freight forwarder by a carrier or
conference;
(4) state separately each terminal or other
charge, privilege, or facility under the control
of the carrier or conference and any rules that
in any way change, affect, or determine any
part or the total of the rates or charges;
(5) include sample copies of any bill of lading, contract of affreightment, or other document evidencing the transportation agreement; and

(6) include copies of any loyalty contract,
omitting the shipper's name.
(c) ELECTRONIC ACCESS.-A tariff under subsection (a) shall be made available electronically to any person, without time, quantity, or
other limitation, through appropriate access
from remote locations. A reasonable fee may be
charged for such access, except that no fee may
be charged for access by a Federal agency.
(d) TIME-VOLUME RATES.-A rate contained in
a tariff under subsection (a) may vary with the
volume of cargo offered over a specified period
of time.
(e) EFFECTIVE DATES.(1) !NCREASES.-A new or initial rate or
change in an existing rate that results in an
increased cost to a shipper may not become effective earlier than 30 days after publication.
However, for good cause, the Federal Maritime
Commission may allow the rate to become effective sooner.
(2) DECREASES.-A change in an existing rate
that results in a decreased cost to a shipper
may become effective on publication.
(f) MARINE TERMINAL OPERATOR SCHEDULES.A marine terminal operator may make available
to the public a schedule of rates, regulations,
and practices, including limitations of liability
for cargo loss or damage, pertaining to receiving, delivering, handling, or storing property at
its marine terminal. Any such schedule made
available to the public is enforceable by an appropriate court as an implied contract without
proof of actual knowledge of its provisions.
(g) REOULATIONS.(1) IN GENERAL.-The Commission shall by
regulation prescribe the requirements for the
accessibility and accuracy of automated tariff
systems established under this section. The
Commission, after periodic review, may prohibit the use of any automated tariff system
that fails to meet the requirements established under this section.
(2) REMOTE TERMINALS.-The Commission
may not require a common carrier to provide
a remote terminal for electronic access under
subsection (c).
(3) MARINE TERMINAL OPERATOR SCHEDULES.The Commission shall by regulation prescribe
the form and manner in which marine terminal operator schedules authorized by this section shall be published.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1532.)
HISTORICAL AND REVISION NOTES
Revised
Section

40501(a) ......

Source (U.S. Code)

46 App.:1707(a)(1)
(1st, 2d sen-

tences).

Source (Statutes at Large)

Pub. L. 98-237, §8(a), (b), (d),
(0 , (g), Mar. 20, 1984. 98
Stat. 74; Pub. L. 105-258,
title I, §106(a), (c), (e), (f),
Oct. 14, 1998, 112 Stat. 1905,
1907.

4050l(b) ...... 46 App.:1707(a)(1)
(last sentence).
40501(c) ...... 46 App.:1707(a)(2).
4050l(d) ...... 46 App.:1707(b).
4050l(e) ... .. . 46 App.:l707(d).
40501(1') ....... 46 App.:l707(f).
40501(g) ...... 46 App.:1707(g).

In subsection (b)(3), the words "ocean freight forwarder" are substituted for " ocean transportation
intermediary, as defined in section 1702(17)(A) of this

A15

§40501

TITLE 46---SHIPPING

relief under section 16 of that Act (15 U.S.C. 26),
for conduct prohibited by this part.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1531.)
HISTORICAL AND REVISION NOTES
Revised

Source (U.S. Code)

Section
40307 ..........

46 App.:1706.

Source (Statutes at Large)

Pub. L. 98-237, §7, Mar. 20,
1984, 98 Stat. 73; Pub. L.
105-258, title I, § 105, Oct.
14, 1998, 112 Stat. 1905.

Subsection (a)(1) is substituted for "any agreement
that has been filed under section 1704 of this Appendix
and is effective under section 1704(d) [redesignated as
(e)] or section 1705 of this Appendix" for clarity and to
eliminate unnecessary words.
Subsection (a)(2) is substituted for "any agreement
that ... is exempt under section 1715 of this Appendix
from any requirement of this chapter" in 46 App. U.S.C.
1706(a)(1) for clarity.
In subsection (a)(7), the words "subject to section
1719(e)(2) of this Appendix" are omitted as obsolete.
REFERENCES IN TEXT

Section 15 of the Shipping Act, 1916, referred to in
subsec. (a)(7), which was classified to section 814 of the
former Appendix to this title, was repealed by Pub. L.
104-88, title III, §335(b)(3), Dec. 29, 1996, 109 Stat. 954.
Section 14b of the Shipping Act, 1916, referred to in
subsec. (a)(7), which was classified to section 813a of
former Title 46, Shipping, was repealed by Pub. L.
98-237, §20(a), Mar. 20, 1984, 98 Stat. 88.

CHAPTER 405-TARIFFS, SERVICE
CONTRACTS, REFUNDS, AND WAIVERS
Sec.

40501.
40502.
40503.

General rate and tariff requirements.
Service contracts.
Refunds and waivers.

§ 40501. General rate and tariff requirements

(a) AUTOMATED TARIFF SYSTEM.(1) IN GENERAL.-Each common carrier and
conference shall keep open to public inspection in an automated tariff system, tariffs
showing all its rates, charges, classifications,
rules, and practices between all points or ports
on its own route and on any through transportation route that has been established. However, a common carrier is not required to state
separately or otherwise reveal in tariffs the
inland divisions of a through rate.
(2) EXCEPTIONS.-Paragraph (1) does not
apply with respect to bulk cargo, forest products, recycled metal scrap, new assembled
motor vehicles, waste paper, or paper waste.
(b) CONTENTS OF TARIFFS.-A tariff under subsection (a) shall(1) state the places between which cargo will
be carried;
(2) list each classification of cargo in use;
(3) state the level of compensation, if any, of
any ocean freight forwarder by a carrier or
conference;
(4) state separately each terminal or other
charge, privilege, or facility under the control
of the carrier or conference and any rules that
in any way change, affect, or determine any
part or the total of the rates or charges;
(5) include sample copies of any bill of lading, contract of affreightment, or other document evidencing the transportation agreement; and

Page 248

(6) include copies of any loyalty contract,
omitting the shipper's name.
(c) ELECTRONIC ACCESS.-A tariff under subsection (a) shall be made available electronically to any person, without time, quantity, or
other limitation, through appropriate access
from remote locations. A reasonable fee may be
charged for such access, except that no fee may
be charged for access by a Federal agency.
(d) TIME-VOLUME RATES.-A rate contained in
a tariff under subsection (a) may vary with the
volume of cargo offered over a specified period
of time.
(e) EFFECTIVE DATES.(1) INCREASES.-A new or initial rate or
change in an existing rate that results in an
increased cost to a shipper may not become effective earlier than 30 days after publication.
However, for good cause, the Federal Maritime
Commission may allow the rate to become effective sooner.
(2) DECREASES.-A change in an existing rate
that results in a decreased cost to a shipper
may become effective on publication.
(f) MARINE TERMINAL OPERATOR SCHEDULES.A marine terminal operator may make available
to the public a schedule of rates, regulations,
and practices, including limitations of liability
for cargo loss or damage, pertaining to receiving, delivering, handling, or storing property at
its marine terminal. Any such schedule made
available to the public is enforceable by an appropriate court as an implied contract without
proof of actual knowledge of its provisions.
(g) REGULATIONS.(!) IN GENERAL.-The Commission shall by
regulation prescribe the requirements for the
accessibility and accuracy of automated tariff
systems established under this section. The
Commission, after periodic review, may prohibit the use of any automated tariff system
that fails to meet the requirements established under this section.
(2) REMOTE TERMINALS.-The Commission
may not require a common carrier to provide
a remote terminal for electronic access under
subsection (c).
(3) MARINE TERMINAL OPERATOR SCHEDULES.The Commission shall by regulation prescribe
the form and manner in which marine terminal operator schedules authorized by this section shall be published.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1532.)
HISTORICAL AND REVISION NOTES
Revised
Section

Source (U.S. Code)

40501(a) ......

46 App.:l707(a)(l)
(1st, 2d sentences).

40501(b) ......

46 App.:1707(a)(l)
(last sentence).
46 App.:1707(a)(2).
46 App.:1707(b).
46 App.:1707(d).
46 App.:1707(f).
46 App.:1707(g).

40501(c) ......
4050l(d) ......
40501(e) ......
40501(f) .......
40501(g) ......

Source (Statutes at Large)

Pub. L. 98-237, §8(a), (b), (d),
(f), (g), Mar. 20, 1984, 98
Stat. 74; Pub. L. 105-258,
title I, § 106(a), (c), (e), (f),
Oct. 14, 1998, 112 Stat. 1905,
1907.

In subsection (b)(3), the words "ocean freight forwarder" are substituted for "ocean transportation
intermediary, as defined in section 1702(17)(A) of this

A16

Page 249

TITLE 46---SHIPPING

Appendix" because the definition of "ocean transportation intermediary" in section 1702(17)(A) contains a
definition of "ocean freight forwarder" which is restated as a separate definition.
In subsection (e), the word "calendar" is omitted as
unnecessary.
In subsection (f)(l), the words "subject to section
1709(d) of this Appendix" are omitted as unnecessary.
§ 40502. Service contracts

(a) IN GENERAL.-An individual ocean common
carrier or an agreement between or among
ocean common carriers may enter into a service
contract with one or more shippers subject to
the requirements of this part.
(b) FILING REQUIREMENTS.(!) IN GENERAL.-Each service contract entered into under this section by an individual
ocean common carrier or an agreement shall
be filed confidentially with the Federal Maritime Commission.
(2) EXCEPTIONS.-Paragraph (1) does not
apply to contracts regarding bulk cargo, forest
products, recycled metal scrap, new assembled
motor vehicles, waste paper, or paper waste.
(c) ESSENTIAL TERMS.-Each service contract
shall include(1) the origin and destination port ranges;
(2) the origin and destination geographic
areas in the case of through intermodal movements;
(3) the commodities involved;
(4) the minimum volume or portion;
(5) the line-haul rate;
(6) the duration;
(7) service commitments; and
(8) the liquidated damages for nonperformance, if any.
(d) PUBLICATION OF CERTAIN TERMS.-When a
service contract is filed confidentially with the
Commission, a concise statement of the essential terms specified in paragraphs (1), (3), (4),
and (6) of subsection (c) shall be published and
made available to the general public in tariff
format.
(e) DISCLOSURE OF CERTAIN TERMS.(1) DEFINITIONS.-In this subsection, the
terms "dock area" and "within the port area"
have the same meaning and scope as in the applicable collective bargaining agreement between the requesting labor organization and
the carrier.
(2) DISCLOSURE.-An ocean common carrier
that is a party to or is otherwise subject to a
collective bargaining agreement with a labor
organization shall, in response to a written request by the labor organization, state whether
it is responsible for the following work at a
dock area or within a port area in the United
States with respect to cargo transportation
under a service contract:
(A) The movement of the shipper's cargo
on a dock area or within the port area or to
or from railroad cars on a dock area or within the port area.
(B) The assignment of intraport carriage
of the shipper's cargo between areas on a
dock or within the port area.
(C) The assignment of the carriage of the
shipper's cargo between a container yard on
a dock area or within the port area and a
rail yard adjacent to the container yard.

§40502

(D) The assignment of container freight
station work and container maintenance and
repair work performed at a dock area or
within the port area.
(3) WITHIN REASONABLE TIME.-The common
carrier shall provide the information described
in paragraph (2) to the requesting labor organization within a reasonable period of time.
(4) EXISTENCE OF COLLECTIVE BARGAINING
AGREEMENT.-This subsection does not require
the disclosure of information by an ocean
common carrier unless there exists an applicable and otherwise lawful collective bargaining
agreement pertaining to that carrier. A disclosure by an ocean common carrier may not be
deemed an admission or an agreement that
any work is covered by a collective bargaining
agreement. A dispute about whether any work
is covered by a collective bargaining agreement and the responsibility of an ocean common carrier under a collective bargaining
agreement shall be resolved solely in accordance with the dispute resolution procedures
contained in the collective bargaining agreement and the National Labor Relations Act (29
U.S.C. 151 et seq.), and without reference to
this subsection.
(5) EFFECT UNDER OTHER LAWS.-This subsection does not affect the lawfulness or unlawfulness under this part or any other Federal or State law of any collective bargaining
agreement or element thereof, including any
element that constitutes an essential term of
a service contract.
(f) REMEDY FOR BREACH.-Unless the parties
agree otherwise, the exclusive remedy for a
breach of a service contract is an action in an
appropriate court. The contract dispute resolution forum may not be controlled by or in any
way affiliated with a controlled carrier or by the
government that owns or controls the carrier.
(Pub. L. 109-S04, §7, Oct. 6, 2006, 120 Stat. 1533.)
HISTORICAL AND
Revised
Section

Source (U.S. Code)

40502(a) .... ..

46 App.:1707(c)(1)
(1st sentence).

40502(b) ......

46 App.:1707(c)(2)
(1st sentence).
46 App.:1707(c)(2)
(last sentence).
46 App.:1707(c)(3).
46 App.:1707(c)(4).
46 App. :1707(c)(l)
(2d, last sentences).

40502(c) ......
40502(d) ......
40502(e) .... ..
40502(f) .. .. ...

REVISION

NOTES

Source (Statutes at Large)

Pub. L. 98-237, §8(c), Mar.
20, 1984, 98 Stat. 75; restated Pub. L. 105-258,
title I, §106(b), Oct. 14,
199e, 112 Stat. 1905.

In subsection (e)(5), the words "the National Labor
Relations Act [29 U .S.C. 151 et seq.] , the Taft-Hartley
Act [29 U.S .C. 141 et seq.], the Federal Trade Commission Act [15 U.S.C. 41 et seq.], the antitrust laws" are
omitted as unnecessary because of the reference to
"any other Federal or State law".
REFERENCES IN TEXT

The National Labor Relations Act, referred to in subsec. (e)(4), is act July 5, 1935, ch. 372, 49 Stat. 449, which
is classified generally to subchapter II (§ 151 et seq.) of
chapter 7 of Title 29, Labor. For complete classification
of this Act to the Code, see section 167 of Title 29 and
Tables.

A17

cP;f
Page 237

TITLE 46-SIDPPING

the definition of "ocean transportation intermediary"
in section 1702(17)(A) contains a definition of "ocean
freight forwarder" which is restated as a separate definition.
In subsection (d)(l), the word "calendar" is omitted
as unnecessary.

§41103

HISTORICAL AND REVISION NOTEs-CONTINUED
Revised
Section

41102(c) ......

Source (U.S. Code)

46 App.:1709(d)(1).

CHAPTER 411-PROHffiiTIONS AND
PENALTIES
Joint ventures and consortiums.
General prohibitions.
Disclosure of information.
Common carriers.
Concerted action.
Marine terminal operators.
Monetary penalties.
Additional penalties.
Assessment of penalties.

§ 41101. Joint ventures and consortiums

In this chapter, a joint venture or consortium
of two or more common carriers operating as a
single entity is deemed to be a single common
carrier.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1540.)
HISTORICAL AND REVISION NOTES

Revised
Section

41101 ..........

Source (U.S. Code)

46 App.:1709(e).

Source (Statutes at Large)

Pub. L. 98-237, §10(e), Mar.
20, 1984, 98 Stat. 80.

§ 41102. General prohibitions

(a) OBTAINING TRANSPORTATION AT LESS THAN
APPLICABLE RATES.-A person may not knowingly and willfully, directly or indirectly, by
means of false billing, false classification, false
weighing, false report of weight, false measurement, or any other unjust or unfair device or
means, obtain or attempt to obtain ocean transportation for property at less than the rates or
charges that would otherwise apply.
(b) OPERATING CONTRARY TO AGREEMENT.-A
person may not operate under an agreement required to be filed under section 40302 or 40305 of
this title if(1) the agreement has not become effective
under section 40304 of this title or has been rejected, disapproved, or canceled; or
(2) the operation is not in accordance with
the terms of the agreement or any modifications to the agreement made by the Federal
Maritime Commission.
(c) PRACTICES IN HANDLING PROPERTY.-A common carrier, marine terminal operator, or ocean
transportation intermediary may not fail to establish, observe, and enforce just and reasonable
regulations and practices relating to or connected with receiving, handling, storing, or delivering property.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1540.)

(a) PROHIBITION.-A common carrier, marine
terminal operator, or ocean freight forwarder,
either alone or in conjunction with any other
person, directly or indirectly, may not knowingly disclose, offer, solicit, or receive any information concerning the nature, kind, quantity,
destination, consignee, or routing of any property tendered or delivered to a common carrier,
without the consent of the shipper or consignee,
if the information(1) may be used to the detriment or prejudice of the shipper, the consignee, or any common carrier; or
(2) may improperly disclose its business
transaction to a competitor.
(b) EXCEPTIONS.-Subsection (a) does not prevent providing the information(1) in response to legal process;
(2) to the Federal Maritime Commission or
an agency of the United States Government;
or
(3) to an independent neutral body operating
within the scope of its authority to fulfill the
policing obligations of the parties to an agreement effective under this part.
(C) DISCLOSURE FOR DETERMINING BREACH OR
COMPILING STATISTICS.-An ocean common carrier that is a party to a conference agreement
approved under this part, a receiver, trustee,
lessee, agent, or employee of the carrier, or any
other person authorized by the carrier to receive
information(1) may give information to the conference
or any person or agency designated by the conference, for the purpose of(A) determining whether a shipper or consignee has breached an agreement with the
conference or its member lines;
(B) determining whether a member of the
conference has breached the conference
agreement; or
(C) compiling statistics of cargo movement; and
(2) may not prevent the conference or its
designee from soliciting or receiving information for any of those purposes.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1540.)
HISTORICAL AND REVISION NOTES
Revised
Section

4l103(a) ......

HISTORICAL AND REVISION NOTES
Revised
Section

Pub. L. 98-237, § 10(d)(1),
Mar. 20, 1984, 98 Stat. 77;
Pub. L. 105-258, title I,
§ 109(c)(2), Oct. 14, 1998, 112
Stat. 1909.

§ 41103. Disclosure of information

Sec.

41101.
41102.
41103.
41104.
41105.
41106.
41107.
41108.
41109.

Source (Statutes at Large)

Source (U.S. Code)

41102(a) ......

46 App. :1709(a)(1).

41102(b) ......

46 App.:1709(a)(2),

Source (Statutes at Large)

Pub. L. 98-237, §10(a), Mar.
20, 1984, 98 Stat. 77.

(3).

A18

Source (U.S. Code)

46 App.:1709(b)(13),
(d)(3) (related to
(b)(13)), (5).

Source (Statutes at Large)

Pub. L. 98-237, §10(b)(13),
(words after cl. (13)), (d)(3)
(related to (b)(13)), (5),
Mar. 20, 1984, 98 Stat. 79,
80; Pub. L. 101-595, title
VII, §710(c)(1), (2), Nov. 16,
1990, 104 Stat. 2997; Pub. L.
105-258, title I, §109(a)(10),
(11), (16), (17), (c)(3), Oct.
14, 1998, 112 Stat. 1910,
1911.

···-·· · ···c·Po_?
TITLE 46---SHIPPING

§41109

quired for a vessel operated by the carrier,
and when so requested, the Secretary shall
refuse or revoke the clearance.
(2) DEFENSE BASED ON FOREIGN LAW.-If, in
defense of its failure to comply with a subpoena or discovery order, a common carrier alleges that information or documents located
in a foreign country cannot be produced because of the laws of that country, the Commission shall immediately notify the Secretary of
State of the failure to comply and of the allegation relating to foreign laws. On receiving
the notification, the Secretary of State shall
promptly consult with the government of the
nation within which the information or documents are alleged to be located for the purpose
of assisting the Commission in obtaining the
information or documents.
(d) IMPAIRING ACCESS TO FOREIGN TRADE.-If
the Commission finds, after notice and opportunity for a hearing, that the action of a common carrier, acting alone or in concert with another person, or a foreign government has unduly impaired access of a vessel documented
under the laws of the United States to ocean
trade between foreign ports, the Commission
shall take action that it finds appropriate, including imposing any of the penalties authorized
by this section. The Commission also may take
any of the actions authorized by sections 42304
and 42305 of this title .
(e) SUBMISSION OF ORDER TO PRESIDENT.-Before an order under this section becomes effective, it shall be submitted immediately to the
President. The President, within 10 days after
receiving it, may disapprove it if the President
finds that disapproval is required for reasons of
national defense or foreign policy.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1543.)
HISTORICAL AND REVISION NOTES
Revised
Section

41108(a) ......

41108(b) ......
41108(c) ......

Source (U.S. Code)

46 App.:1712(b}(1).

Pub. L. 98-237, §13(b), Mar.
20, 1984, 98 Stat. 82; Pub.
L. 101>-258, title I , § 112(b),
Oct . 14, 1998, 112 Stat. 1911.

41108(e) ......

46 App.:1712(b)(7).

HISTORICAL AND REVISION NOTES
Revised
Section

Source (U.S. Code)

41109(a) ......

46 App.:l712(c) (1st,
last sentences).

41109(b) ... .. .

46 App.:1712(c) (2d
sentence).
46 App.:1712(f)(l)
(1st sentence).
46 App.:1712(f)(l)
(last sentence).
46 App.:1712(f)(2).
46 App.:l712(d) .
46 App.:1712(e ).

41109(c) .... ..
41109(d) .... ..

(4), (5).

46 App.:l712(b)(6).
46 App.:1710a(h) (related to
1712(b)(6)).

(b) FACTORS IN DETERMINING AMOUNT.-In determining the amount of a civil penalty, the
Commission shall take into account the nature,
circumstances, extent, and gravity of the violation committed and, with respect to the violator, the degree of culpability, history of prior offenses, ability to pay, and other matters justice
may require.
(c) EXCEPTION.-A civil penalty may not be imposed for conspiracy to violate section 41102(a)
or 41104(1) or (2) of this title or to defraud the
Commission by concealing such a violation.
(d) PROIDBITED BASIS OF PENALTY.-The Commission or a court may not order a person to
pay the difference between the amount billed
and agreed upon in writing with a common carrier or its agent and the amount set forth in a
tariff or service contract by that common carrier for the transportation service provided.
(e) TIME LIMIT.-A proceeding to assess a civil
penalty under this section must be commenced
within 5 years after the date of the violation.
(f) REVIEW OF CIVIL PENALTY.-A person
against whom a civil penalty is assessed under
this section may obtain review under chapter 158
of title 28.
(g) CIVIL ACTIONS To COLLECT.-lf a person
does not pay an assessment of a civil penalty
after it has become final or after the appropriate
court has entered final judgment in favor of the
Commission, the Attorney General at the request of the Commission may seek to collect the
amount assessed in an appropriate district court
of the United States. The court shall enforce the
order of the Commission unless it finds that the
order was not regularly made and duly issued.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1544.)

Source (Statutes at Large)

46 App.:l712(b)(3} .
46 App.:1712(b)(2},

41108(d) ......

Page 240

Pub. L . 100-418, title X,
§ 10002(b)
(related
to
§13(b)(6)), Aug. 23, 1988, 102
Stat. 1572; Pub. L. 10!>-258,
title I , § 111(7), Oct. 14,
1998, 112 Stat. 1911.

41109(e) ... .. .
41109(f) ..... ..
41109(g)

Source (Statutes at Large)

Pub . L. 98-237, §13(c)-(f),
Mar. 20, 1984, 98 Stat. 82;
Pub. L. 10!>-258, title l ,
§112(c), Oct. 14, 1998. 112
Stat. 1912.
·

CHAPTER 413-ENFORCEMENT
Sec.

Complaints.
Investigations.
Discovery and subpoenas.
Hearings and orders.
Award of reparations.
Injunctive relief sought by complainants.
Injunctive r elief sought by the Commission.
Enforcement of subpoenas and orders.
Enforcement of reparation orders.

In subsection (c)(1)(B), the words " Secretary of
Homeland Security" are substituted for "Secretary of
the Treasury" because the functions of the Secretary of
the Treasury relating to the Customs Service were
transferred to the Secretary of Homeland Security by
section 403(1) of the Homeland Security Act of 2002
(Pub. L. 107-296, 116 Stat. 2178).

41301.
41302.
41303.
41304.
41305.
41306.
41307.
41308.
41309.

§ 41109. Assessment of penalties

§ 41301. Complaints

(a) GENERAL AUTHORITY.-Until a matter is referred to the Attorney General, the Federal
Maritime Commission may, after notice and opportunity for a hearing, assess a civil penalty
provided for in this part. The Commission may
compromise, modify, or remit, with or without
conditions, a civil penalty.

(a) IN GENERAL.-A person may file with the
Federal Maritime Commission a sworn complaint alleging a violation of this part, except
section 41307(b)(l). If the complaint is filed within 3 years after the claim accrues, the complainant may seek reparations for an injury to the
complainant caused by the violation.

A19

(b) NOTICE AND RESPONSE.-The Commission
shall provide a copy of the complaint to the person named in the complaint. Within a reasonable time specified by the Commission, the person shall satisfy the complaint or answer it in
writing.
(C) IF COMPLAINT NOT SATISFIED.-If the complaint is not satisfied, the Commission shall investigate the complaint in an appropriate manner and make an appropriate order.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1545.)
HISTORICAL AND REVISION NOTES
Revised
Section

Source (U.S. Code)

41301(a) . .. .. . 46 App. :1710(a), (g)
(related to time
limit).

41301(b) ......
41301(c) ......

§41304

TITLE 46-SHIPPING

Page 241

Source (Statutes at Large)

Pub. L. 98-237, § ll(a), (b), (g)
(related to time limit),
Mar. 20, 1984, 98 Stat. 80;
Pub. L. 98-595, §3(b)(2),
Oct. 30, 1984, 98 Stat. 3132;
Pub. L. 105-258, title I,
§110, Oct. 14, 1998, 112
Stat. 1911.

46 App.:1710(b) (1st
sentence).
46 App.:1710(b) (last
sentence).

In subsection (a), the words "If the complaint is filed
within 3 years after the claim accrues" are substituted
for "For any complaint filed within 3 years after the
cause of action accrued" in 46 App. U.S.C. 1710(g) to
alert the reader to that time limitation.

HISTORICAL AND REVISION NOTES
Revised
Section

41302(a) ..... . 46 App.:1710(c) (1st,
3d sentences).
46 App.:1710(c) (2d
sentence).
11302(c) ..... . 46 App.:l710(d).
41302(d) ······ 46 App.:l710(e).
41302(e) ..... . 46 App.:1710(f).

(a) IN GENERAL.-The Federal Maritime Commission, on complaint or its own motion, may
investigate any conduct or agreement that the
Commission believes may be in violation of this
part. The Commission may by order disapprove,
cancel, or modify any agreement that operates
in violation of this part.
(b) EFFECTIVENESS OF AGREEMENT DURING INVESTIGATION.-Unless an injunction is issued
under section 41306 or 41307 of this title, an
agreement under investigation by the Commission remains in effect until the Commission issues its order.
(c) DATE FOR DECISION.-Within 10 days after
the initiation of a proceeding under this section
or section 41301 of this title, the Commission
shall set a date by which it will issue its final
decision. The Commission by order may extend
the date for good cause.
(d) SANCTIONS FOR DELAY.-If, within the period for final decision under subsection (c), the
Commission determines that it is unable to
issue a final decision because of undue delay
caused by a party to the proceeding, the Commission may impose sanctions, including issuing
a decision adverse to the delaying party.
(e) REPORT.-The Commission shall make a
written report of every investigation under this
part in which a hearing was held, stating its
conclusions, decisions, findings of fact, and
order. The Commission shall provide a copy of
the report to all parties and publish the report
for public information. A published report is
competent evidence in a court of the United
States.
(Pub. L. 109-304, § 7, Oct. 6, 2006, 120 Stat. 1545.)

Source (Statutes at Large)

Pub. L. 911-237, §11(c)-(f),
Mar. 20, 1984, 98 Stat. 80.

41302(b) ······

§ 41303. Discovery and subpoenas

(a) IN GENERAL.-In an investigation or adjudicatory proceeding under this part-(1) the Federal Maritime Commission may
subpoena witnesses and evidence; and
(2) a party may use depositions, written interrogatories, and discovery procedures under
regulations prescribed by the Commission
that, to the extent practicable, shall conform
to the Federal Rules of Civil Procedure (28
App. U.S.C.).
(b) WITNESS FEES.-Unless otherwise prohibited by law, a witness is entitled to the same
fees and mileage as in the courts of the United
States.
(Pub. L. 109-304, §7, Oct. 6, 2006, 120 Stat. 1545.)
HISTORICAL AND REVISION NOTES
Revised
Section

41303 ... . . . . ...

§ 41302. Investigations

Source (U.S. Code)

Source (U.S. Code)

46 App. :1711.

Source (Statutes at Large)

Pub. L. 98-237, §12, Mar. 20,
1984, 98 Stat. 81.

In subsection (a)(l), the words "may subpoena witnesses and evidence" are substituted for "may by subpena compel the attendance of witnesses and the production of books, papers, documents, and other evidence" to eliminate unnecessary words.
In subsection (a)(2), the words "shall conform to the
Federal Rules of Civil Procedure (28 App. U.S.C.)" are
substituted for "shall be in conformity with the rules
applicable in civil proceedings in the district courts of
the United States" for clarity.
§ 41304. Hearings and orders

(a) OPPORTUNITY FOR HEARING.-The Federal
Maritime Commission shall provide an opportunity for a hearing before issuing an order relating to a violation of this part or a regulation
prescribed under this part.
(b) MODIFICATION OF 0RDER.-The Commission
may reverse, suspend, or modify any of its orders.
(c) REHEARING.-On application of a party to a
proceeding, the Commission may grant a rehearing of the same or any matter determined in the
proceeding. Except by order of the Commission,
a rehearing does not operate as a stay of an
order.
(d) PERIOD OF EFFECTIVENESS.-An order of the
Commission remains in effect for the period
specified in the order or until suspended, modified, or set aside by the Commission or a court
of competent jurisdiction.
(Pub. L . 109-304, §7, Oct. 6, 2006, 120 Stat. 1546.)
HISTORICAL AND REVISION NOTES
Revised
Section

41304(a) ......

A20

Source (U.S. Code)

46 App.:l713(a) (1st
sentence).

Source (Statutes at Large)

Pub. L. 911-237, § 14(a), (b),
Mar. 20, 1984, 98 Stat. 83.

GENERAL PROVISIONS

§ 1-200

§ 1-200

. ofd utles
. ass1gne
. d t o po litic
. al subdiVISion.
. .
section
1-213. De1egation
1-214. Effective dates.
1-215. Ex officio.
1-216. Gender.
1-217. Headlines of sections.
1-218. Includes.
1-219. Land; real estate.
1-219.1. Limitations on eminent domain.
1-220. Local ordinances incorporating state law by reference.
1-221. Locality.
·
·
1-222. Majority authority.
1-222.1. Manufacturer.
1-223. Month; year.
1-224. Municipality; incorporated communities; municipal corporation.
1-225. Nonlegislative citizen member.
1-226. Notary.
1-227. Number.
1-228. Oath.
1-229. Optional form of county government; effect of change in form.
1-230. Person.
1-231. When "person" includes business trust and limited liability company.
1-232. Person under disability.
1-233. Personal estate.
1-234. Personal representative.
1-235. Population; inhabitants.
1-236. Population classifications.
1-237. Process.
1-238. Reenacted.
1-239. Repeal not to affect liabilities; mitigation of punishment.
1-240. Repeal not to revive former act.
1-240.1. Rights of parents.
1-241. Seal.
1-242. Senate Committee on Privileges and Elections.
1-243. Severability.
1-244. Short title citations.
1-245. State.
1-246. Stricken language or italics.
1-247. Summaries oflegislation.
1-248. Supremacy offederal and sta~e law.
1-249. Supreme Court.
1-250. Swear; sworn.
1-251. Systems of state highways.
1-252. Tier-city.
1-253. Time zone.
1-254. Town.
1-255. United States.
1-256. Weights and measurements; metric equivalents.
1-257. Written; writing; in writing.

ARTICLE 1.
COMMON LAW AND ACTS OF PARLIAMENT.
§ 1-200. The common law.

The common law of England, insofar as it is not repugnant to the principles
of the Bill of Rights and Constitution <if this Commonwealth, shall continue in
full force within the same, and be the rule of decision, except as altered by the
General Assembly.
7

A21

b2

§ 8.01-243

of
;le
ng
.e s

that the limitation may be extended by recordation of a certificate within the
twenty-year period in the manner set forth in § 8.01-241. No credit line deed
of trust described in§ 55-58.2 in which no date is fixed for the maturity of the ·
debt secured thereby shall be enforced after forty years from the date of the
credit line deed of trust; provided that the period of one year from the death of
any party in interest shall be excluded from the computation of tit;ne.

tal
Ly-

he
gh
.1-

.185

CIVIL REMEDIES AND PROCEDURE

Iiistory.
· Code 1950, § 8-12; 1977, c. 617; 1994, c. 547;
1999, c. 788.
Law Review.
For survey article on judicial decisions in real

of

V"e
11e

tis

§ 8.01-243

estate law from June 1, 2002 through June 1,
2003, see 38 U . Rich. L. Rev. 223 (2003) .
Michie's Jurisprudence.
For related discussion, see 13A M.J. Mortgages and Deeds of Trust, § 166.

CASE NOTES
Junior lienor was a party in interest. Junior lienor, who was the mortgagor of the
property which was the subject of the foreclo.sure and the holder of a second deed of trust
:which secured his note, was a necessary party,
aS well as a party in interest to foreclosure suit
for the purposes of this section; therefore, his
d~th extended the statute of limitations by one
year, as provided in this section. Allen v. Chapn:iiin, 242 Va. 94, 406 S.E.2d 186 (1991).
Federal agency's immunity did not apply to private trustee. - Although § 8.01242 could not bar a federal agency, such as the
United States Smail Business Administration,
from initiating foreclosure proceedings on real
property, a private _entity (a trustee) to which

the Administration assigned a deed of trust did
not, merely by virtue of that assignment, enjoy
the same immunity from the statute of limitation. Long, Long & Kellerman, P.C. v. Wheeler,
264 Va. 531, 570 S.E.2d 822, 2002 Va. LEXIS
152 (2002).
.
Foreclosure action was time-barred. Where a deed of trust contained no maturity
date, the 20-year statute oflimitation set forth
in § 8.01-242 applied and barred a trustee's
action to foreClose on the deed of trust where
the foreclosure action was initiated more than
20 years after the date of the deed of trust.
Long, Long & Kellerman, P.C. v. Wheeler, 264
Va. 531, 570 S.E.2d 822, 2002 Va. LEXIS 152
(2002).

ARTICLE 3.
PERSONAL ACTIONS GENERALLY.
§ 8.01-243. Personal action for injury to person or property generally;

extension in actions for malpractice against health care
provider.

of
er
to
ile

be
ot
ill
er

A. Unless otherwise provided in this section or by other statute, every action
for· personal injuries, whatever the theory of recovery, and every action for
dW;nages resulting from fraud, shall be brought within two years after the
cause of action accrues.
B. Every action for injury to property, including actions by a parent or
guardian of an infant against a tort-feasor for expenses of curing or attempting
to sure such infant from the result of a personal injury or loss of services of
sllch infant, shall be brought within five years after the cause of action accrues.
An infant's claim for medical expenses pursuant to subsection B of§ 8.01-36
accruing on or after July 1, 2013, shall be governed by the applicable statute
of limitations that applies tO the infant's cause of action.
·
Q. The two-year limitations period specified in subsection A shall be
extended in actions for malpractice against a health care provider as follows:
1. In cases arising out of a foreign object having no therapeutic or diagnostic
effect being left in a patient's body, for a period of one year from the date the
object is discovered or reasonably should have been discovered;
453

A22

Montagna Klein Camden L.L.P.
Counselors at law

Charles S. Montagna

March 11, 2019

Jolm H. Klein
Gregory E. Camden
Lance A. Jackson
Jon J. Montagna*
Anthony L. Montagna, lli

*Also licensed in
Washington, D.C.
and New Jersey

VIA HAND DELIVERY
The Honorable George E. Schaefer, III, Clerk
Norfolk Circuit Court-Civil Division
7th Floor
150 St. Paul's Boulevard
Re:

Stephen K. Walton, Sr. v. Virginia International Terminals, LLC,
Ceres Marine Terminals, Inc., and CP&O, LLC
Norfolk Circuit Court, Case No.

Dear Mr. Schaefer:
Enclosed is an original Complaint, civil action cover sheet, and a check in the
amount of $354.00 to cover the cost of filing. Please file the Complaint. Jury trial is
demanded. I expect this case will take three (3) days to try. Please have this case
assigned to a judge.

425 Monticello Avenue

Also enclosed is a copy of the Complaint. Please prepare a summons for the
defendant named below for service of process at the following address:

Norfolk, VA23510

Norfolk:

Virginia International Terminals, LLC
c/o Sarah Jayne McCoy, Esq., registered agent
600 World Trade Center
Norfolk, VA 2351 Q

757.622.8100
Virginia Beach:
757.499.7800

I AM HAVING PROCESS SERVED THROUGH THE MARSTON
AGENCY.

Peninsula:
757.380.8100
Toll Free:

Please call me if you have any questions. My direct no. is 757-739-4227.
Thanking you for your help in this matter, I am

877.622.8100

~un,

Fax:
757.622.8180

:Cance A. Jackson
Enclosures
cc:
Stephen K. Walton, Sr. (via first class mail)(w/encl.)
Donita Malloy, Marston Agency (via email dmalloy@mai-va.com)(w/out encl.)

A23

COVER SHEET FOR FILING CML ACTIONS

Case No . ............................................................................ .

COMMONWEALTH OF VllWINIA

(CLERK'S OFFICE USE ONLY)

..................................................................................................... .N~.if.~~¥............................... ;...................................................................... Circuit Court
......................................... ~.~~P.~~~-~·..~~~~.?.~:..~.~:......... ................................ v.lln re: .................... .Y~.rg.i~~.~~.e.~~Y?.n..~!.T..C.:.~~~~~,. ~~-g! .................... .
PLAINTIFF(S)

DEFENDANI'(S)

...............................................................................................................................

.. .......... f.e.~~..M~rt~e..I~~~~.I:l:!~~- ~-~. .!.~~~..9~.~9.~.~~g........... ..

I, the undersigned [ ] plaintiff [ ] defendant [X] attorney for [X] plaintiff [ ] defendant hereby notify the Clerk of Court that I am filing
the following civil action. (Please indicate by checking box that most closely identifies the claim being asserted or relief sought.)
ADMINISTRATIVE LAW

GENERAL CIVIL
Subsequent Actions
[ ] Claim Impleading Third Party Defendant
[ ] Monetary Damages
[ ] No Monetary Damages
[ ] Counterclaim
[ ] Monetary Damages
[ ] No Monetary Damages
[ ] Cross Claim
[ ] Interpleader
[ ] Reinstatement (other than divorce or
driving privileges)
[ ] Removal of Case to Federal Court
Business & Contract
[ ] Attachment
[ ] Confessed Judgment
[ ] Contract Action
[ ] Contract Specific Performance
[ ] Detinue
[ ] Garnishment
Property
[ ] Annexation
[ ] Condemnation
[ ] Ejectment
[ ] Encumber/Sell Real Estate
[ ] Enforce Vendor's Lien
[ ] Escheatment
[ ] Establish Boundaries
[ ] Landlord/Tenant
[ ] Unlawful Detainer
[ ] Mechanics Lien
[ ] Partition
[ ] Quiet Title
[ ] Termination of Mineral Rights
Tort
[ ] Asbestos Litigation
[ ] Compromise Settlement
[ ] Intentional Tort
[ ] Medical Malpractice
[ ] Motor Vehicle Tort
[ ] Product Liability
[ ] Wrongful Death
[X] Other General Tort Liability

[ ] Accounting
[ ] Aid and Guidance
[ ] Appointment (select one)
[ ] Guardian/Conservator
[ ] Standby Guardian/Conservator
[ ] Custodian/Successor Custodian (UTMA)
[ ) Trust (select one)
[ ] Impress/Declare/Create
[ ] Reformation
[ ] Will (select one)
[ ] Construe
[ ] Contested

MISCELLANEOUS
DOMESTIC/FAMILY
[ ] Adoption
[ ] Adoption - Foreign
[ ] Adult Protection
[ ] Annulment
[ ] Annulment - Counterclaim/Responsive
Pleading
[ ] Child Abuse and Neglect- Unfounded
Complaint
[ ] Civil Contempt
[ ] Divorce (select one)
[ ] Complaint- Contested*
[ ] Complaint- Uncontested*
[ ] Counterclaim/Responsive Pleading
[ ] Reinstatement CustodyN isitation!Support!Equitable
Distribution
[ ] Separate Maintenance
[ ] Separate Maintenance Counterclaim

WRITS
[
[
[
[
[

]
)
]
]
]

Certiorari
Habeas Corpus
Mandamus
Prohibition
Quo Warranto

~~9g9.~99.9:9.9.................................... : e claf d )

[X] Damages in the amount of$ ..

W!~V~O.!~

PROBATE/WILLS AND TRUSTS

[ ] Appeal!Judicial Review of Decision of
(select one)
[]ABC Board
[ ] Board of Zoning
[ ] Compensation Board
[ ] DMV License Suspension
[ ] Employee Grievance Decision
[ ] Employment Commission
[ ] Local Government
[ ] Marine Resources Commission
[ ] School Board
[ ] Voter Registration
[ ] Other Administrative Appeal

mm

[ ] Amend Death Certificate
[ ] Appointment (select one)
[ ] Church Trustee
[ ] Conservator of Peace
[ ] Marriage Celebrant
[ ] Approval of Transfer of Structured
Settlement
[ ] Bond Forfeiture Appeal
[ ] Declaratory Judgment
[ ] Declare Death
[ ] Driving Privileges (select one)
[ ] Reinstatement pursuant to§ 46.2-427
[ ] Restoration - Habitual Offender or 3nl
Offense
[ ] Expungement
[ ] Firearms Rights - Restoration
[ ] Forfeiture of Property or Money
[ ] Freedom of Information
[ ] Injunction
[ ] Interdiction
[ ] Interrogatory
[ ] Judgment Lien-Bill to Enforce
[ ] Law Enforcement/Public Official Petition
[ ] Name Change
[ ] Referendum Elections
[ ] Sever Order
[ ] Taxes (select one)
[ ] Correct Erroneous State/Local
[ ] Delinquent
[ ] Vehicle Confiscation
[ ] Voting Rights - Restoration
[ ]

~-~~~-~~=~~.~~~~~~~

'"~- ~

..........

...........~~~~.A:.!.~~~~~!?:l.M.Q~~Q~A.~EQi.gAMP.E~~..~. .~:~:......... ..
PRINT NAME

...........................4~.?. . M.QI1:~!.1?.c::.H9..!.\Y.~P.-.~~~--N9.if.9~~~- .YA.~}?.J9...........................
ADDRESS!rELEPHONE NUMBER OF SIGNATOR

.........................................................7.?..?.~.~~:?:~.~~ .9.9....................................................... .
..........................................u~~~.9.~®~9.r...~~SP.~.~~:.~.9.!P.: ........................................ .
EMAIL ADDRESS OF SIGNATOR (OPTIONAL)

FORM CC-1416 (MASTER) PAGE ONE 07/ 16

A24

*"Contested" divorce means any of the following matters are in
dispute: grounds of divorce, spousal support and maintenance,
child custody and/or visitation, child support, property distribution
or debt allocation. An "Uncontested" divorce is filed on no fault
grounds and none of the above issues are in dispute.

VIRGINIA: IN THE CIRCUIT COURT OF THE CITY OF NORFOLK
STEPHENK. WALTON, SR.,
Plaintiff,

v.

Case No.
PLAINTIFF DEMANDS TRIAL BY JURY

VIRGINIA INTERNATIONAL
TERMINALS, LLC,
Serve: Virginia International Terminals, LLC
c/o Sarah Jayne McCoy, Esq., registered agent
Virginia Port Authority
600 World Trade Center
Norfolk, VA 23510

CERES MARINE TERMINALS, INC.,
and
CP&O, LLC,
Defendants.

COMPLAINT
The plaintiff, Stephen K. Walton, Sr., by counsel, for his Complaint against the
defendants Virginia International Terminals, LLC, Ceres Marine Terminals, Inc., and CP&O,
LLC, states as follows:
1.

This is an action by a longshoreman for personal injuries that occurred at a marine

terminal in the City ofNorfolk, Virginia, on or about March 15, 2017, and is being brought
pursuant to the laws of the Commonwealth ofVirginia and Section 933 of the Longshore and
Harbor Workers' Compensation Act, 33 U.S.C. § 901 et seq.

1

A25

2.

Venue for this action lies in the Circuit Court of the City of Norfolk, pursuant

to Virginia Code §8.01-262, because the cause of action herein arose within the City of
Norfolk.
3.

The plaintiff Stephen K. Walton, Sr., is a citizen of the United States of America

who is domiciled in the Commonwealth of Virginia, in the City of Portsmouth.
4.

The defendant Virginia International Terminals, LLC, (hereinafter referred to as

"VIT") is a Virginia limited liability company, which converted from being the corporation
known as Virginia International Terminals, Inc., to a limited liability company, on or about
August 17,2013.
5.

The defendant Ceres Marine Terminals, Inc., (hereinafter referred to as "Ceres")

is a corporation formed pursuant to the laws of the State of Maryland, and it maintains its
principal place ofbusiness in the State ofNew Jersey.
6.

The defendant CP&O, LLC, (hereinafter referred to as "CP&O") is a Virginia

limited liability company which was formed in October, 2004.
7.

Norfolk International Terminals is a marine terminal located within the City of

Norfolk, on the Elizabeth River and the Lafayette River, both of which are navigable waters
of the United States. Hereinafter, this marine terminal will be referred to as ''the terminal" and/or
"NIT."
8.

At all times pertinent herein, including March 15, 2017, the defendant VIT owned

and/or leased and/or occupied and/or maintained the premises at the NIT terminal, including a
maintenance and repair facility, an adjacent area used for the temporary storage of refrigerated
cargo containers known as "reefers," and a walkway or roadway that runs between the
maintenance and repair facility and the container storage area.

2

A26

9.

At all times pertinent herein, including March 15, 2017, the plaintiff Stephen K.

Walton, Sr., was a longshoreman working as a reefer mechanic and container repair mechanic at
the NIT marine terminal, and he was employed by Marine Repair Services, Inc.
10.

The plaintiff Stephen K. Walton, Sr., was not an employee of the defendant VIT,

on March 15, 2017, nor was he an employee ofVIT at any other time pertinent herein.
11.

The plaintiff Stephen K. Walton, Sr., was not an employee of the defendant Ceres

on March 15, 2017, nor was he an employee of Ceres at any other time pertinent herein.
12.

The plaintiff Stephen K. Walton, Sr., was not an employee of the defendant

CP&O on March 15, 2017, nor was he an employee ofCP&O at any other time pertinent herein.
13.

At all times pertinent herein, including March 15, 2017, the marine terminal at

NIT was not open to members of the general public.
14.

At all times pertinent herein, including March 15, 2017, the defendant VIT, in

cooperation with the Virginia Port Authority, controlled who entered the premises ofNIT.
15.

At all times pertinent herein, including March 15, 2017, there was an agreement

in place between the defendant VIT and the plaintiffs employer Marine Repair Services, under
which employees of Marine Repair Services were authorized to perform work on cargo
containers at NIT, including checking the condition of reefers temporarily stored at NIT and
unplugging reefers so that they can be loaded onto cargo vessels calling at the terminal.
16.

At all times pertinent herein, including March 15, 2017, the plaintiff Stephen K.

Walton, Sr., was a business invitee of the defendant VIT on the aforesaid premises at NIT,
including the aforesaid container storage area and the walkway or roadway running between the
container storage area and VIT's maintenance and repair facility.

3

A27

17.

At all times pertinent herein, including March 15, 2017, electrical boxes were

installed at intervals along the afo.resaid walkway or roadway, close to or adjacent to VIT's
maintenance and repair facility. The electrical boxes were used to supply power to refrigerated
cargo containers which were in the aforesaid container storage area.
18.

At all times pertinent herein, including March 15, 2017, business invitees of the

defendant VIT, including employees of Marine Repair Services, regularly visited the aforesaid
container storage area and the aforesaid walkway or roadway at NIT to perform their work on
the premises, at all hours of the day and night; and the defendant VIT, through its agents and
employees, knew, or in the exercise of reasonable care should have known, this fact.
19.

At all times pertinent herein, including March 15, 2017, container repair

mechanics, including employees of Marine Repair Services, regularly visited the aforesaid
container storage area and the aforesaid walkway or roadway to check on the condition of reefer
units, and to unplug reefer units so that they could be moved, at all hours of the day and night;
and the defendant VIT, through its agents and employees, knew or in the exercise of reasonable
care should have known, this fact.
20.

On information and belief, at all times pertinent herein, including March 15, 2017,

the defendant VIT, through its agents and employees, maintained exclusive control over its
maintenance and repair facility at NIT, including control over how and where forklifts and other
equipment were parked and/or stored at the facility.
21.

On information and belief, at all times pertinent herein, including March 15, 2017,

the defendant VIT, through its agents and employees, controlled the location of and maintained
the artificial lighting on its premises at NIT, including the lighting for the container storage area
and the adjacent walkway or roadway.

4

A28

22.

On or about March 15, 2017, during the nighttime, the plaintiff Stephen K.

Walton, Sr., was performing his work-related duties at the aforesaid container storage area and
the aforesaid walkway or roadway at NIT.
23.

The area which the plaintiff was using was a walkway that was regularIy used by

employees of Marine Repair Services, Inc., and others, and it was an area that the defendant VIT
knew and expected, or in the exercise of reasonable care under the circumstances, should have
known and expected that its invitees would use while performing their work on the premises at
night.
24.

At the aforesaid time and place, the plaintiff Stephen K. Walton, Sr., was

unplugging reefer units so that they could be moved from the container storage area and loaded
onto a cargo ship calling at the terminal.
25.

As the plaintiff Stephen K. Walton, Sr., was performing his work, he was walking

along the aforesaid walkway or roadway when he tripped over the blade of a forklift projecting
out into the walkway, causing him to fall and be injured.
26.

At the aforesaid time and place, the blade of the forklift over which the plaintiff

tripped and fell was obscured by a shadow or shadows caused by cargo containers blocking the
artificial light in the area and/or by the otherwise poor lighting conditions present in the area,
such that the lighting was insufficient to illuminate the trip-and-fall hazard.
27.

On March 15, 2017, and for months or years beforehand, the defendant VIT,

through its agents and employees, knew or in the exercise of reasonable care should have known,
that the lighting in the aforesaid walkway or roadway was poor and unsafe for persons doing
their work on the premises.

5

A29

28.

At the aforesaid time and place, the blade of the forklift over which the plaintiff

tripped and fell was not open and obvious.
29.

Before the aforesaid incident in which the plaintiff was injured, the defendant

VIT, through its agents and employees, and/or the defendant Ceres, through its agents and
employees, and/or the defendant CP&O, through its agents and employees, placed the forklift in
its dangerous position, with the blades of the forklift projecting into the aforesaid walkway.
30.

Before the aforesaid incident in which the plaintiff was injured, the defendant

VIT, through its agents and employees, and/or the defendant Ceres, through its agents and
employees, and/or the defendant CP&O, through its agents and employees, knew or in the
exercise of reasonable care under the circumstances should have known, that the forklift had
been placed in a position so as to make it a trip-and-fall hazard to persons using the walkway at
night.
31.

The aforesaid injury which the plaintiff Stephen K. Walton, Sr., suffered on or

about March 15, 201 7, was an injury for which there was jurisdiction under the Longshore and
Harbor Workers' Compensation Act, '33 U.S.C. § 901 et seq., so that, pursuant to Virginia Code
§ 65.2-101, the plaintiff was not an "employee" within the purview of the Virginia Workers'

Compensation Act, Virginia Code§ 65.2-101 et seq., and the Virginia Workers' Compensation
Act does not apply to his injury herein.
32.

At all times relevant herein, including March 15, 2017, the defendant VIT had a

duty to exercise reasonable care for the safety of its invitees, including the plaintiff, ~ith respect
to the premises at NIT, including the duties of prevision, preparation, and lookout.
33.

At all times relevant herein, including March 15, 2017, the defendant Ceres had a

duty to exercise reasonable qare to avoid causing injury to others who were lawfully on the NIT
I

6

A30

premises, including the plaintiff.
34.

At all times relevant herein, including March 15, 2017, the defendant CP&O had

a duty to exercise reasonable care to avoid causing injury to others who were lawfully on the
NIT premises, including the plaintiff.
35.

Notwithstanding the foregoing, the defendant VIT, through its agents and

employees, and/or the defendant Ceres, through its agents and employees, and/or the defendant
CP&O, through its agents and employees, breached its/their duty to the plaintiff by its/their
affirmative conduct in placing or storing a forklift on the NIT premises with its blades sticking
out into the walkway next to the container storage area, creating a trip-and-fall hazard.
36.

Notwithstanding the foregoing and furthermore, the defendant VIT, through its

agents and employees, negligently breached its aforesaid duties in that it negligently maintained
its premises; negligently failed to supply sufficient lighting for its invitees to work at night;
negligently failed to keep its premises free of the aforesaid trip-and-fall hazard in an area where
its invitees could be expected to walk; and/or negligently failed to warn the plaintiff of the
aforesaid trip-and-fall hazard; and/or negligently failed to rope off, barricade, or otherwise bar
entry to the area where it was unsafe to walk; and/or in other particulars to be supplied at trial.
37.

As a direct and proximate result of the negligence of the defendant VIT and the

negligence of its employees and/or agents, and/or as a direct and proximate result ofthe
negligence of the defendant Ceres and the negligence of its employees and/or agents, and/or as a
direct and proximate result of the negligence of the defendant CP &0 and the negligence of its
employees and/or agents, the plaintiff Stephen K. Walton, Sr., suffered physical injuries to his
neck and other parts of his body; has undergone and continues to undergo physical pain, mental
anguish, and inconvenience; has been unable to work at his occupation; has lost income; has lost

7

A31

all or part of his capacity to earn income; and has incurred and continues to incur substantial
medical expenses for the care and treatment of his injuries.
WHEREFORE the plaintiff Stephen K. Walton, Sr., by counsel, asks for entry of a
judgment and award in his favor against the defendants Virginia International Terminals, LLC,
Ceres Marine Terminals, Inc., and CP&O, LLC,jointly and severally, in the amount ofFIVE
MILLION DOLLARS ($5,000,000.00), plus prejudgment interest, post judgment interest, and
legal costs incurred.
THE PLAINTIFF DEMANDS TRIAL BY JURY ON ALL ISSUES SO TRIABLE.
STEPHENK. WALTON, SR.

Lance A. Jackson, Esq. (VSB No. 26035)
Counsel for Stephen K. Walton, Sr.
MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello Avenue
Norfolk, VA 23510
Ph: (757) 622-8100
Fax: (757) 622-8180
ljackson@montagnalaw .com

8

A32

VIRGINIA: IN THE CIRCUIT COURT OF THE CITY OF NORFOLK
STEPHENK. WALTON, SR.,
Plaintiff,
Case No. CL19-2417
THE PLAINTIFF DEMANDS TRIAL BY
JURY

v.

VIRGINIA INTERNATIONAL TERMINALS, LLC,
Serve: Virginia International Terminals, LLC
c/o Sarah Jayne McCoy, Esq., registered agent
Virginia Port Authority
600 World Trade Center
Norfolk, VA 23510
CERES MARINE TERMINALS, INC.,
and
CP&O, LLC,
Defendants.
AMENDED COMPLAINT

The plaintiff, Stephen K. Walton, Sr., by counsel, for his Amended Complaint against the
defendants Virginia International Terminals, LLC, Ceres Marine Terminals, Inc., and CP&O,
LLC, states as follows:
1.

This is an action by a longshoreman for personal injuries that occurred at a marine

terminal in the City ofNorfolk, Virginia, on or about March 15, 2017, and is being brought
pursuant to the laws of the Commonwealth ofVirginia and Section 933 ofthe Longshore and
Harbor Workers' Compensation Act, 33 U.S.C. § 901, et seq.
2.

Venue for this action lies in the Circuit Court of the City ofNorfolk, pursuant to

Virginia Code §8.01-262, because the cause of action arose within the City ofNorfolk.

1

A33

3.

The plaintiff Steven K. Walton, Sr., is a citizen of the United States of America

who is domiciled in the Commonwealth ofVirginia, in the City of Portsmouth.
4.

At all times pertinent herein, including March 15, 2017, the plaintiff Steven K.

Walton, Sr., was employed as a longshoreman, by Marine Repair Services, Inc. (hereinafter
referred to as "MRS"), performing work as a reefer mechanic and container repair mechanic.
5.

The defendant Virginia International Terminals, LLC (hereinafter referred to as

"VIT") is a Virginia limited liability company, which converted from being the corporation
known as Virginia International Terminals, Inc., to a limited liability company, on or about
August 17, 2013.
6.

The defendant Ceres Marine Terminals, Inc. (hereinafter referred to as "Ceres") is

a corporation formed pursuant to the laws ofthe State of Maryland, and it maintains its principal
place ofbusiness in the State ofNew Jersey.
7.

The defendant CP&O, LLC (hereinafter referred to as "CP&O") is a Virginia

limited liability company which was formed in October 2004.
8.

Norfolk International Terminals is a marine terminal located within the City of

Norfolk, on the Elizabeth River and the Lafayette River, both of which are navigable waters of
the United States. Hereinafter, this marine terminal will be referred to as "the terminal" and/or

''NIT."
9.

At all times pertinent herein, including March 15, 2017, the defendant VIT

operated, managed, occupied, and/or maintained the NIT premises.
10.

At all times pertinent herein, including March 15, 2017, the defendant VIT was in

the business of facilitating the transfer of cargo at the NIT terminal, including containerized
cargo, between sea-based modes of cargo transportation, including cargo ships and barges, and

2

A34

land-based modes of cargo transportation, including railroad and over-the-road trucks.
11.

At all times pertinent herein, a significant portion of the containerized cargo

which was transferred through the NIT terminal was refrigerated. The refrigerated cargo was
stowed in refrigerated containers known as "reefers."
12.

Reefers require an electrical power source in order to keep the cargo stowed

therein refrigerated. Reefers stowed aboard a cargo ship receive their electrical power from the
ship, transmitted through power cords. Reefers temporarily stored at a terminal, such as NIT,
receive their electrical power from the terminal transmitted through high-voltage power cords
connected to electrical boxes. Reefers which are not attached to a fixed source of electrical
power such as a ship or a terminal are powered by a generator installed onto the reefer container.
Such generators are referred to as "gen-sets."
13.

At all times pertinent herein, including March 15, 2017, cargo ships regularly

called at the NIT terminal, where they underwent loading and unloading of containerized cargo,
including reefers. Containerized cargo, including reefers, that was loaded onto these cargo
ships was regularly transported into the NIT terminal by rail and/or by over-the-road trucks.
Containerized cargo, including reefers, that was discharged from these cargo ships at the NIT
terminal was regularly transported out of the NIT terminal by rail and/or by over-the-road trucks.
On a regular basis, containerized cargo which was not immediately transferred from one mode of
transportation to another at the terminal was stored temporarily at the NIT terminal.
14.

At all times pertinent herein, including March 15, 2017, several business entities

operated at NIT on a daily basis, performing various jobs necessary and beneficial to the
defendant VIT's business at NIT. These entities included defendant VIT, the plaintiffs employer
MRS, and defendants Ceres and CP&O. The defendant VIT was the marine terminal operator.

3

A35

MRS performed maintenance and repair of cargo containers. The defendants Ceres and CP &0
performed stevedoring work. The work of each of these entities is more fully described below.
15.

At all times pertinent herein, including March 15, 2017, the defendant VIT,

through its employees, performed many but not all services necessary for NIT to function as a
marine terminal, including but not limited to the following: VIT employees worked as
linehandlers to facilitate mooring and unmooring of cargo vessels calling at the terminal. VIT
employees maintained the berths at the terminal where the cargo ships called. VIT employees
operated and maintained the cranes at the terminal docks used to load and unload containerized
cargo, including reefers, to and from cargo ships calling at the terminal. VIT owned and, through
its employees, maintained straddle carriers, which are vehicles used to transport cargo containers
from container storage places to points ofloading or unloading within the terminal. VIT,
through its employees, controlled rail operations within the NIT terminal, including
transportation of cargo containers, dry and refrigerated, in and out of the terminal. VIT
employees, kept track of all cargo entering and leaving the NIT terminal. VIT, in cooperation
with the Virginia Port Authority, controlled who entered the premises at NIT. VIT determined
whether other business entities, including the plaintiffs employer MRS, would perform their
work on the NIT premises. VIT, through its employees, maintained a cargo container storage
yard at NIT, where reefers were temporarily kept before they were transported out of the
terminal by rail, truck, or ship. VIT, through its employees, operated a maintenance and repair
facility at NIT, near the cargo container storage yard. VIT, through its employees, controlled and
maintained the entire NIT terminal premises.
16.

At all times pertinent herein, including March 15, 2017, the defendant VIT did

not, through its employees, perform some of the work at the NIT terminal which was

4

A36

necessary and beneficial to VIT's business at the terminal. This work included stevedoring
operations, and the maintenance and repair of cargo containers.
17.

The aforementioned stevedoring operations at NIT, including the loading and

discharging of containerized cargo onto and off ships calling at the terminal, and the
transportation of such cargo, including reefers, between temporary storage facilities on the
terminal and the docks, were performed by defendants CP &0 and Ceres.
18.

All of the aforementioned container maintenance and repair work at NIT which

the plaintiff's employer MRS performed, was necessary and beneficial to both MRS and to
defendant VIT, as the operator of the marine terminal. This work, which MRS performed at NIT
through its employees, is more particularly described as follows: At all times pertinent herein,
including March 15, 2017, MRS employees boarded cargo ships calling at the NIT terminal,
where they connected loaded reefers to the ships' power sources, disconnected reefers about to
be unloaded from the ships' power sources, and performed container repairs. MRS employees
repaired damaged cargo containers at the NIT terminal to facilitate their transfer out of the
terminal. MRS employees mounted generator sets ("gen-sets") onto reefer containers and
dismounted gen-sets from reefer containers as needed. MRS employees monitored the
refrigeration temperature of reefer containers kept at the NIT terminal. MRS employees
connected reefer containers being stored at defendant VIT's container storage facility at NIT,
more particularly described below as "reefer row," to power boxes at the facility. MRS
employees disconnected reefer containers stored at "reefer row" to prepare the reefers for
transportation away from NIT by cargo ship, rail, or over-the-road trucks.
19.

At all times pertinent herein, including March 15, 2017, the defendant VIT

controlled the entry of all visitors, including the plaintiff Stephen K. Walton, Sr., onto the NIT

5

A37

premises. The perimeters of NIT were fenced and gated. VIT opened its NIT premises only to
entities having business to perform on its premises, including the plaintiffs employer MRS and
its employees, and defendants Ceres and CP&O.
20.

At all times pertinent herein, including March 15, 2017, the defendant VIT

occupied and/or controlled and/or maintained a yard in the northern part of NIT premises for the
temporary storage of reefers. This area is referred to herein as "reefer row."
21.

The aforementioned reefer row was located to the north and east of a large

retention pond on the NIT premises, to the west of a straddle carrier repair shop at NIT, and next
to and north of an area that the defendant VIT reserved for its own use as a maintenance and
repatr area.
22.

The aforementioned reefer row was not located at 4th Street and Railroad Avenue

at NIT, nor was reefer row on 6th Street at NIT.
23.

At all times pertinent herein, including March 15, 2017, the aforementioned

reefer row consisted of several parallel rows, including the N6, N5, and N4 rows. Reefers were
temporarily stored in each of these rows. The N4 row was on the southern side of reefer row.
24.

At all times pertinent herein, including March 15, 2017, the defendant VIT

occupied, controlled, and maintained a maintenance and repair facility adjacent to the N4 row of
the aforementioned "reefer row" area at NIT. This facility will be referred to herein as the "VIT
maintenance facility."
25.

At all times pertinent herein, including March 15, 2017, the defendant VIT stored

its equipment, including its forklifts, at the VIT maintenance facility adjacent to reefer row. The
defendant VIT used this facility solely for its equipment. The defendant VIT did not permit other
entities to park or store their equipment at the facility.

6

A38

26.

At all times pertinent herein, including March 15, 2017, VIT owned forklifts

which were used at NIT. Older VIT -owned forklifts were orange. Newer VIT-owned forklifts
were blue.
27.

At all times pertinent herein, including March 15, 2017, VIT-owned forklifts at

NIT were used by three entities: VIT, Ceres, and CP&O. Defendants Ceres and CP&O leased
VIT-owned forklifts. The defendant VIT marked its ownership of each such forklift with a VIT
sticker.
28.

Upon information and belief, at all times pertinent herein, including March 15,

2017, the defendant VIT did not lease its forklifts at NIT to any entities other than Ceres and
CP&O.
29.

At all times pertinent herein, including March 15, 2017, neither Ceres nor CP&O

performed any work in reefer row with forklifts.
30.

At all times pertinent herein, including March 15, 2017, the defendant VIT

maintained exclusive control over the VIT maintenance facility, including control over how and
where forklifts and other equipment were parked and/or stored at the VIT maintenance facility.
The defendant VIT prohibited non-VIT employees from driving any equipment, including
forklifts, onto the VIT maintenance facility. Only VIT employees drove equipment, including
forklifts, onto the VIT maintenance facility.
31.

At all times pertinent herein, including March 15, 2017, the defendant VIT

occupied and/or controlled and/or maintained a walkway that ran along the south side of the N4
row of reefer row and adjacent to the VIT maintenance facility. This walkway will be referred to
as the ''walkway."

7

A39

32.

At all times pertinent herein, including March 15, 2017, the defendant VIT

opened and kept open, at all hours of night and day, the reefer row area and aforementioned
walkway to MRS to perform its work on the premises.
33.

At all times pertinent herein, including March 15, 2017, electrical boxes were

mounted on raised concrete slabs, which were situated at intervals along the aforesaid walkway
at NIT, close to or adjacent to the northern border ofVIT's aforesaid maintenance facility. These
electrical boxes were used to supply electrical power to reefers that were on the N4 row, next to
the VIT maintenance facility.
34.

The aforesaid raised concrete slabs and electrical boxes on the walkway referred to

herein made the walkway inaccessible to forklift use and travel.
35.

At all times pertinent herein, including March 15, 2017, VIT had in place

moveable barriers (sometimes referred to as "Jersey barriers") between the walkway and the
northern border ofVIT's maintenance facility. Only VIT personnel were authorized to move
these barriers.
36.

On March 15,2017, at approximately 12:30 a.m., the plaintiff Stephen K. Walton,

Sr., was working at NIT in reefer row as a longshoreman in the employment of MRS, performing
his job as a reefer mechanic and container repair mechanic.
37.

At the aforesaid time and place, the plaintiff was at the reefer row premises at the

express or implied invitation of the defendant VIT, which opened its premises to the plaintiff, so
that he could perform work on the premises, and his work was beneficial to VIT's business as
the operator of the NIT marine terminal. At no such time or place was the plaintiff on the NIT
premises for his own pleasure or convenience, nor was he on the premises because of the
defendant VIT's passive acquiescence.

8

A40

38.

At no time pertinent herein, including March 15, 2017, was the plaintiff Stephen

K. Walton, Sr., an employee of the defendant VIT, nor was he an employee of defendant CP&O,
nor was he an employee of defendant Ceres.
39.

At the aforesaid time and place, the plaintiff was unplugging reefer units so that

they could be moved from reefer row and transported off the NIT terminal. Upon information
and belief, the reefers which the plaintiff was unplugging were to be loaded onto a cargo ship
calling at the terminal. All of the work which the plaintiff was performing was beneficial to MRS
and to the defendant VIT.
40.

At the aforesaid time and place, as the plaintiff was performing his work, he

stepped off a raised concrete slab in the walkway and walked a short distance in a westerly
direction, when he tripped over the blade of a forklift projecting out into the walkway from the
VIT maintenance area, causing him to fall and be injured. A photograph of the walkway and the
forklift, depicting where the plaintiff was injured, is attached hereto as Exhibit 1. In the
background of the photograph, an electrical box mounted on a raised concrete slab in the
walkway, and moveable barriers, which VIT used to demarcate the northern boundary ofVIT's
maintenance facility, are visible.
41.

At the aforesaid time and place, the blade of the forklift which caused the plaintiff

to trip and fall was obscured by a shadow or shadows.
42.

On previous occasions, the defendant VIT had stored or placed its forklifts at the

northern border of its maintenance facility, near the aforesaid walkway. On such occasions, the
forklifts were either facing away from the walkway, or the blades were removed.
43.

At the aforesaid time and place, the blade of the forklift over which the plaintiff

tripped and fell was not open and obvious.

9

A41

44.

In the area where the plaintiff was injured, there was no warning sign posted

concerning the aforesaid trip-and-fall hazard, nor was the area roped off, taped off, or otherwise
marked as unsafe to visit.
45.

The forklift which caused the plaintiff to be injured had a VIT sticker on it and was

owned by the defendant VIT.
46.

Because the forklift which caused the plaintiff to be injured was owned by the

defendant VIT, the forklift would have been operated by employees of the defendant VIT, or by
the employees of defendant Ceres or defendant CP&O. No other entities operated such forklifts
at NIT at the aforesaid time. Furthermore, neither Ceres nor CP &0 operated or used forklifts in
the reefer row area at any time pertinent herein, including March 15, 2017.
4 7.

In the walkway where the aforementioned injury occurred, there were raised

concrete slabs with electrical boxes to the west of where the plaintiff tripped and fell, and there
were raised concrete slabs with electrical boxes to the east of the where the plaintiff tripped and
fell. These concrete slabs and electrical boxes made the walkway inaccessible to forklift use or
travel.
48.

Most of the aforesaid forklift was on VIT's maintenance area, as depicted in

Exhibit 1, and, at all times pertinent herein and on March 15, 2017, the defendant VIT controlled
that area exclusively.
49.

At all times pertinent herein, including March 15, 2019, the defendant VIT

controlled the location of and maintained the artificial lighting on its premises at NIT, including
the lighting for reefer row and the aforesaid walkway where the plaintiff was injured.
50.

At all times pertinent herein, including March 15, 2017, the defendant VIT opened

its reefer row premises, at all hours of the day and night, to entities, including MRS, and

10

A42

defendants CP&O and Ceres, having business to perform on the premises, including stevedoring
and container maintenance and repair.
51.

At all times pertinent herein, including March 15, 2017, the defendant VIT,

through its agents and employees, knew, or in the exercise of reasonable care under the
circumstances should have known, that MRS employees regularly visited the reefer row
premises, including the walkway, at all hours of the day and night, to perform their work there.
Such work included monitoring the condition of reefer units, plugging in reefer units transported
to reefer row, and unplugging reefer units to prepare them for transportation away from reefer
row.
52.

At all times pertinent herein, including March 15, 2017, the defendant Ceres,

through its agents and employees, knew, or in the exercise of reasonable care under the
circumstances should have known, that MRS employees regularly visited the reefer row
premises, including the walkway, at all hours of the day and night, to perform their work there.
53.

At all times pertinent herein, including March 15, 2017, the defendant CP&O,

through its agents and employees, knew, or in the exercise of reasonable care under the
circumstances

~hould

have known, that MRS employees regularly visited the reefer row

premises, including the walkway, at all hours of the day and night, to perform their work there.
54.

At all times pertinent herein, including March 15, 2017, the defendant VIT,

through its agents and employees, knew, or in the exercise of reasonable care under the
circumstances, that the lighting in the aforesaid walkway was insufficient to provide proper
illumination of the walkway for persons to work safely in the walkway.
55.

Before the plaintiff was injured as described above, the defendant VIT, through its

agents and employees, and/or the defendant Ceres, through its agents and employees, and/or the

11

A43

defendant CP&O, through its agents and employees, placed the aforementioned forklift in its
dangerous position, as depicted in the photograph attached hereto as Exhibit 1.
56.

At all times pertinent herein, including March 15, 2017, the defendant VIT,

through its agents and employees, and/or the defendant Ceres, through its agents and employees,
and/or the defendant CP&O, through its agents and employees, knew or in the exercise of
reasonable care under the circumstances should have known, that the aforementioned forklift
was a trip-and-fall hazard to persons using the walkway.
57.

The aforesaid injury which the plaintiff Stephen K. Walton, Sr., suffered on March

15, 2017, was an injury for which there was and is jurisdiction under the Longshore and Harbor
Workers' Compensation Act, 33 U.S.C. § 901, et seq., so that, pursuant to Virginia Code§ 65.2101, et seq., the plaintiff was not an "employee" within the purview of the Virginia Workers'
Compensation Act, Virginia Code§ 65.2-101, et seq., and the Virginia Workers' Compensation
Act, including Code§ 65.2-307, does not apply to him or his injury herein.
58.

At all times relevant herein, including March 15, 2017, and at the time and place

where the plaintiff was injured, the plaintiff was an invitee of the defendant VIT, and the
defendant VIT owed to the plaintiff the duty to exercise reasonable care for his safety, and to
have its premises, including the walkway, in a reasonably safe condition for his visit, including
duties of prevision, preparation, and lookout.
59.

At all times relevant herein, including March 15, 2017, and at the time and place

where the plaintiff was injured, the defendant Ceres and the defendant CP&O each had a duty to
exercise reasonable care to avoid causing injury to the plaintiff.
60.

Notwithstanding the foregoing, the defendant VIT, through its agents and

employees, and/or the defendant Ceres, through its agents and employees, and/or the defendant

12

A44

CP&O, through its agents and employees, negligently breached its duty and/or their duties to the
plaintiff by its/their affirmative conduct in storing or placing the forklift on the premises so as to
create a trip-and-fall hazard in the walkway.
61.

Notwithstanding and furthermore, the defendant VIT, through its agents and

employees, negligently breached its aforesaid duties to the plaintiff in that it failed to maintain its
walkway in reasonably safe condition; and/or failed to supply sufficient lighting for its invitees
to work in the walkway at night; and/or failed to maintain its premises free of the aforesaid tripand-fall hazard in the walkway; and/or failed to warn the plaintiff of the aforesaid trip-and-fall
hazard; and/or failed to rope off, barricade, or otherwise bar entry to the walkway; and/or in
other particulars that may disclosed during the course of discovery or supplied at trial.
62.

As a direct and proximate result of the negligence of the defendant VIT and the

negligence of its agents or employees, and/or as a direct and proximate result of the negligence
of the defendant Ceres and the negligence of its agents or employees, and/or as a direct and
proximate result of the negligence ofthe defendant CP&O and the negligence of its agents or
employees, the plaintiff Stephen K. Walton, Sr., suffered physical injuries to his neck and other
parts ofhis body; has undergone and continues to undergo physical pain, mental suffering, and
inconvenience; has been unable to work at his occupation because ofhis injuries; has lost income
because of his injuries; has lost all or part of his capacity to earn income because of his injuries;
and he has incurred and he continues to incur substantial medical expenses for the care and
treatment ofhis injuries.
WHEREFORE the plaintiff Stephen K. Walton, Sr., by counsel, asks for entry of a
judgment and award in his favor against the defendants, Virginia International Terminals, LLC,
Ceres Marine Terminals, Inc., and CP&O, LLC, jointly and severally, in the amount of FIVE

13

A45

MILLION DOLLARS ($5,000,000.00), plus prejudgment interest, post judgment interest, and
legal costs incurred.
THE PLAINTIFF DEMANDS TRIAL BY JURY ON ALL ISSUES SO TRIABLE.

Lance A. Jackson, Esq. (VSB No. 26035)
Counsel for Stephen K. Walton. Sr.
MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello Avenue
Norfolk, VA23510
Ph: (757) 622-8100
Fax: (757) 622-8180

CERTIFICATE OF SERVICE
I the undersigned hereby certify that on July 12, 2019, a true copy of the foregoing
pleading was served via first class mail and email transmission on all counsel of record:
John E. Holloway, Esq. (VSB No. 28145)
Daniel T. Berger, Esq. (VSB No. 81861)
Counsel for Virginia International Terminals, LLC
TROUTMAN SANDERS, LLP
222 Central Park A venue, Suite 2000
Virginia Beach, VA 23462
john.hollowayfcl'troutman.com
daniel.beruerra troutman. com

14

A46

EXHIBIT

A47

i

I

VIRGINIA: IN THE CIRCUIT COURT FOR THE CITY OF NORFOLK
STEPHENK. WALTON, SR.,

*
*
*
*
*
*
*
*
*
*
*

Plaintiff,

v.
VIRGINIA INTERNATIONAL
TERMINALS, LLC, et al.
Defendants.

Case No. CL 19-2417

VIRGINIA INTERNATIONAL TERMINALS, LLC'S BRIEF IN SUPPORT OF
ITS PLEA IN BAR AND DEMURRER AND ITS
MOTION FOR SUMMARY JUDGMENT ON ITS PLEA IN BAR
COMES NOW, Defendant Virginia International Terminals, LLC ("VIT"), by counsel,
and submits its Brief in Support of its Plea in Bar and Demurrer as to the Amended Complaint
filed by Plaintiff Stephen K. Walton, Sr. ("Plaintiff") and its Motion for Summary Judgment on
its Plea in Bar, and states as follows:

I.

SUMMARY

The Plaintiff alleges he was injured while working as a longshoreman at Norfolk
International Terminals on or about March 15, 2017 when he tripped over the blade of a forklift.
VIT is a marine terminal operator that manages Norfolk International Terminals and other
terminals in Virginia. Plaintiff filed this suit on March 11, 2019, alleging that VIT (or one of the
other two defendants in this case) negligently placed a forklift owned by VIT in a walkway
creating a trip-and-fall hazard that caused his injury. He also asserts an apparent premises
liability claim against VIT relating to the same incident.
As a marine terminal operator, VIT maintains a Schedule of Rates governing rates,
regulations, and practices at the marine terminals operated by VIT. By federal statute, VIT's

Page 1 of18

A48

Schedule of Rates is automatically binding and enforceable as an implied contract without proof
of actual knowledge of its provisions. Use of a terminal constitutes an agreement to the terms
and conditions of the Schedule of Rates, including a provision requiring every person coming
onto or using the terminal to notify VIT in writing of any injury caused by VIT within 30 days
and to bring suit within one year. If written notice is not given within 30 days, or if suit is not
brought within one year, all claims based on the injury are time-barred. These time frames are
reasonable and enforceable under Virginia law and general maritime law, and they are necessary
to allow VIT to investigate claims and preserve evidence on the busy terminals it operates.
By coming onto and using Norfolk International Terminals, Plaintiff agreed to and
became bound by VIT' s Schedule of Rates, including its limitation periods for written notice and
bringing suit. Though he appears to have immediately prepared for an injury claim against VIT
by obtaining a photograph of the forklift and walkway he alleges were involved in his injury,
Plaintiff did not notify VIT of his injury until he filed suit almost two years later. This not only
materially prejudiced VIT's ability to investigate Plaintiffs claims but also violated his
agreement with VIT. Because he failed to notify VIT in writing of his injuries within 30 days,
and (independently) because he failed to bring suit within one year, Plaintiffs claims are now
time-barred and should be dismissed with prejudice by this Court.
In the alternative, Plaintiffs allegation that one of three parties negligently stored or
placed a forklift in an inappropriate position is deficient as a matter of law. Because it fails to
allege who placed or stored the forklift this way, Plaintiffs claim runs counter to the rule that a
complaint must clearly inform the opposite party of the true nature of the cause of action asserted
against it. The Supreme Court of Virginia has, therefore, held that joining defendants in this

Page 2 of18

A49

manner is not permitted. To the extent it survives VIT's Plea in Bar, Plaintiffs "negligent
placement" claim should be dismissed with prejudice by this Court pursuant to VIT' s Demurrer.

II.

1.

UNDISPUTED FACTS 1

Plaintiff alleges that he was injured at Norfolk International Terminals ("NIT") on

or about March 15, 2017, when he tripped over the blade of a forklift. (Amended Compl. ~~ 36
& 40). This lawsuit was filed on March 11, 2019.
2.
~~

Plaintiff alleges that although the forklift was owned by VIT (Amended Compl.

45 & 62), "the defendant VIT ... and/or the defendant Ceres ... and/or the defendant CP&O

... placed the aforementioned forklift in its dangerous position." (Amended Compl.
3.

~55).

NIT is a marine terminal located within the City ofNorfolk, on the Elizabeth

River and the Lafayette River, both of which are navigable waters of the United States.
(Amended Compl.
4.

8).

At all times pertinent to this case, VIT was the marine terminal operator.

(Amended Compl.
5.

~

~

14).

At all times pertinent to this case, VIT, in its capacity as marine terminal operator,

made available to the public a Schedule of Rates governing rates, regulations, and practices at
marine terminals operated by VIT, including NIT. The Schedule of Rates was available to the
public during normal business hours and in electronic form and was accessible to the public via
VIT's website. The VIT Schedule of Rates in effect on or about March 15, 2017 (hereinafter the
"Schedule of Rates" or "SOR") was attached as Exhibit A to VIT's Plea in Bar and Demurrer

VIT cites to the allegations set forth in the Amended Complaint solely for the purpose of its
Plea in Bar and Demurrer and Motion for Summary Judgment on its Plea in Bar, as Plaintiff
cannot dispute his own allegations. VIT does not concede that these allegations are true. If any
claims survive, VIT reserves the right to challenge these allegations.
1

Page 3 of18

A50

and is attached hereto as Exhibit A for the Court's convenience. (See Plaintiffs Responses to
Defendant VIT's First Set of Requests for Admission (attached hereto as Exhibit B) ,~~ 1-3).
6.

Item 100 ofthe Schedule of Rates reads, in relevant part:
100 GENERAL APPLICATION
A This SOR applies to the provision of TERMINAL SERVICES by VIT

at the TERMINALS, including without limitation NIT, VIG, PMT,
NNMT, VIP, and RMT (effective November 1, 2016). This SOR also
applies to USAGE of the TERMINALS, and to all other use or
occupancy of the TERMINALS. The parties covered by this SOR are
all USERS. If VIT has an actual contract with a party covering the
services rendered by VIT, then this SOR shall not apply to those
services, except to the extent this SOR is incorporated in the actual
contract. Use of the TERMINALS shall constitute an agreement to the
terms and conditions of this SOR including without limitation payment
of all applicable charges.

(SOR, Item 100) (emphasis added).
7.

Item 207 of the Schedule of Rates, in pertinent part, reads as follows:
207 NOTIFICATION OF LOSS, INJURY, OR DAMAGE; TIME
LIMITS; JURISDICTION AND VENUE; APPLICABLE LAW
A USERS must notify VIT in writing of the occurrence of loss, injury, or
damage to person or property caused by VIT immediately upon
discovery, and in no event more than thirty (30) days from occurrence,
or all claims based on the loss, injury, or damage shall be time-barred.
If suit (or notice of arbitration if applicable) based on the occurrence is
not filed within one (1) year after the occurrence, the claim shall be
time-barred. If notice ofloss, injury, or damage is given, or if a claim is

made, VIT must be given the opportunity to investigate the claim,
including without limitation all evidence, at the earliest practical
opportunity. Time is material and of the essence.

C. The laws of the Commonwealth of Virginia without reference to its
choice of law rules and, to the extent not in conflict with the law of

Page 4 of18

A51

Virginia, the general maritime laws and statutes of the United States,
shall apply to all disputes arising from or related to this SOR.
(SOR, Item 207) (emphasis added).
8.

Section XI of the Schedule of Rates defines "TERMINALS" as "the ocean marine

TERMINALS, inland TERMINALS, and ancillary facilities operated by VIT. 'TERMINAL'
means one of the TERMINALS .... " The "TERMINALS" include NIT. (SOR, Section XI).
9.

Section XI ofthe Schedule of Rates defines "USER" as follows:

USER shall mean each (i) each VESSEL and CARRIER, (ii) stevedore,
(iii) shipper, consignee, and beneficial cargo owner, (iv) contractor,
subcontractors and vendor of VIT, VPA, HRCP II, or another USER,
(v) licensee and permittee, and (vi) and every other person or entity using,
coming onto, or berthing at a Terminal.
(SOR, Section XI) (emphasis added).
10.

Plaintiff claims that, at the time of his injury, he was on the NIT premises

working as a longshoreman in the employment of Marine Repair Services, Inc. He states this
was a business purpose that benefitted all parties and that "[a]t no such time was [he] on the NIT
premises for his own pleasure or convenience." (Amended Compl. ,-r,-r 36-39).
11.

Plaintiff did not notify VIT of his injury in writing or otherwise except by filing

the present suit. (Exhibit B, ,-r,-r 4-5). He filed suit against VIT on March 11, 2019, almost two
years after the injury he alleges.

III.

SUPPORT OF PLEA IN BAR AND MOTION FOR SUMMARY JUDGMENT
A.

STANDARD OF REVIEW

"'A plea in bar asserts a single issue [of fact], which, if proved, creates a bar to a
plaintiff's recovery."' Cole v. Norfolk S. Ry. Co., 294 Va. 92, 104, 803 S.E.2d 346, 353 (2017)
(quoting Hawthorne v. VanMarter, 279 Va. 566, 577, 692 S.E.2d 226, 233 (2010)). The party
asserting a plea in bar bears the burden of proof on the issue presented. Hawthorne, 279 Va. at

Page 5 of18

A52

577, 692 S.E.2d at 233. "The issue raised by a plea in bar may be submitted to the circuit court
for decision based on a discrete body of facts identified by the parties through their pleadings, or
developed through the presentation of evidence supporting or opposing the plea." Id
Swnrnary judgment may be entered on a plea in bar. Kahn v. Marquis, 288 Va. 142, 762
S.E.2d 755 (2014) (affirming summary judgment on a plea in bar). Summary judgment
"provide[s] trial courts with authority to bring litigation to an end at an early stage, when it
clearly appears that one of the parties is entitled to judgment." Carwile v. Richmond

Newspapers, Inc., 196 Va. 1, 5, 82 S.E.2d 588, 590 (1954). In reviewing a motion for summary
judgment, a trial court must "accept as true those inferences from the facts that are most
favorable to the nonmoving party, unless the inferences are forced, strained, or contrary to
reason." Fultz v. Delhaize Am., Inc., 278 Va. 84, 88, 677 S.E.2d 272, 274 (2009). Summary
judgment is "available only when there are no material facts genuinely in dispute." Id
However, "[i]f it appears from the pleadings, the orders, if any, made at a pretrial conference, the
admissions, if any, in the proceedings, that the moving party is entitled to judgment, the court
shall grant the motion." Va. Sup. Ct. R. 3:20.

B.
1.

ARGUMENT

Pursuant to federal statute, VIT's Schedule of Rates is enforceable without proof that
Plaintiffhad actual knowledge of its provisions
As a terminal schedule made available to the public by a marine terminal operator, VIT' s

SOR is

automatical~y

binding and enforceable as an implied contract. Under the Shipping Act of

1984 (the "1984 Act"), as amended by the Ocean Shipping Reform Act of 1998 ("OSRA"), "[a]
marine terminal operator may make available to the public a schedule of rates, regulations, and
practices, including limitations of liability for cargo loss or damage, pertaining to receiving,
delivering, handling, or storing property at its marine terminal." 46 U.S.C. § 40501(f). If a

Page 6 of18

A53

marine terminal operator chooses to make such a schedule available to the public, "[a]ny such
schedule ... is enforceable by an appropriate court as an implied contract without proof of actual
knowledge of its provisions." !d.
The Federal Maritime Commission ("FMC"), pursuant to authority granted under 46
U.S.C. § 40501(g)(3), has promulgated regulations on the availability of marine terminal
operator schedules. See 46 C.F.R. § 525.3 (2019). The regulations provide that "[a]ny terminal
schedule that is made available to the public shall be available during normal business hours and
in electronic form." !d. § 525 .3(a)(2). They further provide methods through which "[m]arine
terminal operators shall provide access to their terminal schedules via a personal computer
(PC)," including web browser-based access through the Internet. !d. § 525.3(b)(2)(i).
VIT is a marine terminal operator. (Amended Compl.

~

14). At all pertinent times, VIT

maintained a Schedule of Rates governing rates, regulations, and practices at marine terminals
operated by VIT, including NIT (the "Schedule of Rates" or "SOR"). The SOR is available to
the public via VIT' s website in accordance with FMC regulations and was so available at the
time of Plaintiffs alleged accident. (See Exhibit B,

~~

1-3). By its terms, the SOR applies "to all

. .. use or occupancy of the TERMINALS," and it provides that "[u]se of the TERMINALS shall
constitute an agreement to the terms and conditions ofth[e] SOR .... " (SOR, Item 100). "The
parties covered by th[e] SOR are all USERS," which include each and every "person or entity
using, coming onto, or berthing at a Terminal." (SOR, Item 100 & Section XI).
Plaintiff claims he was injured on the NIT premises while working as a longshoreman in
the employment of Marine Repair Services, Inc. (Amended Compl.

~~

37 & 40). He has plainly

asserted that he was at NIT for a business purpose and that "[a]t no such time was [he] on the
NIT premises for his own pleasure or convenience." (Amended Compl.

Page 7 of18

A54

~

37). By coming onto

and using the NIT premises, Plaintiff is a "USER" under the SOR and agreed to its terms and
conditions. Because VIT made the SOR available to the public in accordance with FMC
regulations, federal statute provides that it is enforceable by this Court as an implied contract
between VIT and Plaintiff whether or not Plaintiff had actual knowledge of the SOR.

2.

Enforceability extends to the entirety of the Schedule ofRates, not just select provisions
Courts have long held that "[a] party who makes use of the facilities or services offered

and rendered by another under the terms of a validly promulgated tariff impliedly consents to be
bound by the tarif:f s terms." At!. & Gulf Stevedores, Inc. v. Alter Co., 617 F .2d 397, 401 n.16
(5th Cir. 1980). This implied consent extended to those terms of which a person had actual or
constructive notice. See, e.g., Southern Pacific Co. v. United States, 272 U.S. 445 (1926).
Prior to the 1984 Act, terminal schedules were governed by the Shipping Act of 1916 (the
"1916 Act"). Under the 1916 Act and its associated regulations, marine terminal operators were
required to file a schedule showing all its rates, charges, rules, and regulations relating to or
connected with the receiving, handling, storing, and/or delivering of property at its terminal
facilities with the FMC and to make the schedule available for public inspection. 46 C.F.R.
§ 533.3 (1983) (amended and redesignated 1984). Case law interpreting the 1916 Act and its

associated regulations held that "the filing of a tariff [gave] constructive notice only of those
terms which [were] required by law to be filed." La Salle Mach. Tool, Inc. v. Maher Terminals,

Inc., 611 F.2d 56, 60 (4th Cir. 1979). Because "[n]othing in the Shipping Act of 1916 ... or in
the applicable regulations ... require[ d] a terminal operator to file provisions limiting its
liability," courts held that filing of a tariff did not provide constructive notice of such terms and,
therefore, that such terms were not binding without actual knowledge. Id.; accord Fed.

Commerce & Navigation Co. v. Calumet Harbor Terminals, Inc., 542 F.2d 437,441 (7th Cir.

Page 8 of18

A55

1976) (no constructive notice of limitation of liability or time bar); New Zealand Kiwifruit Mktg.
Bd v. Wilmington, 806 F. Supp. 501, 503 (D. Del. 1992) (no constructive notice oftime bar).

The provisions governing terminal schedules in the 1916 Act were substantially
overhauled by the 1984 Act, as amended in 1998 by OSRA. These revisions comprehensively
negate the reasoning underlying La Salle and related cases. First, terms limiting liability are now
expressly permitted, with the 1984 Act, as amended, clarifying that "rates, regulations, and
practices" include limitations of liability. See 46 U.S.C. § 40501 (f). Second, the 1984 Act, as
amended, and its associated regulations include no requirement to file a terminal schedule or any
of its terms with the FMC. Instead, a marine terminal operator may make a terminal schedule
available to the public if it wishes and must maintain a complete set of its terminal schedules for
five years to be available to FMC upon request. !d.; 46 C.F .R. § 525.3 (20 19). Rather than
leaving it to the courts to decide the effects of these changes on constructive notice, Congress
expressly provided that the schedule is enforceable as an implied contract, not just select terms
from the schedule. See 46 U.S.C. § 40501(f). Virginia courts have ascribed to this reasoning,
with the Virginia Supreme Court stating: "The Schedule of Rates prescribes certain conditions
that must be met by those doing business at any VIT facility. By using the facility, [the users]
agreed to those conditions." Hudson v. Jarrett, 269 Va. 24, 31,606 S.E.2d 827, 830 (2005).
As a terminal schedule made available to the public by a marine terminal operator,
federal law now provides that the entirety of VIT' s SOR is enforceable as an implied contract
without proof of actual knowledge of its provisions. This extends to limitations of liability and
time bars in the SOR.

Page 9 of18

A56

3.

The Schedule ofRates provisions requiring notice of injury and limiting time to bring suit
are enforceable against Plaintiff and time bar his claim
The SOR includes time bars for injury claims. It requires that "USERS must notify VIT

-in writing of the occurrence ofloss, injury, or damage to person or property caused by VIT"
within 30 days of the occurrence and must bring suit within one year of the occurrence. (SOR,
Item 207(A)). It also clearly states that "[t]ime is material and ofthe essence." (/d). If written
notice is not given within 30 days, or if suit is not brought within one year, all claims based on
the loss, injury, or damage are time-barred pursuant to the SOR. (/d). These time frames are
reasonable and enforceable under Virginia law and the general maritime law, and they time bar
Plaintiffs claims in this case.
In general, courts hold that "parties can, by agreement in advance, limit the bringing of
suit upon a contract to a shorter period than that fixed by the otherwise applicable statute of
limitations. To do so is not contrary to public policy but rather assists the public policy behind
statutes oflimitations: preventing stale claims." 15 Corbin on Contracts§ 83.8 (2019). Courts
require that the period not be so short as to be unreasonable. Id The SOR provides that "[t]he
laws of the Commonwealth of Virginia without reference to its choice of law rules and, to the
extent not in conflict with the law of Virginia, the general maritime laws and statutes of the
United States, shall apply to all disputes arising from or related to this SOR." (SOR,
Item 207(C)). Both Virginia and the general maritime law broadly follow the general rule.
In Virginia, a contractual limitations period shorter than otherwise applicable statute of

limitations is enforceable "if the contractual provision is not against public policy and if the
agreed time is not unreasonably short. These are questions of law to be determined by the court."

Board ofSupervisors v. Sampson, 235 Va. 516, 520-21, 369 S.E.2d 178, 180 (1988) {upholding a
one-month limitation period); see Liquid Carbonic Co. v. Norfolk & W. Ry., 107 Va. 323, 326-

Page 10 of18

A57

30, 58 S.E. 569, 570-72 (1907). The Virginia Supreme Court has upheld provisions analogous to
those in VIT's Schedule of Rates. In Massie v. Blue Cross & Blue Shield, the court upheld a
one~ year

limitation period without tolling in the context of a medical insurance claim. 256 Va.

161, 166, 500 S.E.2d 509, 512 (1998). Noting that the General Assembly has legislatively
established that one year constitutes a reasonable contractual limitation period for insurance
contracts, the court affirmed the trial court's decision that the plaintiffs' action for payment of
medical bills was time barred by the one-year contractual limitation period. Jd. In Liquid
Carbonic, a provision in a bill of lading requiring written notice of claims within 30 days was at

issue. 107 Va. at 324, 58 S.E. at 570. Finding that "[a] great number of cases hold that a
provision identical in terms, or in some cases less favorable to the shipper, than the one under
consideration, is reasonable, and should be enforced," the court held the term to be decisive and
affirmed the trial court's instruction to that effect. !d. at 326 & 330, 58 S.E. at 571 & 572. The
court noted that there is no hardship in requiring a claimant who has knowledge of his claim to
give notice within a reasonable time, but there is great hardship in requiring a carrier to account
for a loss '"when he has had no notice of any failure of duty on his part, and when the lapse of
time has made it difficult, if not impossible, to ascertain the actual facts."' !d. at 330, 58 S.E. at
572 (quoting Express Co. v. Caldwell, 88 U.S. (21 Wall.) 264, 268 (1874)). Further, in the
context of workers' compensation, the General Assembly has itself endorsed a requirement for
written notice of injury within 30 days-with limited exception, no compensation or medical
benefits are payable unless "written notice is given within thirty days after the occurrence of the
accident or death." See Va. Code Ann.§ 65.2-600(D).
Under the general maritime law, contractual requirements to notify of injuries and bring
suit within a specified period that is shorter than the applicable statute of limitations have long

Page 11 of18

A58

been enforced even in the context of passengers on seagoing vessels, who are traditionally
afforded significant protections. See, e.g., Murray v. Cunard S.S. Co., 235 N.Y. 162, 139 N.E.
226 (1923) (Cardozo, J.) (upholding requirement on passenger ticket for written notice of
injuries within 40 days and dismissing plaintiffs claim even though he spent most of the 40-day
period in the hospital for the injury incurred on board). Congress has endorsed the enforcement
of such time bars against passengers and has legislatively established what constitute reasonable
time limits for notice and suit in that context: at least six months to give notice and at least one
year to bring suit. See 46 U.S.C. § 30508. These provisions have recently been applied in the
case of Sobel v. lnst. for Shipboard Educ., 2017 U.S. Dist. LEXIS 10621 (W.D. Va. Jan. 26,
2017), appeal dismissed, 2017 U.S. App. LEXIS 16976 (4th Cir. June 2, 2017).
In Sobel, the plaintiff was a participant in the Semester at Sea program who sued the
program alleging sexual battery by a tour guide on a program-sponsored onshore field trip. ld. at
*5. In seeking admission to the program, the plaintiff had completed an online application, and
in the process, she'agreed to a "ticket contract" that included a term shortening the limitations
period to sue for bodily injury to one year. ld. at *2-4. Though it was not clear whether the
plaintiff had read the ticket contract, the court found that she had agreed to electronic delivery
and that the ticket contract was accessible to her through the program's website for over a year.

ld. at *3. Finding that the one-year limitation provision was reasonably communicated to the
plaintiff and was fundamentally fair, the court concluded the provision was valid and
enforceable. !d. at * 12-18. Because the plaintiff filed suit almost two years after the sexual
assault occurred, the court held that her claims against the program were time-barred by the oneyear limitation provision and awarded summary judgment to the program. ld. at *25 .

Page 12 of18

A59

Beyond the reasonableness requirement, the FMC regulations provide that "terminal
schedules cannot contain provisions that exculpate or relieve marine terminal operators from
liability for their own negligence, or that impose upon others the obligation to indemnify or holdharmless the terminals from liability for their own negligence." 46 C.P.R. § 525.2(a)(l). The
same is reflected in Item 106(A) ofVIT's SOR. However, this limitation is not applicable in this
case. The United States Supreme Court and the Virginia Supreme Court have both held that
such tl.me bars are not exculpatory. See Gooch v. Or. S. L. R. Co., 258 U.S. 22, 24, 42 S. Ct. 192,
193 (1922) ("a stipulation for written notice within a reasonable time stands on a different
footing [than exoneration from liability for negligence], and of this there is no doubt"), Liquid
Carbonic, 107 Va. at 329, 58 S.E. at 571-72 (quoting Express Co., 88 U.S. (21 Wall.) at 268) (an

agreement that a claim shall be made by within a reasonable period "contravenes no public
policy," "excuses no negligence," and "is perfectly consistent with holding [a common] carrier to
the fullest measure of good faith, of diligence and of capacity, which the strictest rules of the
common law ever required") (internal quotation marks omitted).
By coming onto and using the NIT premises in the capacity of a "USER," Plaintiff agreed
to notify VIT in writing of injuries caused by VIT within 30 days of the occurrence and to bring
suit within one year of the occurrence pursuant to Item 207(A) of the SOR. VIT has included
these time frames in its SOR because VIT investigates claims ofloss, injury, or damage
occurring on the marine terminal it operates. On these large and busy terminals, time is material
and of the essence in investigations. In fact, many areas of the terminals are under video
surveillance, but recordings cannot be retained indefinitely. If timely notified of a claim in
accordance with the SOR, relevant video evidence can be preserved. Without timely notice, the
actual facts and circumstances of the loss, injury, or damage may be difficult, if not impossible,

Page 13 of18

A60

to ascertain-video evidence may no longer be available, environmental factors may be
substantially changed, and any equipment involved may be moved, modified, or unavailable for
inspection. A witness's memory days after an incident is far more reliable than it is two years
later. The time frames are reasonable under Virginia law and the general maritime law and do
not exculpate VIT from liability for its own negligence.
Plaintiff alleges that he was injured on the NIT premises as "a direct and proximate result
of the negligence of defendant VIT" by a forklift that "had a VIT sticker on it and was owned by
the defendant VIT." (Amended Compl.

fl~

40, 45, & 62). In fact, Plaintiff apparently took "[a]

photograph of the walkway and the forklift" he alleges were involved in his injury, which he has
now attached to his Amended Complaint. (Amended Compl., Exhibit 1). While Plaintiff
immediately began preparing for an injury claim against VIT, he simultaneously deprived VIT of
an opportunity to investigate. Despite alleging that VIT caused his injury, Plaintiff "personally
did not notify VIT or any representative, agent or employee ofVIT, in writing or orally, of the
incident or his injuries" until two years later when he filed this suit. (Exhibit B,

~

5). At this

point, VIT has no way to determine who owned the forklift, who operated the forklift, or even
whether any forklift was involved in the incident. Plaintiffs failure to give notice both
materially prejudiced VIT's ability to investigate his claims and violated the SOR. Plaintiffs
claims are now time-barred and should be dismissed with prejudice by this Court.
Plaintiff has demanded a trial by jury on the Plea in Bar. However, "[a] party does not
have a constitutional right to a jury trial if the case can be determined as a matter of law based
upon material facts not genuinely in dispute." Kohn, 288 Va. at 146, 762 S.E.2d at 757 (finding
no material facts genuinely in dispute and affirming summary judgment on a plea in bar). All
relevant facts have either been alleged by Plaintiff in his Amended Complaint or admitted by

Page 14 of18

A61

Plaintiff in response to VIT' s First Set of Requests for Admission. Because all facts relevant to
VIT's Plea in Bar are undisputed, swnmary judgment is appropriate in this case.

IV.

SUPPORT OF DEMURRER

A.

STANDARD OF REVIEW

'"A demurrer tests the legal sufficiency of a [complaint] and admits the truth of all
material facts that are properly pleaded."' Robinson v. Nordquist, No. 180631, 2019 Va. LEXIS
82, at *14 (July 18, 2019) (quoting Harris v. Kreutzer, 271 Va. 188, 195,624 S.E.2d 24 (2006)).
"The trial court is not permitted on demurrer to evaluate and decide the merits of the allegations
set forth in a [complaint], but only may determine whether the factual allegations of the
[complaint] are sufficient to state a cause of action." Harris, 271 Va. at 195, 624 S.E.2d at 28.
"A demurrer is properly sustained when the pleading to which it is directed fails to allege facts
sufficient to state a cause of action. Francis v. Nat 'l Accrediting Comm 'n of Career Arts & Scis.,
Inc., 293 Va. 167, 171,796 S.E.2d 188, 190 (2017).

B.

ARGUMENT

To the extent it survives VIT's Plea in Bar, Plaintiff's claim in Paragraph 60 of his
Amended Complaint that "the defendant VIT ... and/or the defendant Ceres ... and/or the
defendant CP&O" breached a duty to Plaintiff through "affirmative conduct in storing or placing
the forklift on the premises so as to create a trip-and-fall hazard in the walkway" is deficient and
should be dismissed with prejudice by this Court. The Virginia Supreme Court has held that
Virginia law "cannot be strained to permit the joinder of two or more defendants alternatively
where, upon the single set of facts pleaded, only one of the defendants might be liable." Baker v.
Doe, 211 Va. 158, 160, 176 S.E.2d 436, 438 (1970). Instead, the Rules ofthe Supreme Court of
Virginia require a complaint to clearly inform the opposite party of the true nature of the

Page 15 of18

A62

plaintiff's claim. Va. Sup. Ct. R. 1:4(d). This is not satisfied by an allegation that one of
multiple defendants is liable to the plaintiff. Baker, 211 Va. at 160, 176 S.E.2d at 438.
In Baker, the plaintiff filed a motion for judgment against two defendants alleging that .
one or the other was operating an automobile that forced her off the highway and caused her to
collide with a brick wall. Id at 159, 176 S.E.2d at 437. One of the defendants filed a demurrer,
it was sustained by the trial court, and that defendant was dismissed from the action. Id
Affirming the judgment of the trial court, the Supreme Court of Virginia held that such a joinder
in the alternative runs counter to the rule that a motion for judgment must clearly inform the
opposite party of the true nature of the cause of action asserted against it and, therefore, is not
permitted. Id at 161, 176 S.E.2d at 438.
In the case at hand, Plaintiff fails to allege who stored or placed the forklift in the
allegedly inappropriate position, instead claiming that it was one of three parties. (Amended
Compl. ~~55, 60, & 62). This allegation fails to inform VIT or the other defendants of the true
nature of the cause of action Plaintiff asserts against them and, therefore, fails to state a legally
viable claim. In fact, proof at trial ofPlaintiff's claim that "the defendant VIT ... and/or the
defendant Ceres ... and/or the defendant CP&O" was negligent would fail as a matter of law
because it leaves unanswered the basic question of which defendant is liable. See Baker, 211 Va.
at 160-61, 176 S.E.2d at 438. Because joining defendants in this manner is not permitted, VIT's
Demurrer should be sustained and Plaintiffs claim should be dismissed with prejudice.

V.

CONCLUSION

WHEREFORE, for reasons set forth in its Plea in Bar and Demurrer, its Motion for
Summary Judgment on its Plea in Bar, and this Brief in Support, VIT respectfully requests that
the Court grant its Plea in Bar and enter an Order dismissing Plaintiffs suit against VIT with

Page 16 of18

A63

prejudice, and in the alternative, grant its Demurrer and dismiss with prejudice Plaintiffs claims
arising from his allegation that one of three entities negligently parked the forklift in an
inappropriate location, and grant VIT such other relief as the Court finds equitable and just.

Dated: September 3, 2019

Respectfully submitted,
VIRGINIA INTERNATIONAL
TERMINALS, LLC

. Holloway, Esq. (VSB o. 8145)
T. Berger, Esq. (VSB
. 1861)
Ryan T. Gibson, Esq. (VSB No. 83183)
TROUTMAN SANDERS LLP
222 Central Park A venue, Suite 2000
Virginia Beach, Virginia 23462
Telephone: 757-687-7724
Email: john.holloway@troutman.com
Email: daniel. berger@troutman.com
Email: ryan.gibson@troutman.com
Counsel for Virginia International Terminals, LLC

Page 17 of18

A64

CERTIFICATE OF SERVICE

I hereby certify that on this 3rd day of September, 2019, a true and exact copy of the
foregoing was sent via electronic mail and First-Class Mail to the following counsel of record:
Counsel for Plaintiff
Lance A. Jackson, Esq.
MONTAGNA KLEIN CAMDEN, L.L.P.

425 Monticello Avenue
Norfolk, Virginia 23510
Tel: (757) 622-8100
Fax: (757) 622-8180
Email: ljackson@montagnalaw.com

John E. Holloway, Es
TROUTMAN SANDERS~

222 Central Park A venue, Suite 2000
Virginia Beach, Virginia 23462
Telephone: 757-687-7724
Email: john.holloway@troutman.com
Counsel for Virginia International Terminals, LLC

39516982

Page 18 of18

A65

VIRGINIA INTERNATIONAL TERMINALS, LLC
SCHEDULE OF RATES NO. I
GOVERNING RATES, REGULATIONS, AND PRACTICES AT MARINE TERMINALS OPERATED BY VIRGINIA
INTERNATIONAL TERMINALS, LLC ("VIT") AT THE FOLLOWING MARINE TERMINALS AND THE VIRGINIA
INLAND PORT:

Virginia International Gateway ("VIG")
(Formerly known as "APM Terminals" or "APMT")
I 000 Virginia International Gateway Blvd.
Portsmouth, VA 23703

Norfolk International Terminals ("NIT")
7737 Hampton Blvd.
Norfolk, VA 23505
Phone (757) 440-7000

Portsmouth Marine Terminal ("PMT")
2,000 Seaboard Ave.
Portsmouth, VA 23707

Newport News Marine Terminal ("NNMT")
25th St. & Warwick Blvd.
Newport News, VA 23607

Virginia Inland Port ("VIP")
7685 Winchester Road
Front Royal, VA 22630

Richmond Marine Terminal ("RMT")
(Effective November I, 20 16)
5000 Deepwater Terminal Road
Richmond, Virginia 23234
PUBLISHED BY:
VIRGINIA INTERNATIONAL TERMINALS, LLC,
P.O. BOX 1387
NORFOLK, VIRGINIA 2350 I
Phone (757) 440-7000
www.portofvirginia.com
This Schedule is effective October I. 2016. This Schedule shall remain in effect until replaced. It may be amended
from time to time. When elements of this Schedule are amended, the effective date of the amendment(s) will be
stated.
Direct rate and pricing inquiries for all facilities to VIT Pricing and Quotes
Phone (757)-391-61 03
Email vitrates@vit.org

EXHIBIT

I
A66

A

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

TABLE OF CONTENTS
SECTION I -APPLICATION
SECTION II - GENERAL RULES
SECTION Ill- DOCKAGE, WHARFAGE, EQUIPMENT RENTAL, MISCELLANEOUS VESSEL RULES AND
CHARGES
SECTION IV - CONTAINER RULES, CHARGES AND DEFINITIONS
SECTION V- FREE TIME, DEMURRAGE FOR NON CONTAINERIZED CARGO, AND CARGO
LOADING/UNLOADING CHARGES
SECTION VI- VIRGINIA PORT AUTHORITY SECURITY SURCHARGE
SECTION VII- STEVEDORING CHARGES
SECTION VIII - MISCELLANEOUS SERVICES AND CHARGES
SECTION IX- VIRGINIA INLAND PORT SERVICES AND CHARGES
SECTION X- RICHMOND MARINE TERMINAL SERVICES AND CHARGES
SECTION XI- DEFINITIONS.

A67

Page 2 of 66

Schedule of Rates Effective Date I 0/1/20 16
Last Amended; Not applicable.

VIT

SECTION I
APPLICATION

I 00 GENERAL APPLICATION

A

This SOR applies to the provision of TERMINAL SERVICES by VIT at the TERMINALS, including
without limitation NIT, VIG, PMT, NNMT, VIP, and RMT (effective November I, 2016) . This SOR
also applies to USAGE of the TERMINALS, and to all other use or occupancy ofthe TERMINALS.
The parties covered by this SOR are all USERS. If VIT has an actual contract with a party covering
the services rendered by VIT, then this SOR shall not apply to those services, except to the extent
this SOR is incorporated in the actual contract. Use of the TERMINALS shall constitute an
agreement to the terms and conditions of this SOR including without limitation payment of all
applicable charges.

B.

Any provision in this SOR notwithstanding, this SOR shall not apply to any OCEAN CARRIER
which uses a TERMINAL but whose cargo is neither loaded on nor discharged at a TERMINAL.
Such OCEAN CARRIER shall be permitted to use a TERMINAL only pursuant to a negotiated
contract with VIT.

C.

Charges published in this SOR may be asses·s ed and collected by VIT on cargo delivered to or
received from any USER and shall be in addition to rates for transportation to or from the
TERMINALS.

D. This SOR shall apply on and after the stated effective date of this SOR. VIT typically updates the
entire SOR as of October I of each year. Amendments and supplements to the SOR may be issued
prior to the October I updates and shall be effective as of the stated effective date{s) of such
amendments and supplements.

A68

Page 3 of 66

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

SECTION II
GENERAL RULES
200 DEFINITIONS. Capitalized terms in this SOR not otherwise defined in the body hereof shall have the
meanings given to them in Section XI below.
20 I APPLICATION OF SECTION II. The terms contained in this Section II will apply in the absence of
specific rules in other sections of this SOR.
204 OPERATOR OF TERMINALS

A

VIT reserves the absolute right to control the use of the TERMINALS, and permission for
the use thereof must be obtained from VIT. VIT reserves the right to control and perform
the LOADING, UNLOADING, HANDLING, recoopering, reconditioning, fumigating,
weighing and sampling of all freight and cargo on the TERMINALS.

B.

Cargo, including loaded CONTAINERS, held on the TERMINALS in excess of FREE TIME
provided for in this SOR is subject to DEMURRAGE. Cargo, particularly cargo subject to
pilferage or deterioration, may, at the option of VIT, be sent to a commercial warehouse at
the expense and risk of the owner. For cargo moved to commercial storage, a charge will
be assessed in addition to the normal storage charges. Rates will be quoted upon request .

C. VIT is not the consignee of any CONTAINER or cargo unless VIT expressly agrees in
writing that it is the consignee.
206 RESPONSIBILITY FOR DAMAGES; TERMINALS HELD HARMLESS; LIMITATION OF
LIABILITY.
A.

Notwithstanding anything in this SOR to the contrary, nothing in this SOR shall be construed to
exculpate or relieve VIT from liability for its own negligence, or to impose upon others the
obligation to indemnify or hold-harmless VIT from liability for its own negligence.

B.

Notwithstanding anything in this SOR to the contrary, no party subject to this SOR shall be
responsible for special or consequential damages except to the extent included in claims made by
third parties.

C.

Each USER, jointly and severally, agrees to defend, indemnify and save harmless the VIT PARTIES
from and against all LOSSES suffered or incurred by VIT arising from personal injury or death, or
damage or destruction of property, incident to or resulting from (i) operations on the TERMINALS
and/or the use of the TERMINALS' equipment and facilities by such USER(s), their employees,
agents, or contractors, (ii) breach of, or failure to comply with any requirement of, this SOR by
such USER, its employees, agents, or contractors, and/or (iii) incorrect information being provided
by such USER, its employees, agents, or contractors in connection with cargo or CONTAINERS
handled on the TERMINALS, such as without limitation, incorrect weights.

D. USERS of the TERMINALS, including without limitation CARRIERS and VESSELS, their owners,
agents and operators, shall be responsible for all damage and injury to person or property resulting
from the use of the TERMINALS. The VIT PARTIES reserve the right to repair, replace, or contract
for the same, or otherwise cause to be replaced or repaired, any and all damages to the TERMINAL
FACILITIES including damages to docks, piers, bulkheads, wharves, warehouses, transit sheds, cargo,
CONTAINERS, and their contents if loaded; equipment, rail, shop facilities, utilities. The VIT
PARTIES may detain any vehicle, VESSEL, water craft, etc., that may be responsible for any damage
to the TERMINALS until sufficient security has been given to cover all LOSSES suffered or incurred
by the VIT PARTIES.

A69

Page 4 of 66

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

E.

Except with respect to VIT's own negligence, VIT assumes no liability for loss or damage to
equipment, freight, or cargo handled, stored, or transshipped at VIT, including but not limited to
loss or damage caused by strikes, fire, water, action of the elements, theft, TERRORISM or other
causes. VIT is not and shall not be deemed to be the bailee of any equipment, freight, or cargo
handled, stored, or transshipped at VIT. Acceptance for use of an open pier by a USER is a
recognition of the fact that cargo landed on such dock is at the risk and expense of the USER.

F.

VIT, for the services performed under this Schedule of Rates, assumes no liability for loss or damage
to equipment, freight, or cargo handled or transshipped through VIT, including but not limited to
loss or damage caused by strikes, fire, water, action of the elements, theft, TERRORISM or other
causes. VIT in any event shall be liable only for damage resulting from its failure to exercise due and
proper care in performing the services and affording the facilities provided for herein. In no case
shall VIT be liable for sum in excess of 500.00 per package or non-packaged objects unless the
shipper, or other USER, declares a higher value and pays to VIT, in addition to the other charges for
such services as herein set forth, a premium computed at one percent (I%) of the declared value of
each package or non-packaged object, and in such event VIT shall be liable for the full declared value
of each such package or non-packaged object up to available insurance coverage limits, for damage
resulting from VIT's failure to exercise due and proper care in performing the services or affording
the facilities provided for herein. The word "package" shall include any van, CONTAINER or other
form of cargo unitization.

G. VIT will not be responsible for damage sustained by CONTAINERS or cargo because of weather
conditions, including but not limited to wind or flooding, or damage to CONTAINERS not caused
by VIT's negligence. VIT accepts no responsibility for loss sustained by CONTAINERS or cargo in
the pier area or in the stacks at any time. VIT accepts no responsibility for injuries or death,
damages or delays caused by cargo handling equipment, including but not limited to cranes,
CONTAINERS, straddle carriers, or hustlers and/or the operators of said equipment where the
equipment is leased by VIT to a VESSEL owner or operator or their agent/stevedore and the
equipment is in the custody and control or supervision of the said VESSEL, owner or operator or its
agent/stevedore.

H. Each CARRIER warrants to VIT that all of CARRIER'S Bills of Lading for CONTAINERS and cargo
handled pursuant to this SOR shall contain a provision which makes paramount and applicable to
VIT and all other of VIT's servants, agents, or persons performing the contract of carriage, all rights,
protections, defenses, limitations of actions, and limitations of liability available to the CARRIER
under the Carriage of Goods by Sea Act of the United States ("COGSA", formerly published at 46
USCS Appx. §§ 1300 et seq.), including, but not limited to, the Five Hundred US Dollars (500)
package limitation, as the same may be increased by law from time to time. The CARRIER warrants
that the Bills of Lading for CONTAINERS and cargo handled pursuant to this Agreement shall
contain a proper "Custody Clause" (Period of Responsibility Clause) that protects both the
CARRIER and the VIT by applying COGSA from the time the goods are received until delivered to
the consignee.

I.

VIT shall not be liable for damage or injury caused to USERS or the property of USERS as a result of
direct or indirect acts of TERRORISM or CYBER ATTACK.

A70

Page 5 of 66

Schedule of Rates Effective Date I 0/1/20 16
last Amended: Not applicable.

VIT

Page 6 of 66

207 NOTIFICATION OF LOSS, INJURY, OR DAMAGE; TIME LIMITS; JURISDICTION AND
VENUE; APPLICABLE LAW

A USERS must notify VJT in writing of the occurrence of loss, injury, or damage to person or property
caused by VIT immediately upon discovery, and in no event more than thirty (30) days from
occurrence, or all claims based on the loss, injury, or damage shall be time-barred. If suit (or notice
of arbitration if applicable) based on the occurrence is not filed within one (I) year after the
occurrence, the claim shall be time-barred. If notice of loss, injury, or damage is given, or if a claim
is made, VIT must be given the opportunity to investigate the claim, including without limitation all
evidence, at the earliest practical opportunity. Time is material and of the essence.
B. Jurisdiction for any action against any VIT PARTY, arising from services rendered by VIT, whether in
law or equity, whether sounding in contract or in tort, lies exclusively in the Federal or State
Courts located in Norfolk, Virginia, and in no other forum. Use of a TERMINAL further constitutes
consent to jurisdiction in accordance with this Item, and constitutes waiver of jurisdiction or venue
in any other location or forum.
C. The laws of the Commonwealth of Virginia without reference to it$ choice of law rules and, to the
extent not in conflict with the law of Virginia, the general maritime laws and statutes of the United
States, shall apply to all disputes arising from or related to this SOR.
208 TERMINAL RIGHTS

A

The berths and piers operated by VIT must be kept open and fluid. VIT does not obligate itself to
provide TERMINAL SERVICES beyond the reasonable capacity of the TERMINALS as determined by
VIT in its business judgment.

B.

Cargo will not be received or delivered unless proper documents are furnished and credit has been
established.

212 SHIPBOARD WELDING/BURNING Shipboard welding and/or burning of any type is strictly
prohibited while VESSELS are berthed at a TERMINAL without the prior express written authorization from
the TERMINAL manager.
214 HANDLING OF HEAVY, FRAGILE OR BULKY ARTICLES Charges published in this SOR do
not cover HEAVY LIFT, fragile, or bulky articles. Such articles, pieces, or packages weighing more than
80,000 lbs., must be loaded or unloaded at the option of VIT at rates agreed upon between VIT and the
owners or their agents prior to arrival of cargo at the TERMINAL. Such cargo will be handled only at the
owner's risk. This item does not apply to CONTAINERS.

216 REMOVAL OF OBJECTIONABLE CARGO VIT reserves the right to move freight or other
material, which in VIT'S judgment is likely to damage other property, to another location at the risk and
expense of the owner.

A71

---·

Schedule of Rates Effective Date I 0/ I/20 16
Last Amended: Not applicable.

VIT

218 DISPOSITION OF ABANDONED, UNCLAIMED, OR REFUSED CONTAINERS, CARGO
OR EQUIPMENT

A

No USER may abandon CONTAINERS, cargo, equipment, or other property on a TERMINAL. Any
USER, which delivers, or causes to be delivered, CONTAINERS, cargo, equipment, or other
property on a TERMINAL is responsible for the property until it is removed from the TERMINAL.

B.

VIT may sell for accrued charges any cargo, CONTAINERS, equipment, or other property, which is
unclaimed, refused, or abandoned after notice has been delivered or mailed to interested parties.
Cargo or Equi pment shall be deemed unclaimed or abandoned if it remains on a TERMINAL more
than thirty (30) days. VIT shall comply with the notice requirements of Virginia Code Sections 8.7206 and 8.7-210. If notice is sent by registered or certified mail to the last address provided to VIT,
such notice shall be deemed delivered on the date of receipt or three days after the postmark
thereon, whichever is earlier.

C.

If no response acceptable to VIT in its reasonable discretion is received by VIT within ten (I 0) days
after such notice, or if the party declares abandonment of the cargo or equipment, VIT may sell the
cargo or equipment to recover accrued charges, or may otherw-ise dispose of the property in its
discretion. With respect to import CONTAINERS, the CARRIER delivering the CONTAINER and
the consignee ofthe CONTAINER shall remain jointly and severally liable to VIT for all accrued
charges, including continuing storage charges, and all costs and expenses of selling or appropriately
disposing of the property less any sales proceeds received. With respect to import CONTAINERS,
the shipper and the Freight Forwarder of Broker shall remain jointly and severally liable for such
costs and expenses. With respect to equipment, the CARRIER responsible for the equipment shall
be liable for such costs and expenses.
D. VIT may bring a court action to require removal of abandoned property from the TERMINALS.
220 CREDIT AND PAYMENT OF INVOICES
A
B.

VIT may assess charges against and to submit invoices to all USERS of the TERMINALS, their agents,
and/or servants, including without limitation OCEAN CARRIERS and VESSELS.
Without limiting the foregoing, (i) with respect to break-bulk cargo on or moving over VIT facilities,
VIT will initially bill, and the primary responsibility for payment of TERMINAL charges shall be with,
those who perform the forwarding functions on such shipments unless other arrangements have
been made, and (ii} the primary responsibility for TERMINAL charges pertinent to the VESSEL such
as line handling, WHARFAGE, DOCKAGE, and water shall rest with the agent of the VESSEL and
the VESSEL's owners and charterers unless other arrangements have been made.

C.

VESSELS, their owners and agents, and other USERS shall be required to permit access to manifests,
LOADING, or discharge lists, rail or motor CARRIER freight bills or other pertinent documents for
the purpose of audit to determine the correctness of reports filed or for securing necessary data to
permit correct billing of charges.

D.

Invoices for services rendered are due within thirty (30) days of the invoice. Failure to pay within
thirty (30) days may cause the name of the responsible party to be placed on a delinquent list and
such party may be denied further use of the facilities until all outstanding charges have been paid.
Invoices not paid within thirty (30) days are subject to a one and one-half percent ( 1.5%) service
charge per month, as well as the commencement of legal action. VIT reserves the right to estimate
and collect in advance all charges which may accrue against cargo or VESSELS if credit has not been
established with VIT or if parties representing such cargo or VESSELS have habitually been on the
delinquent list. Use of the TERMINALS may be denied until such charges have been paid. VIT
reserves the right to apply any payment received against the oldest outstanding invoices.

A72

Page 7 of 66

Schedule of Rates Effective Date I 0/1/2016
last Amended: Not applicable.

VIT

E.

VIT may extend credit to any USER upon application for credit and demonstration of financial
responsibility. Credit worthiness may be established through current financial statements (certified
by an independent certified public accountant) or other acceptable evidence of financial
responsibility and by furnishing at least three (3) satisfactory credit references, inclucHng a bank
reference. Extension and continuation of existing lines of credit shall be conditioned upon the
prompt payment of bills as specified above.

F.

For OCEAN CARRIERS or those USERS not granted credit, VIT may extend credit to those USERS
who will post and maintain a letter of Credit or Indemnity Bond in the form and content, and with
a company acceptable to VIT in an amount equal to the maximum liability for a period of time
determined by VIT.

G. letters of Credit and Indemnity Bonds may be required to insure VIT against the loss of funds and
indemnify VIT in full payment of bills that accrue for the use of the TERMINAL FACILITIES or
services rendered by VIT.

H. In any litigation to enforce this SOR, the prevailing party shall be entitled to an award of its
reasonable costs and attorney's fees.
I.

If an account receivable is past due, then VIT may with or without notice apply all credits, discounts,
subsidies, incentives, and/or other amounts due from VIT to the delinquent receivables, whether or
not related to the outstanding receivables, until such time as all receivables for the account are
rendered current. Delinquent invoice amounts plus service charges that are determined to be
payable may be deducted by VIT from any credits, discounts, incentives, other payments received,
etc., due to the debtor by VIT.

J.

At no time shall invoices or related payments be reduced or offset by any monetary amount for
loss, damage or other claim or alleged amount owed by VIT in any form whatsoever, except for
invoices disputed pursuant to the terms of this SOR.

K.

If and when a USER is entitled to a credit from VIT, VIT may specify how and when that credit will
be applied to the USER's account. If a credit memo is issued with a certain or calculable expiration
date, VIT will, immediately prior to expiration, apply such credit against the oldest outstanding
invoices.

l.

VIT may in its discretion and for ease of administration charge the BASIC CONTAINER UNIT
RATE in lieu of billing each individual charge included in the BASIC CONTAINER UNIT RATE.

M. VIT may in its discretion agree to allocate certain costs among OCEAN CARRIERS according to a
VSA. If VIT agrees to bill for certain costs according to a VSA, {i) such billing shall be subject to the
written agreement of members of the VSA to accept such charges, {ii) the VESSEL shall not be
relieved of liability for such charges, (iii) VIT may terminate its undertaking to bill costs according to
the VSA at any time, {iv) VIT may impose a reasonable charge for such services by amendment to
this SOR and notice the members of the SOR, and (v) VIT shall be held harmless with respect to
any disputes among the VSA members.

A73

Page 8 of 66

VIT

Schedule of Rates Effective Date I0/1/2016
Last Amended: Not applicable.

221 NOTIFICATION OF DISPUTED INVOICES
A.

Disputes posed in good faith regarding the validity of individual charges on invoices must be
submitted in writing to VIT within thirty (30) days after the presentation of the invoice. Charges not
disputed in good faith within this thirty (30) day period will be considered valid. VIT will only
negotiate disputed charges on invoices with the bill-to party.

B.

In order to facilitate the timely acknowledgement, recording and resolution of good faith disputes,
all disputes must be directed in writing to VIT's Billing department as noticed on the applicable
invoice. Disputes submitted via email may be sent to invoicedisputes@vit.org with the invoice
number in the subject line and the specifics of the dispute in the body of the message. Specifics of
the dispute must include, at a minimum, reference to the invoice number, the specific charge and
amount disputed, and a statement of facts that supports the dispute.

C.

When a charge(s) on an invoice is in dispute, any portion which is not part of the amount disputed
in good faith shall be paid within the 30 day period or other terms as may be applicable. VIT will not
issue revised invoices to separate disputed and undisputed portions.

222 SHIPPER'S REQUESTS AND COMPLAINTS Requests, complaints, and inquiries on matters
relating to rates, rules and regulations in this SOR should be addressed to VIT
223 LIEN Any and all TERMINAL SERVICES, including but not limited to CONTAINER related services,
shall give rise to a lien in favor of VIT against the VESSEL, CONTAINER, chassis, or any other tangible
property whatsoever.
224 REGULAR WORKING HOURS The recognized regular working hours of VIT are from 8:00a.m.
until noon and from I:00 p.m. until 5:00 p.m., Monday through Friday, except HOLIDAYS. Refer to Item 230
for operating procedures.
226 OVERTIME AND HOLIDAY WORKING HOURS When VIT renders TERMINAL SERVICES at
other than regular working hours for the convenience of the USER, the applicable charges under this SOR
shall be applied, plus additional labor charges including overtime, double time, and holiday rates.
228 NOTIFICATION OF USE OF HEAVY LIFT EQUIPMENT Equipment with a lifting capacity in
excess of 30,000 pounds will not be permitted to operate on a TERMINAL unless written permission has
been granted by VIT.
229 WAIVER OF SOVEREIGN IMMUNITY
All USERS waive any defense of sovereign immunity to
charges, fees or damages sought to be recovered by VIT.

A74

Page 9 of 66

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 10 of 66

230 TRUCK SERVICE SCHEDULING
A.

BREAKBULK
a. NIT-No appointment required except for the pick-up and delivery of boats which require
an appointment. Trucks must register in person by 3:00p.m. and will be worked as time
permits. Any LOADING or UNLOADING beyond 5:00 p.m., whether to complete or
start a new job, may be performed on an approved overtime basis
b. PMT- Tuesday and Thursday service only with appointment.
c. ~- No appointment required. Trucks must register in person by 3:00 p.m. and will be
worked as time permits. Any LOADING or UNLOADING beyond 4:00 p.m., whether to complete
or start a new job, may be performed on an approved overtime basis.
d. VIG -Appointments are required with 24-hour minimum notice.

B.

CARGO TO BE STUFFED In order to guarantee shipline assigned VESSEL cutoff
a. Cargo must arrive four (4) working days prior to VESSEL cutoff.
b. Stuffing orders must be in place when cargo arrives.
c. Shipline equipment must be mounted and available when the cargo arrives.
d. Cargo not meeting the aforementioned criteria will require Overtime Authorization to
guarantee meeting assigned VESSEL cutoff.

C. OUT OF GAUGE (OOG)- FLATRACKS AND OPEN TOPS
a. Appointments required with a 24-hour minimum notice at all facilities.
b. To schedule an appointment for break bulk service or OOG, please contact the following:
i. NIT- Breakbulk 757-440-7080; OOG: NITOCC@vit.org
ii. NNMT- Breakbulk- 757-928-1207
iii. PMT- Breakbulk and OOG- 757-391-6123
iv. VIG- Breakbulk and OOG -757-686-6019
D. CONTAINERS
a. Marine TERMINALS and Empty Yards
i. All TERMINALS will, receive, weigh, and dispatch CONTAINERS from 8:00a.m.
until 5:00 p.m.
ii. Inbound portals close one hour prior to stop time; Reefers must be through
inbound portal one and half hours prior to stop time.
iii. Gate house may be adjusted to maintain the fluidity and efficiency of the facilities.
iv. Please visit www. portofvirginia.com for up-to-date gate hours.
v. Late arrivals will be processed by appointment only and on an overtime basis. On
late arrivals, phone NIT (757) 440-7080, NNMT (757) 928-1204, VIG (757) 6866135.
b. Drivers delivering or picking up CONTAINERS that involve mounting or demounting the
CARRIER's own equipment must make prior arrangements with VIT and be present at the
LOADING site before 4:00 p.m. Drivers who do not make prior arrangements will be
serviced after all others. VIT, in either case, shall not be required to perform mounting or
demounting after 5:00 p.m. unless an appointment for overtime has been arranged prior to
4:00p.m.
231 DELIVERY AND ACCEPTANCE OF EXPORT CONTAINERS VIT may establish limits on
the number of days an export CONTAINER may be delivered to and accepted by a TERMINAL ahead of the
scheduled arrival of the VESSEL on which the CONTAINER is to be loaded. Different limits may apply
depending on the mode of delivery of the CONTAINER, the TERMINAL at which the CONTAINER is
delivered, and whether the CONTAINER is loaded. The limit(s) may change from time to time based on
available .space on a TERMINAL and other factors and will be posted on the Port of Virginia website,
www.PortofVirginia.com under the link·http://www.portofvirginia.com/catego ry/o perations-alerts/.

A75

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

232

DELIVERY AND ACCEPTANCE OF NON-CONTAINERIZED EXPORT CARGO

A.

Non-containerized EXPORT CARGO will not be received by VIT unless the EXPORT CARGO has
consignment to a VESSEL with an announced date of arrival within the FREE TIME allowed by this
SOR. All cargo received under these conditions and accruing DEMURRAGE due to late arrival of
VESSEL, shut-out cargo, or VESSEL cancellation will accrue DEMURRAGE as published in this SOR
for account of the OCEAN CARRIER or agent. Announced date of arrival will be governed by the
first date furnished by the OCEAN CARRIER or agent on or after the shipper's bill-of-lading date.

B.

Non-containerized EXPORT CARGO consigned to a VESSEL with an announced date of arrival and
arriving prior to the FREE TIME period allowed by this SOR or arriving without a consignment to a
VESSEL with an announced date of arrival will not be received until sto.rage arrangements have been
completed between shipper or agent and VIT.

234 VESSELS REQUIRED TO USE TUG ASSISTANCE VESSELS docking or undocking at
TERMINALS will be required to use tug assistance unless other arrangements have been made with VIT
prior to docking or undocking. Failure to comply with this requirement could result in denial of a berth.
235 VESSEL TO VACATE BERTHS

A. VIT may order any VESSEL to vacate any berth when it is deemed that the continued presence of
such a VESSEL at such berth would be a potential hazard to the VESSEL, the berth, the facilities or
the rights or property or safety of others. Such situations include, but are not limited to potential
natural disasters such as hurricanes, tornadoes, earthquakes or flooding and such events as strikes,
acts of TERRORISM or war.
B.

VIT shall provide written notice (administrative message, facsimile transmission, etc.) to the
OCEAN CARRIER, Ship's Agent, or party arranging for berthing of the VESSEL advising of the
requirements to vacate and referring to this SOR item in the communication. The notice shall state
the time that the berth must be vacated and shall be presented at least four hours prior to said
time.
C. If the VESSEL fails to promptly vacate as ordered, it shall be responsible for any damage or expense
which may be incurred by the VIT PARTIES VESSEL or others as a result of such failure to vacate.
VIT shall have the option, but not the duty, of moving the VESSEL to another location at the risk
and expense of the VESSEL. If such movement occurs, the VESSEL shall hold VIT harmless for all
LOSSES that may occur as a result of such movement. Failure to comply with an order to vacate
will result in a charge to the VESSEL of I ,606.00 per hour for each hour, or fraction thereof, of noncompliance. This charge shall not constitute a waiver by VIT of any greater actual damages, it may
sustain as a result of the VESSEL's failure or refusal to vacate. Refusal to vacate may result in denial
of future berthing privileges.
236 IMPROPERLY LOADED RAILCARS Railcars, which in the judgment of VIT are improperly
loaded, will not be handled at regular SOR rates. The rail CARRIER will be contacted and agreement
reached to cover the cost of UNLOADING such cars. Trash, fastening, dunnage, paper and refuse will not
be cleaned from cars except by special agreement.

A76

Page II of 66

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

239 DISCHARGING OF OILS, NOXIOUS LIQUID SUBSTANCES AND GARBAGE;
LEAKING CONTAINERS
A.

The discharging of ballast, bilge, oil, contaminated water, noxious liquid substances, sewage, garbage
or any debris into slips or in channels or within a TERMINAL is strictly prohibited. Violators will be
subject to charges, penalties and fines.

B.

Leaking tanks/CONTAINERS will be placed on a spill pad or spill containment cassette, subject to
the following daily use charges while the spill pad or cassette is occupied:
a.
b.
c.
d.

Day I - 54.00
Day 2-81.00
Day 3 or more - I 07.00 per day
Daily rates per 24 hours or fraction thereof

C. The clean-up of leaking CONTAINERS/tanks must be initiated within forty-eight (48) hours of
notice from VIT. USERS must complete the cleanup with their own materials or use an approved
contractor, subject to the final inspection of the spill site by VIT Management.
D. All VIT provided services or materials required to contain a spill/leak or assist with the clean-up will
be invoiced to the CARRIER controlling the equipment/cargo unless other payment arrangements
are approved in advance by VIT. This includes the spill pad USAGE charge.
E.

If the leaking substance is a HAZARDOUS MATERIAL or DANGEROUS CARGO, or if it presents
an immediate hazardous or environmental danger, VIT may at its option make arrangements and
correct the problem. All clean up and disposal costs will be for the account of the CARRIER.

F.

For any leak or spill that requires the employment of a contractor that spedalizes in recovery and
disposal of the particular material, the cost of containment, cleanup and disposal will be billed at the
rate charged to VIT plus 15%. The cost of cleanup materials may be billed separately and shall
include the cost of materials plus 15%. VIT will also invoice for the time required by VIT
management personnel to control and recover the spill, conduct regulatory assessment and
reporting, coordinate· disposal, and replace materials used to contain the spill. The rate to perform
these services is I 00.00 per man hour.

G. The clean-up of the spill pad or cassette is the responsibility of the party arranging clean-up. The
daily spill pad charge will continue until the spill pad clean-up is completed.
H. lfthe CONTAINER is on hold by U.S. Customs and Border Protection, the shipper shall
immediately obtain approval to open the CONTAINER for clean-up.

A77

Page 12 of 66

VIT

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

242 SAFETY AND SECURITY
A

USERS, including without limitation stevedores, shall comply with all municipal, state and federal
codes or regulations, including but not limited to those of OSHA, USCG, EPA, Department of
Homeland Security (including Customs and Border Protection ("Customs")), the U.S. Department
of Transportation, and the Virginia Department of Transportation, and will be liable for their
noncompliance with same. Without limiting the generality of the foregoing, except with respect to
CONTAINERS leaving the TERMINALS via truck or rail interchanges conducted and controlled by
VIT, all parties on or using VIT's facilities (i) have an independent duty to comply with all messages,
directives, holds, and/or permits from Customs relating to the examination, lading, unlading,
delivery, and release of cargo and CONTAINERS, and (ii) shall not rely on VIT, its employees,
agents, or information systems with respect to any such messages, directives, holds and/or permits.

B.

CYBER SECURITY. USERS may be provided access to certain parts of VIT'S TERMINAL operating
computer system ('TOS") to provide electronic data interchange and/or to view information.
USERs of the TERMINALS agree that their employees, agents, and contractors will not (i) use any
device, software or technique to interfere with or attempt to interfere with the TOS or data in the
TOS; (ii) attempt by any means to gain unauthorized access to the TOS, including, but not limited
to, access to other accounts not legally registered to the USER; (iii) pass USER IDs or passwords to
any third party without the prior written consent of the VIT; or (iv) use any robot, spider or other
automatic device, process or means to access the TOS, or use any manual process to monitor or
copy content from the TOS not relating to the authorized USER, or for any other unauthorized
purpose. In no event shall VIT be liable for a CYBER ATTACK.

244 INSURANCE Charges published in this SOR do not include any expense of fire, storm, or other
cargo insurance covering the owner's interest in the cargo nor will such insurance be provided by VIT under
its policies.
246 NO SMOKING Smoking in the warehouses, piers, bulkheads, docks or on VESSELS handling
flammable cargo or fueling is strictly prohibited.
248 PROJECT OR PLANT MOVEMENT OF 200 TONS OR MORE On project or plant
movements of 200 TONS or more, from one consignor to one consignee, LOADING, UNLOADING or
DEMURRAGE charges and FREE TIME specified elsewhere will not apply when shippers or consignees have
made prior arrangements with VIT.
250 CHARITABLE AND MILITARY CARGO OR VESSELS VIT may for charitable purposes adjust
FREE TIME or negotiate special rates. Special arrangements may be made for the handling of military cargo
or VESSELS by VIT.
252 VESSELS REQUIRED TO COMPLETE LOADING/DISCHARGING To alleviate current or
prospective congestion, VIT may require any VESSEL already in berth, or about to berth, to work
continuously to completion of LOADING/discharging at the VESSEL's expense. If the continuous
LOADING/discharging requirement is refused, when the agents andlor owners of the VESSEL are so
requested, the VESSEL shall vacate the berth. Reassignment to a berth for completion of
LOADING/discharging will be at VIT's convenience. Any VESSEL refusing to vacate the berth after being so
notified, may be subject to removal by VIT at the VESSEL's risk and expense including any damage, except
that caused by VIT's own negligence. VIT may assess DOCKAGE of 1,606.00 per hour, or fraction thereof,
commencing two (2) hours after notice to vacate is given, and will be assessed in addition to DOCKAGE
charges published elsewhere in this SOR.

A78

Page 13 of 66

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 14 of 66

256 BERTH ASSIGNMENTS On request for a berth, VIT will designate the particular berth at which
the VESSEL shall dock. VIT does not guarantee to furnish docking facilities. Arrangement must be made in
advance of arrival of VESSEL in order to assure docking facilities. If a VESSEL docks without requesting a
berth or without approved prior arrangements, DOCKAGE charges published elsewhere in this SOR, plus
damages of I,606.00 per hour, will be assessed.
258 MOVEMENT OF VESSELS VESSELS moored alongside VESSELS which are docked at piers or
bulkheads for the purpose of delivering to or taking cargo or supplies from such VESSEL must, at the request
of VIT, temporarily move, if they, in the judgment of the operator, are blocking the ingress or egress of a
VESSEL ready to be docked or undecked. When VESSELS have finished discharging or taking on cargo, their
right ceases to the use of the dock, pier, or bulkhead and such VESSELS must, at the request of VIT,
surrender the berth.
260 FURNISHING OF BILLING INFORMATION

A

VESSELS, their owners or agents, shall permit VIT access to manifests, LOADING and discharge
lists, tonnage license, rail and motor CARRIER freight bills or any other pertinent documents for
the purpose of obtaining necessary information for correct billing of charges. VESSELS, their owners
or agents, are responsible for data electronically transmitted to VIT or manually updated by the
VESSEL, their owners or agents, in VIT's Operations System.

B.

VESSELS, their owners or agents shall, within seven (7) calendar days after a VESSEL sails, update
information on VESSEL discharge hold CONTAINERS in VIT's Operations System. VESSELS, their
owners or agents shall, within seven (7) calendar days after a VESSEL sails, furnish VIT with
tonnage/CONTAINER reports on all cargo loaded and discharged as well as any other information
which might be required for accurate billing of cargo, CONTAINER, and VESSEL charges.

C.

If VESSELS, their owners or agents, fail to update information in VIT's Terminal Operations System
for CONTAINERS listed on the VESSEL Discharge Hold Report, then CONTAINERS will be billed
to the OCEAN CARRIER. If a VESSEL fails to submit tonnage/CONTAINER reports to VIT's Billing
Division, then VIT's data will be used to prepare invoices and for historical records.

D. For CONTAINERS interchanged between VESSELS, the rules under Item 450 apply.
E.

VIT reserves the right to audit all documents and use such audits as a basis for charges. Note Item
800 for rebilling invoices.

262 RECEIPT OF EXPORT CARGO/CONTAINERS The following information in duplicate is
required for acceptance of EXPORT CARGO/CONTAINERS by VIT:

~~~a~~=~~:~ _____ !Measurement
JExporter/Shipper
!Identification marks

~~~~=i~~t-~~~~d-=~-

-jr::B=o=o::=-k::.
i~=g=n=u:::m::;:b=e=r=============t

!Commodity

!Exporting ~ARRIERIVESSEL

!Number of pieces

JHazardous certificate when required

Weight

~~Party responsible for TERMINAL charges; see Item 411 regarding weights for export

!

!Port of discharge

CONTAINERS

.

A79

-

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

263 RAIL TRANSPORT TO AND FROM VIRGINIA INLAND PORT

A.

In connection with VIT's arranging for rail service for CONTAINERS bound for and from the
Virginia Inland Port in Front Royal, Virginia, the CARRIER/OCEAN CARRIER must provide VIT with
the correct weight of all such CONTAINERS. The CARRIER shall use only CONTAINERS in
suitable condition and shall assure that the cargo does not exceed the CONTAINER manufacturer's
posted cargo weight limitation.

B.

In arranging for movement of CONTAINERS by rail, VIT is acting solely in an agency capacity and
shall have no liability whatsoever for the transport of CONTAINERS by rail, or the acts or
omissions of the CARRIER, Norfolk Southern Rail Road Company ("NS"). Such carriage shall be
governed by applicable law and NS's terms of transportation.

C. In no event shall VIT's liability with respect to such carriage of CONTAINERS by rail exceed 500
per package or non-packaged object.

267 HAZARDOUS MATERIALS AND DANGEROUS CARGO

A. The CARRIER must notify VIT at least ten (I 0) days prior to arrival of HAZARDOUS MATERIALS
or DANGEROUS CARGO at a TERMINAL. If the cargo is radioactive then at least thirty (30) days
advance notice is required. Notification shall be made to the VIT Safety Manager, vitsafety@vit.org.
757.635.4544. Notification shall be made to the VIT Safety Manager to the following email,
vitsafety@vit.org, and by phone 757.635.4544. The notification shall include an exact description of
the nature and quantity of the HAZARDOUS MATERIALS or DANGEROUS CARGO, as the case
may be.
B. VIT also reserves the right in its discretion to refuse to allow HAZARDOUS MATERIALS or
DANGEROUS CARGO on the TERMINALS. If VIT allows HAZARDOUS MATERIALS or
DANGEROUS CARGO on the TERMINALS, then VIT may impose such requirements as it deems
necessary to comply with laws, rules and regulations which apply to the handling, storage, and/or
transportation of such HAZARDOUS MATERIALS or DANGEROUS CARGO. The CARRIER shall
pay the additional cost of such HANDLING, storage, and/or transportation as determined by VIT in
its discretion.

C. VESSELS carrying EXPLOSIVES may berth at the TERMINALS but may not discharge such cargo or
have such cargo relocated onboard while on berth.
D. CONTAINERS loaded with HAZARDOUS MATERIALS or DANGEROUS CARGO may not be
transshipped without the prior written consent the manager of the applicable TERMINAL.

E.

All USERS shall ensure that CONTAINERS and breakbulk cargo received at a TERMINAL
containing HAZARDOUS MATERIALS or DANGEROUS CARGO are packaged, marked,
placarded, handled, and shipped in strict compliance with all HAZARDOUS MATERIALS LAWS.

F.

If cargo or CONTAINERS received at a TERMINAL contain HAZARDOUS MATERIALS or
DANGEROUS CARGO causes personal injury, death, or damage to property or the environment,
the CARRIER, its owners and operators and the shippers/owners of the cargo shall be liable for and
will defend and hold harmless VIT from any and all LOSSES incurred or suffered by VIT as a result
of injury, death, or damage.

G. The CARRIER shall indemnify and hold VIT harmless from and against all LOSSES suffered or
incurred resulting from failure of VESSELS, cargo or CONTAINERS containing HAZARDOUS
MATERIALS or DANGEROUS CARGO to be in compliance with HAZARDOUS MATERIALS
LAWS or DANGEROUS CARGO LAWS, as applicable, result in or cause loss, damage, death,

A80

Page IS of 66

Schedule of Rates Effective Date I0/1/20 16
last Amended: Not applicable.

VIT

personal injury, pollution, natural resource damages, environmental damage and/or violations of
Federal, State, or local law, the CARRIER, its owner(s) and operators, and the cargo and its
shippers, owners, and agents shall be liable for, defend, and hold harmless VIT, its parent, affiliates,
officers, employees, and agents from any and all "LOSSES" listed in subsection (d) resulting from
such loss, damage, death, personal injury, pollution, natural resource damages, environmental
damage and/or violations of Federal, State, or local law.
H. See SOR Item 239-Discharging of Oils, Noxious liquid Substances and Garbage; Leaking
CONTAINERS
269 FORCE MAJEURE VIT and USERs shall be relieved of their obligations under this SOR in the event
of FORCE MAJEURE to the extent performance is impaired by the event of FORCE MAJEURE.
272 ACCEPTANCE OF CARGO OR COMMODITY FOR HANDLING OR STORAGE When
any cargo or commodity is accepted for HANDLING or storage, the beneficial owner of the cargo or
commodity shall be liable for all LOSSES incurred by VIT attributable to or because of infestation or inherent
vice of the cargo or commodity in question.
274 STRIKES, LABOR DISPUTES
A.

In the event of a strike or other labor disturbances involving a VESSEL at berth or one waiting for
berth (whether it involves the VESSEL's crew or otherwise) which will, in the sole judgment of VIT,
interfere with, disturb, or impede operations of the TERMINAL, VIT may cancel such VESSEL's right
to take berth or VIT may refuse to accept her at the berth, and if such VESSEL has taken berth, VIT
may order such VESSEL out of berth. Should any VESSEL berth or interfere with other VESSELS'
ingress to or egress from the berth after being informed of the inability of VIT to accept the
VESSEL, or should the VESSEL refuse to vacate after being berthed, said VESSEL, her owners, agents
and operators shall be liable for damages as hereinafter set forth.

B.

If any VESSEL fails or refuses to move or to vacate the berth when ordered to do so, a charge of
I,606.00 per hour after notice has been given the VESSEL, her owners, operators, agents, master or
mate will be assessed as damages. It is understood, however, and the parties agree, that this amount
represents a minimum estimate of the damages to VIT because of the failure or refusal of the
VESSEL to move or to vacate the berth, and that this charge shall not constitute a waiver by VIT to
assess and collect the greater actual damages plus all interest, costs and attorneys' fees as VIT may
sustain as the result of the VESSEL's failure or refusal to move or to vacate the berth.

C.

Furthermore, the failure or refusal of the VESSEL to move or to vacate the berth shall .c onstitute a
trespass entitling the owner and/or VIT to compel removal of the VESSEL from the area in which
she may be then located or from the berth and the VESSEL, her owners, agents, and operators shall
be liable for all damages together with interest, costs and attorneys' fees that may be incurred in
having the VESSEL removed.

276 LIEN ON GENERAL ORDER MERCHANDISE VIT will place a lien on cargo which is ordered
by United States Customs to be placed into a General Order warehouse. Any and all TERMINAL costs
incurred in connection with the cargo shall constitute the amount of the lien.
277 DAMAGED CARGO If a USER requests that VIT move damaged CONTAINERS or cargo, the
USER shall submit a written request to VIT describing the cargo or CONTAINER it wishes VIT to move and
stating that the party requesting the move agrees to accept any and all responsibility for the costs of the
move and any and all damage that results from said movement and the cost of subsequent storage of the
CONTAINER or cargo pending repair or transshipment.

A81

Page 16 of 66

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

278 DAMAGED, ABANDONED OR UNIDENTIFIED EQUIPMENT DISPOSITION VIT will
not receive or permit storage of damaged, abandoned, misdelivered, or unidentified equipment on a
TERMINAL. The OCEAN CARRIER shall be notified as follows:

A.

B.

Damaged Empt y CONTAINERS
a.

By notification via interchange (TIR), OCEAN CARRIERS have fifteen ( 15) calendar days
FREE TIME in order to repair or remove a damaged empty CONTAINER from a
TERMINAL.

b.

After 45 days all damaged CONTAINERS will be moved from the TERMINAL by VIT to an
off TERMINAL vendor(s) yard and a charge of 312.00 will be invoiced to the OCEAN
CARRIER. Off terminal yard vendor(s) will invoice shipline directly for off terminal yard
services.

c.

Damaged CONTAINERS on wheels will be stacked in a designated area after ten (I 0)
calendar days. All REHANDLING$ required to place CONTAINER to/from the stack will
be invoiced in accordance with SOR Item 465-6(2)

All Other Equi pment
a.

By written notification, from VIT, shiplines, tenants and vendors have forty-five (45)
calendar days to repair or remove damaged equipment not covered above in paragraph (a)
from the TERMINAL.

b.

After such forty-five (45) days of storage, damaged equipment will be moved from the
TERMINAL by VIT at the rate of 312.00 to an off TERMINAL vendor(s) yard and invoiced
to the owner of the equipment by said Vendor for their services.

279 FOREST PRODUCTS Please contact VIT at vitrates@vit.org for rates, charges, DEMURRAGE,
FREE TIME and other services on the HANDLING of FOREST PRODUCTS.

A82

Page 17 of 66

VIT

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

Page 18 of 66

280 METRIC CONVERSION TABLE The following table is published for convenience and as a guide
for measurement conversion when necessary.
. r;:::J
T;:;;;.
··-~:;:;;
-F:::;
l~
=
- d=···==···.:.:..:··.::;:
···· ·=·
· ··=··=··=··
···· ·=·
·····;;;::·
·····=·····=··-·=···=
··········=
..=·=·--r:,G::::-iv
=e-=
n;;;::.====.==··=
·· ····:::;······=··
····;;:;;;··
--··=
······;;;;.
··· =·

·=·······=-·=--·-=··-;;;;;·;;;;:··-rM~i~j~-~;--···--··-·

. . . . . . . . ---.

~ M-e~
tric~T~O
-N
_s_______________ !~
Sh_o_rt_T
=o
~
N~
S --------------- ~~
Sh~o-rt~T
=o
~
N~
S 7b~
y7
0.7
9~
07~-----l
~ S~
ho_rt
_T
=o
-N,.S ______________ !Metric

TONS

JMetric TONS by 1.102

lr.~=oen=~;:i~: : :;:~-:.-:~:: -N:s-: :~:.:; .:; -; ; _--------~r.~:~n: :.~!=i: ;: ~:-;:;~='~='N"s"7S; ; ·

=-·;:;.:-""·-·c..:.··=:·:::..c
- ·=
- -·= =
··--

·=·······=·

J;.,K:-,7iio;_:s:....:....
· ·:::..·- - - -- - -- -JPounds
·J Pounds

.

ltoe~~i~-~~~;:;·~-~~4
JPounds by 0.4536

]Kilos

'JKilos by 2.2046

F

Meacsuu_ .rfte_ .m)_ en___t TONS
_lMeasuremen~
]1
TONS by 1.133
I(4 0
~
M~eas-ure
_m
_e
_n_
t~
T~
O
~N
-S ------- r~-~~;;;;;;;;;;________________
· Cubic Meters
Cubic Meters by 0.883
(40 cu.ft.)

Cubic Meters
I

I

jcubic Meters
IMFBM's
(Ft. B.M. in thousands)

jcubic Meters

!cubic Meters by 0.424

Metric Equivalents
Kilo - 2.2046 Pounds
Metric TON - 1,000 Kilos
Pound - 0.4536 Kilos
CWT (US - I00 Pounds) - 45.359 Kilos or 0.04536 Metric TONS
CWT (British - 112 Pounds) - 50.802 Kilos or 0,0508 Metric TONS
Bushel Grain (US) - 60 Pounds - 27.216 Kilos
Cubic Meter- 35.315 Cubic Feet
Cubic Foot - 0.0283 Cubic Meters
,000 Ft. B.M.- 83.33 Cubic Feet
Cubic Meter- 423.792 Ft. ~.M.
Barrel (US- 42 Gallons) - 158.987 Liters
Meter- 39.37 Inches
2 Inches - 30.48 Centimeters

A83

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

Page 19 of 66

SECTION Ill
DOCKAGE, WHARFAGE, EQUIPMENT RENTAL,
MISCELLANEOUS VESSEL RULES
AND CHARGES
300 DOCKAGE CHARGES

I
IVESSELS

,_

I
I Barges

I
I

loto 600'

I
I
I

j60 I' and greater

~-~=~hC~ar~:s___. . .

I

Per
Lineal Foot
.,

...

·-···-·-·····-······--.......

(I) VESSELS

il
I
I

24 hours)

(2) Barges - Minimum Charge
. ---

11.99
7.53

·I

~~er VESSEL (covers the

Minimum Charge

11.21

I

I"

I

·!per VESSEL (covers the 1" -1
q24 hours)

3.59
691.75
691.75

Note I - Unless otherwise shown, all charges will be based on a per hour basis excluding downti.m e for VIT
equipment.
Note 2 - DOCKAGE will be assessed to the VESSEL on overall length published in the current "Lioyds
Register of Ships." If length is not shown in this publication, the length shown in the VESSEL's Certificate of
Registry will be accepted.
Note 3 -The period of time for which DOCKAGE charges shall be assessed against a VESSEL shall
commence when such VESSEL is made fast to, the pier or dock and continue until such VESSEL has vacated
the berth.
·
Note 4 - Lay berths may be arranged with VIT.
lOS CANCELLATION OF PIER DOCKING When it is desired to cancel or postpone pier docking,
advance notice of twenty-four (24) hours shall be given to VIT to preclude any loss of DOCKAGE charges.
Otherwise, VIT will bill against the Master, VESSEL, ship owners or agents, a DOCKAGE charge of 312.05,
and will use the pier for other purposes.

310 LINE HANDLING
Each Movement

Passenger VESSELS, VESSELS
600' and over, and VESSELS
SHIFTING
Above rates include two (2) hours standby time. Additional standby time will be assessed at additional
standby time hourly rates shown above.

A84

-

!

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 20 of 66

311 LINE HANDLING - RESTRICTED HOLIDAYS Differential on double the Straight Time rate
will apply per man hour which will be in addition to the Line Handling charges published in Item 310.
3 I 5 WHARFAGE CHARGES

JACargo not otherwise shown.
jB.

jper 2,000 pounds

~~ad~~- ISO_CONT~IN~RS:_ (No~e I)

-

-

..

-

-

I

4.77

jpe~ -~ ~~~~- pou~ds _I

4.45

per 2,000 pounds

3.26

C. Breakbulk cargo interchanged between water

CARRIERs or direct discharge/load of breakbulk cargo
to/from water and not handled over piers, wharves or
bulkheads ofTERMINAL.

I

E. Self-propelled automobiles and trucks on wheels,
unboxed, not exceeding 5000 pounds per vehicle.
- ----

-

.

-·

'I

!per vehicle

---

F. Transshipped CONTAINERS, loaded or empty,
interchanged between VESSELS and handled
over piers, wharves or bulkheads of TERMINAL. See
Item 450 for charges. ________. __
--- ------··-···
.......... ---·· - ····-·· --- .. -- --·
-G. Loaded ISO CONTAINERS, not loaded to or discharged
from VESSEL.

c=l

6.08

-····· -------··-

........ _________ . ,..............

------

_, ______

63.45

!per CONTAINER I

Note I -Charge to be based on we1ght of cargo only. Tare we1ght of CONTAINER 1s excluded.
WHARFAGE charges are for the account of the OCEAN CARRIER or agent.
Note 2 - Failure to submit billing information within seven (7} calendar days as required by this SOR will
result in withdrawal of credit privileges and issuance of a final invoice for WHARFAGE will be based on the
net registered tonnage of the VESSEL according to Lloyd's Register of Shipping.

320 EQUIPMENT RENTAL GENERAL CONDITIONS
it within its rated capacity.

Parties renting equipment agree to operate

325 EQUIPMENT RENTAL CHARGES (Notes}

;I

TERMINAL

I

I

ICONTAINER Cranes

-~~IT, PMT,

1, 168.85

NNMT, VIG
:j.Other than CONTAINERl NIT, PMT,
operation
VIG
_________ _ _______ ·---- .. --- ·· NNMT,
- ----············· ........................
,

L_ __

· -- -----------.

--

----- --- ····-------- --.... .....

..•..

~CONTAINER/Breakbulk
Handling Equipment

....................................

~ ~ant'! Crane, I I 0 TON IPMT
capacity
!Forklift 6000#
!Forklift 8000#
!Forklift 15000#

· ·•····

·············-"·- ···- ·-·

Notes

_,I
I hour '1 1,2,3,4,5,7

~, 1.3,4,5,6

--···--···-· "" ········-

····· ···--·-·-·-····-·· -·-·-·-

I hour

. ....................

'

····-······

······-··· ········

,1.3,4,5,6

I
1,168.85

~ , 1,3,4,5,6

I
20.30

I See Notes !JI. 5 ,7 ,8

I
20.30
I See Notes

I

~ ~IT, PMT,

NNMT, VIG

-. ·-··-···-·· ·-·--·-229.95

I

. I~IT,

PMT,
NNMT, VIG

1,168.85

t

~~IT, PMT,

NNMT, VIG

I=~~:;~_
I

I

~~IT, PMT,

NNMT, VIG

Per hour or
fraction thereof

34.05
I

A85

[~-=~~~~---------------

I See Notes 11•5 ,7,8

-·---·- ·- -·

VIT

.

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

'ISee Notes

·! Forklift 36000#

NIT, PMT,
· NNMT, VIG

91.80

IForklift 45000#

NIT, PMT,
NNMT, VIG

147.20

!Forklift 52,000#

NIT, PMT,
NNMT, VIG

147.20

ISee Notes :I I,S, 7,8
·I See Notes ~~ ,S, 7 , 8

!Yard Hustler

NIT, PMT,
NNMT, VIG

60.25

I See Notes II ,S, 7,8

joual Tandem Hustler

NIT, PMT,
NNMT, VIG

87.70

.1See Notes II ,5,7•8

ITrackmobile

NIT, PMT,
NNMT, VIG

74.15

·~1 1,5,7

I!Low Boy/Mafi (First 24
hour period)

NIT, PMT,
NNMT, VIG

327.50

-----···-- --·------................ -- __ ---------

I_

,

~ ~ow Boy/Mafi (SOT, SOT NIT, PMT,
or I OOT) After I'< period NNMT,VIG
ITranstrailer

NIT, PMT,
NNMT, VIG

IChassis

NIT, PMT,
NNMT,VIG

-~~enset for Refrigerated
CONTAINER

NIT, PMT,
NNMT, VIG

;I

l

2~~i;~r~.J

54.25

I 24 hour

15.75

I. - ~ -~o-ur___ ' l7

20.35
294.55

I

II ,5,7 ,8

•I

period

I

•

24 hour
period

:I

L.~P~;~;~r l

9

__

Note I - Rates do not include operators (See Note 5).
Note 2 - Operators will be available 1/2 hour prior to VESSEL starting time upon request at no additional
cost.
Note 3 - Billing for crane time will be computed as follows: Total time for crane billing will be calculated
beginning with the time crane is ordered until dismissed with boom in upright position. Total time for
CONTAINER handling equipment billing will be calculated beginning with the time CONTAINER handling
equipment is ordered until dismissed. For CONTAINER operations, billing increment shall not be less than
1/2 hour.
Note 4 - Equipment rental and labor charges for time delays due to non-arrival of VESSEL shall be calculated
and billed at (i) 25% of the applicable equipment rental and (ii) I00% of the prevailing labor rate (including
without limitation taxes, benefits, and other costS). Labor charges for t ime delays due to inclement weather
shall be calculated and billed at I 00% of the prevailing labor rate (including without limitation taxes, benefits,
and other costs). Time delays caused by mechanical failures of VIT's equipment shall be calculated and no
charges will be billed for this time.
Note 5 - VIT will charge the prevailing labor rate (including without limitation taxes, benefits, and other
costs) in conjunction with the minimum hourly guarantee required by the International Longshoremen's
Association contract for equipment operators.
Note 6 - Individual lifts over 80,000 lbs., excluding ISO CONTAINER and machinery, as specifically described
in Item 560, are subject to the following charges in addition to the hourly rates specified above . If more than
one lift is made during the same period of use of the same necessary equipment, the heaviest piece will be
assessed charges based on the chart shown below and other lifts will be assessed charges based on one-half
of the charges on the chart.

A86

Page 21 of 66

Schedule of Rates Effective Date I 0/ I/20 16
Last Amended: Not applicable.

VIT

I
I

t"so.oo 1 to 14o.ooo lbs.

······

.

-.

r--

j 200,00 I to 250,000 lbs.

I
I

j 250,oo 1 to 30o,ooo lbs.
1300,00 I to 350,000 lbs.

I

j 350,00 I to 400,000 lbs.
~

Per 2,000 lbs.

L

, .140,00 I to 200,000 lbs.

Note 7 - Minimum Billing,

Page 22 of 66

.........................._....----··-

5.66
7.52
18.76
24.39
30.04

....... -·-···--

35.65

hour when used with extra labor

Note 8- Outside Rental rates will be quoted upon request by VIT Rates. Prior to equipment use, USER must
have on file with VIT. a signed form to indemnify VIT against liabilities arising from use of equipment without
VIT operator. One hour minimum.
Note 9- Fuel, mounting or dismounting extra

330 VESSEL OVERTIME CHARGES VESSELS working overtime hours will be assessed 298.70 per hour, or any
fraction thereof. Saturday. Sundays, and HOLIDAYS are subject to a minimum of four (4) hours. Meal hours for the
delivery clerks will be billed in addition at either the overtime rate or the premium meal hour rate as appropriate
(See Item 805).
Note I - Delivery clerks will work through a meal hour only at the request of the OCEAN CARRIER, or their agent.
Note 2- Upon completion of a VESSEL working, if a delivery clerk is required to receipt for cargo (signing up) during
an overtime period, billing will be at the overtime rate or the premium meal hour rate as appropriate. (See Item 805).
Note 3 - Late start - if VESSEL does not start work until after call time, the billing period will begin at the normal
starting time originally established by the agent.

335 FRESH WATER

A

B.

VIT will furnish FRESH WATER to VESSELS at the following rates:
a. 17.33 per 1000 gallons during regular hours.
b. 18.65 per I 000 gallons during other than regular hours.
Subject to minimum of 203.45 if watering is commenced and completed during regular hours. For service
rendered at other than regular hours, the minimum will be 672.55 except on weekends or HOLIDAYS when
the minimum will be 927.70.

A87

Schedule of Rates Effective Date I 0/1/2016
Last Amended: Not applicable.

VlT

Page 23 of 66

SECTION IV
CONTAINER RULES AND CHARGES
40 I EFFICIENT STOWAGE/RESTOWS
If a VESSEL call requires RESTOWS and SHIFTS in excess of ten percent (I 0%) of the number of CONTAINERS
loaded and discharged from the VESSEL, then the VESSEL shall pay VIT 20.00 per REST OW and SHIFT in excess of
this threshold.
402 EQUIPMENT INTERCHANGE RECEIPT (EIR) CUSTODY

A

VIT will not retain a paper copy of the computer printed Equipment Interchange Receipt (EIR).

B.

NIT, PMT, and NNMT- Copies of EIR's can be reprinted from at www.vit.org

C. VIG- Copies of EIR's are provided via email. Send email request to Tickets@apmtva.com putting the unit
number in subject line.

411 WEIGHING LOADED EXPORT CONTAINERS

A

When a CONTAINER arrives at a terminal by truck, the gross weight of the truck power unit ("tractor"),
CONTAINER, and intermodal chassis may be obtained using scales calibrated in accordance with any
applicable state requirements. When a CONTAINER arrives at a terminal by rail, the CONTAINER is
loaded onto a chassis or trailer, and the gross weight of the tractor, CONTAINER, and chassis/trailer may
be obtained using scales calibrated in accordance with any applicable state requirements.

B. VIT will calculate the actual gross weight of the CONTAINER by subtracting the chassis/trailer weight and
tractor weight from the gross weight obtained via the method described above. The chassis/trailer weight
and tractor weight may be derived from (i) standard, average weights for the tractor and chassis; (ii) weights
previously registered in the terminal system; (iii) weights provided at the gate by the truck driver; or (iv)
weights stenciled or placarded on the equipment. VIT will make the actual gross weight of the
CONTAINER available electronically directly to the VESSEL operator.
.
C.

Unless the VESSEL operator chooses the alternative stated below, VIT shall enter the actual gross weight of
the CONTAINER determined by VIT as described above into VIT's TOS as the VGM. Pursuant to the U.S.
Coast Guard's Maritime Safety Information Bulletin ("MSIB") 009/16, the VESSEL operator may use the
weight provided by VIT as the equivalent of VGM to comply with SO LAS Regulation Vl/2.

D. Alternatively, the VESSEL operator may instruct VIT not to use the actual gross weight calculated by VIT as
the VGM, in which case the VESSEL operator must send the VGM to VIT on behalf of the shipper. Under
this alternative, the VESSEL operator must send the VGM of the CONTAINER to VIT electronically via
VERMAS electronic data interchange at least twenty-four (24) hours prior to the LOADING of the
CONTAINER on the VESSEL. The VESSEL operator is responsible for resolving all discrepancies between
weights it receives from VIT, the shipper, or other sources prior to submitting the VGM to VIT. The
shipper shall not sign any document or electronic message accompanying the weight sent from the VESSEL
operator to VIT. If VIT does not receive the VGM from the VESSEL operator within the required time, then
the CONTAINER may not be loaded, and the OCEAN CARRIER and other responsible parties shall be
liable to VIT for DEMURRAGE (Item 461) with no FREE TIME (Item 456), roll, REHANDLING (Item 465),
and other applicable charges. VIT is not responsible for the weight received as the VGM from the VESSEL
operator.
E.

All shippers using the TERMINALS authorize the use of such actual gross weight(s) determined by VIT in the
manner as described above to satisfy the SOLAS obligations on shippers to provide VGM.

A88

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

F.

Page 24 of 66

VIT's confirmation of the LOADING event to the OCEAN CARRIER(s) shall refer to the VGM received or
used as provided above.

G. The VESSEL operator should call VIT's Customer Service at 757-440-7160 or email VIT at
POVCustomerService@vit.org for instructions for the electronic data interchange of weight information
described above.

420 RECEIVING/DELIVERING CHASSIS, FRAMES OR BOGIES The term RECEIVING/DELIVERING
CHASSIS, FRAMES OR BOGIES refers to receiving chassis, frames, or bogies from or delivering to an inland
CARRIER. Prior arrangements must be made with VIT for this service which includes necessary clerical work to
perform the interchange.
425 REHANDLING CONTAINER
A

On Own Wheels. The term REHANDLING CONTAINER ON OWN WHEELS refers to the moving or
towing with a TERMINAL tractor ("hustler") and operator of a CONTAINER on its own chassis and wheels
(same to be furnished by owner or agent), between POINT OF REST and designated point on the
TERMINAL.
B. Into/From Stack. The term REHANDLING CONTAINER INTO/FROM STACK refers to the placing of a
CONTAINER in the stack or removing a CONTAINER from the stack to its own chassis, frame, bogie or
wheels with TERMINAL labor and equipment. These operations are in addition to the original move
provided for in the basic CONTAINER RECEIVING charge.
C. Chassis Change. Once a WHEELED CONTAINER is received by VIT at a POINT OF REST, any
subsequent change of the CONTAINER to other wheels, including flatbeds, will be performed by request
only, and charges per Item 465 will apply.

426 REHANDLING BARE CHASSIS ON WHEELS The term REHANDLING BARE CHASSIS ON WHEELS
refers to the moving or towing with a TERMINAL tractor or operator of a bare chassis on wheels (same to be
furnished by owner or agent) between POINT OF REST and designated point on the TERMINAL.
430 RECEIVING CONTAINER- GROUNDED OR STACKED OPERATION
CONTAINERS will be handled in the following manner:
A.

A CONTAINER brought to a TERMINAL by an inland motor or rail CARRIER will be removed from its
wheels, bogies, chassis, frame, or flatbed trailer or car by VIT with its own labor and mechanical equipment.
In turn, the CONTAINER will be grounded or stacked by VIT in the CONTAINER YARD at a POINT OF
REST awaiting movement to the VESSEL. When requested, VIT will inform the VESSEL and/or {its agent) as
to the exact location of the CONTAINER. The VESSEL's stevedore will in turn remove the CONTAINER
from the POINT OF REST in the CONTAINER YARD and transport the CONTAINER to the VESSEL.
B. A CONTAINER will be received by VIT from the VESSEL and/or (its agent) at a POINT OF REST in the
CONTAINER YARD for delivery to an inland motor or rail CARRIER (or its agent). The VESSEL's stevedore
will ground or stack the CONTAINER in the CONTAINER YARD at a POINT OF REST designated by VIT.
When so requested by the inland motor or rail CARRIER (or its agent), VIT, with its labor and mechanical
equipment, will remove the CONTAINER from its POINT OF REST and place the CONTAINER on wheels,
bogies, chassis, frames, or flatbed trailer for carriage by the inland motor or rail CARRIER.
C. VIT will perform the necessary clerical work to effect physical exchange of the CONTAINER between the
motor CARRIER or rail CARRIER (or its agent) or VESSEL and VIT. Not included is any repair to the
CONTAINER or its equipment.
D. VIT will weigh loaded export CONTAINERS as provided in this SOR.

A89

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 25 of 66

435 RECEIVING CONTAINER- WHEELED OPERATION

A

The term RECEIVING CONTAINER - WHEELED OPERATION refers to acceptance of a WHEELED
CONTAINER, empty or loaded, by VIT in an OPEN STORAGE OR PARKING AREA from the inland
CARRIER, so as to facilitate physical exchange of the WHEELED CONTAINER with a VESSEL. VIT may
accept a WHEELED CONTAINER in an OPEN STORAGE OR PARKING AREA-from a VESSEL to facilitate
physical exchange with an inland CARRIER.

B.

CONTAINERS will be handled in the following manner:
I.

VIT will designate and provide the necessary OPEN STORAGE OR PARKING AREA on which to park
the WHEELED CONTAINER.

2.

VIT will perform the necessary clerical work to effect physical exchange of the WHEELED
CONTAINER between the motor CARRIER or rail CARRIER (or its agent) or water CARRIER and VIT.
Not included is any repair to the CONTAINER or its equipment.

3.

VIT will weigh loaded export CONTAINERS as provided in this SOR.

4.

Unless prior arrangements are made with VIT, the TERMINAL will not use its tractors, mechanical
equipment, or personnel to dray or move WHEELED CONTAINERS to/from or within the OPEN
STORAGE OR PARKING AREA.

436 DUAL RECEIVING CONTAINER CHARGE
A.

VIT will assess the following charges in DUAL RECEIVING situations:
I.

If an empty CONTAINER arrives by rail and departs by rail, then the rail operator shall be charged two (2)
rail ramp charges.

2.

If a loaded CONTAINER arrives by rail and departs by rail, then the rail operator shall be charged two (2)
rail ramp charges, and the OCEAN CARRIER shall be charged two (2) Receiving/Delivery CONTAINER
charges in addition to WHARFAGE and M&R inspection charges (Items 445, 315-H & 465-9).

3.

If an empty CONTAINER arrives by rail and departs by gate, then the rail operator shall be charged one (I)
rail ramp charge, unless the CONTAINER arrived from the VIP, in which case there shall be no charge.

4.

lfa loaded CONTAINER arrives by rail and departs by gate, then the rail operator shall be charged one (I)
rail ramp charge, and the OCEAN CARRIER shall be charged two (2) Receiving/Delivery CONTAINER
charges in addition to WHARFAGE and M&R inspection charges (Items 445, 315-H & 465-9).

5.

If an empty CONTAINER arrives by gate and departs by rail, then the rail operator shall be charged one (I)
rail ramp charge.

6.

If a loaded CONTAINER arrives by gate and departs by gate, then the OCEAN CARRIER shall be charged
two (2) Receiving/Delivery CONTAINER charges in addition to WHARFAGE and M&R inspection charges
(Items 445, 315-H & 465-9).

7.

If a loaded CONTAINER arrives by gate and departs by rail, then the OCEAN CARRIER shall be charged
two (2) Receiving/Delivery CONTAINER charges in addition to WHARFAGE and M&R inspection charges
(Items 445, 315-H & 465-9), and the rail operator shall be charged one (I) rail ramp charge.

A90

VIT

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

8.

B.

Page 26 of 66

If a loaded CONTAINER which arrived by truck or rail departs by gate for the purpose of a mandatory
governmental inspection, the OCEAN CARRIER shall be charged two (2) Receiving/Delivery CONTAINER
charges in addition to WHARFAGE and M&R inspection charges (Items 445, 31 5-H & 465-9).

These charges shall not apply to gate moves performed for VIT's convenience. No free-time (Item 456) shall be
allowed for CONTAINERS in DUAL RECEIVING situations. These charges are in addition to other applicable
charges in this SOR that may apply, such as without limitation security surcharges, empty storage charges, and
DEMURRAGE.

440 RECEIVING CONTAINER CHARGES· EXPEDITED HANDLING If in the interest of efficient
operations a CONTAINER cannot be carried to the POINT OF REST or to the OPEN STORAGE OR PARKING
AREA, the applicable RECEIVING charge will be assessed in any event. Prior approval is not required to allow a
CONTAINER to bypass POINT OF REST and OPEN STORAGE OR PARKING AREA to permit expedited
HANDLING.
445 RECEIVING CONTAINER CHAR.GES Wheeled, grounded, or stacked operation 109.45 (Applicable
under conditions described in Items 430 and 435).
450 CONTAINERS INTERCHANGED BETWEEN VESSELS (TRANSHIPMENT) (Notes I through 5)
Loaded and empty CONTAINERS interchanged between VESSELS and moved over piers, wharves or bulkheads
within ten (I 0) days (Note I) will be assessed 60.75 per CONTAINER against the inbound wat~r CARRIER (Note 2).
This charge will apply if the CONTAINER is received and delivered by the same TERMINAL and upon 24 hour prior
notification to VIT (Note 3).
Note I -CONTAINERS departing via a VESSEL after ten (10) days will be assessed 48.75 per CONTAINER against
the outbound CARRIER.
Note 2 - Should an OCEAN CARRIER have multiple services at the same TERMINAL, the OCEAN CARRIER'S rate
will be assessed upon departure.
Note 3 - If VIT does not receive notification, electronically transmitted or manually updated in VIT's Operations
System, then the normal RECEIVING CONTAINER charge (Item 445) will apply.
Note 4- CONTAINERS departing gate/rail will be assessed 48.75 at time of departure.
Note 5 - If POINT OF REST changes, charges according to Item 465-6 will apply.

A91

VIT

Schedule of Rates Effective Date I0/ I/20 I6
Last Amended: Not applicable.

Page 27 of 66

451 BASIC CONTAINER UNIT RATE The BASIC CONTAINER UNIT RATE is 400.00. The BASIC
CONTAINER UNIT RATE includes the following SOR Items, and only these Items:
DOCKAGE- One (I) Twenty- Four (24) hour period per VESSEL- Item 300(A) (B)
Linehandling- One (I) period {2 hours) for docking and one (I) period {2 hours) for undocking- Item 3 I0
WHARFAGE- CONTAINERS - Item 315(B)
DUAL RECEIVING CONTAINER. Charge- (Empties only; parties other than the OCEAN CARRIER. may be billed)Item 436
RECEIVING CONTAINER Charges -Item 445
Transshipment and Water to Water CONTAINERS (Additional charges in the Notes in SOR are NOT included in
the BASIC CONTAINER UNIT RATE) -Item 450
Receiving Chassis - Item 465( I)
REHANDLING CONTAINERS Into/From Stack (R.EHANDLINGS identified in SOR Items 430 and 436 only) -Item
465(6) (A-2)
Chassis Change (From a damaged chassis to an undamaged chassis only) - Item 465(7)
CONTAINER/Chassis Inspection- Item 465(9)
452 CONTAINERS INTERCHANGED BETWEEN OCEAN CARRIERS ON TERMINAL When a
CONTAINER is on TERMINAL and the booking is changed to another VESSEL and OCEAN CARRIER, an additional
HANDLING charge will be billed to the OCEAN CARRIER. ultimately taking the cargo. A RECEIVING charge will be
assessed.
453 ROLLED CONTAINER CHARGE The OCEAN CARRIER. shall pay a charge of 48.00 for each time a
ROLLED CONTAINER. is booked to another VESSEL, VESSEL call, or a different port of destination.
456 FREE TIME LOADED CONTAINERS This item applies only to loaded CONTAINERS.
A

EXPORTS
a.

NON-REFRIGERATED GATE TO VESSEL AT A VIT MARINE TERMINAL (VIG, NIT, NNMT, PMT)Seven (7) consecutive days FREE TIME beginning with the first 8:00 A.M. after placement on the
TERMINAL and ending with the VESSEL sail date. If the VESSEL sails between the hours of 12:00 A.M .
and 3:00A.M., the end date will be the prior day.

b.

NON-REFRIGERATED RAIL TO VESSEL AT A VIT MARINE TERMINAL (VIG, NIT, NNMT, PMT)Ten (I 0) consecutive days FREE TIME beginning with the first 8:00 A.M. after placement on the
TERMINAL and ending with the VESSEL sail date. If the VESSEL sails between the hours of 12:00 A.M.
and 3:00A.M., the end date will be the prior day.

c.

NON-REFRIGERATED TRANSSHIPPED CONTAINERS- Ten (10) consecutive days FREE TIME
beginning with the first 8:00A.M. after the inbound VESSEL sail date and ending with the outbound
VESSEL sail date. If the outbound VESSEL sails between the hours of 12:00 A.M. and 3:00 A.M., the end
date will be the prior day.

d.

REFRIGERATED CONTAINERS- Five (5) consecutive days FREE TIME beginning with the first 8:00
A.M. after placement on the TERMINAL and ending with the VESSEL sail date. If the VESSEL sails
between the hours of 12:00 A.M. and 3:00A.M., the end date will be the prior day.

e.

VIT is not obligated to receive loaded CONTAINER.S onto a TERMINAL for the full amount of the FREE
TIME prior to the VESSEL's departure from the TERMINAL; see SOR.Item 231 .

f.

FREE TIME does not reset if a CONTAINER. is moved from one TERMINAL to another, and time spent
in inter-TERMINAL transit shall count against FREE TIME. This rule shall not apply if the movement is

A92

VIT

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

Page 28 of 66

solely for VIT's convenience; when the movement is for VIT's convenience, FREE TIME shall reset upon
delivery of the CONTAINER to the new TERMINAL.

B.

g.

No FREE TIME shall be allowed for CONTAINERS in DUAL RECEIVING situations (Item 436). Except
for containers that arrive by rail and depart via truck needing fumigation will be provided 4 days free
time with the first 8:00 A.M. after placement on the terminal until departure.

h.

HREW containers that depart a VIT facility and return to the terminal will be provided a total of ten
(I 0) days free time. The free time will be allotted in two increments -the first transaction of the
container will be provided 4 days free time with the first 8:00 A.M. after placement on the terminal or
the inbound Vessel sail date through departure or the vessel sail date. The second transaction will be
given 6 days free time until 8:00 A.M. after placement on the terminal until departure or the vessel sail
date.

IMPORTS AND ALL OTHER CONTAINERS
a.

NON-REFRIGERATED CONTAINERS - Seven (7) consecutive days FREE TIME beginning with the first
8:00 A.M. after the inbound VESSEL sail date and ending upon departure of the CONTAINER from the
TERMINAL.

b.

REFRIGERATED CONTAINERS- Five (5) consecutive days FREE TIME beginning with the first 8:00
A.M. after the inbound VESSEL sail date and ending upon departure of the CONTAINER from the
TERMINAL.

c.

FREE TIME applies only to the OCEAN CARRIER. DEMURRAGE charges (Item 461) will apply upon
expiration of FREE TIME.

d.

Import coffee shipments in CONTAINERS- Seven (7) consecutive days FREE TIME beginning with the
first 8:00 A.M. after the inbound VESSEL sail date and ending upon departure of the CONTAINER from
the terminal.

e.

No FREE TIME shall be allowed for CONTAINERS in DUAL RECEIVING situations (Item 436). Except
for containers that arrive by rail and depart via truck needing fumigation will be provided 4 days free
time with the first 8:00 A.M. after placement on the terminal until departure.

f.

HREW containers that depart a VIT facility and return to the terminal will be provided a total of ten
(I 0) days free time. The free time will be allotted in two increments -the first transaction of the
container will be provided 4 days free time with the first 8:00 A.M. after placement on the terminal or
the inbound Vessel sail date through departure or the vessel sail date. The second transaction will be
given 6 days free time until 8:00 A.M. after placement on the terminal until departure or the vessel sail
date.

460 STORAGE OF EMPTY CONTAINERS
A.

For the purposes of this Section:
a.

"Empty Benchmark" means the number which is ten percent (I 0%) of the number of CARRIER's
CONTAINER Movements in a month times the number of days in the month.

b.

"Daily Empty Storage-days" means the number of empty CONTAINERS stored on the TERMINALS
(including without limitation all damaged empty CONTAINERS) by CARRIER on each day (or
partial day) of the month.

A93

VIT

Schedule of Rates Effective Date I 0/ I/20 16
Last Amended: Not applicable.

c.

Page 29 of 66

"Excess Empty Storage-day(s)" means the total number of Daily Empty Storage-days accumulated in
the month in excess of the Empty Benchmark.

B.

At the end of each month, VIT shall bill, and CARRIER shall pay, the daily per-CONTAINER storage charge
provided in the SOR (currently SOR Item 460) for each Excess Empty Storage-day in the month.

C.

lfVIT notifies CARRIER that VIT projects that CARRIER's Daily Empty Storage-days will exceed the Empty
Benchmark in any month, then upon notice from VIT via email, CARRIER shall implement an evacuation plan
to reduce empty CONTAINERS on the TERMINALS within thirty (30) days to a level consistent with the
Empty Benchmark. Additionally, VIT reserves the right to adjust the Empty Benchmark upon at least thirty
(30) days' notice via email to CARRIER if in VIT's discretion the number of empty CONTAINERS on the
TERMINALS materially interferes with the efficient operation ofthe TERMINALS.

D. FOR EXAMPLE, if CARRIER has 2,000 CONTAINER Movements in the month of January. The Empty
Benchmark would be 200 (i.e., I 0% of 2,000) times 31 days 6,200. Assume that CARRIER had a total of
7,750 Daily Empty Storage-days in the month. At the end of January, CARRIER would be billed for 1,550
Excess Empty Storage-days, i.e., 7,750 total Daily Empty Storage-days minus the Benchmark of 6,200.

=

E.

Daily Storage Charge - 2.55 per container, per day

461 TERMINAL DEMURRAGE CHARGE- LOADED CONTAINER

A.

B.

Non-Refrigerated CONTAINERS exceeding FREE TIME will be assessed DEMURRAGE charges as follows:
a.

Days one (I) through three (3) - 16.00 per TEU, per day, for the account of the OCEAN CARRIER.

b.

Days four (4) through seven (7) - 27.00 per TEU, per day, for the account of the OCEAN
CARRIER.

c.

Days eight (8) and greater- 38.00 per TEU, per day, for the account of the OCEAN CARRIER.

Refrigerated CONTAINERS exceeding FREETIME will be assessed DEMURRAGE charges as follows:
a.

Days one (I) through four (4) - 80.00 per day, per CONTAINER, for the account of the OCEAN
CARRIER.

b.

Days five (5) and greater - 158.00 per day, per CONTAINER, for the account of the OCEAN
CARRIER.

462 CHASSIS After five (5) days notification, non-HRCP II bare chassis will be removed from the TERMINAL by
VIT. Bundling, drayage, and the off terminal inbound interchange will be charged to the owner or operator of the
chassis. All off terminal charges are for the account of the owner or operator of the chassis.
463 STORAGE OF EQUIPMENT UPON BANKRUPTCY Equipment including but not limited to a
CONTAINER or a chassis remaining on the TERMINAL 30 days after its owner or lessee has ceased operations due
to bankruptcy or has gone out of business will be charged a Storage charge on equipment. A charge of 39.96 unit,
per day will be assessed against the equipment from the date of the ceased operations and must be paid prior to
release of the equipment. The amount due will be from the party requesting the release of the equipment.

A94

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

Page 30 of 66

465 MISCELLANEOUS SERVICES AND CHARGES

I
I

:
per chassis, frame,
[ I. Receiving Chassis, Frames, Bogies, or Bolsters
21.45
,
bogie, or bolster
c-:-:-e-,-ig--::h--,-in_g___c=-o
~N-:=T""'A,_,I.,...
N:::E=R-=s-o-n--::W
-:-::-h-e....,
el:-s--------- ,per weighing
·'='2-. W
30.00
(Does not include HANDLING)
3. Applying Placarding/Sealing
; 'lperpl-ac_a_r_
d ----;.~----2-6. 5-0----l
: When required by applicable law, any government agency,
:,· OCEAN CARRIER, or others requesting the service, VIT will
per seal
13.75
· provide, prepare and affix placards and/or seal CONTAINER
lr4-.M_&_R_S_e_rv_i_
ce-s------------------~

I

I

I

lrp-er_C_O_N_T_A_IN_E_R--;.~----3-9-.3-0----I

A Remove Placards

,,...- -B-. _A_p_p-ly_T
_ a_p_e_P_a-tc_h_ _ _ _ __ _ _ _ _ _ _ _ _+ er patch

.,

11.40

~~~-----r---------1

Per 24 hours or
fraction thereof per
CONTAINER

5. (A) Electrical Service to Refrigerated CONTAINER
T:-e-m_p_e-ra-tu_r_e-:M
-:-o- n-:i_to_r:in-g-o-=f-=R-e7fr-:-ig-e-ra-t-e d-:-::
C:-:O::-:N
- :T
=-:A-::IN
-:-E
=:R
::-:S::---1
r---::(B=:):=
If requested, VIT will provide temperature monitoring service
on the "SPECIAL SERVICES" basis published in Item 805.
.

I

51.90

I

-

(C)Connect and Disconnect Refrigerated CONTAINERS

'

includes both
connect and
disconnect

63.65

. 6. REHANDLING CONTAINERS, Bare Chassis and Terminal
·
. (A) REHANDLING CONTAINERS
,...~I. _
O_n_o_w_n_ w
_ h-e e_l_s -----------------~ each operation

I

:J2. Into/from stack

10:-:9:-.4:-::5: - - - - , , - - -:-:

i Equipment.

leach operation

~~-~~~~-~-~~E~~~-~!:~=-~~~~~i~~~-~~~~~~-=-~~i~"_l_e~~-.<:1-~-~-~~s

! (C) SHIFTING CONTAINERS from a stack location to another

Istack location for the purpose of inspection

7. Chassis Change
Removing CONTAINERS from chassis, flatbed, frame or bogie
and placing on another mobile unit

'leach operation
per CONTAINER,
per SHIFT

!

54.75

25

~i-------.-IO_ _ __

~r-------,~r--------

8. Covered Storage
Covered storage for CONTAINERS may be available from the : per CONTAINER
per day
... .. -~er_ll1i~~l \'y'i~~--p~i_<?_~. ~~r.~-~~:111:~~~~ . . . . . ·---··- ······ · · · · ·--··--······-·····-······--·· -····· ·=
19. CONTAINER/Chassis Inspection
per CONTAINER
1 (No repairs included)
or empty chassis

1

I0. Tailgate CONTAINER Inspections for Governmental Agencies 15: raight Time

A95

I

54.75

109.70

I

12.05

.-----------I

I

17.00

~i-----~-8-1.-00_

_ _. -; ._-I

VIT

Inspection by U. S. Customs on CONTAINERS using Vacis X-Ray
machine or radiation screening equipment (Out gate RPM
inspections excluded).

per CONTAINER

Shipside VACIS Inspection performed as part of VESSEL operation.
Inspection by U. S. Customs on CONTAINERS using Vacis X-Ray
per CONTAINER
machine or radiation screening equipment (Out gate RPM
inspections excluded).
Each CONTAINER,
I I. (A) Receiving/Delivering "Out of Gauge" CONTAINERS
each operation

I

Page 31 of 66

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Each CONTAINER,
each operation

(B) Rigging Charge

I

I

322.00

161.00

I

120.45

I

484.05

Securing or Restowage - to be billed at EXTRA LABOR RATES in addition to any required materials that may be
required by the Coast Guard Inspector. These rates will be for the account ofthe cargo.

470 RECEIVING OTHER THAN STANDARD SIZE CONTAINERS Prior arrangements must be made with
VIT by the authorized agents of the VESSEL and the inland CARRIER before CONTAINERS having dimensional
lengths other than 20, 40, or 45-feet will be accepted by VIT.
475 RECEIVING CONTAINERS WITH DAMAGE OR VARIANCES CONTAINERS having damage or
variances which may impede normal movement with the TERMINAL's mechanical equipment will not be RECEIVED
unless arrangements have been made with VIT.
476 CONTAINERS WITH "OUT OF GAUGE" CARGO
A.

"Out of Gauge" CONTAINERS are those received or delivered with over width or over high cargo which
protrudes outside the standard frame and cannot be handled by normal use of a CONTAINER spreader bar
and includes without limitation flatracks, platforms, and opentops.

B.

VIT will "Receive or Deliver" these CONTAINERS and the charge assessed for this service is published in
Item 465-11 (A), which will be in-addition to the RECEIVING CONTAINER charges published in Item 445
and/or the Chassis Change charge published in Item 465-7. Should the HANDLING ofthese CONTAINERS
require the use of additional rigging gear other than a speed bar, the Rigging charge in Item 465-11 (B) will
also apply.

477 CONTAINERS WITH "OUT OF GAUGE" CARGO- VESSEL
A.

It is the responsibility of the VESSEL owners and operators to select the proper equipment to handle
overweight or out of gauge CONTAINERS or cargo and to deliver them to their designated POINT OF
REST. Overweight or out of gauge CONTAINERS or cargo that is left, parked or abandoned by the owners
or operators or their agents/stevedores short of their designated POINT OF REST will not be the
responsibility of VIT and any movement of the cargo or CONTAINERS to clear pier space or for other
TERMINAL purposes shall be for the account and at the risk of the VESSEL owner/operator or its
representative and the VESSEL owner/operator and its representative/stevedore accepts any and all liability
arising out of the TERMINAL's movement of the CONTAINER!cargo to its designated POINT OF REST.

B.

Import "Out of Gauge" CONTAINERS landed to TERMINAL equipment (mafi, cassette, or lowboy) from a
VESSEL are subject to TERMINAL equipment rental charges for the account of the representative/stevedore
or VESSEL owner/operator beginning at time of VESSEL sailing.

A96

VIT

Schedule of Rates Effective Date I0/1120 16
Last Amended: Not applicable.

C.

Page 32 of 66

Export "Out of Gauge" CONTAINERS received for VESSEL LOADING and placed on TERMINAL
equipment (mafi, cassette, or lowboy) for the convenience of the TERMINAL will receive ten (I 0)
consecutive calendar days equipment use at no charge. After ten (I 0) free days, TERMINAL equipment
rental charges will be assessed to the shipline until TERMINAL equipment is cleared.

D. VIT will receive these CONTAINERS at rates published in Item 805.
480 CONTAINERS LOADED IN EXCESS OF RATED CAPACITY The rates, rules, regulations and
charges published in this section of the SOR are not applicable to Standard Seagoing CONTAINERS loaded in excess
of their rated capacity. VIT will not permit its mechanical equipment (designed for movement or carriage of
CONTAINER) or its CONTAINER cranes to be used in any way to lift, move or transport a CONTAINER which is
loaded in excess ofthe CONTAINER's rated capacity. lfthe TERMINAL's equipment or crane is used to lift, move, or
transport a CONTAINER which is loaded in excess of the rated capacity, the party or parties causing such
unauthorized use shall be held liable for all LOSSES, claims, demands, and suits for damages, including death and
personal injury, and including court costs and attorney's fees, incident to or resulting from such unauthorized use.
485 CONTAINER REPAIR, SERVICING, AND/OR CLEANING VIT will license up to ,six (6)
CONTAINER/chassis M&R companies to operate facilities on its TERMINALS. Said licenses will be issued pursuant to
requirements as follows. Each such M&R operator shall:
I.

Each M&R operator shall execute a License Agreement with VIT. The License Agreement shall set out the
responsibilities and duties required of each M&R operator to work on the TERMINALS. The License
Agreement may contain one or more of the following requirements, which shall apply regardless of the
terms of the License Agreement.

2.

No less than 3 business days before an M&R operator is to perform work at the TERMINALS, each M&R
operator shall submit a Certificate of Insurance (COl) to VPA's Risk Management Department by
electronically scanning the COl and attaching it in PDF format to an email addressed to
riskmanagementstaff@vit.org evidencing that the M&R operator has the following insurance policies: a)
Commercial General Liability insurance with liability limits in an amount not less than Five-Million
Dollars (5,000,000,000), combined single limit, per occurrence; b) Commercial Auto Liability insurance
in an amount not less than Five-Million Dollars (5,000,000,000), combined single limit, per occurrence; c)
Workers' Compensation insurance in compliance with the laws ofthe Commonwealth of Virginia, and, if
required by law, an endorsement providing workers' compensation benefits under the federal Longshore and
Harbor Workers' Compensation Act; d) Employer's Liability Insurance in an amount not less than FiveMillion Dollars (5,000,000,000) combined single limit, per occurrence; and e) Pollution Liability insurance
with liability limits not less than Five-Million Dollars (5,000,000,000) combined single limit, per occurrence.
The VIT PARTIES shall be named as additional insured on each such policy.

3.

Mark and identify their equipment and maintain them in a good condition.

4.

Agree that all equipment not needed for current operations shall be removed promptly from the TERMINAL
premises. No equipment or material owned, leased, or rented by the M&R operator shall be abandoned or
discarded on the TERMINAL premises.

5.

Agree that all operations shall be conducted in accordance with TERMINAL rules and regulations, U.S.
Coast Guard regulations, OSHA regulations, this SOR, the master and local ILA collective bargaining
agreements, and all federal, state and municipal laws and ordinances.

6.

Agree that work shall be performed only in areas designated by VIT. Each M&R operator further agrees to
prohibit its employees from entering into or performing work in areas designated as "prohibited" unless
prior written permission given by VIT or designee. VIT must be notified of any movements of equipment
before the equipment is moved, and provided with information as to the new location of equipment.

A97

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

Page 33 of 66

7.

Deposit 500.00 with VIT or present a bond in this amount. Refund or balance thereof shall be returned to
M&R operator within thirty (30) days following cessation of its activities on the TERMINAL and after
settlement of account with VIT.

8.

Pay in advance to VITa fee of 180.00 for each six (6) months period or part thereof, for each and every
truck, van, CONTAINER or other type of vehicle used in its operation on the TERMINAL. This is subject
to a minimum payment of 610.00 for each six (6) months or part thereof, except for M&R operators that
have continuously operated on the TERMINAL since July I, 1973. Payments shall be paid on July I and
January I of each calendar year.

9.

Comply with all security requirements as specified for all vendors on the TERMINAL premises, including
but not limited to the periodic review of employee personnel files, the inspection of vehicles, etc.

I0. Operate with hours and procedures consistent with TERMINAL operations.
I I. Items 6 and 7 shall not apply to OCEAN CARRIERS that have leased terminal space for performing
maintenance of CONTAINERS.
12. Upon approval of a permit application, VIT shall issue a decal for each piece of equipment permitted to
operate on the TERMINALS. The decal shall be prominently displayed immediately below the corporate
name on the left side of the vehicle. Failure to comply with all the requirements above will resu It in
termination in accordance with provisions of the License Agreement.
490 CHASSIS BANDING AND/OR STACKING

.!Two chassis high

!per stack

I

333.35

~~~~~~--------------------r
l --~----~r-------=~~------

Three chassis high

per stack

~~-~_-ur-___--:~-~,--a-_ _ ~--~i-s-=-_~-i-~-=---~r::
- - - --------__-___ _-__ _-___- _-__ _ -----,P._:~ ~:~~-~
!Fiv: chassis hig~_ !per stack

588.15

_ ..... !

828.05
1 , - - -- - , 1.-=o8-=-o-=-_-6_0 _ _ _ _ _ _ ,

491 CHASSIS· LOADING TO OR UNLOADING FROM FLATBED TRAILERS

Per lift

167.85

492 CHASSIS • BREAKING DOWN
271.10

!Per stack
493 STACK FLATS AND MAFIS

190.00

JPer stack
494 LOADING/UNLOADING BUNDLED MAFIS ON FLATBED TRAILERS

I Per handling

216.50

A98

VIT

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

Page 34 of 66

495 DELIVERING/RECEIVING CONTAINERS DURING OVERTIME HOURS
-···· ....

-

·-·

Delivering/Receiving Containers at the Marine Terminals
- per hour, per lane
Delivering/Receiving Containers at the Marine Terminals
ES lot - per hour, per gang
Delivering/Receiving Containers at the Empty Container
Yards -per hour, per gang
- ...

-·

I

Per Hour

l

I

809.15

I

I

756.05

I

I

636.75

.I

Transfer Zone/live Gate at the Marine Terminals
- per hour, per gang

2,273.10

Per Meal Hour
1,012.05

949.50

796.70

2,841.70

I

I

Gate Hours:
VIG - Regular hours of operation are Monday- Friday 8:00 a.m.- 5:00 p.m.
NIT

- Regular hours of operation are Monday- Friday 8:00 a.m. - 5:00 p.m.

NNMT- Regular hours of operation are Monday- Friday 8:00 a.m.- 5:00 p.m.
Empty CONTAINER YARDS- Regular hours of operation are Monday- Friday 8:00 a.m. - 5:00 p.m.

Contact Terminal Management for overtime orders and minimum hours

of operation.

Gate Services

(VI G)

(757) 686-6135

Virginia.Gate@safe.vit.org

Gate Services

(NIT)

(757) 440-7078

GateServices-Admin@vit.org

(NNMT)

(757) 928-1204

NNMTOpsStaff@vit.org

Terminal Manager

496 HOT CONTAINER CHARGE The REHANDLING of CONTAINERS must be pre-planned. When an
unscheduled CONTAINER movement is not ordered before 2:00p.m. ofthe previous workday, the party requesting
the service will be charged.

lA Regular hours

lper container

I 349.65

,!'-B-.~O~v-e-rt-im
--e7h_o_u-rs-----------------------------rlp-~-~-:-o_~-t. .~in-. ~-.~----.-... r1~~~~~
4_ .~. ~~~-. . -.. . .-.. ------------------l

A99

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 35 of 66

499 RAIL LIFT/RAMP RATE
The per CONTAINER lift rate is 59.88. This charge includes the following:
A.

Export CONTAINERS (DERAMP), VIT will remove CONTAINER from the railcar and place at a POINT
OF REST on the TERMINAL.

B.

Import CONTAINERS (RAMP), VITwill move CONTAINER from the POINT OF REST in the
CONTAINER YARD and place CONTAINER on a railcar according to applicable laws and VIT's stowage
policies.

C. Service includes one (I) spot and one (I) pull of the railcar between the rail area and another onTERMINAL location if required by VIT.
D. This charge does not include any other charge stated in this SOR.

A100

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

Page 36 of 66

SECTIONV
ALL OTHER CARGO RULES
AND CHARGES

500 FREE TIME AND DEMURRAGE- NON-CONTAINERIZED CARGO
A.
Non-containerized EXPORT, IMPORT, INTERCOSTAL and COASTWISE CARGO held on the
TERMINALS will be granted ten (I 0) consecutive calendar days FREE TIME .. FREE TIME will begin with the first 8:00
a.m. after receipt of cargo. Upon expiration of FREE TIME, if any, DEMURRAGE charges will be assessed. Noncontainerized EXPORT CARGO DEMURRAGE ceases when VESSEL commences LOADING.
B.
FREE TIME accorded under the provisions and exceptions of this item is subject to the availability of
suitable storage space at VIT facilities. VIT reserves the right to deny or restrict FREE TIME on all cargo received at
the TERMINALS. Non-containerized EXPORT CARGO in storage will be released to "FREE TIME" status only
when VIT receives consignment instructions from shipper or agent pursuant to Item 232A above.
I.

Exception I: No FREE TIME will be allowed on BULK or refrigerated cargo.

2.

Exception 2:

3.

a.

CRUDE RUBBER
i. Breakbulk- FREE TIME of thirty (30) calendar days beginning with the first 8:00a.m. after
receipt of cargo from the VESSEL.
ii. Containerized - FREE TIME of thirty (30) calendar days beginning with the first 8:00a.m.
after the last CONTAINER of rubber per bill of lading is stripped.
iii. Lash barges - FREE TIME of thirty (30) calendar days beginning with the first 8:00a.m.
after receipt of each bill of lading from barge or barges.

b.

IRON or STEEL Articles, as described in Item 550, when suitable for outside storage, will be
allowed fifteen ( 15) calendar days FREE TIME beginning with the first 8:00 a.m. after receipt of
cargo.

c.

MACHINERY for export, when suitable for outside storage, will be allowed fifteen (15) calendar
days FREE TIME.

Exception 4 - FREE TIME on imported automobiles and trucks, unboxed, and not exceeding 5,000 pounds
per vehicle, required prior arrangements be made with VIT because of limited space. Whether or not VIT
will grant FREE TIME is within its sole discretion.

502 FREE TIME DURING LONGSHOREMEN'S LABOR DISPUTE
Cargo on FREE TIME at the commencement of any longshore strike will be afforded additional FREE TIME for the
duration of the strike. Upon termination of the strike, FREE TIME will continue to run for the unexpired number of
days generally allowed on cargo.
Cargo which is on first period DEMURRAGE at the commencement of the strike will continue on first period
DEMURRAGE for the duration of the strike. At the conclusion of the strike, the remaining days of the first period
DEMURRAGE will be allowed.
Cargo in second period DEMURRAGE at the commencement of the strike will be assessed charges a~ the first
period DEMURRAGE rates for the duration of the strike. At the conclusion of the strike, cargoes in this category
will revert immediately to the period of DEMURRAGE applicable at the commencement of the strike period.

A101

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

Page 37 of 66

505 DEMURRAGE- NON-CONTAINERIZED CARGO

'IP.· ,b.r-ticl!l~ ~~~ . o~~E!r:""i~E! ~P.E!~i~E!~_: · · -- _____ _ __ ...

L

I

_____ __

--~i~~t~~=__(~t:a.':~~a.~- ~~rs_ ~r fraction there_<:?f

I_ ----- · ....... · -- ___

lr

Each succeeding five (5) calendar day period or
fraction thereof

I

I
__I

. · ·- -· ___ _

--· .

__ .lp:r_3,0E_O p~~~~-~ --

I

lper 2,000 pounds

'

I

'I

6.17
13.61

1_~_.__~~-b~:r--__c_r~~=· _:p_:_:i~_:a~Y--~:~:r.i~~~~=-rn-~~6:______________ 1____________________ __~.---------1____ __ ~~~-!~: (~) _:~.:~~~ d~r_pe~!.'??__o~-~r~c-~i?~_t_~:~:-~t. ___ ......... IP:_r~·~?~p~un~s ____ l_____________ _~:~~ -- ___ _ __ _,

I
I

Second five (5) calendar day period or fraction
thereof

1

Each succeeding five (5) calendar day period or
fraction thereof

1

1

1

lper 2,000 pounds

I
Iper 2,000 pounds

.[ C. Iron and Steel

[

First ten (I 0) calendar days or fraction thereof

1

Each_succeeding ten (I 0) calendar day period or
fractron thereof

1---- ·---------------·-----·-··- ------- -·--·--·-··-·------- ·------

'ID. Vehicle_s spec~fica!!~ describ_e~ in Item 594.

I
I

I E.

·

---------- ~---------

6.57
9.71

I
lr----~3=-.-=-5=-2----

I~r

I

I

I

2,000 ounds
p
p
-------··--· -----·--

~ .05

I. Covered area

Iper day PE!r vehicle I

6.37

2. Open area

lper day per vehicle

6.37

v~~~~~;~~cifically described in Item 560, 596 and
()pen a~ea

1

I
I

lper 2,000 pounds

,__

---- ----- -

[Per day, ·p:r ~nit_

_____ _____

F. Minimum charges
(N~t subject to Items 592 and 825.)

!per shipment per
jperiod

I

I
.... I_- - -I

I

6.37
_
19 10

Note I.
See Item 232 regarding acceptance of EXPORT CARGO.
Note 2.
I.

2:

On IMPORT CARGO, FREE TIME commences with the first 8:00a.m. after receipt of cargo. See
Item 500 for exceptions.
On EXPORT CARGO, wharf demurrage ceases when VESSEL commences loading.

DEMURRAGE accruing on IMPORT CARGO will be billed against the importer of record unless other
arrangements have been made with VIT.

A102

VIT

Page 38 of 66

Schedule of Rates Effective Date I 0/1/20 16
Last Amended; Not applicable.

506 STORAGE- NON-CONTAINERIZED CARGO
If a USER requests that CARGO be stored, the following rates shall apply, in addition to charges at Extra Labor
Rates, and for materials and equipment rental pursuant to Item 805 below. Cargo must be ordered into storage
prior to the end of FREE TIME or DEMURRAGE rates in Item 505 will apply.
..

--

I

ITEM
··-·

.

·-

Rates in this section are for each peric;;d of thirty (30) days or fraction
thereof. Prices are per 2,000 pounds, if not otherwise specified

....

I Covered Storage
'[ o,u;de Swcage

A) GENERAL

:I

16.34

I

6.86

Reissue of Warehouse Receipts
...

24.25

'I

.

I B•le<l Rubbec- >toc,.e
B) CRUDE RUBBER

8.03

I

...

.I Palletized Rubber- storage

I C) IRON AND STEEL

I

Iron and Steel, NOS - outside storage

I

6.64

2.73

·-······ .......................

I D) MACHINERY

Outside Storage
(Construction/Farm Machinery)

I

-

!)Lumber, Flitches or TimberStorage

E) LUMBER AND RELATED
PRODUCTS

I F) PAPER AND RELATED PRODUCTS
I G) MINIMUM CHARGES

In bundles/Inside

I
2)Logs, Piling or Poles (other than Bamboo)-OPEN
AREAS
:I
3)Piywood, Veneer, Corestock, Wood Mouldings Or
Jambs-In bundles/Inside Storage
I
4) Fiberboard, Hardboard or Particleboard - Inside
_S~o!~~e- _
--- -----·=!I
I) Linerboard, Pulpboard, Paperboard. Printing or
Wrapping Paper- Inside Storage

I Minimum Storage Charge - monthly

A103

............

·············-··-·····-

4.54
--

5.40
2.01
6.46
5.03
5. 17
22.85

Schedule of Rates Effective Date I 0/1/2016
Last Amended: Not applicable.

VIT

Page 39 of 66

507 BREAKBULK COMMODITIES NOT OTHERWISE SPECIFICALLY PROVIDED FOR
ELSEWHERE IN SECTION V OF THIS SOR

The following charges cover only physical acceptance of a commodity by VIT either from the inland CARRIER, to
facilitate physical exchange of a commodity at "POINT OF REST" with a water CARRIER, or physical acceptance by
VIT of a commodity at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland
CARRIER.

I Per 2,000 pounds

Loose

I 40.80

~lf~t~
he _c_
o_
m_m_o_d~ity
~i~
s -se_c_u_red~o-n_p_a7.11et_s_o_r_s7k~id~s,or --~-.• ·,~P~
er=
2 ~,0~0=
o -p_o_u~
n~
ds------------------r~=
32
~.~1~
5 -------l

otherwise self-contained

520 BOATS

The following charges cover only physical acceptance of a boat by VIT either from the inland CARRIER, to facilitate
physical exchange of the boat at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT of a boat
at "POINT OF REST" from a water CARRIER, to facilitate physical exchange with an inland CARRIER.
Receiving or delivering boats on trailers, regardless of
A.
length at POINT OF REST and on which no physical
HANDLING is performed by TERMINAL personnel.
Not exceeding 40 feet in length
"

. •.

per boat
'

Exceeding 40 feet in length

I
B. To or from open trucks. Rate based on length of boat. Rate
includes boat, trailer and/or cradle when handled with same lift.

I
I Over 26' but- not over 3 I'
I Over 3 I' but not over 40'

, I P:r~oat_
!le.:~ boat

Not Over 26'

· -· ·······•·

fr

.

!IPer boat

..,

__

-I

I

80.00
......, ...

160.00

275.01
... ___

... -···

, _____ ,

I

320.84

jlper boat

:[

366.67

I Over 40'

lper lineal foot

C. When lifting more than one boat to/from the same trailer

Minimum charge
per boat

I
'I
'I

.,.

D. Arches, cradles, flying bridges, keels, mast or trailers not
lifted with boat

!lper unit

-

25.18

350.00

180.00

Note I -Above rates do not apply with receiving from/delivering to water and require prior arrangements. For
arrangements and rates contact VIT Pricing and Quotes at VITRates@vit.org
Note 2 - Rates include boat trailer and/cradle when handled with the same lift. Rate includes use of crane, if
required. Rate will apply only if the lift is made with TERMINAL equipment.
Note 3- Length of boat must be stated on dock receipt. If no length provided, boat will be measured and that length
will be used to determine billing rate.

A104

'

Page 40 of 66

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

534 NON- FERROUS METALS, VIZ ALUMINUM, BRASS, BRONZE, COPPER, TIN, ZINC
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.
Billets, Coils, Plates, Sheets, Ingots, and Pigs
Palletized, skidded or unitized In a condition
suitable for machine HANDLING
Wire or Cable on reels

Not
Exceeding
45,000Jbs

Per 2,000 pounds

Exceeding
45,0001bs

Per 2,000 pounds

I Loose

I. Pipe or Poles
-.. ---------·- ···

I

Per 2,000 pounds

9.20

I

I
pounds
j Per
Per
2,000
pounds
I
~_. 000

I Palletized or

I

19.40
36.00
28.80

___ l S~i~~E!_~ ·-· ··- _ _____ __________ _

······· ·-··-·-····- ····

Note I - Cargo will qualify for rates published herein when bundled, skidded, palletized or packaged in such manner
as to allow LOADING or UNLOADING by machinery normally available on TERMINAL, without further packaging
or consolidation.
Note 2 - Blocking, bracing, chocking, removing and replacing lids from open-top railcars, if necessary, will be in
addition to rates in this item and will be billed in accordance with Item 805 in this SOR.

550 IRON OR STEEL, VIZ:
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.
Bands, Banding, Barbed wire, Bolts, Chains, Hardware
nails, Nuts, Screws, Spikes, Staples, Strapping, Valves
and Washers
Anchors, Angles, Bars, Beams, Billets, Blooms, Cable
channels, Castings, Flanges, Flats, Girders,
Ingots, Joists, Molds, Pigs, Piling, Pipe, Plates, Rails,
Rings, Rods, Rounds, Scrap (other than bulk), Sheet,
Slabs, Strip, Tin plate, and Tubing
-

·-

-

-·

I

Cable, Rope, Wire, Wire Strand in rolls, coils, or reels

Case Iron Unmachined Industrial Fittings, i.e. Manhole
covers, Grates, Rings, Pipe fitting, Meter boxes, and
or skidded.
Integral parts_____-................
pre-palletized
_______ --------- ................. ....

--------··-·-......

-

,

..,

---

-·-

-·----···········

'I

I

per 2,000
pounds

I

16.03

per 2,000
pounds

12.22

Not
Exceeding
45,0001bs

per 2,000
pounds

9.20

Exceeding
45,0001bs

per 2,000
pounds

I
I

, , pec2,000
pounds

I

19.40

13.78

Note - Rates in this item apply when cargo is loaded to or unloaded from open or flatbed equipment by TERMINAL
personnel.

A105

Schedule of Rates Effective Date I 0/ 1/20 16
Last Amended: Not applicable.

VIT

Page 41 of 66

Note 2- Rates for LOADING or UNLOADING to closed vans or trailers will be quoted upon request.
Notes 3- Blocking, bracing, chocking, removing and replacing fids from open-top railcars, if necessary, will be in
addition to rates in this item and will be billed in accordance with Item 805 of this SOR.

558- LUMBER AND RELATED ARTICLES
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER,
to facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical
acceptance by VIT of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with
an inland CARRIER. These rates are applicable only to/from flatbed trucks; otherwise Item 805 applies.

I'"

Lumber, Flitches or Timber

I

l per.2,00~ pounds

bundles

~~...,.--~.,--~-~
---·:.;,·=
···· ---

Fiberboard, Hardboard, or
Particleboard

In Packages

_ - - -· ;:.;.p--e'-r"=2"".o""o""o,....p_o_u_n-:d-s

I

--I_ 6:l5___ _
n

r--=::-~-r:-ss-to-c-:-k-,:-:W-:-o_o_d.,. .·-~:-:- :-:- ul,-,.~,-in-_~-:--~--~-----.--- _-_

1

·_[ Plywood

Palletized or skidded

L~:~~·~-~~- p~u-~~:. ....

.,...,-

7

,....,-=P--:
al.,le-=
ti-ze_d,_o_ r_ s-:-k-,.id d:-e-:d- - , per 2,000 pounds
ri-:Lo_g_s-=P""
ili,-ng_s_,

15.91

_ I

I per 2,000 pounds

l in Packages

28.41

,...,---~-5.9-1_ _ _ ,

r-I-=P-a--:1.,le--=
ti-ze_d,_o_ r_ s-:-k-,.id d.,-e-:d,.--- , per 2,000 pounds
7

I

,_

'I

rl-;ln-;P::-a-;
ck-age-s---"----~ per 2;000 pounds

Veneer

15.23

- -1-8._5_8 _ _ _ ,

.I

13.57

-=po-:1,es. .-------- ~- ~~~;e~~~~~-u~~~~- - ------- ~--- :~+.~~~!~~~~----·- r:------------ "i~". ,-~""
. ~~::-----__-__-_____-___~:

1

560 MACHINERY, MACHINES OR PARTS, FARM TRACTORS
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.

(I) Boxed or unboxed, lifted or towed, on or off railcar, truck, or barge. If TERMINAL owned crane is
utilized to make lift, then crane rental (with operator) will be assessed in addition to rates below.
(2) Advance arrangements must be made with VIT Customer Service at VITRates@vit.org for charges
relating to fragile, bulky, or over-dimensional items or lifts greater than 80,000 lbs. Refer to Item 214.
Box, package, or piece weighing:

I
L.

[o

to 80,000 lbs.

[per 2,000 pounds

[8o,oor

to I00,000 lbs.

[per 2,000 pound~

[100,00 I to 120,000 lbs.

[per 2,000 pounds

[120,00 I to 140,000 lbs.

[per 2,000 pounds

il

22.68

[140,00 I to 200,000 lbs.

[per 2,000 pounds

23.68

[200,00 I to 250,000 lbs.

[p_: r__~_:~OO

I

[250,001 to 300,000 lbs.

-·

.

..

I

20.70

...

··-·

21.73

poun~~ .. _ _.1

[per ~.0~0 pounds

A106

.I

16.20

38.23
___.
· ~ · -~

44.18

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Iper 2,000pou~ds

1300,00 I to 350,000 lbs.

Page 42 of 66

I
I

;.3-=,. [ 50,-,0.. 0.,. I_-to-4-o-:0:-0,0~
00-Ibs-.---------;[per 2,000 pounds

50.14
56.10

----,- ~.---------~-r Contact VITRates@vit.org for

F

:_Greater than 400,00 I lbs .
.

charges

(2) Machinery, self-propelled received at/delivered to
POINT OF REST.

I

per unit

l

.
133 56

Note I: The HANDLING of lifts in excess of 80,000 lbs . shall be limited to the capacity of lifting equipment at a
specific TERMINAL.
Note 2- Rates above will only apply when terminal owned equipment can be used to make the lift.
Note 3- If customer makes separate arrangements for outside crane vendor to perform lift, the applied rate charged
will be 50% of the charges shown above.

576 RUBBER, CRUDE, VIZ: ARTIFICIAL, GUAYULE, NATURAL, NEOPRENE OR SYNTHETIC
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.

j Non-Palletized

·JTruck/Barge

22.47

lper 2,000 pounds

'"'IP,...r~----p_-_~,,.,~. --~--i~-:_~_. ,. 5>.-.~_-s_.k,. .i~:--:~--:_.~_.,. ___ -----_
lr::!=-__~--~---~kl
-:--:___=-_~-~r.-~_-:-___ --__ -___-jp~r.--~~~~=~ _

21.28

__ _

577- PAPER AND RELATED ARTICLES
The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.
Newsprint, Wrapping, or Printing Paper

I Truck

,rl"
W
"o
-o
-d'p-u'lp--------:-----~ Truck

l in Rolls

Contact VITRates@vit.org for

_:~arg:~ _ --· · ---·-·-·-·· . . .... . _ ___ _ _
l in Packages

Contact VITRates@vit.org for
charges

Note I -Rates are applicable to lifting to/from flatbed trucks
586 U.S. GOVERNMENT P.L. 480 CARGO, BAGGED Rates may be quoted upon request by VIT Customer
Service (VITRates@vit.org), if VIT has the ability to handle this cargo. In the absence of agreement, Item 805 shall
apply.
592 MINIMUM CHARGE Except as otherwise noted, a minimum charge applies to all single shipments (Per
Booking Number or Bill of Lading), regardless of LOADING order. Payment in advance will be required for those
shippers which have not established prior credit.
JPer Shipment

61.45

A107

VIT

Schedule of Rates Effective Date I0/1/2016
Last Amended: Not applicable.

Page 43 of 66

594 VEHICLES, SELF-PROPELLED, UN BOXED, VIZ: AUTOMOBILES, BUSES, TRUCKS, MOTOR
HOMES SETUP OR NOT OTHERWISE SPECIFIED. NOT REQUIRING LIFTING OR TOWING.

The following charges cover only physical acceptance of the cargo by VIT either from the inland CARRIER, to
facilitate physical exchange of the cargo at "POINT OF REST" with a water CARRIER, or physical acceptance by VIT
of cargo at "POINT OF REST" from a water CARRIER to facilitate physical exchange with an inland CARRIER.

JReceiving or delivering and processing- Not exceeding I 0,000 pounds each

Jper unit

61.45

~~-~_r_ u~i~ _ j

I 09.30

598 MOBILE HOMES/TRAILERS
Mobile Homes/Trailers setup and on wheels received or delivered at POINT ~OF REST and on which no physical HANDLING is performed by TERMINAL
. Per unit
, personnel.

F
I

09 80
·

~~=~t=u=-~=-a=-n=--~=n=o=t=o=n=w""h"'e=-e=ls"'o=r=-r""e=q=u""ir;es; ; =lift=i-ng"'=o=;=~o=-~=-ic:g
: :""··-=to=--=be=-=p=erf=o=r=m"-'e"-'d=b=y=;;;:::.;i-I-T-o_
we_d-,i-~:-~-~-~d-.~-0-0--F
.--~---- Per 2 000

TERMINAL personnel.

Lifted

A108

'
pounds

F

82.1I

VIT

Schedule of Rates Effective Date I 0/1/10 16
Last Amended: Not applicable.

Page 44 of 66

SECTION VI
VIRGINIA PORT AUTHORITY SECURITY SURCHARGE
650 VIRGINIA PORT AUTHORITY SECURITY SURCHARGE
RESOLUTION AUTHORIZING THE IMPLEMENTATION OF SECURITY SURCHARGE PURSUANT TO
VIRGINIA CODE §61.1-132.16
IT IS RESOLVED by the Board of Commissioners (the "Board") of the Virginia Port Authority (the "Authority"), as
follows:
Section I. Findin gs and Determinations
A

Pursuant to Section 61.1-132.16 of the Code of Virginia of 1950, as amended (the "Virginia Code"), the
Authority is authorized to fix, alter, charge, and collect tolls, fees, rentals, and any other charges for the use
of, or for services rendered by, any Authority facility. The Authority may impose, levy, and collect such
other fees and charges as may assist in defraying the expenses of administration, maintenance, development,
or improvement of the ports of the Commonwealth, their cargo handling facilities, and harbors.

B.

As a means to finance the additional security measures mandated by the Maritime Transportation Security
Act (MTSA) 2002, as set forth in 33 CFR Part 105- Facility Security, the Authority has proposed that it
would implement a security surcharge (the "Surcharge") to be effective August I, 2005, in the amounts and
for the categories as set forth in this Resolution .

C. The Authority proposes to amend the Surcharge to include a security surcharge for bulk cargo to be
effective September I, 2011 in the amount as set forth in this Resolution.
D. The security surcharge will be administered by VIT, clearly billed as a security fee, and all such fees
collected are to be passed directly to the Virginia Port Authority.

E.

The Board has determined that, by enhancing security at the port facilities, implementation of the Surcharge
will foster and stimulate the commerce of the ports of the Commonwealth; promote the shipment of
goods and cargoes through the ports; and develop, improve or increase the commerce, both foreign and
domestic, of the ports of the Commonwealth, all pursuant to Section 62.1-132.3 of the Virginia Code.

Section 2. Authorization of Surcharge. (a) Implementation of the amended Surcharge is hereby authorized. The
Surcharge shall initially be established in the amounts and for the categories as set forth below. The Executive
Director is authorized in his discretion to adjust the amounts of the Surcharge and the categories to which it applies,
and to further adjust the Surcharge from facility to facility. In making such adjustments to the Surcharge, the
Executive Director will consider at least the following factors: changes to security requirements; current market
conditions; effect on demand for use of the Authority's facilities; and the amount of such fees charged by competitive
ports.
Surcharge Rates
Fully Cellular VESSELS: 6.50 per CONTAINER for the account of the OCEAN CARRIER
Breakbulk from Fully Cellular VESSELS: 0.15 per short TON for the account of the OCEAN CARRIER
Non-CONTAINER VESSELS and All others including barges: 3.09 per linear foot
Section 3. Further Action. The officers and staff of the Authority are hereby authorized to take such actions, and
deliver such additional documents and certificates, as they may, in their discretion, deem necessary or useful in
connection with the implementation of the Surcharge.

A109

VIT

Schedule of Rates Effective Date I 0/ I/20 16
last Amended: Not applicable.

Page 45 of 66

Section 4. Effective Date. This Resolution shall take effect on September I, 2012 or immediately upon its adoption,
whichever is later.
CONTAINER surcharge rates will be assessed as follows:
(I) CONTAINERS not declared water to water will be billed one surcharge for every loaded/empty CONTAINER
on/off a VESSEL.
(2) CONTAINERS declared water to water will be billed one surcharge against the inbound CARRIER.
(3) Loaded DUAL CONTAINERS (in/out gate/rail) will be billed one surcharge upon departure of CONTAINER.

A110

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

Page 46 of 66

SECTION VII
STEVEDORING
700 STEVEDORING GENERAL
a.

VIT provides stevedoring directly at PMT and NNMT. VIT may provide stevedoring indirectly through
subcontractors at VIG and NIT. Currently, only Ceres Marine Terminals, Inc. and CP&O, LLC are
permitted to provide stevedoring services at VIG and NIT. Stevedoring by VIT is subject to all of the terms
and conditions of this SOR.

b.

Stevedoring by parties other than VIT at all TERMINALS is by permission from VIT. Accordingly, USERS
should not assume that parties other than VIT may stevedore at a TERMINAL.

c.

VIT will provide quotes for stevedoring upon request. Rates will depend on, among other factors, the cost
of labor, the type and volume of cargo, the type of VESSEL, the TERMINAL, length of the commitment,
anticipated productivity, and the inclusion/exclusion of detentions and other cost items. For a rate quote,
please contact Tom Capozzi, Chief Sales Officer, at 757-440-7200 or tcapozzi@vit,org

705 STEVEDORING RATES If no written agreement as to rates is in place, then VIT's charge for stevedoring
shall be as follows.

I Type of Lift
I Normal Lift for Standard ISO CONTAINERS

I Rate Per Move

I
I
I

[ SHIFTING CONTAINERS within same bay

j

RESTOW CONTAINERS VESSEL-dock-VESSEL

I CONTAINERS other than 20' and 40' using speed bar or

0/HT -~ear/wir~s

-I

I Breakbulk
1. Passenger ,cars, per vehicle (contact VIT for a quote on
~~her vehic~~

I.

--·· ·····-·---

--

--.

.. ,.

66.40
66.40
EXTRA LABOR RATES for stevedoring stated
below

I

EXTRA LABOR RATES stated below

I

25.54

EXTRA LABOR RATES for labor not included in the stated rate for the s,tevedoring services are as follows:

l. ;~~n~~~~(;~,;~~~1'~[:u~~in~~~;;;:~1~~-~~~=~~-~i=-~·

I

____,]

I ,736.55
Straight time I, 123.65
Overtime: I ,735.53
Double Overtime 2,298.38

Ex"a •bo' ga"g- pe' ho"'

I Overtime Differential
I Double-time Differential
2.

- -----·······- . -···

. 66.40

I
I

670.10
1,276.88

Items included in the stated rates for stevedoring, and certain items that are excluded from the stated rates
for stevedoring and for which CARRIER will be charged separately, are listed below. For avoidance of
doubt, if an item is "Excluded", it is not included in the lift rates provided above and will be billed at the
stated EXTRA LABOR RATES.

A111

VIT

Schedule of Rates Effective Date I 0/1/20 I6
Last Amended: Not applicable.

Page 47 of 66

I Personnel

L.~~~i~~!~~i_rll_e _lc:>~!S~(;)-~_: -~~~~~· frin~e~,and insurance

·-·····---·------ . -------·-·"·--·-····--··-···---"-·-····

I Straight-time Clerks/Checkers
I Overtime costs

I Included I Excluded
IX
I
X
I
ll

-····

"Il_!__r:_:_:~~w. -~~yJi~-~~~-()-~~~-=---~1~~· -a_~~-(;)t~_:~-~~~rll_:~-t~~i(;)~-- ---Rain pay

__ ________ ________ _ _

............ ----···

CONTAINER Royalties and non-man-hour assessments
,,I
EqiJipmen~

-

I All necessary equipment

··-··-

I

-

I

IX

I

I

I
I
I

I

IX

IX

~~~-~~y_fo_~'.,'-~S~E.~-~-=-~~---- . _

-·-·····- ·········--········
Health& Safety/Labor Disputes

---------

-

---------··.....

····-··-····-··-··----

·- ·-

Standby for Minimum Manning( Gang to Fill

I

Standby Change in Stow

I

_!0_ ~~~~~n-~::. IJ.rll: .=__~P~c:>__ l ~~~rp_:~ -g~~g-~~~~-~~~· c:>~~-e-~i~e_ :)(_c:~u~:-~ .

I
I Activities

I

Boom Ups

I Discharge/Load and Lash/Unlash standard 20' and 40' I.S.O. CONTAINERS to/from
straight~time

_ _

___

I Normal CONTAINER Lashing

J

----- - ·····--

·· - -------------

..

__..............................

·---~- - ~--""""'"'

.. ---

1 Loose Cargo from Damaged CONTAINERS Onboard

I Emergency Gear CONTAINER moves
[ Rehandled CONTAINERS
Opening ~n? C~osing Hatches.

IX
IX
IX
IX
-·

I
I VACIS/Government inspections during VESSEL ops

-

.I Extra Mounting of CONTAINERS at CARRIER's Request
A112

---

____

·I

X

IX
---

________ ,,,,,,,,,_,,,.........

I

I
X
Included

. . 1 ~-X I

Overheight/Overwidth CONTAINERS

~-~~e!:_r_~s:'t-:!!~)~-~~~-=-P!~~!~~p~_g

.,

I

improperly installed by load port

----- ---

------·

'I

--

........._ . , ,..

I Standby- Delays due to frozen cones or locking cones or lashing equipment

I Break BulkC:::a~go
I Damaged CONTAINERS or Cargo

~ ~-

I
I
I
I

Standby Gantry Crane Repair
Con: (i.e~ : Gear) ~ox Moves

IX

"j"x

Stand-by Awaiting Cargo Availability

~~_:_!~()~!Opera~~~~ -~~-~~~~_:_:_ <::~~~~=~- _

l

I

-

Standby for Safety Talk

place of rest on dock or VESSEL,

I
I

I Included I Excluded

I
I Standby for VESSEL- this is excluded
I Standby for Weather
I Standby for Terminal Operator's Equipment Down
Standbys and Detentions

S~andby _for

! _X

X
IX
IX

IX

-I

1.

I

I

Supervision

--------------

I

q Excluded

;I
I

I
- - - - - - ___ I
I_
I
I
I
I

IX
IX
IX
IX
IX
IX
IX

I
I

IX
IX

IX

·····-

X

I

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

Page 48 of 66

SECTION VIII
MISCELLANEOUS SERVICES AND CHARGES
800 MISCELLANEOUS CHARGES The following services will be performed by VIT at the charges shown
below: (Not subject to Item 825.)
each

!Rebilling Invoices

61.45

805 SPECIAL SERVICES; EXTRA LABOR RATES. Upon request and with advance arrangements, VIT will
provide SPECIAL SERVICES not listed in this SOR. Charges for these services will be billed at the following EXTRA
LABOR RATES, cost of materials plus thirty percent (30%), and equipment rental. Requested services are performed
by ILA Shortshoremen or ILA Longshoremen as applicable. VIT will inform customers of labor classifications to be
used. All ILA contract guarantees and Guaranteed Annual Income special assessment will be charged when
applicable.

I

LONGSHOREMEN

[
I Longshoreman
__________

I

-- - -·-·-----···-··-·-----

-·--------·-···-

I
[ Longshoreman

·---·-··-······--···--······-········-·····-··- ...........-................

J

Operators (NOTE I)

1

123.65

I 157.35
I 159.55

1 33.75

1

1 34.15

1 68.45

Extra Labor at Double Regular Rate

I ST

. . L.~~~:~~
I 157.35

....... -·-·

I PMH

I 148.95

I 125.30

91.05

I OT

'I 117.40

I

1 90.00

!
_____ I

I

IOvertime
Differential

_'1 PMH

1 85.75

Operators (NOTE I)

I M&R

IatExtra
Labor & Detention
Regular Rate
I ST
~ --~! __________

31.55

1 63.20
67.40

IOvertime
Differential Double Regular
Rate

·I OT

·1 PMH

I ST

!I

OT

'1 212.10

1 275.30

1 ~3.15

II

126.30

1 224.85

1 292.10

1 67.35

I 134.80

136.95
I
1_ ~-~~------------------ - ~-~~~==------- 1__~27:~~ ----- _______ l !?.~:~=-------·--·1 68.45
;I NOTE I - For the operation of Portainer, Straddle Carrier, Gantry, Toploader, Reachstacker
Labor & Detention
I SHORTSHOREMEN IatExtra
Regular Rate

I
J

Freighthandler

I
I

I

Freighthandler

I PMH
_I

189.55

1 202.20
1 205.30

IOvertime
Differential

I ST

:1 OT

·r PMH

I OT

j PMH

1 64.35

1 91.15

I 117.85

1 26.75

1 53.50

I Extra Labor at Double Regular Rate

I_

I ~T

j PMH

j sT

j oT

., PMH

1 225.00

j 52.30

I 106.95

I

I 117.85

I OT

:J 171.40

A113

'
·-

Overtime Differential Double Regular
Rate

160.40

Schedule of Rates Effective Date I 0/1/2016
Last Amended: Not applicable.

VIT

I

TERMINAL
PERSONNEL

I Extra Labor & Detention
at Regular Rate

Page 49 of 66

I Overtime
Differential

~~----------r~ST -------,,OT--------~~0
-T------------------~I

I

Supervisor

'1 82.90

,r
~-12-4-.3-0------r~-4-1_
.4_0--------------- l

l

I96.60

I32.25

1 74.50

1 111.75

1r -37-.-25- -- -- - - -- -- - - - - l

jr-A
- dm
- in-is-t r-at_o_r _ _ _ _ 64.35

I

Mechanic

806 REMOVING AND/OR REPLACING TARPS ON OPEN-TOP CONTAINERS

l_.~_:r. .~~!"J:!:_~It\j~~- ~::~~ . ?.~.. ~-n~~~: ..

I Per CONTAINER rear only

I Ea~~?E:r.~tion__ ··---··· · ·
.1 E~ch operation

.

__'I

125.00

' I------~8
~1~
.2~
3 ---------

807 MOUNTING AND DISMOUNTING GENSETS

I Per genset

·r

Each operation

105.46

810 SEGREGATION AND SORTING If, after cargo has been sorted, graded and stowed and/or assembled on
the TERMINAL awaiting delivery as per bill of lading, the consignee, thereafter, desires additional sorting, grading
and/or specific selection of said cargo in connection with the subsequent LOADING thereof, a written request
detailing the nature of the SPECIAL SERVICES desired must be submitted, in advance of LOADING, to VIT.
815 USAGE CHARGES When a TERMINAL is used by others for the purposes for which a charge is not
otherwise specified, VIT will assess a USAGE CHARGE. If USER and VIT have not agreed on a charge in advance of
services being performed, then VIT may impose a non-discriminatory USAGE CHARGE determined by VIT in its
reasonable discretion.
825 MINIMUM BILLING All charges published in this SOR, and not otherwise excepted, will be subject to a
minimum charge of 61.45 per billing.
840 VIG- GANGWAY GUARD Gangway Guard 48.02 per hour, 4 hour minimum.
845 VIG- ESCORT FEE
A.

48.02 per hour, per person in the event that Virginia International Gateway Virginia is required to escort
individuals who do not hold a valid TWIC card.

B.

For contractors who do not hold a valid TWIC and are escorted to/from a VESSEL, a flat rate of 48.02 per
person round trip will apply.

850 BARGE CONTAINER MOVEMENT

A

259.00 per loaded CONTAINER, one way, northbound or southbound between RMT and any TERMINAL.

B.

31.00 per empty CONTAINER, one way, northbound or southbound between RMT and any TERMINAL.

A114

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

C.

Page 50 of 66

In arranging for movement of CONTAINERS by barge to and from RMT and other TERMINALS, VIT is
acting solely in an agency capacity and shall have no liability whatsoever for the transport of CONTAINERS
by barge, or the acts or omissions of the VESSEL operator/CARRIER, James River Barge Line, Ltd. ('1RBL").
Such carriage shall be governed by JRBL's Terms and Conditions of Transport posted on the internet at
www.I RBLtermsoftrans port.com. Portable document format (.pdf) and paper copies of these Terms and
Conditions of Transport are available upon request. VIT has no liability for such carriage or the acts or
omissions of such CARRIER. In no event shall VIT's liability with respect to such carriage of CONTAINERS
by barge exceed 500 per package or non-packaged object.

D. Movement of CONTAINERS by barge between TERMINALS other than in connection with carriage
between TERMINALS and RMT is subject to the limitation liability stated in Item 206 of this SOR.

851 SECURE FLATS FOR RAIL MOVEMENT On SPECIAL SERVICES basis; see Item 805.
852 EMPTY YARD SERVICES

101.47 per CONTAINER

I:;:;~~~.~:~~;~;,:0;:~_: go'ern:·"''"~'"o" · ····[
J

Smoke testing

.

f Tie back installation

. ..

.......

····-···--

.• .. ····-· ---

-·····

···--

.

---· ------

84.53 per CONTAINER

----~6;-;7~
: .1;;-4:-p
; -e_r-::C;:;,O:::o-:-N-:=T""A"I-=-N=-=E:-R----I
::

J_.

:[

19.89 per CONTAINER

SECTION IX
VIRGINIA INLAND PORT SERVICES AND CHARGES
900 APPLICATION OF SECTION IX. The rates and terms of service in this Section IX apply only to
services at VIP. For avoidance of doubt, all other Items in this SOR apply (except Section X) except to the
extent inconsistent with this Section IX.
902 FREE TIME CONTAINERS TO/FROM VIP VIA RAIL
A.

NORTHBOUND. CONTAINERS, loaded or empty, with or without wheels held in an area
designated by VIT will be granted one period of ten (I 0) consecutive days FREE TIME beginning
with the first 08:00 a.m. after DERAMPING at a TERMINAL awaiting departure to any other
TERMINAL.

B.

SOUTHBOUND. Loaded CONTAINERS, with or without wheels held in an area designated by
VIT will be granted one period of ten (I 0) consecutive days FREE TIME beginning with the first
08:00a.m. after placement at VIP for departure to any other TERMINAL.

C. Empty CONTAINERS, with or without wheels held in an area designated by VIT will be granted one period
of fifteen ( 15) consecutive days FREE TIME beginning with the first 08:00 a.m. after placement at VIP for
departure at any VIT Terminal.
D. FREE TIME applies to the OCEAN CARRIER only and all storage/DEMURRAGE charges are for
account of the OCEAN CARRIER.

A115

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

904 HOLIDAYS
The Terminal will be closed for receiving and delivering CONTAINERS and U.S. Customs services unless
prior arrangement for overtime is made. In the event a holiday occurs on either Saturday or Sunday, either
the preceding Friday or the following Monday will be observed as the holiday. HOLIDAYS are as follows:
New Year;s Day
Lee-Jackson-King Day
George Washington's Birthday
Memorial Day
Independence Day
Labor Day
Columbus Day
Veterans Day
Thanksgiving Day
Christmas Day

January I
Third Monday in January
Third Monday in February
Last Monday in May
July 4
First Monday in September
Second Monday in October
November II
Fourth Thursday in November
December 25

906 RAIL CONTAINER MOVEMENT
A

B.

NORTHBOUND. The term NORTHBOUND CONTAINER refers to a CONTAINER used to
transport a shipment from a foreign or domestic offshore port to VIP. NORTHBOUND
CONTAINERS will be handled in the following manner:
a.

If applicable, CONTAINER will be drayed to NIT or VI G. VIT will arrange and pay for the
drayage of CONTAINERS from NNMT or PMT.

b.

CONTAINERS will be ramped from the chassis or from the stack at NIT or VIG and
transported via rail to VIP. Charges incurred at NIT or VIG will be billed in accordance
with this SOR or any applicable separate agreement.

c.

CONTAINER will be deramped at VIP to a chassis provided by the OCEAN CARRIER and
placed in a designated PARKING AREA or to the stack. If a leased chassis is utilized, then
a chassis leasing charge (Item 942) will be assessed.

d.

VIT will perform the necessary clerical work to effect the physical exchange of the
CONTAINER between VIT and the motor CARRIER. VIT will perform a visual M&R
inspection at the gate.

SOUTHBOUND. The term SOUTHBOUND CONTAINER refers to a CONTAINER used to
transport a shipment from a domestic point. SOUTHBOUND CONTAINERS will be handled in
the following manner:
a.

VIT will perform the necessary clerical work to effect the physical exchange of the
CONTAINER between the motor CARRIER and VIT. VIT will weigh the CONTAINER
and perform a visual M&R inspection at the gate.

b.

CONTAINER will be parked in a designated PARKING AREA by the motor CARRIER or
CONTAINER will be stacked.

c.

CONTAINER will be ramped from the chassis or from the stack at VIP and transported
via rail to NIT or VIG.

A116

Page 51 of 66

VIT

Schedule of Rates Effective Date I 0/1/2016
Last Amended: Not applicable.

d.

CONTAINER will be deramped at NIT or VIG to (I) an OCEAN CARRIER's chassis, (2) a
lease chassis, or (3) to the stack. Charges incurred at NIT or VIG will be billed in
accordance with this SOR.

e.

If applicable, the CONTAINER will be drayed from NIT or VI G. VIT will arrange and pay
for the drayage of CONTAINERS to NNMT or PMT. If a leased chassis is utilized to dray
CONTAINER, the CONTAINER may remain on the leased chassis at the OCEAN
CARRIER's expense if proper arrangements are made with the leasing company and VIT.
The chassis leasing charge will be for the account of the OCEAN CARRIER.

Note: CONTAINERS received from or delivered to a non-VIT facility will be assessed a RAMPING or
DERAMPING charge at NIT or VIG.

C. WEIGHT. In connection with VIT's providing rail service to NORTHBOUND CONTAINERS on
railcars, the CARRIER/steamship line must provide VIT with the correct weight of all such
CONTAINERS by method acceptable to VIT. The CARRIER/steamship line shall use only
CONTAINERS in suitable condition and shall assure that the cargo does not exceed the
CONTAINER manufacturer's posted cargo weight limitation. The CARRIER/steamship line shall
defend, indemnify, and hold VIT, its affiliates, officers, employees, and agents from and against all
LOSSES, claims, liability, demands, fines, penalties, suits, actions, damages, costs and reasonable
attorney's fees, including without limitation those arising from personal injury or death, or damage
or destruction of property, incident to or resulting from a breach of the foregoing requirements.
Nothing in the foregoing shall be construed to exculpate VIT from its own negligence or to impose
an obligation to indemnify or hold harmless VIT for its own negligence.
908 RECEIVING CONTAINERS WITH DAMAGE OR VARIANCES [SEE SIMILAR SOR 278]
CONTAINERS having damage or variances which may impede normal movement with the Terminal's
mechanical equipment will not be received unless arrangements have been made with the Terminal.
Damaged CONTAINERS not repaired or removed from VIP within thirty (30) calendar days will be charged
the damaged CONTAINER storage fee.
910 RECEIVING OR DELIVERING CONTAINERS OR CHASSIS BY TRUCK DURING
OVERTIME The term RECEIVING OR DELIVERING CONTAINERS OR CHASSIS BY TRUCK DURING
OVERTIME refers to the charge (Item 930) for keeping the gate open for the motor CARRIER either prior
to or after the regular straight time hours. This charge is in addition to other charges listed under this tariff.
912 SLING The term SLING refers to the requirement to utilize slings or a method other than the normal
procedure for REHANDLING, RAMPING or DERAMPING a CONTAINER.

A117

Page 52 of 66

VIT

Schedule of Rates Effective Date I 0/1/2016
Last Amended: Not applicable.

914 TRAIN SCHEDULE

Day of the Week
Monday
Tuesday
Wednesday
Thursday
Friday
Saturday
Sunday

Ramp
NIT

De ramp
NIT

Ramp
VIP

De ramp
VIP

X
X
X
X
X
X

x ,

X
X
X
X
X

X
X
X
X
X

X
X
X
X
X

X - Function occurs on day indicated
Train LOADING cut-off
VIP 3:00 p. m. daily*
NIT I 0:30 a. m. daily*
*-Exceptions can be coordinated with Terminal Manager
-Train arrives next day, p.m. available.

916 DAMAGED, ABANDONED OR UNIDENTIFIED EQUIPMENT DISPOSITION VIT will
not receive or permit storage of damaged, abandoned, misdelivered, or unidentified equipment on a
TERMINAL. The OCEAN CARRIER shall be notified as follows:
A

Damaged Empt y CONTAINERS
a.

By notification via interchange (TIR), OCEAN CARRIERS have fifteen (IS) calendar days
FREE TIME in order to repair or remove a damaged empty CONTAINER from a
TERMINAL.

b.

After 45 days all damaged CONTAINERS will be moved from the TERMINAL by VIT to an
off TERMINAL vendor(s) yard and a charge of 22.50 will be invoiced to the OCEAN
CARRIER. Off terminal yard vendor(s) will invoice shipline directly for off terminal yard
services.

c.

B.

Damaged CONTAINERS on wheels will be stacked in a designated area after ten (I 0)
calendar days. All REHANDLINGS required to place CONTAINER to/from the stack will
be invoiced in accordance with SOR Item 465-6(2)
All Other Equipment
a.

By written notification, from VIT, shiplines, tenants and vendors have forty-five (45)
calendar days to repair or remove damaged equipment not covered above in paragraph (a)
from the TERMINAL.

b.

After such forty-five (45) days of storage, damaged equipment will be moved from the
TERMINAL by VIT at the rate of 30.80 to an off TERMINAL vendor(s) yard and invoiced to
the owner of the equipment by said Vendor for their services.

A118

Page 53 of 66

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

RATES -VIP
918 RAIL CONTAINER MOVEMENT- Per CONTAINER
Northbound or Southbound.
*Fuel Surcharge not included in rate.
(LOAD)
(EMPTY)

Page 54 of 66

COFC
353.00
266.00*

920 REHANDLING CONTAINERS
WHEELED CONTAINER
22.15
Stacked CONTAINER

36.10

Chassis Change

45.75

Sling CONTAINER

61.05

922 CONTAINER

STO~AGE-

Per d~y

I Under 27 Feet

,~

0.68

r-l-=
o:-ver--,2=-=7'""'F=-eet---------------~___.

1.37
924 RECEIVING OR DELIVERING CHASSIS

I Per Chassis

6.25

926 RECEIVING OR DELIVERING CONTAINERS

49.95

928 RECEIVING OR DELIVERING CONTAINERS OR CHASSIS BY TRUCK
DURING OVERTIME

j Per CONTAINER

91.55

930 DEVANNING FOR U.S. CUSTOMS INSPECTION

I Tailgate Inspection
I Straight Time
I Overtime
l Addition.al Pa~kage _ l Maximum per CONTAINER
I Intensive Examination:
I Straight Time
I Overtime

I

I
I
I
I

76.25
131.65
10.40

··-

458.10

I

I
I

450.65
637.80

932 CHASSIS LOADING/UNLOADING FROM A FLATBED TRAILER

A119

54.07

-·

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

934 CHASSIS RAIL MOVEMENT

232.45

Bare chassis 20'/40'

936 CHASSIS
Chassis will be provided by HRCP II subject to its prevailing rates, terms and conditions of use, and
interchange agreement. The OCEAN CARRIER is responsible for HRCP ll's charges for chassis until the
CONTAINER departs VIP.
938 CHASSIS STACKING/BANDING

[ Two chassis high - per stack
j
'[=
T::hr
_e_
e_c-:hass-,-is---:h--:-ig
---:h---p
-e_r_sta
-c-:k----------~
[ Four chassis high - per stack

152.50
277.25

·' '[-------;o39:;,-;1.""""
00: ;:------ - - -

j'-=
Fi,ve----,
ch,-a-s-:
si-s ::h:ig::h---p-e-r -s t-a--,
ck, ------'=---- - - - - - " [

513.05

940 CHASSIS BREAKING DOWN BUNDLES

I Three chassis high - per stack

121.95

[ Four chassis high - per stack

149.70

Five chassis high - per stack

185.73

J

942 DAMAGED CONTAINER OR CHASSIS STORAGE

\

...

. ..

-················· .. .

r--

30.80

············· ·--··-·--·····-- . . . ........................ ... .

944 ATMOSPHERIC .FUMIGATION OF CARGO OR CHOCKING MATERIAL IN
CONTAINER

151.20
946 REFRIGERATED CONTAINER SERVICES

I Diesel Fueling (per generator unit)
j Nitrogen Fueling (per unit)

I Temperature monitoring, upon request

I

Upon. request, VIT.will furnish generator set, fuel and other
attendant services (per rail trip)

I Refer to Item 985
'I Refer to Item 985
I Refer to Item 985
264.95 *

I

36.75 *

I

13.80 *

E.lectrically connect and test operation of ship-line bellym?unt gens:t
_
.. _
_
*Charges are for the account of the steamship line.
948 WEIGHING WHEELED CONTAINER

I Per CONTAINER

9.50

950 PLACARDING

l Per placard [DIFFERS FROM SOR 465]

9.50

A120

Page 55 of 66

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 56 of 66

952 SEALING

I

Per seal [DIFFERS F~OM SOR 465]

6.25

954 SPECIAL SERVICES • VIP
Upon request and with advance arrangements VIT will provide SPECIAL SERVICES not listed in this SOR.
Charges for these services will be based on the cost of materials plus thirty percent (30%), equipment rental,
and labor billed at the following EXTRA LABOR RATES:

I
I

I
I
I
I

Equipment Rental and
Labor Rates

I Overtime
Per Hour

Per Hour Straight Time

·~·

'

t. . '~~~-~5- -~

Labor

68.65

Clerical

48.90

I

Forklift

18.10

I
I
I

Straddle carrier

205.25

Hustler

53.85

i

956 REHANDLE CONTAINERS TO/FROM OVERNIGHT DROP

[ ~(?_!_~~!:~ ~~v~_

37.65

A121

......-.

74.60

VIT

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

Page 57 of 66

SECTION X
RICHMOND MARINE TERMINAL SERVICES AND CHARGES
EFFECTIVE NOVEMBER I, 20 16
I 000 APPLICATION OF SECTION X. The rates and terms of service in this Section X apply only to
services at RMT. For avoidance of doubt, all other Items in this SOR (except Section IX) apply except to the
extent inconsistent with this Section X.
1005 HOLIDAYS: The terminal will be closed for receiving and delivering CONTAINERS, and other services unless
prior arrangements for overtime are made. In the event a holiday falls on either a Saturday or a Sunday, either the
preceding Friday or the following Monday will be observed as the Holiday. HOLIDAYS are as follows:
New Year's Day
Martin Luther King Jr. Day
Good Friday
Memorial Day
Independence Day
Labor Day
Columbus Day
Thanksgiving Day
Friday after Thanksgiving
Christmas Day
1010 WORKING HOURS

A

The recognized working hours of RMT are from 8:00 am until noon, and from I :00 until 4: I 0 p.m., Monday
through Friday. Except HOLIDAYS. Trucks (including CONTAINER CARRIERs), who are in line or inside
the gate by 1530hrs will be handled at straight time rates. All others must make overtime arrangements with
VIT by 1430hrs.

B.

When VIT performs work at other than regular working hours for the convenience of cargo interests, the
applicable overtime charges shall be applied. Late Gate charges will apply for transactions after 1630 hrs.

I 030 STEVEDORING
Stevedoring is charged pursuant to Item 805.

I 035 REEFER SERVICES
RMT will perform the following reefer services: Reefer Plug/Unplug, Electricity use, Monitoring and Genset Fueling,
and Genset mount/dismount - receive and dispatch.
Pre-trips, repairs to reefer equipment, or shipline gensets will be contracted and performed through third party
vendor and arranged by the ship line.

A122

Schedule of Rates Effective Date I 0/1/20 16
Last Amended: Not applicable.

VIT

Page 58 of 66

I 040 FREE TIME
A.

A total of twenty-one (21) days FREE TIME will be allowed for containerized cargo.

B.

A total of ten (I 0) days FREE TIME will be allowed for the delivery of breakbulk cargo, inbound by
water, from the wharves or transit shed, after which storage charges will be assessed as provided in
this schedule. FREE TIME will begin the first 0800 am after VESSEL finished discharging the cargo.
Saturdays, Sunday and HOLIDAYS will not be counted when computing FREE TIME.

C.

For the purpose of assembling outbound waterborne breakbulk cargo, a total of seventeen ( 17) days
F R E E T I M E will be allowed, including Saturdays, Sundays and HOLIDAYS. This applies only
to cargo unloaded from railcars and trucks. Time starts on arrival of the freight at RMT and includes
time held in cars until DEMURRAGE rules.

D. On cargo suitable for ground storage, and for BULK CARGO, for which arrangements have been
made in advance, a total of thirty (30) days FREE TIME will be allowed.
E.

Any cargo remaining beyond the above specified FREE TIME, without agreement to extend FREE
TIME or commencement of delivery to a VESSEL or inland CARRIER, shall be subject to storage
charges, as per the storage rate schedule herein.

TERMINAL SERVICES AND COMMODITY RATES
I 045 CONTAINER CHARGES

lriJ=-~~M--~~------------~----------------,IRA
__T_E____~- .~~~-R____________
[TIR Loaded Container
[rT-IR__E_m_p_ty__C_o_n-t a-in_e_r___________________________________

I

46.80
46.80

:j Unit
'[u- n- it__________________

,.----17-.9-5- - [ Unit
[Tie Bare Chassis
'[ln_t_ra___T_e-rm
--in_a_I _D-ra_y_a-ge_ _________________________________
27.50
'[D_r_a_y________________
'[ Rehandling From Drop Lot (Dray Only)

35.30

,IChassis Change
!

[Dray

,.------,9=--cl: -.67:0;;:---- r.lL""'ift=------------------

~--~-=__o-_u----~--~-;-:?::-r-_~-~--~---,-~-----------------------------------------------------

'[Receiving or Delivering Containers
[container Free Time

91.45

31.00
____ __,'I_
2_1 _D_A_Y_S_

rl2_q_'_
S_<:>~t--~!!.'-_ ~- ~-}"-_~--~-~-if1-_ ;!-~_[)-_~-'!'-_~-T~a-g_e_P_e_r-_l)_ a-y_------------------__ J

,I~_-9_'___S_C>_rl_t_a_~n--~-~_!__~_!:__~_if1__~_-I___~--'-~""-~""-~""E=-~<i-~"--~---~--~-r_D_a_y'-_____ _ ____ =-_______'-_______________________ l_

I

1

jBare Chassis Storage Pe_r_Day

A123

[r.L-;-;ift,----------------!Unit
Ir------------------!Referenced in Item 461

____

0.50

_!Referenced in Item 461
_I

Schedule of Rates Effective Date I0/1/20 16
Last Amended: Not applicable.

VIT

Page 59 of 66

I OSO MISCELLANEOUS CHARGES

. , RATE

j iTEM

I

Connect and Disconnect Refrigerated
CONTAINERS

I Electrical Service to Refrigerated CONTAINERS,
includes monitoring

. L~-~~fi:~_!l_?unt~!:_ ~is~~-~-~t_____________________
'I Genset Fuelin~

I Genset Rental

5.00

I

Fl

I Scaling

.I

I PER

.
-·
-- *Subject to availability

CONTAINER

~~ 24 hours or fraction thereof; per
CONTAINER
I 45.00
26.00

I

I

70.00

I~_PERATI~~ ----

'

-- --·· ---. ·-··-·- ··- ·--·---·--·-·

I OPERATION, plus fuel
I 24 hours or fraction thereof

!

I OSS DOCKAGE
:r1~EM -IRP-TE _
frB-ar_g_e_D_o_c_k-ag-e- - - - - - -- - -- - - - - - - - - -1 0.75

!PER
.rjL-in-e-ar- Fo_o_t_P_e_r _D_a_y _ __

~~-----------------------1j

'~-------junear Foot Of Load

---- -

!vessel Dockage Ist 24-Hours

1.50
r·v-ess_e_I_
D_o_cka_g_
e_A_d_ditio-nai_I_2--H
ourPe-r-io-~-s---------~ - 0.75

ILinear Foot Of Load

~~Day

IM;n;m,m Cha<g•
I 060 WHARFAGE

I IT~_M___ ____ __ ---··· - ----------------- ---·-·· ........... .
jGeneral Cargo N.O.S.
Steel
jAil Other Cargo Call For Quote

I ~TE

I ~E_f_{

I
I 1.89
I 1.00

fST

1.59

jLoaded Containers

fST
fST

I

··-----····- - - - - - - - -- - --- - - ·-·-- - - --'

I 065 CUSTOMS EXAM

-- .......____ ,

-----···-------·---- ------

............ .______ __ _____________. __

I ~T!= .

liTEM

I 151.70
I 732.45
I 943.45886.10
.,I 1,107.65

•jTAILGATE
. [20' Container Intensive, Palletized Cargo
·j20' Container lnte~sive, Loc;>se Cargo
:j 40' Container Intensive, Palletized Cargo
f40' Container Intensive, Loose Cargo

. --------------··-- -

..

·1P.ER

..

,l_~o~TAINER

..

-------------··--·--·--······-······- ·-

..

jcONTAINER
jCONTAINER
fCONTAINER
jCONTAINER

The charges for Customs exams will be assessed to the importer of record or authorized representative, and will
include the cost of intra terminal drayage. Rate provide'd herein are applicable during straight time hours only.
Rates in this section are for a four-hour block of time. Additional four- h o u r periods are billable at 750.00
per period. Rate for tailgate inspection includes removal of one (I) package.

A124

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended : Not applicable.

Page 60 of66

1070 COMMODITIES Rates quoted upon request by VIT Pricing and Quotes; otherwise Extra Labor Rates plus
materials and equipment rental.

1075 DELIVERING/RECEIVING DURING OVERTIME HOURS

I checker, I top-loader operator, and use of I toploader

f

.---------1
I checker, 2 top-loader operators, and use of 2 toploaders

A125

Per Hour, 2hr minimum

300.00

I

Per Additional Hour
over 2 Hours

lr-- - 15-0-.0-0- -- l

s:~~ ~-- -__ I

250.00

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

VIT

Page 61 of 66

SECTION XI
DEFINITIONS
BASIC CONTAINER UNIT RATE means a rate which includes charges for SOR Items which typically apply to the
handling of all CONTAINERS at the TERMINALS. The BASIC CONTAINER UNIT RATE shall not exceed the aggregate of
the SOR charges included in the unit rate.
BULK CARGO means cargo that is loaded and carried in bulk without mark or count, in a loose unpackaged form, having
homogenous characteristics. BULK CARGO loaded into intermodal equipment, except LASH or Seabee barges, is subject
to mark and count and is, therefore, subject to this SOR.
CARRIER means an OCEAN CARRIER, barge or VESSEL operator, motor carrier, or rail carrier/operator which brings
cargo to a TERMINAL to be loaded or discharged.
CHECKING means the service of counting and checking cargo against appropriate documents for the account of the
cargo or the VESSEL, or other person requesting same.
COASTWISE means cargo moving by any single mode or combinations of modes of transportation between the
Port of Hampton Roads and any other port in the United States on the Atlantic Coast or on the Gulf of Mexico.
CONTAINER means a standard ISO 20-foot, 40-foot, or 45-foot seagoing, intermodal CONTAINER having
approximately the following basic dimensions with any height:

Overall Length
Overall Width

20-foot
19' 10-112"
8'0"

40-foot
40' 0"
8' 0"

45-foot
45' 0"
8' 0"

A CONTAINER when used for the transport of dry, liquid or refrigerated cargo, may be of metal, fiberglass,
plastic or wooden construction; however, the CONTAINER must confine and protect its contents from loss or
damage from the elements and must be susceptible to being handled in transit as a unit.
Oversized or over-height CONTAINERS are any CONTAINER where the cargo extends beyond the length, width
or height of the CONTAINER. A CONTAINER with dimensions in excess of the following will not be accepted
due to railroad restrictions:
a) Overall height in excess of I 3 feet 6 inches
b) Overall length in excess of 48 feet
c) Overall width in excess of I02 inches
d) Measurement from center line of CONTAINER to outermost lateral point, in excess of 51 inches
For the purpose of this SOR, trailers on wheels which moves onto or off of a vessel by means of a ramp and flats
measuring I0', 15' and 20' x 8' not requiring inside storage shall be deemed to be a CONTAINER. "Vans" used in
connection with the shipments of household goods are not included within this definition.
CONTAINER YARD means the area(s) on a TERMINAL designated by VIT where loaded or empty CONTAINERS can
be put at a POINT OF REST.
CYBER ATTACK means an attempt to damage, disrupt, or gain unauthorized access to a computer, computer
system, or electronic communications network.

A126

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

Page 62 of66

DANGEROUS CARGO means: (i) cargo regulated under applicable law as being dangerous under 33 CFR Part
126, including without limitation "dangerous cargo" and "cargo of a particular hazard" as defined therein, (ii)
"Certain Dangerous Cargo (CDC)" as defined in 33 CFR Part 160, and (iii) and all other cargo of unknown nature
or value or which may be dangerous to human health or the environment. This term includes EXPLOSIVES.
DANGEROUS CARGO LAWS means international and U.S. laws, rules, treaties, and regulations governing
the handling, transportation, and storage of DANGEROUS CARGO, including but not limited to 33 CFR Parts
100-185 (U.S. Coast Guard), 49 CFR 100-185 (U.S. Department of Transportation), as they may be amended,
supplemented, and/or renumbers, and all regulations published in accordance therewith.
DEMURRAGE means a charge assessed against cargo remaining in or on TERMINAL facilities after the expiration
of FREE TIME, if any, unless arrangements have been made for storage.
DOCKAGE means a charge assessed against a vessel for berthing at a wharf, pier, bulkhead structure or bank.
DUAL RECEIVING means a CONTAINER is received by the TERMINAL from an inland carrier (truck or rail)
and the CONTAINER departs by truck or rail rather than departing via a VESSEL.
EXTRA LABOR RATES means the rates for labor for special services for which a rate is not stated in this
SOR. RMT and VIP'S EXTRA LABOR RATES are different from those of the other TERMINALS. All ILA contract
guarantees and Guaranteed Annual Income special assessment will be charged for labor when applicable.
EXPLOSIVES means any substance or article, including a device, which is designed to function by explosion (i.e.,
an extremely rapid release of gas and heat) or which, by chemical reaction within itself, is able to function in a
similar manner even if not designed to function by explosion, that have (i) a mass explosion hazard; a mass
explosion is one which affects almost the entire load instantaneously explosives; (ii) a projection hazard but not a
mass explosion hazard, and (iii} a fire hazard and either a minor blast hazard or a minor projection hazard or both,
but not a mass explosion hazard. The term includes a pyrotechnic substance or article.
EXPORT CARGO means cargo received at a Terminal for loading into a vessel for shipment to a foreign or domestic
offshore port or destination.
FORCE MAJEURE means damage or destruction to one or more of the TERMINALS by fire, radiation, hurricane, flood,
riot, earthquake, volcanic eruption, tidal wave, windstorm, hail, explosion, power loss, act of God, public enemy or other
casualty, or if they are seized, or utilization or operation thereof be suspended, abated, prevented or impaired by reason of
war, warlike operations, acts of TERRORISM, CYBER ATTACK, contamination, governmental decree, strikes, slowdowns,
or other labor disputes, lockouts or other work stoppage or by reason of any other condition beyond the control of VIT,
so as to render one or more of the TERMINALS or the equipment thereon wholly or partially inoperable, inaccessible, or
unfit for use, or so as to make it impossible or impractical for VIT to meet its obligations.
FOREST PRODUCTS means forest products including, but not limited to, lumber in bundles, rough timber,
ties, poles, piling, laminated beams, bundled siding, bundled plywood, bundled core stock or veneers, bundled
particle or fiber boards, bundled hardwood, wood pulp in rolls, wood pulp in unitized bales, paper and paper board
in rolls or in pallet or skid-sized sheets, liquid or granular by-products derived from pulping and papermaking, and
engineered wood products.
FREE TIME means a period in this SOR during which cargo, including in-transit cargo, may occupy space assigned
to it on Terminal property, including off-dock facilities, free of DEMURRAGE charges immediately prior to the
loading or subsequent to the discharge of such cargo on or off the vessel.
HANDLING means the service of physically moving cargo between point of rest and any place on the terminal
facility, other than the end of ship's tackle.

A127

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

VIT

Page 63 of66

HAZARDOUS MATERIALS means materials and substances that the U.S. Department of Transportation,
Department of Homeland Security, or any other state or federal agency has regulated as posing an unreasonable
risk to health, safety, and property when transported. HAZARDOUS MATERIALS includes without limitation
materials and substances designated or regulated as hazardous under 49 U.S.C. §S I 03 et. seq., 49 CFR 172.1 0 I,
and 49 CFR Part 173, and all successor and replacement laws and all regulations published in accordance
therewith.
HAZARDOUS MATERIALS LAWS means international and U.S. laws, rules, treaties, and regulations
governing the HANDLING, transportation, and storage of HAZARDOUS MATERIALS, including but not limited to
49 U.S.C. §S I03 et seq. 49 CFR Parts I 00-185, the Maritime Transportation Security Act of 2002, and all
regulations published in accordance therewith.
HEAVY LIFT means the service of providing heavy lift cranes and equipment for lifting cargo.
HOLIDAYS
The TERMINALS will be closed for all operations on the following HOLIDAYS:
New Year's Day
Independence Day
Labor Day
Thanksgiving Day
Christmas Eve
Christmas Day
The TERMINALS will be open for limited operations on the following HOLIDAYS:
Martin Luther King's Birthday
Robert E. Lee's Birthday
George Washington's Birthday
Thomas W. Gleason's Birthday
Memorial Day
Jefferson Davis' Birthday
Columbus Day
Veterans Day
VIT may change Terminal operating times from time to time based on weather or other factors. Details available on the VIT
web site at www.portofvirginia.com.
HRCP II means HRCP II, L.L.C., which operates the chassis pool on the TERMINALS.
IMPORT CARGO means cargo, including in-transit cargo, received at a TERMINAL from a VESSEL from a
foreign or domestic offshore port or origin for loading to a domestic motor, rail or water CARRIER.
INTERCOASTAL when applied to cargo means cargo originating at or destined to points on the Pacific Coast
of the United States.
LOADING OR UNLOADING means loading or unloading cargo between any place on the TERMINAL and
railroad cars, trucks, VESSELS, or any other means of conveyance to or from a TERMINAL. LOADING OR
UNLOADING does not include special stowage, blocking or bracing, sorting or grading, stripping or stuffing
CONTAINERS, or otherwise selecting the cargo for the convenience of CARRIER or consignee.

A128

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

Page 64 of66

LOSSES means all (i} fines and penalties, (ii} actual and statutory damages, (iii} removal, response, and
remediation costs, (iv} investigation and testing costs, (v) engineering and consultant costs, (vi}fumigation costs, and
(vii} reasonable costs and attorneys' fees.
M&R refers to the maintenance and repair functions performed on CONTAINERS and intermodal chassis.
POINT OF REST means a point within a Terminal where VIT designates that a CONTAINER, cargo, or
equipment be placed for movement to or from a VESSEL
OCEAN CARRIER means a vessel operating steamship line maintaining regular advertised sailings from any
United States port or ports to named ports.
OPEN AND/OR PARKING AREA refers to the designated open storage or parking area on a TERMINAL
where CONTAINERS, when on own wheels or bogies or frames or chassis may be held on instructions by the
owner or agent of said CONTAINER.
PRE-PALLETIZED OR SKIDDED CARGO means cargo which is pre-palletized or skidded to the satisfaction
of VIT and is eligible for reduced LOADING OR UNLOADING rates. It must be situated on the pier or on the
truck or railcar so that it can be loaded into a truck or railcar or unloaded from a truck or railcar by the insertion
of the terminal's forklift truck blades. If it is necessary to shift cargo prior to such insertion, the full LOADING OR
UNLOADING rate will apply.
Note I - Subject to minimum 500 pounds gross weight per unit.
Note 2 - Should PRE-PALLETIZED or SKIDDED CARGO become disassembled prior to or during HANDLING by
VIT, the cost of recoopering will be charged against the cargo.
Note 3 - To qualify for discounts available under provisions of this item, commodity descriptions on all billing
documents, such as Bill of Lading, Waybill, Carriers Pro or Delivery Order, must dearly indicate commodity is prepalletized or skidded.
RAMPING means LOADING a CONTAINER onto a railcar. DERAMPING means UNLOADING a
CONTAINER from a railcar.
RECEIVING CONTAINER means physical acceptance of a CONTAINER by VIT either from the inland
CARRIER, to facilitate physical exchange of the CONTAINER at "POINT OF REST" with a water CARRIER, or
physical acceptance by VIT of a CONTAINER at "POINT OF REST" from a water CARRIER to facilitate physical
exchange with an inland CARRIER.
REHANDLING means the service of physically moving Cargo or equipment any place on a Terminal not involving
LOADING or UNLOADING.
REST OW means the movement of a CONTAINER or other item of cargo from vessel to wharf to vessel
necessary to discharge or load CONTAINERS or other item of cargo to/from the vessel. See SHIFT.
ROLLED CONTAINER means a CONTAINER which is assigned a booking number to depart a TERMINAL on a
specific vessel call but is not loaded on that vessel call or when the port of destination of the CONTAINER is
changed.
SHIFT means the movement of a CONTAINER or other item of cargo from one bay or compartment of a vessel
to another bay or compartment on the vessel necessary to discharge or load CONTAINERS or other item of cargo
to/from the vessel. See RESTOW.
SOR means this Schedule of Rates.

A129

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

Page 65 of 66

SPECIAL SERVICES means services performed for which there is not a published charge.
TERMINALS means the ocean marine TERMINALS, inland TERMINALS, and ancillary facilities operated by VIT.
"TERMINAL" means one of the TERMINALS. The TERMINALS include PMT, VIG, NIT, NNMT, RMT (effective
November I, 20 16), VIP, and the Pinners Point Container Yard. "TERMINALS" includes without limitation
"TERMINAL FACILITIES" which means one or more structures at the TERMINALS comprising a terminal unit,
which include, but are not limited to, wharves, warehouses, covered and/or open storage spaces, cold storage
plants, cranes, grain elevators and/or BULK CARGO loading and/or unloading structures, landings, and receiving
stations, used for the transmission, care and convenience of cargo, CONTAINERS and/or passengers in the
interchange of same between land and water CARRIERs or between two water CARRIERs.
TERMINAL SERVICES includes checking, dockage, handling, heavy lift, loading and unloading, terminal storage,
wharfage, and additional services offered by VIT per this SOR.
TERMINAL STORAGE means the service of providing warehouse or other terminal facilities for the storage of
inbound or outbound cargo after the expiration of FREE TIME, including wharf storage, shipside storage, closed or
covered storage, open or ground storage, bonded storage, and refrigerated storage, if provided.
TON except as otherwise provided in individual items, TON as used in this SOR, has reference to a TON of
2,000 pounds.
TERRORISM and TERRORIST ACTS mean activities against persons or property of any nature involving the
preparation to use, the use or the threat to use force or violence of any nature that injures, damages, interferes
with, disrupts or contaminates persons or property, including intangible property, communication, electronic,
information or mechanical systems where the purpose or result of such activities is to damage, intimidate, or
coerce a government, its economy, the military arm of a government or its civilian population and its apparent
purpose is to further political, ideological, religious, social or economic objectives or to express opposition to
political, ideological, religious or social systems. The term "damage" and the corollary terms included therewith
shall include damage caused incidentally through the efforts of legitimate government to oppose, prevent and
contain TERRORISM.
USAGE means the use of a Terminal by any CARRIER, shipper or consignee, its agents, servants, and/or
employees, when it performs its own car, lighter or truck loading or unloading, or the use of said facilities for any
other gainful purpose for which a charge is not otherwise specified in this SOR.
USER shall mean each {i) each VESSEL and CARRIER, (ii) stevedore, {iii) shipper, consignee, and beneficial cargo
owner, (iv) contractor, subcontractors and vendor ofVIT, VPA, HRCP II, or another USER, (v) licensee and
permittee, and (vi) and every other person or entity using, coming onto, or berthing at a Terminal.
VESSEL means a ship, barge, or other floating craft of any description.
VGM means "verified gross mass" required by the International Convention for the Safety at Life at Sea ("SOLAS")
Regulation Vl/2.
VIT PARTIES means VIT, its parent, affiliates, subsidiary(ies) officers, and employees.
VSA means vessel sharing agreement between OCEAN CARRIERS.
WHARFAGE means a charge against the cargo or VESSEL for use of the wharves, pier or bulkheads by all cargo
passing or conveyed over, onto, or under wharves or between VESSELS when berthed at wharf or when moored
in slip adjacent to wharf. Cargo placed in piers or at shipside or on the apron shall be considered to have earned
WHARFAGE which will be collected whether or not the cargo eventually is loaded aboard a VESSEL. WHARFAGE
is solely-the charge for use of wharves, piers or bulkheads and does not include charges for any other service.

A130

VIT

Schedule of Rates Effective Date 10/1/2016
Last Amended: Not applicable.

Page 66 of66

WHEELED CONTAINER means a CONTAINER, loaded or empty, on own wheels, bogies, frames, chassis or flatbed
trailer, furnished by owner or agent.

A131

VIRGINIA: IN THE CIRCUIT COURT OF THE CITY OF NORFOLK
STEPHENK. WALTON, SR.,
Plaintiff,
Case No. CL19-2417

v.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
et al.,
Defendants.

PLAINTIFF'S RESPONSES TO DEFENDANT VIT'S
FIRST SET OF REQUESTS FOR ADMISSION
The plaintiff Stephen K. Walton, Sr., by counsel, for his Responses to the Defendant
VIT's First Set ofRequests for Admission, states as follows:
1.

VIT maintains a Schedule of Rates governing rates, regulations and practices at

marine terminals operated by VIT.
RESPONSE:
Admitted.

2.

VIT's Schedule of Rates is available to the public during normal business hours

and in electronic form and is accessible to the public via Internet by personal computer.
RESPONSE:
Admitted.

3.

The document attached hereto as Exhibit A is a true and correct copy of VIT' s

Schedule ofRates available to the public via the Internet on March 15, 2017.
RESPONSE:
Based on information currently available to the plaintiff, including a recent review of materials
published onVirginia Port Authority's website, admitted.

EXHIBIT

) 8
A132

4.

From the date you allege the incident occurred until the date you filed your

Complaint in this case, you did not notify VIT, or any representative, agent or employee ofVIT,
in writing of the incident or the injuries you allege you sustained.

RESPONSE:
The plaintiff admits that from the date of the incident until the he filed his complaint, he personally
did not notify VIT or any representative, agent or employee ofVIT, in writing of the incident or
of his injuries. The plaintiff reported the incident and his injuries to his employer MRS. The
plaintiff has insufficient information to admit or deny whether someone from MRS provided VIT
with notification of the incident and/or injuries.

5.

From the date you allege the incident occurred until the date you filed your

Complaint in this case, you did not notify VIT, or any representative, agent, or employee ofVIT,
through any means (written, oral, or otherwise) of the incident or the injuries you allege you
sustained.

RESPONSE:
The plaintiff admits that from the date of the incident until the he filed his complaint, he personally
did not notify VIT or any representative, agent or employee of VIT, in writing or orally, of the
incident or ofhis injuries. The plaintiff reported the incident and his injuries to his employer MRS.
The plaintiff has insufficient information to admit or deny whether someone from MRS provided
VIT with notification of the incident and/or injuries, orally or in writing.

A133

(

Lance A. Jackson, Esq. (VSB No. 26035)
Counselfor Stephen K. Walton, Sr.
MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello Avenue
·
Norfolk, VA 23510
Ph: (757) 622-8100
Fax: (757) 622-8180
ljackson@montagnalaw.com

CERTIFICATE OF SERVICE
I, the undersigned, hereby certify that on August 5, 2019, a copy of the foregoing
pleading was served via first class mail and email transmission on all counsel of record:
John E. Holloway, Esq. (VSB No. 28145)
Daniel T. Berger, Esq. (VSB No. 81861)
Counsel for Virginia International Terminals, LLC
TROUTMAN SANDERS, LLP
222 Central Park Avenue, Suite 2000
Virginia Beach, VA 23462
john.holloway@troutman.com
daniel.berger@troutman.com

A134

VIRGINIA: IN THE CIRCUIT COURT OF THE CITY OF NORFOLK
STEPHEN K. WALTON, SR.,
Plaintiff,
Case No. CL19-2417

v.

VIRGINIA INTERNATIONAL TERMINALS, LLC, et al.,
Defendant.
PLAINTIFF'S BRIEF IN OPPOSITION TO DEFENDANT VIT'S
MOTION FOR SUMMARY JUDGMENT ON PLEA IN BAR
AND IN OPPOSITION TO DEFENDANT VIT'S DEMURRER
The plaintiff respectfully submits that VIT's Motion for Summary Judgment should be
denied, its Plea in Bar should be overruled, and its Demurrer overruled, for the reasons stated in
Parts I-VI of the Argument below. Under controlling Virginia law, Mr. Walton was not required
to file a notice of claim or injury with VIT before filing suit, nor was he required to file suit
against VIT within one year. His suit was timely filed within the two-year period prescribed by
the Virginia General Assembly. VIT's argument that Walton is time-barred because of its
Schedule of Rates (SOR) fails because (1) the Shipping Act does not pre-empt applicable
Virginia law, under which Walton's state tort action is timely filed; (2) VIT's SOR is not
enforceable as an implied contract against Walton (the only way it could be enforced) because of
one or more actual contracts covering Walton's use of the terminal when he was injured; (3)
VIT's SOR is not enforceable against Walton as an implied-in-fact contract, because he did not
agree to the terms ofthe SOR; (4) VIT's SOR is not enforceable against Walton as an impliedin-law contract, because Virginia law, which controls, does not afford barring personal injury
actions as a remedy on an implied-in-law contract; and (5) the SOR is not enforceable as an
1

A135

implied-in-law contract to bar Walton's tort action, because that is not what in equity and good
conscience should be done under the circumstances of this case. VIT's Demurrer should be
overruled because Virginia law clearly permits the plaintiff to sue alternative defendants.
FACTS
At this stage of the litigation, no depositions have been taken, and VIT has not answered
the plaintiffs Interrogatories and Requests for Production. Material facts developed in the record
to this point and related to the issues controlling resolution ofVIT's Motion for Summary
Judgment, Plea in Bar, and Demurrer, are stated in the Plaintiffs Amended Complaint; the
License Agreement between VIT and MRS, Mr. Walton's employer (copy attached hereto as
Exhibit B); VIT's Schedule of Rates attached as Exhibit A to its Brief; the Declaration of
Stephen K. Walton, Sr., attached hereto as Exhibit A; and the collective bargaining agreement to
which VIT, MRS, and Mr. Walton's union, ILA Union Local 1970 are parties, attached to
Walton's Declaration as Exhibit 1. These facts are discussed as they relate to each part of the
Argument below.
STANDARD OF REVIEW
Summary judgment may be granted when no genuine issue of material fact remains in
dispute on a controlling issue or issues and the moving party is entitled to judgment as a matter
oflaw. Mount Aldie, LLC v. Land Trust ofVa., Inc., 293 Va. 190, 196, 796 S.E.2d 549,553
(20 17). The Virginia Supreme Court has repeatedly admonished that summary judgment is a
"drastic remedy," Fultz v. Delhaize Am., Inc., 278 Va. 84, 88, 677 S.E.2d 272, 274 (2009); Slone
v. Gen. Motors Com., 249 Va. 520, 520, 457 S.E.2d 51, 51 (1995); and that granting summary
judgment is only appropriate when "no trial is necessary because no evidence could affect the
2

A136

result." Shevel's Inc.-Chesterfield v. Southeastern Assoc., 228 Va. 175, 181,320 S.E.2d 339,
342-43 (1984). The policy underlying Virginia's summary judgment procedure is to "assure
that the parties' rights are determined upon a full development of the facts, not just upon
pleadings and 'selected excerpts' from discovery materials." Commercial Bus. Sys. V. Halifax
Corp., 253 Va. 292,297,484 S.E.2d 892, 894 (1997)(emphasis added). Thus a trial judge
considering a motion for summary judgment should deny the motion when the evidence in the
record has not been sufficiently developed to justify entering judgment as a matter oflaw.
Renner v. Stafford, 245 Va. 351, 354-55, 429 S.E.2d 218, 220-21 (1993); Marion v. Terry, 212
Va. 401,402, 184 S.E.2d 761,762 (1971).
Although affidavits and depositions may not be used to support a motion for summary
judgment, they may be used to oppose a motion for summary judgment. Lloyd v. Kime, 275 Va.
98, 107, 654 S.E.2d 563, 568 (2008)(deposition); Tri-Port Terminals. Inc. v. Hitch S. Branch
TerminaL LLC, 87 Va. Cir. 314 (Chesapeake Cir. Ct. 2013).
A demurrer tests whether a complaint states a cause of action upon which relief may be
granted, Kaltman v. All American Pest ControL Inc., 281 Va. 488-89, 706 S.E.2d 864, 867 (2011),
with all facts expressly pleaded, facts impliedly alleged, and all reasonable inferences, accepted as
true for the plaintiff. Assurance Data, Inc. v. Malyevas, 286 Va. 137, 143, 747 S.E.2d 804, 807
(2013).

3

A137

ARGUMENT
I.

THE MOTION FOR SUMMARY JUDGMENT SHOULD BE DENIED AND
THE PLEA OVERRULED, BECAUSE THE SHIPPING ACT DOES NOT
PRE-EMPT APPLICABLE VIRGINIA TORT LAW.

Without bothering to address the issue of federal pre-emption of Virginia law, VIT
asserts that, because of a federal statute, the 30 day notice of claim provision and one-year time
limitation to sue in Section 207 of its Schedule of Rates bar Mr. Walton's common law tort
claim. (VIT's Brief, p. 6). As will be shown in more detail below, as a matter oflaw, the
Shipping Act of 1984 on which VIT relies does not pre-empt Virginia law. Under Virginia
common law, notice of a tort claim is not a prerequisite to maintaining a tort action. Under
Virginia Code Section 8.01-243, the limitation period for filing a common law personal injury
action is two years, not one year. Because the Shipping Act does not pre-empt applicable
Virginia law, Mr. Walton's tort action against VIT is not time-barred by VIT's Schedule of
Rates.
A. Walton's negligence claim is brought under Virginia tort law.
It is well-settled that state tort law, not federal law, applies to personal injury actions

arising from accidents occurring on a marine terminal. Gardner v. Old Dominion Stevedoring
Com., 225 Va. 599, 603, 303 S.E.2d 914, 916 (1983)(holding longshoreman's accident occurring
at NIT is "controlled by state law"). The plaintiff has alleged in his Amended Complaint that he
was injured at the NIT terminal by the negligence of marine terminal operator VIT. His landbased claim is brought pursuant to Virginia tort law, not federal law.

4

A138

B. Virginia law does not require Walton to provide notice of claim before f"iling suit.

Under the common law, a tort victim is free of any requirement to notify a tortfeasor of
an accident or claim before filing suit. In this case, the common law trumps any notice
requirement found in VIT's Schedule of Rates, because the common law is the rule of decision.
Virginia Code Section 1-200 provides:
The common law of England, insofar as it is not repugnant to the
principles of the Bill ofRights and Constitution of this
Commonwealth, shall continue in full force within the same, and
be the rule of decision, except as altered by the General Assembly.
Occasionally, the General Assembly has made an exception to the common law rule, imposing
statutory notice of claim requirements on tort victims. For example, Virginia Code Section 15.2209, requires that a written notice of claim be sent for injuries caused by the negligence of a city.
Such statutory notice of claim requirements are in derogation of the common law. Breeding by
Breeding v. Hensley, 258 Va. 207, 215, 519 S.E.2d 369, 373 (1999)(trial court erred in applying
notice of claim requirement to tort suits against city employees); Ray v. IN OVA Health Sys.
Hosps., 35 Va. Cir. 1, 3 (Fairfax Co. Cir. Ct. 1994). No Virginia statutory notice of claim
requirement applies to this case. The Virginia common law rule that no pre-suit notice of claim is
required continues in full force and is the rule of decision, unless federal law pre-empts it.

C. Under Virginia law, Walton's suit was timely nled within the two year limit.
Virginia Code Section 8.01-243(A) provides:
Unless otherwise provided in this section or by other statute, every
action for personal injuries, whatever the theory of recovery ... shall
be brought within two years after the cause of action accrues.

5

A139

Because Walton's suit under Virginia tort law was filed within the two year period prescribed by
Virginia law, his suit was timely filed, unless the Virginia statute is pre-empted by federal law.
D. The Shipping Act of 1984 does not pre-empt applicable Virginia common law or
statutory law.
Do the notice of claim requirement and one-year time limit to sue for personal injury
stated in Section 207 ofVIT's SOR nullify Virginia's common law rule that a tort victim is free
from any pre-suit notice of claim requirement, and nullify Virginia Code §8.01-243's two year
period for bringing a Virginia tort action, in this case? The short answer is No. The sole basis
for VIT's argument that it is not subject to these Virginia laws and that Walton's tort suit is timebarred is the Shipping Act of 1984, 46 U.S. C. §40101, et seq. VIT's argument is fatally flawed,
because the Shipping Act does not pre-empt the applicable Virginia law. The fact that VIT does
not even mention pre-emption in its brief is telling.
"The pre-emption of state laws represents 'a serious intrusion into state sovereignty.'"
Va. Uranium, Inc. v. Warren, 139 S.Ct. 1894, 1904,204 L.Ed.2d 377 (2019); Alwan v. Alwan,
70 Va. App. 599, 606, 830 S.E.2d 45, 48 (2019). A federal statute does not pre-empt state law,
unless Congress has explicitly stated that state law is pre-empted, unless state law actually
conflicts with federal law, unless compliance with both state and federal regulation is a physical
impossibility, or unless the state law stands as an obstacle to the accomplishment and execution
ofCongress' objectives. Maretta v. Hillman, 283 Va. 34, 40, 722 S.E.2d 32, 34 (2012).
To prevail on a claim that federal law pre-empts state law, VIT "must establish
more than that [the federal law] 'touch[es] upon or 'relate[s] to' that subject matter." CSX
Transp. v. Easterwood, 507 U.S. 658, 664, 113 S.Ct. 1732, 123 L.Ed.2d 387 (1993). There

6

A140

is a presumption that a state's historic police power is not superseded by a federal act, unless that
was the clear and manifest purpose of Congress. Wyeth v. Levine, 555 U.S. 555, 565, 129 S.Ct.
1187, 173 L.Ed.2d 51 (2009). A state's police power includes its power to protect the lives and
health of its people, Kelly v. Washington, 302 U.S. 1, 13, 58 S.Ct. 87, 82 L.Ed. 3 (1937). "State
tort laws ... plainly intend to regulate public safety," Va. Uranium. Inc., 139 S.Ct. at 1905, and
states have traditionally had the authority to prescribe tort remedies for their citizens. Silkwood
v. Kerr-McGee Com ., 464 U.S. 238,248, 104 S.Ct. 615,78 L.Ed.2d 443 (1984). Furthermore,
the Supreme Court has admonished that any federal statute in derogation of the common law
must be strictly construed, because no such 'statute is to construed as altering the common law
farther than its words express.' Robert C. Herd & Co. v. Krawill, 359 U.S. 297, 304-05, 79 S.Ct.
766, 3 L.Ed.2d 820 (1959).
The language of the Shipping Act and Congress' purpose in passing the Act make clear
that the Shipping Act does not pre-empt the Virginia laws which VIT seeks to supplant with its
Schedule.
The primary purpose of the Shipping Act of 1984 is to eliminate discriminatory practices
of shippers and carriers. Waterfront Comm'n of N.Y. Harbor v. Elizabeth-Newark Shipping.
Inc., 199 F.3d 177, 185 (3d Cir. 1998). The Shipping Act of 1984 expanded the limited
antitrust immunity that existed under the previous Act. United States v. Gosselin World Wide
Moving, N.V., 411 F.3d 502, 509-10 (4th Cir. 2005). The regulations issued by the Federal
Maritime Commission to administer 46 U.S.C. §40501(f), the provision of the Shipping Act of
1984 on which VIT bases its Motion for Summary Judgment and Plea in Bar, were promulgated
to "identifiy] and prevent unreasonable preference or prejudice and unjust discrimination." 46
7

A141

CFR § 525.1(a).
The Shipping Act is not safety legislation. It is legislation designed to regulate shipping
practices. The Shipping Act of 1984 does not mention personal injury actions, such as Mr.
Walton's brought under state law. The Act does not provide Mr. Walton any remedy against VIT
for his injuries. This is a factor which militates against pre-emption of a state law tort claim.
Krantz v. International Air Line Pilots Ass'n, 245 Va. 202, 209, 427 S.E.2d 326, 330 (1993). It
was not the "clear and manifest purpose of Congress" to regulate state personal injury tort law
through the Shipping Act.
Nevertheless, VIT relies on 46 U.S.C. §40501(f) as its authority for barring Walton's
action. Pursuant to that section, a marine terminal operator may issue:
[A] schedule of rates, regulations, and practices, including
limitations of liability for cargo loss or damage, pertaining to
receiving, delivering, handling, or storing property at its marine
terminal.
46 U.S.C. §40501(f) is very similar to a parallel provision of the Shipping Act of 1916, which
authorized terminal facilities to keep open to the public a
schedule or tariff, showing all its rates, charges, rules, and
regulations, relating to or connected with the receiving, handling,
storing, and/or delivering of property at its terminal facilities.
46 U.S.C. § 841a, quoted in Federal Commerce & Navigation Co. v. Calumet Harbor Terminals,
Inc., 542 F.2d 437, 439 (7 1h Cir. 1976). While the 1984 Act and its predecessor both authorized
marine terminals to issue a schedule of rates or tariff concerning rates, charges, rules and
regulations, neither 46 U.S.C. §40501(£), nor any other provision of the 1984 Act, requires or even
mentions that a marine terminal can impose through its tariff time limitations on state law claims
8

A142

brought by personal injury tort victims.
VIT cites no cases holding that 46 U.S.C. §40501(±) supports its position. VIT's failure to
cite any cases holding that 46 U.S.C. §40501(±), or any other provision of the statute, authorizes a
marine terminal's tariff to impose a notice of claim requirement or shorter time for filing suit on
a personal injury tort victim bringing a state law tort claim also militates against a finding of preemption of Virginia law. Krantz v. International Air Line Pilots Ass'n, 245 Va. 202, 208, 427
S.E.2d 326, 329 (1993).
Courts analyzing whether the above-quoted statutory predecessor to 46 U.S.C. §40501(±)
authorized a marine terminal to impose time limits on a claim, through its tariff, have held that the
Act contains no provision authorizing the limitation of time for the presentation of claims. Federal
Commerce & Navigation Co. v. Calumet Harbor Terminals. Inc., 542 F.2d 43 7, 441 (7th Cir. 1976);
Pacific S.S. Co. v. Cackette, 8 F.2d 259, 260 (9th Cir. 1925). The fact that the Shipping Act does
not require or even mention such time limitations is fatal to VIT's argument. "It is a basic principle
oftarifflaw that extraneous matter injected into a tariff does not have the force oflaw, in contrast
to the matters that are required to be filed in the tariffs." Burlington Northern Railroad Company
v. M.C. Terminals, Inc., 1992 FMC LEXIS 27, *80 (Federal Maritime Commission
1992)(emphasis added).
The cases which VIT cites in support of its Motion for Summary Judgment and Plea in Bar
are easily distinguishable from the present case. None of them deal with pre-emption. The
maritime cases cited do not apply Virginia tort law. All of the non-maritime cases cited by VIT
deal with limitations stated in an actual written contract between the parties. Those cases do not
help VIT, because a marine terminal schedule of rates is not an actual contract. Rafinasi v. Coastal

9

A143

Cargo Co., 552 Fed. Appx. 394,400 (5th Cir. 2014). A marine terminal schedule of rates is a
''unilateral promulgation, not a product ofbargaining." Pate Stevedore Co. v. Alabama State Docks
Department, 1988 FMC LEXIS 21, *13 (Federal Maritime Commission 1988).
VIT has produced no actual contract between it and Mr. Walton, because there is none.
It is true that, under Virginia law, "parties to a contract may agree that any action to enforce the

contract must be filed within a shorter period of time than that established by an otherwise
applicable statute oflimitations," Massie v. Blue Cross Blue Shield, 256 Va. 161, 164, 500 S.E.2d
509, 511 (1998)( emphasis added). On the other hand, a person who is not a party to a contract
imposing a shorter time limitation for presenting claims is not bound by that limitation.
Commercial Constr. Specialties, Inc. v. ACM Constr. Management Corp., 242 Va. 102, 106, 405
S.E.2d 852, 854 (1991). Virginia law upholds contractual time limitations only as to (1) parties to
an actual contract, (2) who agreed to those limitations. Because Mr. Walton is not a party to an
contract with VIT which has contractual time limitations, Virginia common law and Virginia
statutory law, as discussed above, apply, and Walton's claim is not time-barred.
The case of Gooch v. Oregon S.L.R. Co., 258 U.S. 22, 42 S.Ct. 192, 66 L.Ed. 443 (1922),
cited by VIT, does not support its argument. There, the plaintiff businessman, in order to obtain a
drover's pass to ride with his cattle on the railroad, agreed before the trip that he would give the
railroad notice of any claim of injury to himself within thirty days after the injury. Unlike the
drover in Gooch, supra, Mr. Walton did not agree to the terms ofVIT's Schedule of Rates; nor
was he was told about VIT's time limitation in its Schedule in advance ofhis injury. (See
Declaration of Stephen Walton, Sr., Exhibit A, ~s 7-16). In the case of Liquid Carbonic Co. v.
Norfolk & W. R. Co., 107 Va. 323, 58 S.E. 569 (1907), the Court upheld a time limitation
10

A144

appearing on a contract of shipment---i.e., a bill of lading---against a party to the contract. Unlike
Mr. Walton, the plaintiff who was time-barred by the contract in Liquid Carbonic, supra, assented
to the contract, was given the time limitation, and was a party to the contract.
VIT's argument that the Shipping Act authorizes it to assert time limitations in its Schedule
of Rates to bar Walton's Virginia tort action fails. In order for VIT's argument to succeed, it
must show that the Shipping Act pre-empts applicable Virginia law, but VIT does not even address
pre-emption. VIT points to no law justifying a serious intrusion into Virginia's sovereignty to
nullify Mr. Walton's rights under Virginia law. Under Virginia common law and statutory law,
Mr. Walton's state tort claim is timely filed. Nothing in the federal statute expressly or impliedly
conflicts with that Virginia law. VIT has failed to meet its burden to overcome the presumption
that Virginia's common law and statutory law respecting Mr. Walton's state tort claim is not preempted. For those reasons, as a matter oflaw, VIT's Motion for Summary Judgement should be
denied, and its Plea in Bar overruled.
II.

VIT'S TIME LIMITATIONS ARE NOT ENFORCEABLE AGAINST WALTON,
BECAUSE THERE WAS AN ACTUAL CONTRACT AND A PARTY FOR
WALTON'S TERMINAL USE.

In addition to VIT's failure to demonstrate federal pre-emption ofVirginia law concerning
Mr. Walton's tort action, a second ground for denying VIT's Motion for Summary Judgment and
overruling it Plea in Bar, as a matter oflaw, is that VIT's Schedule of Rates is not enforceable
against Walton as an implied contract. The sole reason that VIT gives for enforcing the time
limitations in its Schedule of Rates (SOR) against Mr. Walton is that the SOR is enforceable as an
implied contract. (VIT Brief, p. 8). As will be shown below, because there are one or more
actual contracts between VIT and a party covering Mr. Walton's use of the terminal, the SOR and
11

A145

its time limitations are not enforceable as an implied contract.
A. The Schedule of Rates does not apply to Walton because of the actual
contract between VIT and Walton's employer MRS.

As VIT's argwnent goes, Mr. Walton was a user of its facility, which means that Mr.
Walton was receiving VIT's services when he was hurt, so VIT can enforce its SOR time
limitations against him as an implied contract. VIT's theory ignores the fact that an actual contract
covering Walton's use of the terminal makes its SOR unenforceable.
Shipping Act regulation 46 CFR §525.2(a) limits enforcement of a marine terminal's
schedule of rates to specific conditions:
(2) Enforcement of terminal schedules. Any schedule . . . shall be
enforceable by an appropriate court as an implied contract between
the marine terminal operator and the party receiving the services
rendered by the marine terminal operator ....
(3) Contracts for terminal services. If the marine terminal operator
has an actual contract with a party covering services rendered by
the marine terminal operator to that party, an existing terminal
schedule covering those same services shall not be enforceable as
an implied contract.
Under the plain language of the regulation, if there was an actual contract between VIT
and "a party" covering the services mentioned in Schedule, the Schedule is not enforceable as an
implied contract. (Of course, since a marine terminal SOR is not an actual contract, Rafinasi, supra,
VIT's SOR is not enforceable, by itself, as an actual contract either.)
46 CFR §525.l(b)(19) defines "terminal services" to include ''usage," which in tum

includes "use of said facilities for any other gainful purpose for which a charge is not otherwise
specified." 46 CFR §525.l(b)(21). IfMr. Walton was ''receiving services" from VIT when he was
hurt because he was using the terminal, as VIT insists he was, then VIT's Schedule of Rates is not
12

A146

enforceable against him as an implied contract, because there was an actual contract between VIT
and MRS, Walton's employer, that covered Walton's use of the terminal.
VIT has put into the record, through its reply brief filed on June 28, 2019, a copy of its
contract with Marine Repair Service, Inc. (MRS). (See License Agreement, attached to VIT's Brief
as Exhibit A. For the Court's ready reference, a copy of the License Agreement is attached hereto
as Exhibit B.) The License Agreement covers MRS' use oflicensed premises, but it also covers
MRS' use of the terminal in general. Section 30 of the contract provides that VIT's Schedule of
Rates "is incorporated into this Agreement by reference and shall apply to all of LICENSEE'S
operations and activities on the Terminals." Walton has alleged in his Amended Complaint

that, at the time he was injured, he was on the terminal employed by MRS as a reefer mechanic
and container repair mechanic. (Amended Complaint, ~s 4, 36, 39, and 40). His work in NIT's
reefer row area was part of MRS' "operations and activities on the Terminals," as described in
Paragraph 18 ofthe Amended Complaint.
Section 100 A, ofVIT's SOR provides in pertinent part:
This SOR applies to the provision of TERMINAL SERVICES by
VIT at the TERMINALS, including without limitation NIT ...
(effective November 1, 2016).

*

*

*

If VIT has an actual contract with a party covering the services
rendered by VIT, then this SOR shall not apply to those services,
except to the extent this SOR is incorporated in the actual contract.
(A copy ofVIT's November 1, 2016, SOR is attached to VIT's Brief as Exhibit A; Section 100A
is at page 3). VIT's SOR states that it is controlled by Virginia law. Section 207(C) ofVIT's

13

A147

Schedule provides:
The laws of the Commonwealth of Virginia without reference to its
choice of law rules and, to the extent not in conflict with the law of
Virginia, the general maritime laws and statutes ofthe United States,
shall apply to all disputes arising from or related to this SOR.
(See VIT SOR, p. 6).
"Unambiguous tariff terms are enforced according to their plain terms, and ambiguous
terms are strictly construed against the drafter." Verizon Va. , LLC v. XO Communs .. LLC, 144
F.Supp.3d 850, 858 (E.D. Va. 2015).
Under the plain language of 46 CFR § 525(a)(3), and Section 100(A) ofVIT's SOR, the
SOR is not enforceable as an implied contract, because there is an "actual contract" between
VIT and MRS, "a party, covering the services rendered by VIT." Because VIT's SOR is
incorporated into the contract between VIT and MRS, the SOR and its time limitations apply to
MRS as a party to the contract. Virginia law permits this under Massie, supra, and Virginia law
applies, pursuant to Section 207(C) of the SOR. On the other hand, pursuant to Virginia law, Mr.
Walton is not bound by the provisions of the SOR and its time limitations, because he is not a
party to the contract between VIT and MRS. Commercial Constr. Specialties, Inc. v. ACM Constr.
Management Corp., 242 Va. 102, 106, 405 S.E.2d 852, 854 (1991). For these reasons, as a matter
oflaw, VIT's Motion for Summary Judgment should be denied, and its Plea in Bar overruled.

B. The Schedule of Rates does not apply to Walton because of the multi-party
collective bargaining agreement between VIT, MRS, and ILA Local 1970.
The plaintiff submits that, in addition to the actual contract between VIT and MRS, there
is a second actual contract covering terminal use by Mr. Walton: the collective bargaining
agreement to which VIT, MRS, and the union local of which Mr. Walton is a member, ILA
14

A148

Local 1970, are parties. See Declaration of Steven K. Walton, Sr., Exhibit A, ~s 3 and 4, and a
copy of the collective bargaining agreement attached thereto as Exhibit 1.
The collective bargaining agreement (CBA) deals with the work which Mr. Walton was
performing when he was hurt at NIT, container maintenance and repair at a marine terminal in
the Port of Hampton Roads. The CBA addresses use of waterfront facilities, which include all
waterfront terminals in the Port of Hampton Roads. (CBA, Section 6). Under the CBA, only
union representatives and authorized personnel are permitted on a terminal jobsite. (CBA,
Section 6). The CBA provides that "all work related to refrigeration, including but not limited to,
hooking up or unhooking refrigeration units ... shall be performed by refrigeration mechanics."
(CBA, Memorandum of Agreement, p. 5).
For the reasons stated above, and in Part A of this argument, VIT's SOR is not
enforceable against Mr. Walton, because the collective bargaining to which VIT, MRS, and ILA
Union Locall970 are parties is an actual contract which covers Walton's use ofVIT's terminal
facilities.
Ill.

VIT'S SCHEDULE OF RATES IS NOT ENFORCEABLE AGAINST
WALTON AS A CONTRACT IMPLIED IN FACT, BECAUSE HE
NEVER AGREED TO THE SCHEDULE.

In addition to the grounds for denying VIT's Motion for Summary Judgment and
overruling its Plea in Bar advanced in Parts I and II above, the fact that Mr. Walton never agreed
to VIT's Schedule of Rates makes it unenforceable as an implied contract in fact.
As mentioned in Part II of the Argument, Section 207(C) ofVIT's SOR states that
Virginia law applies to the SOR, to the extent not in conflict with maritime law and statutes of
the United States. Here, the dispute is a land-based state law tort action. No federal statute or
15

A149

maritime law invalidates VIT's choice that Virginia law applies to its SOR.
Under Virginia law, VIT has the burden of proving an implied contract in fact. Virginia
Canners Exch. v. Scheidt, 137 Va. 452,458-59, 119 S.E. 56, 58-59 (1923). "Like an express
contract, an implied-in-fact contract is created only when the typical requirements to form a
contract are present, such as consideration and mutuality of assent." Spectra-4, LLP v. Uniwest
Commer. Realty, Inc., 290 Va. 36, 45, 772 S.E.2d 290, 295 (2015). Virginia law requiring
mutuality of assent is consistent with law developed by the Federal Maritime Commission "that a
provision in a terminal tariff stating that persons using the terminal facilities consent to the terms
and provisions of the tariffhas no legal effect under tarifflaw." Burlington Northern Railroad
Company v. M.C. Terminals, Inc., 1992 FMC LEXIS 27, *81-82 (Federal Maritime Commission
1992).
Mr. Walton did not agree to VIT's SOR; he did not agree to any notice of claim or injury
time limit; and he did not agree to any time limitation on filing suit against VIT. (See Walton
Declaration, Exhibit A, -,rs 13-16.) Because Mr. Walton alleges that he never agreed to VIT's
SOR and its time limitations, there is at least a genuine issue of material fact as to whether there
is an implied contract-in-fact between VIT and him. Summary judgment should not be granted
against Walton on the basis of implied contract-in-fact.

IV.

VIT'S SCHEDULE OF RATES IS NOT ENFORCEABLE AS AN
IMPLIED CONTRACT-IN-LAW TO BAR WALTON'S CLAIM.

In addition to the grounds for denying VIT's Motion for Summary Judgment and
overruling its Plea in Bar advanced in Parts I, II, and III of the Argument above, the plaintiff
respectfully submits that VIT's Schedule of Rates cannot be enforced as a contract implied-in16

A150

law to bar Walton's state law personal injury claim~ because Virginia law does not recognize
barring a tort action for personal injury as a remedy under an contract implied-in-law.
As mentioned above, Section 207(C) ofVIT's SOR provides that Virginia law controls
application of the SOR. The following is an accurate statement ofVirginia law on contracts
implied-in-law:
As opposed to the inferred from ('implied in fact') contract, the
'implied-in-law' quasi-contract is no contract at all, but a form of
the remedy of restitution.
Restatement (2d) of Contracts,§ 4, Comment b. A contract implied in law rests upon the principle
of preventing unjust enrichment, requiring someone who has benefited and accepted the services
of another to pay reasonable compensation for those services. Po River Water & Sewer Co. v.
Indian Acres Club, 255 Va. 108, 114, 495 S.E.2d 4 78, 482 (1998). When a person receives goods,
money or services from another party for which the defendant should in good conscience pay, the
law implies a promise to pay. Kern v. Freed Co, 224 Va.

678~

680-81, 299 S.E.2d 363~ 364-65

(1983); Baltimore & 0. R. Co. v. Burke & Herbert, 102 Va. 643,

646-47~

47 S.E.

824~

825-26

(1904). The only remedy recognized by Virginia law under a contract implied-in-law theory is
restitution. In this case, Walton's employer MRS already paid VIT for use of the terminal, pursuant
its contract with VIT (or at least that is a reasonable inference from the evidence in the record).
There is no other reasonable compensation to be paid for Walton's use ofVIT's dangerous
premises. Virginia law has never recognized barring a tort victim's personal injury lawsuit as a
remedy for a contract implied-in-law. For these reasons, VIT's Schedule of Rates cannot be
enforced as a contract implied-in-law to bar Walton's state law personal injury claim.

17

A151

V.

VIT'S SCHEDULE OF RATES IS NOT ENFORCEABLE AGAINST
WALTON AS AN IMPLIED CONTRACT-IN-LAW, BECAUSE
EQUITY AND GOOD CONSCIENCE DO NOT PERMIT IT.

In addition to the grounds for denying VIT's Motion for Summary Judgment and
overruling its Plea in Bar advanced in Parts I, II, III, and IV of the Argument above, the plaintiff
respectfully submits that VIT's SOR and its time limitations cannot be enforced against Mr.
Walton as a contract implied-in-law, because equity and good conscience do not permit it.
Under Virginia law, the fiction of an implied-in-law contract will not be indulged except where
the law deems that the contract should exist, in equity and good conscience. Spectra-4. LLP v.
Uniwest Commer. Realty. Inc., 290 Va. 36,43 n.2, 772 S.E.2d 290,294 n.2 (2015). To impose
VIT's time limitations to bar Mr. Walton's personal injury tort action would be inequitable and
unconscionable.
As a result of the accident in suit, Mr. Walton has sustained serious, permanent physical
injuries. At no time before suit was filed herein did Mr. Walton know about any restrictions on
suing VIT that VIT is now seeking to impose through its SOR. This is understandable under the
circumstances. Although VIT published a tariff or schedule of rates on the internet for years
before Walton's accident, VIT did not amend its SOR to include notice of claim and time to sue
provisions until October 1, 2016. When VIT made these changes, it did not tell the longshoremen
about them. VIT did not inform Walton's union, ILA Local1970. VIT did not inform longshore
representatives about these changes at meetings of the Contract Board, nor did VIT inform
longshore representatives about these changes at meetings of the Safety Committee. See Walton
Declaration, Exhibit A, ~s 7-14. Mr. Walton is not a carrier, shipper, railroad, stevedore, or other
commercial entity with reason to apply VIT's SOR to his business. These are all genuine issues
18

A152

of material fact which should preclude entry of summary judgment.

VI.

VIT'S DEMURRER SHOULD BE OVERRULED, BECAUSE VIRGINIA
LAW PERMITS WALTON TO SUE ALTERNATIVE PARTIES.

Based on a Virginia rule of procedure which was abolished in 1974, VIT erroneously
insists its Demurrer should be sustained, because the plaintiff has sued alternate parties
defendant for the same accident in suit. (VIT's Brief, p. 15). Virginia Code §8.01-281(A),
provides in part:
A party asserting either a claim, counterclaim, cross-claim, or thirdparty claim ... may plead alternative facts and theories of recovery
against alternative parties . . . provided that such claims . . . so
joined arise out of the same transaction or occurrence.
(Emphasis added). Rule of Court 1:4(k) repeats the statutory rule verbatim. Virginia Code §8.01281 was enacted in 1974, changing the common law pleading rule referred to in Baker v. Doe, 211
Va. 158, 160, 176 S.E.2d 436,437-38 (1970), which held that naming defendants in the alternative
was not permitted. See Fox v. Deese, 234 Va. 412,422,362 S.E.2d 699,705 (1987). The Amended
Complaint filed herein names alternative defendants, but the plaintiff is alleging liability of each
defendant arising out of the same transaction or occurrence. For these reasons, the Demurrer should
be overruled.
CONCLUSION AND RELIEF SOUGHT
For all the reasons stated above, VIT's Motion for Summary Judgment should be denied;
its Plea in Bar should be overruled; and its Demurrer should be overruled.

19

A153

Lance A. Jackson, Esq. (VSB No. 26035)
Counsel for Stephen K. Walton, Sr.
MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello A venue
Norfolk, VA 23510
Telephone: (757) 622-8100
Fax: (757) 622-8180
ljackson@montagnalaw.com

CERTIFICATE OF SERVICE

I, the undersigned, hereby certify that on September 13, 2019, a copy of the foregoing
pleading was served via first class mail and email transmission on all counsel of record:
John E. Holloway, Esq. (VSB No. 28145)
Daniel T. Berger, Esq. (VSB No. 81861)
Counsel for Virginia International Terminals, LLC
TROUTMAN SANDERS, LLP
222 Central Park Avenue, Suite 2000
Virginia Beach, VA 23462
john.holloway(lvtroutman.com
daniel.ber!!er@troutman.com

20

A154

COPY
IN THE

SUPREME COURT OF VIRGINIA
CLERK

SUPREME COURT OF VIRGINIA

RECORD NO. _ _

STEPHEN K. WALTON, SR.,
Appellant,

v.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
Appellee.

PETITION FOR APPEAL

Lance A. Jackson, Esq.
Virginia State Bar No. 26035

MONTAGNA KLEIN CAMDEN, L.L.P.
425 Monticello Avenue
Norfolk, VA 2351 0
(757) 622.;81 00
(757) 622-8180 (Fax)

Ijackson@ montagnalaw.com
Counsel tor Appellant

A155

TABLE OF CONTENTS

Page
TABLE OF AUTHORITIES ..................................................... iv
ASSIGNMENTS OF ERROR................................................... 1

STATEMENT OF THE CASE ................................................. 6
STATEMENT OF FACTS ...................................................... 8
SUMMARY OF ARGUMENT .................................................. 11
AUTHORITIES AND ARGUMENT ...................................... : ..... 13
Walton's personal injury action against VIT was not timebarred by VIT's Schedule of Rates.
A. VIT'S Schedule of Rates does not, pursuant to the
federal Shipping Act, supersede Virginia common law
and statutory law concerning notice of claim or injury
and limitations periods for suing on a land-based
personal injury action, because the Act does not preempt Virginia law in that area.
B. The Schedule of Rates time provisions are not
enforceable against Walton as an implied contract,
because Virginia law upholds contractual time
limitations only with respect to a party to an actual
contract, but the Schedule of Rates is not an actual
contract, Walton was not a party to an actual contract
imposing such limitations, and Walton did not agree to
any such limitations.

n-

A156

C. The Schedule of Rates time provts1ons are not
enforceable against WaHon, because there was an
actual contract for terminal usage between Walton's
employer and VIT, so that the Schedule is not
enforceable as an implied contract, by virtue of 46 CFR
§ 525.2(a}(3). Because Walton was not a party to the
actual contract, it was not enforceable against him.
D. To the extent that the trial court held that the Schedule
of Rates was enforceable against Walton as a contract
implied-in law, the trial court erred in holding that the
Schedule time-barred Walton's claim, because Virginia
raw does not recognize such a time-bar as a remedy for
contracts implied-in-law.
'

~

E. To the extent that the trial court held that the Schedule
of Rates was enforceable against Walton as a contract
implied-in-law, the trial court erred in holding that the
Schedule time-barred Walton's claim, because equity
and good conscience did not permit such a result, when
Walton timely filed his suit within the two-year statutory
limitations period, and he neither knew or agreed to the
time provisions in the Schedule.
CONCLUSION ...................................................................31

CERTIFICATE ....

I

••• I

••• I

••••••••• I

... I

••••••••••••••••• I

iii

A157

•• I

••••••••••••••••••••••

33

TABLE OF AUTHORITIES
Page(s)
CASES CITED
Altria Group v. Good,

555 U.S. 70, 129 S.Ct. 538, 172 L.Ed.2d 398 (2008) .................. 17
Board of Supervisors v. Sampson,
235 Va. 516, 369 S.E.2d 178 (1988) ........................................23
Breeding ex rei. Breeding v. Hensley,
258 Va. 207, 519 S.E.2d 369 (1999) ....................................... 15
Brizzolara v. Sherwood Memorial Park. Inc., ·
274 Va. 164, 645 S.E.2d 508 (2007) ....................................... 13
Burlington Northern Railroad Company v. M.C. Terminals. Inc.•
1992 FMC LEXIS 27 (Federal Maritime Commission 1992) .......... 21
Cipollone v. Liggett Group,

505 U.S. 504, 112 S.Ct~ 2608, 120 L.Ed.2d 407 (1992) ............... 17
Commercial Constr. Specialties v. ACM Constr.
Management Corp., 242 Va. 102,405 S.E.2d 852 (1991) ........ 24, 28
Federal Commerce & Navigation Co. v. Calumet Harbor
Terminals. Inc., 542 F.2d 437 (?lh Cir. 1976) .. ......... .... .............. 20
Gardner v. Old Dominion Stevedoring Corp.,
225 Va. 599, 303 S.E.2d 914 (1983) ........................................ 15
Kelly v. Washington,

302 U.S. 1, 58 S.Ct. 87,82 LEd. 3 {1937) ........................................ 17
Krantz v. International Air Line Pilots Ass'n,
245 Va. 202, 427 S.E.2d 326 (1993) ......................................... 19
iv

A158

Page(s)
Liquid Carbonic Co. v. Norfolk & W. R. Co.,

107 Va. 323, 58 S.E. 569 (1907) ................................ .............. 23
Massie v. Blue Cross Blue Shield,
256 Va. 161, 500 S.E.2d 509 (1998) ........................................ 23
Miller & Rhoads Bldg.. L.L.C. v. City of Richmond,
292 Va. 537, 790 S.E.2d 484 (2016) ......................................... 13
Mount Aldi. LLC v. Land Trust of Va .. Inc.,
293 Va. 190, 796 S.E.2d 549 (2017) ......................................... 13
Pacific S.S. Co. v. Cackette, 8 F.2d 259 {9th Cir. 1925) ................. 20
Pate Stevedore Co. v. Alabama State Docks Department,
1988 FMC LEXIS 21 (Federal Maritime Commission 1988) ........... 24

Placguemines Port Harbor and Terminal Djst. v.
Federal Maritime Commission, 838 F.2d 536 (D.C. Cir. 1988)........ 18
Po River Water & Sewer Co. v. 1ndian Acres Club,
255 Va. 108, 495 S.E.2d 478 (1998) ........................................29
Progressive Constr. Co. v. Thumm,
209 Va. 24, 161 S.E.2d 687 (1968) ...........................................25
Rafinasi v. Coastal Cargo Co.,
.

th

•

552 Fed. Appx. 394 (5 Crr. 2014) ............................................23

Robert C. Herd & Co. v. Krawill,
359 U.S. 297, 79 S.Ct. 766, 3 L.Ed.2d 820 (1959) ....................... 18
Rodriguez v. Leesburg Bus. Park. LLC,

287 Va. 187, 754 S.E.2d 275 (2014) .......................................... 13
Scott-Watson v. Commonwealth, 835 S.E.2d 902 0fa. 2019) ......... 13

v

A159

Page(s)
Silkwood v. Kerr-McGee Corp.,

464 U.S. 238, 104 S.Ct. 615, 78 L.Ed.2d 443 (1984) ................... 17
Spectra-4. LLP v. Uniwest Cammer. Realty. Inc.,
290 Va. 36, 772 S.E.2d 290 (2015) ................................24, 25, 30
Va. Uranium. Inc. v. Warren,
139 S.Ct. 1894,204 L.Ed.2d 377 (2019) ................................... 17
Verizon Va .. LLC v. XO Communs. LLC,
I

. 144 F.Supp.3d 850 (E.D. Va. 2015) ............................. .. ........... 22

Waterfront Comm'n of N.Y. Harbor v. Elizabeth-Newark
Shipping. Inc., 199 F.3d 177 (3d Cir. 1998} .... ............................ 18
Yates v. Pitman Mfg. Inc.,
I

257 Va. 601, 514 S.E.2d 605 (1999) ............................. .. .......... 15
STATUTES CITED
Shipping Act of 1984, 46 u.s.c. §40101, et seq ........... 14, 16,17,18,19
Shipping Act of 1984, 46 U.S.C. §40501 .............. .. .. 18, 19, 20, 21, 25

Shipping Act of 1916, 46 U.S. C. §841a .. ...... ... ........................... 20
Virginia Code § 1-200 .............................................................15
Virginia Code§ 8.01-243 ................................................... 16, 21
FEDERAL REGULATIONS CITED

46 C.F.R. § 525.1 ............................................................. 18, 26
46 C.F.R. § 525.2 ...................................................26, 27, 28, 29

vi

A160

Page(s)
OTHER AUTHORITIES

Restatement (Second) of Contracts, § 4, Comment b..... ... ... .... ....29

vii

A161

IN THE
SUPREME COURT OF VIRGINIA
AT RICHMOND

Record No. - - - - STEPHEN K. WALTON, SR.,
Petitioner-Appellant,

v.
VIRGINIA INTERNATIONAL TERMINALS, LLC,
Defendant-Appellee.

PETITION FOR APPEAL
ASSIGNMENTS OF ERROR

1.

The trial court erred in granting Virginia International Terminal's

(VIT's) motion for summary judgment and sustaining its plea in bar, based
on an erro'neous holding that, pursuant to the Shipping Act of 1984,
46 U.S. C.§ 40501(f), VIT's Schedule of Rates imposed an enforceable
notice of claim or injury provision on plaintiff-appellant Walton's land-based

Virginia personal injury tort claim, in contravention of Virginia common law,
and imposed a shortened time limit to sue VIT, notwithstanding the two1

A162

year limitation period in Virginia Code § 8.01-243(A), when the Shipping
Act does not pre-empt Virginia common law that the plaintiff is not required

to provide notice of claim or injury prior to suit, nor does it pre-empt or
supplant the two-year limitation period in Virginia Code § 8.01-243{A).
(Error preserved in Order entered on November 25, 2019; in Final Order
entered on December 17, 2019; and in Plaintiff's Brief in Opposition to
Defendant VIT's Motion for Summary Judgment on Plea in Bar, pp. 1, 5, 6,

7,11).
2.

The trial court erred in granting Virginia International Terminal's

(VIT's) motion for summary judgment and sustaining its plea in bar, based
on an erroneous holding that, pursuant to the Shipping Act of 1984, 46

u.s.c. § 40501 (f), VIT's Schedule of Rates imposed an enforceable notice
of claim or injury provision on Walton's land-based Virginia personal injury

tort claim, in contravention of Virginia common law, and imposed a
shortened time limit to sue VIT, notwithstanding the two-year limit in
Virginia Code § 8.01-243(A), as an implied contract, because Virginia raw
upholds contractual time limitations only with respect to a party to an actual
contract who agrees to such limitations, but the Schedule of Rates is not an

actual contract, Walton was not a party to an actual contract imposing such
limitations, and Walton did not agree to the time limit provisions of VIT's
2

A163

Schedule of Rates. (Error preserved in Order entered on November 25,
2019; in Final Order entered on December 17, 2019; and in Plaintiff's Brief

in Opposition to Defendant VIT's Motion for Summary Judgment on Plea in
Bar, pp. 1, 5, 9-11, 14-16).
3.

The trial court erred in granting VIT's Motion for Summary

Judgment on Plea in Bar, because, at the very least, material issues of fact
existed as to whether Walton knew of or agreed to the Schedule of Rates.
(Error preserved in Order entered on November 25, 2019; in Final Order

entered on December 17, 2019; and in Plaintiff's Brief in Opposition to
Defendant VIT's Motion for Summary Judgment on Plea in Bar, pp. 9-11,
15-16).
4.

The trial court erred in granting Virginia International Terminal's

(VIT's) motion for summary judgment and sustaining its plea in bar, based

on an erroneous finding that, pursuant to the Shipping Act of 1984, 46
U.S.C. § 40501(f), VIT's Schedule of Rates imposed an enforceable notice
of claim or injury provision on Walton's claim, and a one year limitation on
filing suit, as an implied contract, because there was an actual contract for
terminal usage between Walton's employer and VIT, so that the Schedule

of Rates was not enforceable against Walton as an implied contract, by
virtue of Shipping Act regulation 46 CFR § 525.2(a)(3). (Error preserved in
3

A164

Order entered on November 25, 2019; in Final Order entered on December
17, 2019; and in Plaintiff's Brief in Opposition to Defendant VIT's Motion for

Summary Judgment on Plea in Bar, pp. 1, 12-14).
5.

The trial court erred in holding that the notice of claim or injury

and shortened time limit to sue provisions in VIT's Schedule of Rates were
enforceable against Walton, based on a finding that the actual contract
between Walton's employer and VIT incorporated the Schedule of Rates,

and that the actual contract was enforceable against Walton, because
Walton was not a party to the contract. (Error preserved in Order entered
on November 25, 2019; in Final Order entered on December 17, 2019; and
in Plaintiff's Brief in Opposition to Defendant VIT's Motion for Summary
Judgment on Plea in Bar, pp. 10, 14).
6.

The trial court erred in holding that that that the notice of claim

or injury and shortened time limit to sue provisions in VIT's Schedule of
Rates were enforceable as an implied contract against Walton, finding
erroneously that Walton's mere use of the terminal premises, without his
knowledge of or assent to the Schedule of Rates, was sufficient evidence
of assent to find an implied contract. {Error preserved in Order entered on

November 25, 2019; in Final Order entered on December 17, 2019; and in
Plaintiff's Brief in Opposition to Defendant VIT's Motion for Summary
4

A165

Judgment on Plea in Bar, pp. 1, 15-16).
7.

To the extent that the trial court held that the notice of claim or

injury and shortened time limit to sue provisions in VIT Schedule of Rates
were enforceable as a contract implied-in-law against Walton, the trial court
erred, because the only remedy recognized under Virginia law under a
contract implied-in-law theory is restitution, not a time bar. (Error preserved
in Order entered on November 25, 2019; in Final Order entered on

December 17. 2019; and in Plaintiff's Brief in Opposition to Defendant VIT's
Motion for Summary Judgment on Plea in Bar, pp. 1, 16-17).
8.

To the extent that the trial court held that the notice of claim or

injury and shortened time limit to sue provisions in VIT Schedule of Rates
were enforceable as a contract implied-in-law against Walton, the trial court
erred, because such contracts are enforceable only as equity and good

conscience permit, and neither equity nor good conscience permitted timebarring Walton's land-based personal injury suit, timely filed within the twoyear limitation period of Virginia Code § 8.01-243, when Walton neither
knew of nor agreed to such provisions. (Error preserved in Order entered
on November 25, 2019; in Final Order entered on December 17, 2019; and

in Plaintiff's Brief in Opposition to Defendant VIT's Motion for Summary
Judgment on Plea in Bar, pp. 1, 2, 18).
5

A166

STATEMENT OF THE CASE
This action for personal injuries was filed in the Norfolk Circuit Court

on March 11, 2019, by the Appellant Stephen K. Walton, Sr., (Walton)
against Appellee Virginia International Terminals, LLC, (VIT) and codefendants Ceres Marine Terminals, Inc., and CP&O, LLC, for injuries that
Walton suffered while working as a longshoreman on VIT's marine
terminal in the City of Norfolk, Norfolk International Terminals, on March 15,

2017. The suit alleged that VIT negligently maintained its property, causing
a trip-and-fall hazard to be present that injured Walton, a business invitee,
while he was working for his employer Marine Repair Services (MRS) on
VIT's property at night.
In response to the Complaint, VIT filed a Demurrer and Motion
Craving Oyer, which the plaintiff opposed with a Memorandum in

Opposition. VIT, in its Reply Memorandum filed on June 28, 2019, attached
a copy of a contract entitled "License Agreement" between VIT and
Walton's employer MRS, which dealt with terminal usage.
After Walton filed an Amended Complaint and Bill.of Particulars, VIT
filed a Plea in Bar and Demurrer on August 2, 2019. The Plea in Bar was

based on notice of claim or injury and time-to-sue provisions in VIT's
Schedule of Rates. A copy of the Schedule of Rates was attached to the
6

A167

Plea in Bar. On August 15, 2019, VIT filed a Motion for Summary Judgment
on its Plea in Bar. On September 3, 2019, VIT filed a Brief in Support of its
Plea in Bar. On September 13, 2019, Walton filed his Brief in Opposition to
Defendant VIT's Motion for Summary Judgment on Plea in Bar.
On October 8, 2019, the parties appeared before the Honorable
Michelle J. Atkins on VIT's Motion for Summary Judgment on its Plea in
Bar. At the hearing, the trial court heard testimony from Mr. Walton. A copy
of the hearing transcript was filed on December 23, 2019.
On November 12, 2019, the trial court issued a written opinion,
granting VIT's motion for summary judgment on its Plea in Bar, holding
that, pursuant to 46 U.S.C. § 40501(f) of the Shipping Act of 1984, VIT's
Schedule of Rates was an implied contract with an enforceable time bar
provision pursuant to Virginia Code § 8.01-243(A). (Opinion letter; p. 1).
The opinion letter directed defense counsel to prepare an order consistent
with the opinion.
On November 25, 2019, the trial court entered an order granting VIT's
Motion for Summary Judgment on its Plea in Bar and dismissing VIT with
prejudice. Defendants Ceres Marine Terminals, Inc., and CP&O, LLC,
remained in the case at that time. The order of November 25, 2019, was
not labeled expressly as a "Partial Final Judgment," nor did it contain other
7

A168

language required by Rule 1:2 of the Rules of the Supreme Court of
Virginia to be a final judgment. On December 17, 2019, the trial court

entered an order nonsuiting the remaining defendants, and, finding there to
be nothing further to be done by the court, ordered the action removed from
the court's trial docket.
On December 18, 2019, Walton filed his Notice of Appeal.
STATEMENT OF FACTS

The record before the trial court consisted of the pleadings of the
parties; documents attached as exhibits to the parties' memoranda; and the
testimony of one witness. Walton, at the hearing on October 8, 2019. The

facts are essentially undisputed and may be summarized as follows:
The Accident

On March 15, 2017, at about 12:30 a.m., Walton was working for his
employer Marine Repair Services, Inc., (MRS) at VIT's marine terminal in
the City of Norfolk, Norfolk International Terminals, in an area that VIT

maintained for the temporary storage of refrigerated cargo containers,
known as "reefers." (Amended Complaint,

~s

4, 11, 15, 20, 36). The area

where Walton was working was a yard on the terminal known as "reefer
row," next to an area that VIT reserved for maintenance and repair of its
equipment. (Amended Complaint, 1fs 20, 21, 24, 36). As Walton was
8

A169

unplugging reefers from their power sources, he tripped over the blade of a
forklift projecting from the adjacent VIT maintenance area, and suffered
disabling injuries to his neck. (Amended Complaint, 1fs 39, 40, 62).
VIT's Schedule of Rates

As of October 1, 2016, VIT published on its website a Schedule of
Rates, which included (within its 66 pages) provisions requiring all users of
a VIT terminal (1) to notify VIT in writing within thirty (30) days of loss,
damage, or injury caused by VIT; and (2) to file suit against VIT not later
than one year after the occurrence. According to the Schedule, if the user
failed comply with these provisions, 11the claim shall be time-barred."

Schedule of Rates, Section 207(A).
VIT'S Schedule of Rates Provides that Virginia Law Controls and that
Federal Law Applies only if it does not Conflict with Virginia Law.

Section 207(C) of VIT's Schedule of Rates provides:
The laws of the Commonwealth without reference to
its choice of laws rules and, to the extent not in

conflict with the law of Virginia, the general maritime
laws and statutes of the United States, shall apply to
all disputes arising from or related to this SOR.
There was no actual contract between VIT and Walton.

There was no evidence in the record before the trial court that there
was any actual contract between VIT and Walton. VIT conceded that there
9

A170

was no actual contract between and it and Walton. (VIT Reply Brief filed
October 2, 2019, p. 4).

There was a contract between VIT and Walton's employer MRS.
In its reply brief filed on June 28, 2019, VIT attached a "License
Agreement" between VIT and Walton's employer MRS, which VIT
represented was in effect on the date of Walton's accident on March 15,
2019. The License Agreement describes several discrete premises
licensed to MRS at the Norfolk terminal. (Agreement, p. 1). (The Amended
Complaint pleaded that Walton's accident did not occur on any of these
premises described as licensed.) (Amended Complaint, ~s 21, 22). More
importantly, the License Agreement also covers MRS' use of the terminal
beyond these licensed areas, extending to the entire terminal. Section 30 of
the contract provides that VIT's Schedule of Rates "is incorporated into this

Agreement by reference and shall apply to all of LICENSEE'S operations
and activities on the Terminals." (Agreement, p. 7).
Walton was not a party to the contract between VIT and MRS.
Walton is not named as a party to the contract between VIT and
MRS. Walton alleged in his Brief in Opposition that he was not a party to

the contract between VIT and MRS. (Brief in Opposition, p. 14). VIT
conceded this fact in its Reply Brief. (VIT Reply Brief filed October 2, 2019,
10

A171

p. 4). There was no evidence before the trial court that Walton was a party
to the contract between VIT and MRS.

Walton did not know about the time limit provisions of VIT's
Schedule -of Rates, nor did he agree to them.

At the hearing on October 8, 2019, Walton testified that, before his
lawsuit was filed, he never read VIT's Schedule of Rates. (October 8, 2019,
transcript, pp. 39, 41 ). Before his lawsuit was filed, Walton did not know of
any requirement to give notice to VIT of any claim or injury, nor did he know

of any requirement to file suit against VIT within one year. (TR 39, 40). He
was not aware that a Schedule of Rates existed. (TR 41). He never agreed
to any notice provision or time for filing suit. (TR 40). The trial court
accepted this testimony as true. (Opinion, p. 8).
SUMMARY OF ARGUMENT
The plaintiff respectfully submits that the trial court erred in granting
VIT's Motion for Summary Judgment on its Plea in Bar, for several reasons:

First. VIT's Schedule of Rates does not, pursuant to the federal Shipping Act.
supplant Virginia common law and statutory law concerning notice of claim
or injury and limitations periods for suing on a land-based personal injury
actton, because the Shipping Act does not pre-empt Virginia law in that area.
Second, the Schedule of Rates notice of claim or Injury and shortened time
11

A172

limit to sue provisions are not enforceable against Walton as an implied
contract, because Virginia law upholds contractual time limitations only with
respect to a party to an actual contract who agrees to such limitations. but
the Schedule of Rates is not an actual contract, Walton was not a party to an
actual contract imposing such limitations, and Walton did not agree to the
time limit provisions of VIT's Schedule of Rates. Third, the Schedule of Rates
is not enforceable against Walton as an implied contract, pursuant to 46 CFR
§ 525.2(a), because there is an actual contract between VIT and Walton's
employer for terminal usage. Fourth, the actual contract incorporating the
Schedule of Rates between VIT and Walton's employer is not enforceable
against Walton, because he was not a party to the contract. Fifth, the
Schedule of Rates is not enforceable against Walton as an implied contract,
because he did not know about the Schedule or agree to it, so the necessary

element of mutuality of assent is missing. Sixth, to the extent the trial court
held that the notice of claim or injury and shortened time limit provisions in
the Schedule of Rates are enforceable as an implied contract-in-law, Virginia
law does not enforce such contracts as a time bar to personal injury suits.
Seventh, to the extent that the trial court held that the notice of claim or Injury
and shortened time limit provision of the Schedule of Rates are enforceable
as an implied contract-in-law, equity and good conscience do not permit
12

A173

application of those provisions to bar Walton's suit.
AUTHORITIES AND ARGUMENT
Standard of Review
Summary judgment may be granted when no genuine issue of fact

remains in dispute on a controlling issue or issues and the moving party is
entitled to judgment as a matter of law. Mount Aldi. LLC. v. Land Trust of
Va .. Inc., 293 Va. 190, 196, 796 S.E.2d 549, 553 (2017).
When the facts in the record are essentially undisputed, this Court is
presented with a question of law regarding the trial court's application of
law to those facts, and the de novo standard of review applies. Scott-

Watson v. Commonwealth, 835 S.E.2d 902, 904 (Va. 2019); Rodriguez v.
Leesburg Bus. Park. LLC, 287 Va. 187, 193, 754 S.E.2d 275,278 (2014).
The trial court's interpretation of written documents, including contracts and
the Schedule of Rates, is a question of law which this Court reviews de
novo. Brizzolara v. Sherwood Memorial Park, Inc., 274 Va. 164, 180, 645

S.E.2d 508, 515 {2007). Interpretation of statutory law, including the federal
Shipping Act and the federal regulations thereunder, is a question of law,
which this Court reviews de novo. Miller & Rhoads Bldg .. L.L.C., v. Citv of
Richmond, 292 Va. 537, 541,790 S.E.2d 484,486 (2016).

13

A174

Analysis
WALTON'S PERSONAL INJURY ACTION AGAINST VIT
WAS NOT TIME-BARRED BY VIT'S SCHEDULE ·OF
RATES.

A. VIT'S Schedule of Rates does not, pursuant to the
federal Shipping Act, supersede Virginia common law
and statutory law concerning notice of claim or Injury
and limitations periods for suing on a land-based
personal injury action, because the Act does not preempt Virginia taw in that area. (Assignment of Error No.
1 ).
VIT erroneously argued, and the trial court apparently accepted the

argument, that, pursuant to a federal statute, the Shipping Act of 1984, its
Schedule of Rates notice of claim or injury and time to sue provisions,
which conflict with Virginia law, applied to bar Walton's otherwise timely
lawsuit as untimely. VIT's argument was essentially:
the Federal Act allows us to issue a schedule of rates
with regulations for the terminal;

the notice and time to sue provisions in our Schedule of Rates
are regulations, and Walton did not comply with them;
the Schedule of Rates is enforceable against Watton as an
implied contract;
therefore Walton's claim is time-barred.
This argument is erroneous, because the federal act upon which VIT bases
its authority does not pre-empt applicable Virginia law, under which
Walton's suit was timely.
14

A175

Virginia law applies to Mr. Walton's land-based personal injury tort
action against VIT. Gardner v. Old Dominion Stevedoring Corp., 225 Va.

599, 603, 303 S.E.2d 914, 916 (1983). Pursuant to Virginia Code§ 1-200,
the common law of England remains the law of Virginia, insofar as it is not
repugnant to the Bill of Rights and the Virginia Constitution, except as
altered by the Virginia General Assembly. (VIT did not rely on, nor did the
trial court cite, any Virginia legislation that enabled VIT to issue a schedule
of rates that superseded other Virginia law.)

At common law, a tort victim is not required to provide a tortfeasor a
pre-suit notice of a claim or injury in writing. Breeding ex re. Breeding v.
Hensley, 258 Va. 207, 215, 519 S.E.2d 369, 373 (1999)(holding statutes
requiring notice as a condition to making a claim against a municipality are
in derogation of the common law). See also Yates v. Pitman Mfg .. Inc., 257

Va. 601, 605, 514 S.E.2d 605, 606 (1999) holding that the non-purchaser
of a product is not required to provide notice of a claim in order to maintain
a tort action under Virginia law, because no statute requires such notice. If
the opposite were true, any business in Virginia could post notice of claim
and time limitation provisions like VIT's on its website, and bar by fiat

premises liability lawsuits brought by unwitting visitors. In this case, no
Virginia statute imposed a pre-suit notice of claim or injury condition on
15

A176

Walton's suit against VIT. Virginia Code § 8.01-243(A) provides that, unless
otherwise provided by that code section or by other statute, every action for

personal injuries shall be brought within two years after the cause of action
accrues. In this case, no other Virginia statute imposed a shorter limitations
period on Walton's action against VIT.
There is no question but that, if VIT's Schedule of Rates does not
have the legal authority to bar Walton's suit as untimely, then Walton's suit
is not time-barred under Virginia law. Under Virginia common law, a tort

victim is not required to give the tortfeasor a notice of claim or injury before
filing suit. Walton filed suit within the two year period set by Virginia Code
§8.01-243. While VIT touted the authority of the federal Shipping Act as
enabling it to supersede Walton's rights under Virginia law, VIT did not
argue that the Act pre-empted those rights. Yet it is obvious that the notice

and shortened time limit to sue provisions of the Schedule of Rates, whose
legal authority derives solely from the federal act, conflict with Walton's
rights under Virginia law, i.e., no pre-suit notice of claim or injury required at
common law, and two years in which to file suit.
VIT's claim that pre-emption is not an issue, and the trial court's

failure to address pre-emption, does not mean that pre-emption was not
a critical issue to address. When there may be a conflict between federal
16

A177

law and state law, courts conduct a pre-emption analysis, to decide
whether Congress intended for the federal law to supersede the otherwise

controlling state law. See, e.g., Altria Group v. Good, 555 U.S. 70, 129
S.Ct. 538, 172 L.Ed.2d 398 (2008). In this case, Walton's tort suit. and his
rights under Virginia law that apply to that suit, are regulated by Virginia's
historic police powers. If the Shipping Act does not pre-empt that Virginia
lawi VIT's argument falls like a house of cards, and the trial court

committed reversible error.
A state's police power includes its power to protect the lives and
health of its people. Kelly v. Washington, 302 U.S. 1, 13, 58 S.Ct. 87, 82
L.Ed. 3 (1937). State tort law is part of a State's historic police power. See
Cipollone v. Liggett Group, 505 U.S. 504, 518-19, 112 S.Ct. 2608, 120
'

L.Ed.2d 407 (1992); Silkwood v. Kerr-McGee Corp., 464 U.S. 238, 248,

104 S.Ct. 615, 78 L.Ed.2d 443 (1984). 'The pre-emption of state Jaws
represents a serious intrusion into state sovereignty." Va. Uranium. Inc. v.
Warren, 139 S.Ct. 1894, 1904, 204 L.Ed.2d 377 (2019). Courts are
admonished that 'the historic police powers of the States are not to be
superseded by the Federal Act, unless It is the clear and manifest

purpose of Congress.' Altria Group, 555 U.S. at 77. (Emphasis added).

Furthermore, the Court has held that any federal statute in derogation of
17

A178

the common Jaw must be strictly construed, because no such 'statute is to
be construed as altering the common law farther than its words express.'

Robert C. Herd & Co. v. Krawill, 359 U.S. 297, 304-05, 79 S.Ct. 766, 3
L.Ed.2d 820 {1959).
In the present case, there is no pre-emption clause in the Shipping
Act. Second, no part of the Shipping Act expressly conflicts with the
Virginia rules of law discussed above. Third, nothing indicates that it was

Congress' "clear and manifest purpose" through the Act to enable marine
terminal operators through a schedule of rates to pre-empt the States'
historic police power to regulate state law personal injury actions.
The primary purpose of the Shipping Act of 1984 was to eliminate
discriminatory practices of terminals, shippers and carriers. Waterfront
Comm'n of N.Y. Harbor and Elizabeth-Newark Shipping. Inc., 199 F.3d

177, 185 (3d Cir. 1998); Placguemines Port Harbor and Terminal Dist. v.
Federal Maritime Comm'n, 838 F.2d 536, 543 (D.C. Cir. 1988). The
regulations issued by the Federal Maritime Commission to administer
46 U.S.C. § 40501(f), the provision of the Shipping Act on which VIT based
its Plea in Bar, were promulgated to "identif[y) and prevent unreasonable

preference or prejudice or unjust discrimination." 46 CFR § 525.1(a).

18

A179

The Shipping Act is designed to regulate shipping practices. It is not
safety or personal injury tort legislation. Neither the Shipping Act nor its
regulations mention personal injury actions, such as Walton's. Neither the
Shipping Act nor its regulations prescribe any pre-suit notice or time limit in
which to bring a state law personal injury claim against a marine terminal

operator. The Act does not provide a federal remedy for any person injured
on a marine terminal. This Court has recognized that lack of a federal
remedy is a factor which militates against a finding that the federal act
supersedes a person's rights under state tort law. Krantz v. International Air
Line Pilots Ass'n. 245 Va. 202, 209, 427 S.E.2d 326, 330 (1993).
Pursuant to the section of the Shipping Act upon which VIT's
argument hinges, 46 U.S.C. § 40501{f), a marine terminal operator may
issue:
a schedule of rates, regulations, and practices,

including limitations of liability for cargo loss or
damage, pertaining to receiving, delivering, handling,
or storing property at its marine terminal.
While the Act authorizes limitations of liability for cargo loss or damage, it

is silent with respect to personal injury claims. 46 U.S.C. § 40501 (f) is very
similar to a parallel provision of the Shipping Act of 1916, which authorized
terminal facilities to keep open to the public a

19

A180

schedule or tariff, showing all its rates, charges,
rules, and regulations, relating to or connected with
the receiving, handling, storing, and/or delivering of

property at its terminal facilities.
46 U.S.C. § 841a, quoted in Federal Commerce & Navigation Co. v. Calumet
Harbor Terminals. Inc., 542 F.2d 437, 439 (7th Cir. 1976). While the 1984 Act

and its predecessor both authorized marine terminals to issue a schedule of
rates concerning rates, charges, rules, and regulations, neither 46 U.S.C. §
40501 (f), nor any other provision of the Act, requires or even mentions that
a marine terminal can impose through its schedule of rates pre-suit notice or
time limitations on state law personal injury claims. It is simply not the clear
and manif-est purpose of Congress to authorize or require marine terminals.

to impose such constraints on state law personal injury claims through a
schedule of rates.
There is no reported case law analyzing whether 46 U.S.C. § 40501(f)
authorizes or requires marine terminals to impose such limitations on
state law personal injury claims. However, courts analyzing the above-

quoted predecessor to 46 U.S.C. § 40501 (f) have held that marine terminal
operators were not authorized to impose time limits on a claim, through a
tariff or schedule, because the federal statute did not authorize time limits for
presentation of claims. Federal Commerce, 542 F.2d at 441; Pacific S.S. Co.
v. Cackette, 8 F.2d 259, 260 (9th Clr. 1925).
20

A181

In the case of Burlington Northern Railroad Company v. M.C.
Terminals, 1992 FMC LEXIS 27, "'80 (Federal Maritime Commission), the

Commission explained:
It is a basic principle of tariff law that extraneous
matter injected into a tariff does not have the force of

law, in contrast to the matters that are required to be
filed in the tariffs.
(Emphasis added). The plain language of 46 U.S.C. § 40501 (f) does not
require VIT's Schedule of Rates to impose pre-suit notice or shortened time
to sue limitations on state law personal injury claims.
For all the reasons stated above, 46 U.S.C. § 40501 (f) of the Shipping
Act does not authorize or require VIT's Schedule of Rates to impose notice

of claim or injury, or time limits to sue, for personal injury that conflict with
Virginia common law and/or prescribe a different limitation period than the
two year period prescribed by Virginia Code § 8.01-243. In the absence of
federal pre-emption, Virginia law controls, and Walton's suit is not timebarred.

21

A182

B. The Schedule of Rates time provisions are not
enforceable against Walton as an implied contract,
because Virginia law upholds contractual time
limitations only with respect to a party to an actual
contract but the Schedule of Rates is not an actual
contract, Walton was not a party to an actual contract
imposing such limitations, and Walton did not agree to
any such limitations. (Assignments of Error Nos. 2, 3, 5,
and 6).

Notwithstanding the fact that the federal act which enables terminal
operators to issue a schedule of rates does not pre-empt the Virginia law
which makes Walton's suit timely, the trial court misapplied Virginia law to
hold that the VIT's Schedule of Rates notice and time limit to sue provisions

were enforceable against Walton as an implied contract to time bar his
claim.
VIT's Schedule of Rates has following choice of law provision:
The laws of the Commonwealth of Virginia without
reference to its choice of law rules and, to the extent
not in conflict with the law of Virginia, the general
maritime laws and statutes of the United.States, shall
apply to all disputes arising from or related to this
SOR.
(VIT Schedule of Rates, Section 207(C}). As the drafter of its Schedule, VIT

is subject to the rule that "unambiguous tariffs are enforced according to
their plain terms, and ambiguous terms are strictly construed against the
drafter." Verizon Va. LLC v. XO Communs .. LLC, 144 F.Supp.3d 850, 858
22

A183

(E.D. Va. 2015). By virtue of Section 207(C), Virginia law applies to VIT's
Schedule; federal law applies only "to the extent not in conflict with the law

of Virginia." (Emphasis added).
Relying on the case of Massie v. Blue Cross & Blue Shield, 256 Va.
161, 500 S.E.2d 509 (1998), the trial court held that, since, under Virginia
law, parties to a contract can agree to a shorter period of time than set forth
in the statute of limitations to bring a claim, the Schedule of Rates was an
effective implied contract to bar Wal~on's claim. (Opinion, p. 7). This holding

was erroneous for the reasons stated below.
Virginia law upholds contractual time limitations only as to parties to
an actual contract who agree to those limitations. It is well-settled that
parties may agree that a claim under an actual contract must be enforced
within a shorter time limit than is fixed by statute. Massie, 256 Va. at 164,

500 S.E.2d at 511 (insurance policy) ; Board of Supervisors v. Sampson,
235 Va. 516, 520,369 S.E.2d 178,180 (1988)(written contract); Liquid
Carbonic Co. v. Norfolk & W. R. Co., 107 Va. 323,58 S.E. 569 (1907)(bill
of lading). Each of the cases cited above involved an actual, not implied,
contract, to which the plaintiff was a party.

A marine terminal schedule of rates is not an actual contract. Rafinasi
v. Coastal Cargo Co., 552 Fed. Appx. 394, 400 (5th Cir. 2014). A marine
23

A184

terminal schedule of rates is a "unilateral promulgation, not a product of
bargaining." Pate Stevedore Co. v. Alabama State Docks Department,

1988 FMC LEXIS 21, *13 (Federal Maritime Commission 1988).
Walton's employer MRS did have an actual contract with VIT which
fully incorporated the Schedule of Rates. Because of that actual contract, to
which MRS agreed, MRS was subject to the time limitations in the
Schedule. Walton, however, was not a party to that contract. Under Virginia
law, a person who is not a party to a contract is not subject to the contract,
including its time limitations. Commercial Constr. Specialties. Inc. v. ACM
Constr. Management Corp., 242 Va. 102, 106, 405 S.E.2d 852, 854 (1991).
Walton was not bound to the contract between VIT and MRS, nor to the
Schedule of Rates pre-suit notice or time to sue provisions incorporated
therein, because he was not a party to the contract.

Even if the Court should decide that the rule involving contractually
shorter time limits applies to implied contracts as well as actual contracts,
the Schedule of Rates time limit provisions are not enforceable against
Walton, because he never knew of or agreed to them. Virginia law requires
mutuality of assent--a meeting of the minds-between parties, before an

implied or actual contract is enforceable. Spectra-4. LLP v.Uniwest
Cammer. Realtv. Inc., 290 Va. 36, 45, 772 S.E.2d 290, 295 (2015). In the
24

A185

case of Progressive Constr. Co. v. Thumm, 209 Va. 24, 30, 161 S.E.2d
687, 691(1968), the Court explained what mutuality of assent means:

In order that there may an agreement, the parties
must have a distinct intention common to both
and without doubt or difference. Until all understand
alike, there can be no assent .... (Emphasis added).

VIT will no doubt argue that no mutuality of assent was necessary
here, because 46 U.S.C. § 40501(f) provides that provides that marine
terminal schedules are "enforceable by an appropriate court as an implied
contract without proof of actual knowledge of its provisions." The trial court
agreed with VIT, holding that Walton's use of the VIT premises, with no
knowledge of the Schedule or agreement to its terms, was sufficient as

assent, notwithstanding that mere use was no assent at all. (Opinion, p. 8).
VIT's choice of law language in its Schedule of Rates supplies a
ready answer to VIT's argument and shows why the trial court erred in
making this holding. Pursuant to Section 207(C) of the Schedule, Virginia
law controls, and federal law applies only "to the extent not in conflict

with the law of Virginia." (Emphasis added). VIT cannot ask the Court to
redraw its Schedule of Rates for it. Because Virginia law requires mutuality
of assent in express and implied contracts, and there is no evidence that
Walton knew of or agreed to the Schedule of Rates, the pre-suit notice and
time to sue limitations tn the Schedule are not enforceable against him.
25

A186

C. The Schedule of Rates time provtstons are not
enforceable against Walton, because there was an
actual contract for terminal usage between Walton's
employer and VIT, so that the Schedule is not
enforceable as an implied contract. by virtue of 46 CFR
§ 525.2(a)(3). Because Walton was not a party to the
actual contract, it was not enforceable against him.
(Assignments of Error Nos. 4 and 5).

The Schedule of Rates time provisions were not enforceable against
Walton, because there was an actual contract for terminal usage between
Walton's employer and VIT. Shipping Act regulation 46 CFR § 525.2(a)(3)

provides:
Contracts for terminal services. If the marine terminal
operator has an actual contract with a party covering
services rendered by the marine terminal operator
rendered to that party, an existing terminal schedule
covering those same services shall not be
enforceable as an implied contract.
Under the plain language of the regulation, if there was an actual contract
between VIT and "a party," covering the services mentioned in the Schedule,
the Schedule is not enforceable as an implied contract.

In fact, there was an "actual contract" for the "same services"--terminal
usage by MRS and its employees--between VIT and "a party"- Walton's
employer, MRS. 46 CFR § 525.1 (b)( 19) defines ''terminal services" to include
"usage." It is undisputed that Walton was using the terminal when he was
hurt, doing work for his employer MRS. The License Agreement between VIT
26

A187

and MRS also covers MRS' use of the terminal beyond licensed areas,
extending to the entire terminal, and the Amended Complaint alleged that

Walton was working on the terminal in an area outside of the licensed areas
listed in the contract. (Amended Complaint 1fs 21, 22). Section 30 of the
contract provides that VIT's Schedule of Rates "is incorporated into this
Agreement by reference and shall apply to all of [MRS'] operations and
activities on the Terminals."

(Agreemen~,

p. 7)(emphasls added).

Because there was an actual contract between MRS and VIT for

terminal usage, the Schedule of Rates was not enforceable as an implied
contract against Walton, pursuant to 46 CFR § 525.2(a)(3).
Notwithstanding this fact, the trial court held that, because the actual
contract between MRS and VIT incorporated the Schedule of Rates, the
actual contract "preserv[ed] any enforceability that would have otherwise

been nullified by the existence of an actual contract." (Opinion, p. 8). Here
the trial court erred in holding that the contract between MRS and VIT was
enforceable against Walton, because Walton was not a party to that
contract.
As mentioned above, VIT's choice of law provision in its Schedule of

Rates states that Virginia law applies to all disputes arising from or related
to its Schedule. Federal law applies only to the extent not in conflict with
27

A188

Virginia law. (Schedule, Section 207(C)). Under controlling Virginia law,
Walton was not bound to the contract between VIT and MRS, including the

Schedule of Rates incorporated therein and its time provisions, because he
was not a party to the contract. Commercial Constr. Specialties. Inc. v.
ACM Constr. Management Com., 242 Va. 102, 106, 405 S.E.2d 852, 854
(1991).

D. To the extent that the trial court held that the Schedule
of Rates was enforceable against WaHon as a contract

implied-in law, the trial court erred in holding that the
Schedule time·barred Walton's claim, because Virginia
law does not recognize such a time-bar as a remedy for
contracts implied-in-law. (Assignment of Error No. 7).
Neither VIT nor the trial court in its opinion specified whether the
Schedule of Rates was a contract implied in fact or an contract implied in
law. For that reason, enforceability of the Schedule as a contract implied in
law will be addressed in Parts D and E of the Argument, in addition to the
federal pre-emption issue addressed in Part A, and the fact that the

Schedule is not enforceable as an implied contract of any type, because of
the actual contract between VIT and MRS, pursuant to 46 CFR §
525.2(a)(3), addressed in Part C of the Argument.
As mentioned above, pursuant to Section 207(C) ofVIT's Schedule of
Rates, VIrginia law applies. A contract Implied-in-law is "no contract at all,
28

A189

but a form of remedy of restitution." Restatement (2d) of Contracts, §4,
comment b. A contract implied-in-law rests upon the principle of preventing
unjust enrichment, requiring someone who has benefited and accepted the
services to pay reasonable compensation for those services. Po River

Water & Sewer Co. v. Indian Acres Club, 255 Va. 108, 114, 495 S.E.2d

478, 482 (1998). Because the purpose of a contract Implied-in-law is to
prevent unjust enrichment, the sole remedy for a contract implied-in-law is
restitution. The remedy which VIT sought against Walton was not restitution
but a time-bar of his personal injury claim. Because such a remedy is not
recognized under Virginia law for a contract implied-in-law, Walton's claim

cannot be time-barred by a Schedule of Rates enforceable as a contract
implied-in-law.

E. To the extent that the trial court held that the Schedule
of Rates was enforceable against Walton as a contract
implied-in-law, the trial court erred in holding that the
Schedule time-barred Walton's claim, because equity
and good conscience did not permit such a result, when
Walton timely filed his suit within the two-year statutory
limitations period, and he neither knew or agreed to the
time provisions in the Schedule. (Assignment of Error
No.8).
In addition to the reasons stated above, the notice and shortened
time to sue provisions in VIT's Schedule of Rates cannot be enforced as a
29

A190

contract implied-in-law to time-bar Walton's claim, because, under Virginia
law, contracts implied-in-law can be enforced only as equity and good
conscience permit. Spectra-4. LLP v. Uniwest Cammer. Realty.
Inc., 290 Va. 36, 42 n. 2, 772 S.E.2d 290, 294 n. 2 (2015). Under the

circumstances of this case, equity and good conscience do not permit
application of VIT's Schedule to bar Walton's claim.
The evidence before the trial court was undisputed that, before he
filed his action against VIT, Walton was not aware that a Schedule of Rates
existed. (October 8, 2019, transcript, p. 41 ). He had never read VIT's

Schedule of Rates. (TR 39, 41 ). This is understandable, because Walton's
Employer MRS never told him that the Schedule of Rates applied to him.
(TR 38-39). Before his lawsuit was filed, Walton did not know of any
requirement to give notice to VIT of any claim or injury, nor did he know of
any requirement to file suit against VIT within one year. (TR 39-40). He
never agreed to any notice provision or time for filing suit. (TR 40). In

addition to this evidence, Walton testified that, although from 2015 until the
date of his injury, he served on a contract board, which consists of
longshoremen and management representatives, including VIT
representatives, VIT never notified members of the contract board of a
notice requirement or shortened time limit to sue. (TR 35-36).
30

A191

Furthermore, Walton testified that, from 2015 until the date of his injury, he
also served on a safety committee, which included union officials and VIT
representatives. (TR 37). At the safety committee meetings, VIT never
notified anyone of a notice requirement or shortened time limit to sue. (TR
37-38).
There was no evidence before the trial court that VIT published its
notice or shortened time to sue provisions anywhere at its terminal. The
only "notice" that VIT gave was by inserting these provisions into its 66
page Schedule of Rates on its website.
For all these reasons, Walton respectfully submits that enforcement
of the notice and shortened time to sue provisions against him as a
contract-implied-law to time-bar his claim was not permitted under Virginia

law. Equity and good conscience do not permit barring his claim on such
grounds.
CONCLUSION AND RELIEF SOUGHT
For all the reasons stated above, the plaintiff-appellant Stephen K.
Walton, Sr., by counsel, respectfully requests that this Court grant his
Petition for Appeal, reverse the decision of the Circuit Court of the City of

Norfolk dismissing with prejudice his action against Virginia International
Terminals, LLC, and remand the case to the Circuit Court for further
31

A192

proceedings.
Respectfully submitted,

. WALTON, SR.

By
OfCounsei

Lance A. Jackson (VSB No. 26035)
MONTAGNA KLEIN CAMDEN, L.L.P.

425 Monticello Avenue
Norfolk, VA 2351 0

Telephone: (757) 622-8100
Facsimile: (757) 622-8180
ljackson@montagnalaw.com
32

A193

CERTIFICATE
Pursuant to Rule 5:17 of the Rules of the Supreme Court of Virginia,
Lance A. Jackson, the undersigned counsel for the plaintiff/appellant
certifies as follows:

1. The appellant is Stephen K. Walton, Sr., and is represented by
Lance A. Jackson, Esq. (VSB No. 26035), MONTAGNA KLEIN CAMDEN,
L.L.P., 425 Monticello Avenue, Norfolk, VA 23510, Telephone no. (757) 622w

8100, Facsimile no. (757) 622w8180, email: liackson@montagnalaw.com.
2. The appellee is Virginia International Terminals, LLC, and is
represented by John E. Holloway, Esq., (VSB No. 28145), Daniel T. Berger,
Esq., (VSB No. 81861), and Ryan T. Gibson, Esq. (VSB No. 83183),

TROUTMAN SANDERS, LLP, 222 Central Park Avenue, Suite 2000,
Virginia Beach, VA 23462, Telephone no. (757) 687-7724, email:
john.holloway@troutman.com,

daniel.berger@troutman.com,

and

ryan.gibson@troutman.com.
3. On this 21st day of February 2020, seven copies of the foregoing
Petition for Appeal were handwfiled with the Clerk of the Supreme Court of
Virginia, and a copy of the Petition for Appeal was mailed via U.S. Mail,

postage prewpaid, to all opposing counsel and all parties not represented by
counsel.
4. Further, counsel for the appellant requests that he be permitted to
state orally, in person, to a panel of this Court the reasons why this Petition

for Appeal should be granted, and he wishes to do so in person.

o. 26035)
Lance A. Jackson, Es (V,
Counsel for Plaintiff/Appeua· Stephen K. Walton, Sr.

33

A194

1

Calendar 144
105TH CONGRESS
"
1st Session

!

SENATE

REPORT
105–61

OCEAN SHIPPING REFORM ACT

R E P O R T
OF THE

COMMITTEE ON COMMERCE, SCIENCE, AND
TRANSPORTATION
ON

S. 414

JULY 31, 1997.—Ordered to be printed

U.S. GOVERNMENT PRINTING OFFICE
39–010

WASHINGTON

:

A195

1997

SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION
ONE HUNDRED FIFTH CONGRESS
FIRST SESSION
JOHN MCCAIN, Arizona, Chairman
TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina
CONRAD BURNS, Montana
DANIEL K. INOUYE, Hawaii
SLADE GORTON, Washington
WENDELL H. FORD, Kentucky
TRENT LOTT, Mississippi
JOHN D. ROCKEFELLER IV, West Virginia
KAY BAILEY HUTCHISON, Texas
JOHN F. KERRY, Massachusetts
OLYMPIA SNOWE, Maine
JOHN B. BREAUX, Louisiana
JOHN ASHCROFT, Missouri
RICHARD H. BRYAN, Nevada
BILL FRIST, Tennessee
BYRON L. DORGAN, North Dakota
SPENCER ABRAHAM, Michigan
RON WYDEN, Oregon
SAM BROWNBACK, Kansas
JOHN RAIDT, Staff Director
IVAN A. SCHLAGER, Democratic Chief Counsel and Staff Director

(II)

A196

Calendar No. 144
105TH CONGRESS
"
1st Session

!

SENATE

REPORT
105–61

OCEAN SHIPPING REFORM ACT

JULY 31, 1997.—Ordered to be printed

Mr. MCCAIN, from the Committee on Commerce, Science, and
Transportation, submitted the following

REPORT
[To accompany S. 414]

The Committee on Commerce, Science, and Transportation, to
which was referred the bill (S. 414) ‘‘A Bill to amend the Shipping
Act of 1984 to encourage competition in international shipping and
growth of United States imports and exports, and for other purposes’’, having considered the same, reports favorably thereon with
an amendment in the nature of a substitute and recommends that
the bill (as amended) do pass.
PURPOSE

OF THE

BILL

S. 414, the Ocean Shipping Reform Bill of 1997, would amend
the Shipping Act of 1984 (46 U.S.C. App. 1701 et seq.), and other
related U.S. shipping laws to encourage competition in international shipping, growth in United States exports, and the increased use of United States ports for international trade, and for
other purposes.
BACKGROUND AND NEEDS

Ocean liner shipping is an international industry involving trade
between sovereign nations, and the industry is subject to multinational regulation. The international nature of the industry has
been characterized by chronic conditions of carrier overcapacity.
The primary cause of liner shipping overcapacity is the presence of
international policies designed to promote national-flag carriers
and also to ensure strong shipbuilding capacity in the interests of
national security and employment. These policies include subsidies
to purchase ships and operate ships, tax advantages to lower costs,
cargo reservation schemes, and national control of shipyards and

A197

2
shipping companies and have resulted in an industry which is not
completely driven by economic objectives.
Expansion of the liner shipping industry has increased every
year since the utilization of containerization in the late 1960’s, and
in the 1990’s, container port handling has risen at nearly 10% per
annum. According to a Drewry shipping report on Global Container
Markets—Prospect and Profitability in a High Growth Era (1996):
‘‘Global ocean and intermodal container freight revenue is around
$80–90 billion per annum, and while this is rising annually with
the expansion of world container trade, unit revenues are, and
have been consistently falling. For instance, in the transpacific
trade, average unit revenues were 60% less in real terms in 1994
than in 1976. The transatlantic market presents a broadly similar
picture, and average westbound earnings in 1994 (post-Trans-Atlantic Agreement and Trans-Atlantic Conference Agreement rate
restoration) were just 46% of 1978’s level in real terms, having
reached as low as 35% at the bottom of the market in 1992.’’ The
primary causes for reductions in unit revenues per box, in real
terms, continue to be overcapacity and gains in productivity inherent in intermodal containerization.
Historically, ocean shipping liner companies attempted to combat
the ocean shipping overcapacity that had developed into ‘‘rate
wars’’ by establishing shipping conferences to coordinate their practices and pricing policies. The first shipping conference was established in 1875, but it was not until 1916 that the Federal government reviewed the conference system. The Alexander Committee
(named after the then-Chairman of the House Committee on Merchant Marine and Fisheries) recommended continuing the conference system in order to avoid ruinous ‘‘rate wars’’ and trade instability, but also determined that conference practices should be
regulated to ensure that they did not adversely impact shippers.
All other maritime nations allow shipping conferences to exist with
immunity from the application of antitrust or competition laws.
U.S. regulation of the international ocean shipping industry
began with the Shipping Act, 1916 (1916 Act). The 1916 Act provided conferences with immunity from U.S. antitrust laws, imposed
certain requirements on conferences (such as free entry and exit of
their members, or more commonly known as open conference requirements), and prohibited discriminatory rates or services. The
1916 Act also created a separate government agency, the United
States Shipping Board, to enforce the 1916 Act.
In 1961, Congress amended the 1916 Act to address certain concerns about anticompetitive conduct by ocean carrier conferences.
The 1961 Amendments mandated tariff filing, introduced a limited
form of independent action, and established an independent agency, the Federal Maritime Commission (FMC), to regulate ocean
shipping practices. Prior to the creation of the FMC, ocean shipping
regulation was performed by the Federal Maritime Board as part
of the Department of Commerce. The 1961 Amendments authorized
the FMC to apply a public interest standard to the agency’s review
of ocean carrier agreements, strengthened the FMC’s powers to investigate and punish ocean carrier transgressions, and authorized
it to disapprove rates that were determined to be detrimental to
the commerce of the United States.

A198

3
After enactment of the 1961 Amendments, ocean carriers complained about delays in the FMC agreement approval process. The
1961 Amendments strengthened the agreement review process to
incorporate public interest standards, and the injection of antitrust
considerations after the Supreme Court decision in Federal Maritime Commission v. Aktiebolaget Svenska America Linien, 390
U.S. 238 (1968), severely delayed consideration and approval of carrier agreements.
The advances in ocean shipping productivity were dramatic in
the 1960’s and 1970’s, but the general worldwide recession in the
early 1970’s tightened the need for shipping services. Foreign carriers crowded into the U.S. trades where the U.S. policy requiring
conferences to be open guaranteed that they would be entitled to
conference cargoes. Uncertainty as to the legality of ocean shipping
agreements that contained land-side intermodal agreements, widespread illegal practices brought about by competitive pressures,
and delays in approval for agreements that increased productivity
by allowing and facilitating intermodal containerization, led to the
call for reform of the 1916 Act.
Congress considered ocean shipping regulation throughout the
97th and 98th Congress, culminating in the enactment of the Shipping Act of 1984 (1984 Act). The 1984 Act overhauled the ocean
carrier agreement review process, allowed greater flexibility in the
type of discount-rate and contracts that could be offered by ocean
carriers, recognized the increasing role of non-vessel-operating common carriers (NVOCCs) and shippers’ associations in facilitating
intermodal ocean transportation, and expanded the right of independent action to conference tariffs. While the 1984 Act allowed
greater discrimination for service contracts than tariffs, it essentially preserved common carriage requirements for both types of
transactions, and similarly situated shippers were afforded identical contract rights.
The 1984 Act also established an Advisory Commission on Conferences in Ocean Shipping (the Advisory Commission), effective
five and one-half years after the date of enactment, to study the
ocean shipping regulatory system and recommend changes to that
system. The Advisory Commission report, submitted in April 1992,
produced no consensus within either the Advisory Commission or
the industry on recommended changes to the 1984 Act. The Advisory Commission report, however, identified several concerns of individual industry segments with certain aspects of the regulatory
system:
Ocean carrier conferences: Many shippers expressed concern that
conferences were able to wield excessive power to prevent competition under the 1984 Act. This concern was based on the FMC’s limited ability to challenge anticompetitive ocean carrier agreements
under section 6(g) of the 1984 Act, the increasing market share of
conferences in most trade lanes, the use of trade stabilization
agreements between conferences and non-conference ocean carriers,
conference use of public tariff and service contract information and
the independent action 10-day waiting period to restrict competition among conference carriers, and the absence of a mandatory
right of independent action by conference carriers for service contracts. Ocean carriers contended that an unrestricted market would

A199

4
result in a highly destructive market, and rapidly devolve into a
market oligopoly.
Publication of tariff and service contract rates and terms: Many
shippers, especially large volume shippers, expressed concern that
the transparency of the U.S. system disadvantages U.S. shippers
with respect to their foreign competitors in third markets. In general, foreign nations have not required transparency of rates or
services, and their shippers’ rates are not publicly accessible. Larger shippers also objected to the requirement that similarly situated
shippers be allowed to access identical service contract rights, contending that it reduced their ability to negotiate competitive advantages, while smaller shippers contended that this right helped to
counter competitive advantages. Many shippers also objected to
conference provisions that restricted their rights to negotiate directly with individual conference carriers.
Shippers’ associations, NVOCCs, and freight forwarders: Many
shippers’ associations and NVOCCs expressed concerns that conferences were not negotiating with them in good faith. Many
freight forwarders wanted to increase the mandatory floor for
freight forwarder compensation, which is only applicable to freight
forwarders that are also customs brokers, to include those forwarders who do not also perform customs brokerage. These entities
generally supported the 1984 Act’s transparency and common carriage requirements, although some NVOCCs generally wanted relief from tariff filing requirements. Many NVOCCs also wanted the
right to enter into service contracts with shippers as carriers to
help them compete with ocean carriers. Smaller shippers also expressed concerns that reductions in contract transparency could facilitate carrier abuse of collective business authority, and would
also ensure the benefit of larger shippers at the expense of smaller
shippers.
Subsequent to the Advisory Commission report, Committee hearings and discussions with industry representatives have produced
similar views as expressed in the report. One significant exception
is the recent support of U.S. ocean carriers for relief from common
carriage principles with respect to service contracts, including confidentiality of service contract terms. Since the Advisory Commission report, ocean carrier relationships have become increasingly
diversified. As the need for intermodal shipping services becomes
increasingly global, ocean carriers increasingly rely on complex
partnerships with other ocean carriers to coordinate assets and
services to meet this global requirement. These ocean carrier partnerships involve smaller carrier groups and more comprehensive
coordination of intermodal and ocean shipping assets than typical
conference activities, which are focused more on rate stability.
Many U.S. ocean carriers participate in collective shipping arrangements and believe that these arrangements would produce maximum efficiency if carriers were allowed to engage in joint contracts
for service. Shipper needs for global shipping alternatives will continue, and carrier flexibility to engage in tailored carrier-shipper
contracts will increase.
While developing the reported bill, the Committee conducted two
hearings and more than 100 meetings with affected industry and
Federal agency representatives, spent in excess of 300 hours in dis-

A200

5
cussion with these representatives, and developed a comprehensive
understanding of the concerns of all of these affected parties. Attempts to balance the interests of all affected parties were difficult
given the competing interests. Additionally, the Committee bill attempted to balance the need to deregulate the industry with the
need to provide oversight of industry practices, given the immunity
from the antitrust laws. The reported bill attempts to compromise
the positions and interests of those who support complete deregulation of ocean shipping and those who support the status quo.
LEGISLATIVE HISTORY
On February 2, 1995, the House of Representatives Committee
on Transportation and Infrastructure Subcommittee on Coast
Guard and Maritime Transportation held a hearing on international ocean shipping. On August 1, 1995, Congressman Shuster,
Chairman of the House Transportation and Infrastructure Committee introduced H.R. 2149, the Ocean Shipping Reform Act of 1995,
with Congressmen Mineta, Coble, Traficant, and Oberstar as cosponsors. On August 2, 1995, the House Transportation and Infrastructure Committee ordered H.R. 2149 reported by voice vote.
On October 23, 1995, Senator Pressler, Chairman of this Committee, introduced S. 1356, the Ocean Shipping Reform Act of 1995,
which was a companion bill to H.R. 2149, as reported. On November 1, 1995, the Committee held a hearing on S. 1356. Because of
concerns about lack of oversight of carrier practices immune from
the antitrust laws, the Committee worked to develop a compromise
that would ensure a higher degree of review of carrier-shipper
practices. Senator Pressler published amendments to S. 1356 in the
Congressional Record on July 18, 1996 and September 30, 1996 for
public comment. The Senate Commerce Committee took no further
action on ocean shipping regulation in the 104th Congress.
On March 10, 1997, Senator Hutchison, Chairman of the Committee’s Subcommittee on Surface Transportation and Merchant
Marine, introduced S. 414. The bill was cosponsored by Senators
Lott, Breaux, and Gorton. This bill included minor changes to the
amendment to S. 1356 published on September 30, 1996. The Subcommittee held a hearing on S. 414 on March 20, 1997 (see Senate
document S. Hrg. 105-57 for a record of the hearing). On May 1,
1997, the Committee considered and adopted an amendment in the
nature of a substitute for S. 414 offered by Senator Hutchison, cosponsored by Senators Lott, Breaux, and Gorton. The Committee
also adopted an amendment offered by Senator McCain that would
prohibit ocean carriers that had violated certain U.S. shipping laws
within the previous five years from receiving a shipbuilding loan
guarantee under title XI of the Merchant Marine Act, 1936. The
amended bill was ordered reported by the Committee.
SUMMARY

OF

MAJOR PROVISIONS

As reported, S. 414 would, for ocean liner shipping through U.S.
ports:
1. Provide shippers and common carriers greater choice and
flexibility in entering into contractual relationships with shippers for ocean transportation and intermodal services. The

A201

6
most significant improvement is the right of members of ocean
carrier agreements to negotiate and enter into service contracts
with one or more shippers independent of the agreement.
2. Reduce the expense of the tariff filing system and privatize the function of publishing tariff information while maintaining current tariff enforcement and common carriage principles with regard to tariff shipments.
3. Protect U.S. exporters from disclosure to their foreign
competitors of their contractual relationships with common
carriers and proprietary business information, including targeted markets.
4. Specifically exempt new assembled motor vehicles from
tariff and service contract requirements and provide the FMC
with greater flexibility to grant general exemptions from provisions of the 1984 Act.
5. Reform the licensing and bonding requirements for ocean
freight forwarders and NVOCCs and consolidate the definitions
of those two entities under the term ‘‘ocean transportation
intermediary.’’
6. Strengthen the provisions of the 1984 Act, the Foreign
Shipping Practices Act of 1988, and section 19 of the Merchant
Marine Act, 1920, that prohibit unfair foreign shipping practices to provide greater protection from certain discriminatory
actions.
7. Provide for an orderly transition to this more deregulated
ocean shipping environment.
8. Transfer the functions of the FMC to the Surface Transportation Board (STB), rename the STB as the Intermodal
Transportation Board (ITB), and make appropriate changes in
the qualifications of ITB members.
ESTIMATED COSTS
In accordance with paragraph 11(a) of rule XXVI of the Standing
Rules of the Senate and section 403 of the Congressional Budget
Act of 1974, the Committee provides the following cost estimate
prepared by the Congressional Budget Office:
U.S. CONGRESS,
CONGRESSIONAL BUDGET OFFICE,
Washington, DC, June 13, 1997.
Hon. JOHN MCCAIN,
Chairman, Committee on Commerce, Science, and Transportation,
U.S. Senate, Washington, DC.
DEAR MR. CHAIRMAN: The Congressional Budget Office has prepared the enclosed cost estimate for S. 414, the Ocean Shipping Reform Act of 1997.
If you wish further details on this estimate, we will be pleased
to provide them. The CBO staff contacts are Deborah Reis (for the
federal costs); Karen McVey (for the state and local impact); and
Lesley Frymier (for the private-sector impact).
Sincerely,
PAUL VAN DE WATER
For June E. O’Neill, (Director).

A202

7
Enclosure.
CONGRESSIONAL BUDGET OFFICE COST ESTIMATE

S. 414—Ocean Shipping Reform Act of 1997
Summary: S. 414 would amend the Shipping Act of 1984 and
other laws that govern the regulation of ocean shipping by the Federal Maritime Commission (FMC). The bill would authorize the appropriation of $15 million for the FMC for fiscal year 1998 while
also providing for the subsequent termination of the agency and
transfer of its responsibilities to the Surface Transportation Board
(STB). Finally, the bill would extend eligibility for certain veterans’
death benefits to cover merchant mariners who served between August 16, 1945, and December 31, 1946.
Assuming appropriation of the authorized amount, CBO estimates that the FMC would spend $15 million in 1998 to carry out
routine duties as well as one-time activities to implement this legislation. Enacting the bill also would increase direct spending by
between $0.2 million and $0.4 million annually. Finally, enacting
S. 414 would increase federal revenues by about $1 million in 1998
and decrease revenues by roughly the same amount in each of the
following years. Because the bill would affect direct spending and
receipts (revenues), pay-as-you-go procedures apply.
S. 414 contains several provisions that would either eliminate existing requirements on the private sector or impose new privatesector mandates as defined in the Unfunded Mandates Reform Act
of 1995 (UMRA). S. 414 contains no intergovernmental mandates
as defined in UMRA and would have no significant impact on state,
local, or tribal governments.
Estimated cost to the Federal Government: CBO estimates that
enacting S. 414 would increase discretionary spending in 1998 by
$1 million over the current year’s funding level, assuming appropriation of the authorized amount. In addition, the bill would affect
both revenues and direct spending each year. These budgetary effects are summarized in the following table.
[By fiscal years, in millions of dollars]
1997

1998

1999

SPENDING SUBJECT TO APPROPRIATION
FMC Spending Under Current Law:
14
0
Budget Authority1 ..........................................
Estimated Outlays .........................................
14
1
Proposed Changes:
Authorization Level ........................................
0
15
Estimated Outlays .........................................
0
14
FMC Spending Under S. 414:
Authorization Level 1 .....................................
14
15
Estimated Outlays .........................................
14
15

2000

2001

2002

0
0

0
0

0
0

0
0

0
1

0
0

0
0

0
0

0
1

0
0

0
0

0
0

CHANGES IN DIRECT SPENDING AND REVENUES
Direct Spending:
Estimated Budget Authority ..........................
0
(2)
(2)
Estimated Outlays .........................................
0
( 2)
(2)
Revenues:
Estimated Revenues .....................................
0
1
¥1

(2)
(2)

(2)
(2)

(2)
(2)

¥1

¥1

¥1

1 The

1997 level is the amount appropriated for that year.
2 Less than $500,000.

A203

8
The costs of this legislation fall within budget function 400
(transportation).
Basis of estimate: For purposes of this estimate, CBO assumes
that S. 414 will be enacted by the end of fiscal year 1997 and that
all provisions will become effective at that time or as stated in the
bill. We also assume that the entire amount authorized will be appropriated by the beginning of fiscal year 1998. Outlays for discretionary activities are estimated on the basis of historical spending
patterns for the FMC. Estimates of discretionary costs, changes in
federal revenues, and direct spending effects are based on information provided by the FMC, the U.S. Coast Guard, and the Office of
Management and Budget.
Spending subject to appropriation
S. 414 would authorize the appropriation of $15 million for the
FMC for fiscal year 1998. Assuming appropriation of the entire
amount authorized, CBO estimates that the FMC would spend
most of the increase on one-time activities to implement Titles I
and II of the bill.
Title I would make significant changes in how the FMC regulates
ocean shipping, particularly common carrier rates, and terms and
conditions for services provided under tariff and/or contract. This
title would amend the 1984 act to eliminate the existing requirement that ocean common carriers and conferences file their tariffs
with the FMC. Common carriers and conferences (associations of
carriers) would still have to make tariffs available electronically to
the public for reasonable fees (or to federal agencies at no charge),
but the tariffs would not require FMC approval before they become
effective. Common carriers (of any type or combination) would still
have to file all service contracts with the FMC and publish an abstract of the contract’s essential terms, but they would no longer
have to disclose rate information publicly. The FMC would still
have to acquire and review published tariffs and suspend or prohibit the use of those found to violate federal shipping laws.
Title I would repeal 46 app. United States Code 1707a, which requires the FMC to collect and disseminate to the public all tariffs
and other information through an automated tariff filing and information system (ATFI). The FMC would still be charged with ensuring the accessibility and accuracy of all private automated systems
used to provide tariff information to the public. Other provisions of
Title I would strengthen regulations on controlled carriers (which
are common carriers owned or otherwise controlled by foreign governments) and would change licensing and financial security requirements imposed on non-vessel-operating common carriers
(NVOCCs) to be more consistent with those on ocean freight forwarders (OFFs).
Title II of the bill would terminate the FMC and transfer all of
the agency’s functions and responsibilities to the STB, which would
be renamed the Intermodal Transportation Board (ITB). These provisions of Title II would be effective on January 1, 1999.
Of the $15 million authorized, we estimate that the FMC would
incur one-time costs of about $1 million in 1998 to implement the
changes made by Titles I and II. The agency would use some of this
money for rulemaking proceedings. For example, the agency would

A204

9
have to promulgate regulations to implement the tariff filing
changes made by section 106, including new guidelines on electronic tariff systems. Also, the termination of ATFI could result in
costs of up to $0.2 million to relocate computer equipment owned
by the FMC but located on a contractor’s premises. Finally, the balance would be spent on activities associated with the agency’s termination and the transfer of regulatory responsibilities to the ITB.
One-time spending for these purposes would include minor rulemaking costs and severance payments to former employees. We expect that any reduction in personnel levels would be small, and
that severance costs would therefore be minimal.
After the two regulatory bodies have merged, ongoing costs to
carry out the new board’s responsibilities would be about the same
as those incurred by the FMC and the STB under current law. In
addition to reviewing tariffs for potential violations of the law, the
government would continue to undertake its other regulatory responsibilities, such as investigating complaints against carriers and
others, overseeing conference agreements and activities, and taking
actions against those who engage in prohibited acts.
Direct spending
Under Title IV, merchant mariners who served between August
16, 1945, and December 31, 1946, would be eligible for veterans’
burial and funeral benefits. CBO estimates that these provisions
would increase direct spending by $0.2 million in fiscal year 1998
and by gradually increasing amounts in subsequent years, up to
$0.4 million annually by 2001.
CBO estimates that, to carry out Title IV, the Coast Guard
would incur administrative costs of about $1.5 million in 1998 and
$1 million in the following year. The increased spending in both
years would be offset by fee collections provided for in the bill. Also
beginning in 1998, the federal government would pay about $0.2
million in additional death benefits (including flags, headstones,
burial allowances) to eligible seamen. This amount would grow to
about $0.4 million annually by 2001.
Revenues
Several provisions of S. 414 would affect federal revenues. The
most significant of these are sections 106 and 107, which would
free carriers and conferences from having to file tariffs with the
FMC and would terminate the agency’s responsibility to make tariff information available electronically. As a result of these provisions, the Treasury would lose nearly all of the $0.8 million it collects annually from tariff filing fees, remote access charges, and
sales of ATFI tapes. Such losses would be partially offset by increased collections of license application fees resulting from section
117, which would require NVOCCs to obtain licenses as ocean
transportation intermediaries. We estimate that such revenues
would be about $1.4 million in 1998 for initial applications and
about $0.2 million annually thereafter for new applications and license amendments. Finally, the penalty provisions in section 113
also could result in additional revenues, but these are likely to be
minimal. As shown in the preceding table, the net effect of all

A205

10
changes in federal revenues would be an increase of about $1 million in 1998 and a loss of a similar amount each year thereafter.
Pay-as-you-go considerations: Section 252 of the Balanced Budget
and Emergency Deficit Control Act of 1985 sets up pay-as-you-go
procedures for legislation affecting direct spending or receipts
through 1998. CBO estimates that S. 414 would have no significant
effect on direct spending in fiscal year 1998 and would increase receipts in 1998 by about $1 million.
Estimated impact on State, local, and tribal governments: S. 414
contains no intergovernmental mandates as defined in UMRA.
Title I of the bill would relieve operators of marine terminals, some
of which are state or local governmental entitles, of two administrative requirements and provide them new legal protection in certain rate-setting actions. Based on information from operators of
public marine terminals and ports, CBO estimates that any savings
resulting from these provisions would be negligible.
Enactment of Title IV of the bill could result in additional costs
for some state, local, and tribal governments to the extent that
their retirement systems provide credit for military service. (For
the purposes of certain state retirement benefits, this title would
result in an extra sixteen months of service credit for merchant
mariners because some states credit such service towards their governmental retirement systems.) Based on information from state
retirement officials and the National Association of State Retirement Executives, CBO estimates such costs would not be significant.
Estimated impact on the private sector: S. 414 would eliminate
existing mandates on common carriers, conferences, and marine
terminal operators and impose new mandates on common carriers
and conferences. Based on information provided by government and
industry sources, CBO estimates that the net direct costs of these
new mandates would not exceed the statutory threshold established in UMRA ($100 million in 1996, adjusted annually for inflation) in any year.
Section 104 would require conferences to prohibit agreements
that require members to disclose terms of service contracts or that
restrict member negotiations for service contracts. CBO believes
that these requirements would weaken conferences’ control over
service contracts. The magnitude of the costs to conferences is unclear; however, any costs associated with these requirements would
most likely be offset by benefits to shippers.
Section 106 would eliminate the existing mandate that common
carriers and conferences file tariffs with the Federal Maritime
Commission and replace it with a requirement that they make tariffs publicly available, according to regulations that would be issued by the FMC. Based on information provided by government
and industry sources, CBO estimates that the costs of the new
mandate, in aggregate, would most likely be less than or equal to
the costs of the existing mandate.
Section 117 would replace the license requirement for ocean
freight forwarders (OFFs) with a license requirement for ocean
transportation intermediaries (OTIs), a new category that would include OFFs and non-vessel operating common carriers. Based on
information provided by government sources, CBO believes that the

A206

11
2000 OFFs that are already licensed (including 300 NVOCCs)
would not need to be re-licensed. However, approximately 2000
NVOCCs would have to be licensed. Assuming license fees remain
at the current level, the total cost to NVOCCs would be $1.4 million in fiscal year 1998. CBO also estimates a cost to NVOCCs of
about $200,000 per year in fiscal years 1999–2002 in fees for new
licenses and amendments to existing licenses.
To satisfy license requirements, NVOCCs also would be required
to be bonded at an amount determined by the FMC. Currently,
OFFs are bonded at $30,000, with an additional $10,000 requirement for every branch office. NVOCCs are bonded at $50,000. The
NVOCC bond requirement would be repealed under S. 414. CBO
has no basis for predicting the amount of the bonding requirement
that would be established for OTIs. Depending on FMC regulations, bonding requirements could result in savings or impose
greater costs on OFFs and NVOCCs.
Other sections of the bill would eliminate current mandates for
common carriers, conferences, and operators of marine terminals.
Estimate prepared by: Federal Costs: Deborath Reis. Impact on
State, Local, and Tribal Governments: Karen McVey. Impact on the
Private Sector: Lesley Frymier.
Estimate approved by: Robert A. Sunshine, Deputy Assistant Director for Budget Analysis.
REGULATORY IMPACT STATEMENT
In accordance with paragraph 11(b) of rule XXVI of the Standing
Rules of the Senate, the Committee provides the following evaluation of the regulatory impact of the legislation, as reported.
NUMBER OF PERSONS COVERED

This legislation does not significantly change the scope of entities
or actions subject to the 1984 Act. The specific exclusion from tariff
and service contract requirements of new assembled automobiles
should result in a minor reduction in the number of persons subject
to these regulations. The enhancement of the FMC’s general exemption authority may result in further reductions in the area.
ECONOMIC IMPACT

The amendments to the 1984 Act are intended to increase competition in ocean shipping, which is not expected to have an inflationary impact on the Nation’s economy.
Title II of the bill authorizes appropriations of $15 million for the
FMC for fiscal year 1998. This funding level is not expected to have
an inflationary impact on the Nation’s economy. This title also
transfers the functions of the FMC to the STB, which would be renamed the ITB. This consolidation is likely to result in minor cost
savings to the Federal Government.
PRIVACY

This legislation will not have any adverse impact on the personal
privacy of the individuals affected.

A207

12
PAPERWORK

This legislation eliminates the filing of ocean shipping tariffs
with the FMC and encourages the use of privately owned, publicly
accessible, automated systems for the publication of a reduced volume of information. This legislation creates a new requirement to
license NVOCCs in the United States. This legislation should result in no net increase in paperwork requirements.
SECTION-BY-SECTION ANALYSIS
Section 1.—Short title
This section cites the short title of the bill as the ‘‘Ocean Shipping Reform Act of 1997’’.
Section 2.—Effective date
This section provides that the amendments made by S. 414 take
effect on March 1, 1998, unless otherwise expressly provided in S.
414.
TITLE I—AMENDMENTS TO THE SHIPPING ACT OF 1984
This title of the bill contains a number of amendments to the
1984 Act. Among the provisions considered for amendment was section 6(g). Although the reported bill does not change its provisions,
a discussion of the Committee’s evaluation of section 6(g) is warranted.
Although the bill retains the broad statutory language of section
6(g) of the 1984 Act, the Committee believes that the agency’s interpretation and administration of the general standard must be
revised to meet the dramatic changes that have taken place in the
ocean liner shipping industry over the last decade. In response to
those changes, and in keeping with the expanded policy goals of the
bill, the Committee intends that this report shall guide the agency,
and its successor, in the future exercise of its section 6(g) agreement review authority.
In doing so, the Committee wishes to point out that section 6(g)
itself is not changed by the bill. This section continues the policy
of removing any per se condemnation of concerted action as may
be applied under antitrust laws, and there is no vague public interest standard to be applied to such agreements as existed before the
1984 Act. The 1984 Act continues to place the burden of proof on
the agency. Ocean carrier agreements should be permitted unless
the agency demonstrates that they are likely to produce unreasonable changes to transportation costs or services through reductions
in competition.
Ocean carriers continue to be free to structure their own affairs,
except when such structure violates specific statutory provisions or
the section 6(g) standard. Ocean carriers should continue to have
the benefit of regulatory certainty and prompt rulings from the
agency. While the agency may continue to weigh reasonable and
commercially proven alternative arrangements that have less anticompetitive impact, there is no intent to return to pre-1984 law
under which agreement proponents may have been compelled to

A208

13
show that no less anticompetitive alternative was available to obtain the benefits of the 1916 Act.
CHANGES IN COMPETITIVE CONDITIONS IN THE SHIPPING INDUSTRY.—Since the passage of the 1984 Act, the FMC has taken a narrow and restrictive view of its section 6(g) authority, based on the
instructions set forth in the 1984 Act’s Conference Report. In addressing the analytical approach to be taken in applying the general standard for agreement consideration, much of the commentary in that report focused on limiting the application of section 6(g); on granting proposed agreements any benefit of the
doubt; and on establishing a heavy burden of proof with respect to
FMC action. Given the current concerns with regulatory delay, unclear authority, and excessive government intervention and regulatory costs, that emphasis was not without merit. Moreover, at the
time the legislation was introduced, debated, and passed (19781984), substantial independent competition existed in the form of
new and expanding non- conference service. That competition, in
addition to the new right of independent action on conference rates,
appeared to limit the potential market power of liner conferences.
Today, however, the traditional distinction between conference
and independent lines is eroding. Non-conference lines regularly cooperate with their conference rivals under the authority of so-called
voluntary discussion agreements. Activities of those agreements
have included capacity withholding schemes, coordinated general
rate increases, collective action with respect to add-on charges,
credit terms, and an assortment of other price-related tariff and
contract elements. Although the bill includes pro-competitive reforms, such as prohibiting conferences from restricting a member’s
contracting authority or issuing mandatory rules with respect to
contracts, it does not categorically bar carriers from reducing competition through trade-wide capacity control, rate discussion agreements, and voluntary cooperation on terms and procedures of individual contracts. The likelihood that carriers will continue to pursue such arrangements and other evolving forms of cooperation creates the need for careful agency oversight and policing under the
general standard.
Furthermore, the recent trend toward greater operational coordination by means of global strategic alliances, and the merger-driven carrier consolidations now taking place, strongly suggest that
international liner shipping is becoming a more concentrated industry. The Committee is concerned that trade- wide agreements
established by the potential oligopoly of mega- carriers and global
strategic alliances, composed of fewer and more homogeneous members than are today’s agreements, may effectively dominate the
major U.S. trade lanes in the near future. On the other hand, the
Committee also recognizes that, because of ocean carrier alliances,
there have actually been an increase in the number of competitors
in some trades (e.g., in the North Atlantic), and there may have
been fewer mergers than would have been the case in the absence
of such alliances. Since global carriers and carrier alliances likely
will have diversified their assets and operations across a range of
trades, thereby reducing their reliance on revenues from any single
trade, compromise on collective pricing activities could be easier
and the likelihood of substantially anti-competitive activity could

A209

14
well increase. The agency must be prepared and able to address
and rectify such anti-competitive conditions before they take their
toll on importers, exporters, and U.S. ocean borne trade.
ADMINISTRATION OF SECTION 6(g).—In administering the 1984
Act, as amended by the bill, the agency must balance a number of
important and potentially conflicting policies and considerations.
Foremost of these should be prompt agreement review, minimal
government intervention, and continued flexibility in structuring
agreements. In addition, however, the agency must remain mindful
of many of the broad policies that underlay the 1984 Act. For example, the 1984 Act’s declaration of policy, as amended by the bill,
expresses the importance of competitive and efficient ocean transportation and placing a greater reliance on the marketplace. The
need, in light of ongoing changes in the industry, to exercise vigilance with respect to the potential anti-competitive effects of industry concentration and possible reductions in independent competition in U.S. trade lanes also remains an important and worthwhile
goal. In enforcing the 1984 Act, the agency should also continue to
be mindful of the historical and international acceptance of conferences and carrier cooperation; however, such factors must be
continuously evaluated in the context of evolving industry structure and commercial practices.
Section 6(g) sets forth a three-part test to be employed by the
agency in assessing agreements. To warrant injunctive action, the
agency must first find, as a threshold matter, that an agreement
is likely to result in a ‘‘reduction in competition.’’ Second, it must
show that an agreement, through this reduction in competition, is
likely to produce either a ‘‘reduction in transportation service’’ or
an ‘‘increase in transportation cost.’’ Third, the agency must determine that the likely reduction in transportation service or increase
in transportation cost is ‘‘unreasonable.’’
As an initial matter, the Committee would point out that the
word ‘‘likely’’ in the statute clearly indicates that the agency is expected to act prospectively to block substantially anti- competitive
carrier plans before they result in adverse effects on shippers and
foreign trade. The section contemplates the use of reasoned projections and forward-looking analyses by the agency, based on its substantial industry expertise. It appears that the FMC thus far has
given the section a restrictive reading, suggesting that an injunction cannot be won without direct evidence of actual commercial
harm suffered by shippers as a result of agreement activity. While
evidence of shipper harm may indeed be relevant in certain cases,
a blanket requirement for such evidence is not consistent with the
text of the statute, and would undermine the agency’s ability to
take necessary preventive action. Indeed, the Committee directs
the agency not to allow the disruption of ocean borne commerce
while it seeks to quantify such disruption for evidentiary purposes.
In determining whether an agreement is likely to result in a reduction in competition, the agency must ascertain whether a collective activity or arrangement set forth in an agreement would, as
a practical matter, reduce the level of competition (in terms of rates
or range of services), either among agreement members or between
agreement members and nonmembers. Some types of arrangements, such as rate agreements and capacity withholding, usually

A210

15
result in a reduction in competition, and in fact have the easing of
competitive pressures as the primary aim. For all types of cooperative or rationalization arrangements, the agency must closely examine the agreement authorities and the nature of the parties’ operations to determine whether reduced competition is more likely
than not. It is not the Committee’s intention that the agency expend scarce enforcement resources pursuing insubstantial or de
minimus reductions in competition.
The second part of the test is the showing of a likely ‘‘reduction
in transportation service’’ or ‘‘increase in transportation cost.’’ Of
course, if an agreement is in effect and had already produced (or
is in the process of producing) such a reduction or increase, evidence of this may be relied upon by the agency. However, if an
agreement is not in effect, or is likely to have some future impact,
agency action is not foreclosed. Given the agency’s resources and
expertise, it is capable of assessing and projecting the likely effects
of a carrier agreement on transportation costs and service, based
on an evaluation of factors such as: the nature of the collective action contemplated under the agreement; agreement members’ share
of the relevant trades; market concentration; rate levels and rate
histories; capacity utilization levels, histories, and projections; ease
of entry or exit; and the existence of other overlapping agreements.
Market share is relevant and is a factor in considering whether
an agreement is likely to result in a reduction in transportation
service or increase in transportation cost, and whether those
changes are likely to be unreasonable, but it is only one factor. For
example, because S. 414 guarantees a member of an agreement
with pricing authority the right of independently negotiating and
contracting with a shipper, the aggregated market share of an
agreement’s members does not by itself indicate a cohesive or coordinated contracting approach to the market. On the other hand,
in an agreement to rationalize service and withdraw vessels from
service, for example, the carrier’s market share could be a substantial consideration. The agency may use economically reasonable
projections and forward-looking analysis in determining whether
an agreement is likely to result in a reduction in service or an increase in cost.
The third prong of the analysis is a determination as to whether
the likely reduction in service or increase in cost is ‘‘unreasonable.’’
No further definition of reasonableness is given in the statute, nor
is there case law to serve as a guide. However, it is apparent from
the context that the reasonableness requirement entails a balancing of the scope or magnitude of the cost increase or service decrease against the likely benefits to be derived from the carrier
agreement. These benefits may include, for example, carriers’ ability to improve efficiency, lower costs, and increase service options
and quality. Other possible benefits include development of an economically sound and efficient U.S.-flag fleet, the prevention or forestalling of further competition-reducing concentration in the industry due to carrier mergers, and the promotion of comity with our
trading partners. Enabling carriers to remedy identifiable conditions of rate instability or severe overcapacity may also be a potential agreement benefit, to the extent that such arrangements are
in the long term interests of shippers and carriers. This is not to

A211

16
say, however, that all collective efforts by carriers to increase rates
or revenues or lower costs are deemed to be ‘‘reasonable’’ simply on
the grounds that they contribute, in the general sense, to industry
stability.
In general, the reasonableness requirement entails comparing
short term ‘‘apples’’ to an array of medium-term and long-term ‘‘oranges.’’ The test requires the weighing of a number of difficult-toquantify costs and benefits to various segments of the industry.
In applying the general standard, the agency must consider
whether the relevant competitive market includes more than just
ocean common carriers providing direct service in a trade. The
Committee intends that the agency consider the impact on shippers
of an agreement not only in view of competition between ocean
common carriers providing direct service in a trade, but also in
view of other competitive means of transport. In some cases, alternative liner routings, bulk carriers, charter operators, or air freight
carriers may provide competitive alternatives to the direct service
provided by ocean common carriers. In considering these alternatives, the agency may gather relevant information from shippers,
other carriers and third parties. Although the agency may use its
information powers to request market information from the proponents of an agreement, such information must be relevant.
Another aspect of the reasonableness requirement is that the
negative impact upon shippers may be offset by the benefits of an
agreement. For example, the competitive harm ensuing from conferences, already diminished by the statutory limitations on conference activity, may be offset by the significant benefits of such activity. Also, the degree to which privately-owned ocean common
carriers that service U.S. foreign commerce are subjected to competition from state-subsidized and controlled carriers is another
consideration. A conference’s ability to address problems of overcapacity and rate instability is an important benefit that the agency must weigh.
Another possible benefit to be considered by the agency is the impact of an agreement on U.S. foreign policy and international comity. The Committee agrees that the United States should act with
sensitivity to the interests of its trading partners when administering shipping regulation.
Another important potential benefit to be considered is any efficiency-creating aspects of an agreement. Agreements involving significant carrier integration are, if properly limited to achieve such
important benefits, to be favorably considered by the agency and
the courts if these benefits are not outweighed by any competitive
harm that is likely to result from such integration. Joint ventures
and other cooperative agreements can enable carriers to raise necessary capital, attain economies of scale, and rationalize their services.
The Committee intends that ocean carriers be free to structure
their own affairs, except when such structuring violates specific
statutory provisions or the general standard. Even when an agreement raises potential issues under the general standard, the Committee believes that the procedural framework gives carriers sufficient flexibility. Carriers are able to obtain a prompt ruling from
the agency under the provisions for expedited review. If the agency

A212

17
objects to an agreement under the general standard, the filing
party may withdraw it, modify it, or force the agency to make its
showing in court.
The Committee would also clarify the range of injunctive remedies available from the district court. The court evaluating an
agreement in a section 6(g) proceeding is not limited to the simple
binary choice of enjoining or not enjoining an agreement in its entirety. As carrier arrangements grow increasingly complex and
global in scope, a more surgical approach is warranted. Thus, upon
a request by the agency, or upon its own motion, a court may tailor
its injunction to bar certain agreement authorities or application to
particular geographic ranges, while leaving other parts of the filed
agreement intact.
Finally, the Committee notes that the bill does not adopt the
FMC’s suggestion that the 6(g) standard be incorporated into the
prohibited acts section of the 1984 Act so that excessively anti-competitive agreements could be addressed and acted upon directly by
the agency. The 1984 Act, as amended by the bill, continues to require the agency to seek to enjoin such agreements in the federal
courts. However, the Committee would encourage the agency to
allow shippers or others to contribute to the process of determining
whether an injunction should be sought. At present, notices of
agreement filings are published in the Federal Register and comments of interested parties are solicited. The agency could encourage even more participation by shippers and others potentially detrimentally affected by agreement authority by issuing notices of inquiry or conducting hearings on new agreement filings or existing
agreements, the objective being to more fully apprise the agency of
the likely or actual impact of the agreement prior to its seeking an
injunction. These proceedings, however, should be held promptly
and be of short duration. The Committee is mindful that it may be
infeasible for intra-agency proceedings to occur before the agency
goes to court, particularly in instances where time is of the essence.
But, the Committee does not intend for such hearings to be protracted. The protracted hearings conducted under the pre-1984 Act
regime are not favored under section 6(g).
Section 101.—Purpose
This section amends section 2 of the 1984 Act to expand the purpose of the 1984 Act to include the promotion of United States exports.
Section 102.—Definitions
This section adds, deletes, and amends several definitions described in section 3 of the 1984 Act. The most important of these
changes are as follows:
Section 3(8) of the 1984 Act is amended to eliminate a loophole
through which government owned or controlled ocean common carriers avoid controlled carrier restrictions by registering their vessels in other nations, including nations operating flag of convenience registries.
Section 3(9) of the 1984 Act is amended to redefine the term ‘‘deferred rebate’’ to apply to refunds of freight money tied to agreements to make further shipments with any common carrier. Re-

A213

18
funds of freight money that are not tied to agreements to make further shipments must be made in accordance with the applicable
tariff or service contract to avoid a violation of section 10(b)(2) of
the 1984 Act, as amended by the reported bill.
Section 3(10) of the 1984 Act is deleted. The Committee considers
the term ‘‘fighting ship’’ to be obsolete. The original definition of a
‘‘fighting ship’’ envisioned an individual ship that would follow a
competitor’s ship and offer predatory prices to drive the competitor
from the trade. In today’s marketplace, such predatory actions,
taken with the intent of driving a carrier from the trade, would be
attempted using multiple ship combinations. The substitute
amendment would prohibit such predatory behavior under section
10(b) of the prohibited acts.
Section 3(10), as redesignated, of the 1984 Act is amended to
clarify the definition of ‘‘forest products’’ and ensure that it reflects
current technology developments that have occurred since 1984.
The 1984 Act specifically states that the list of products found in
section 3(10), as redesignated, is not exclusive, that forest products
not specifically described therein can qualify for treatment as ‘‘forest products’’ under the 1984 Act. The Committee recognizes that
current and emerging technology allows for the development of new
products which can more efficiently utilize forest resources. The
Committee intends that such new products be included within the
‘‘forest products’’ definition. Such products include liquid or granular by-products derived from pulping and papermaking. Also included, for example, is a class generally known as ‘‘engineered
wood products.’’ These are structural or panel wood products, produced at the mill, glued, or laminated.
Section 3(13), as redesignated, of the 1984 Act is amended to redefine the term ‘‘loyalty contract’’ to eliminate the application of
the term to a contract that commits a fixed portion of cargo to a
common carrier or an agreement among ocean common carriers,
but that does not provide for a deferred rebate arrangement. Additionally, this change conforms to common law definitions which
have allowed percentage-based contracts and output requirements
contracts absent other devices that anticompetitively tie shippers
and carriers. This change was made in response to requests by
many shippers who simply are not certain of the volume of cargo
they can commit over a fixed time period due to changing market
conditions. These shippers believe renegotiating contracts shortly
before their expiration date in order to increase the originally specified volume of cargo to match a greater than anticipated production schedule places them at a disadvantage with respect to the
common carrier. The Committee understands that ‘‘portion’’ contracts have been viewed as potentially anticompetitive in an ocean
transportation market where shippers were limited to dealing with
a single large conference or a few small independent ocean carriers
in each trade lane who would require shippers to ship all of their
cargo for a given commodity or commodities with that carrier or
conference. Given the changes made by the bill to provide such
shippers with a competitive market for individual common carrier
and multiple ocean common carrier service contracts, the Committee believes allowing shippers to enter into portion contracts will
benefit shippers, not harm them. The Committee believes that

A214

19
availability of competitive service contracting options and the prohibition against an unreasonable refusal to deal or negotiate by one
or more common carriers in section 10(b)(10) of 1984 Act, as redesignated, provides sufficient protection for shippers from unreasonable portion contract requirements by common carriers.
Section 3(17), as redesignated, of the 1984 Act consolidates the
definitions of ‘‘ocean freight forwarder’’ and ‘‘NVOCC’’ into a single
definition of ‘‘ocean transportation intermediary.’’ Since the bill
would consolidate the licensing and bonding requirements for
intermediaries under a single section, the Committee chose to use
a single term throughout the 1984 Act, as amended by the bill, to
cover both types of functions. The bill, as introduced, consolidated
the same two definitions into the definition of ‘‘ocean freight forwarder.’’ The Committee understands that ocean transportation arrangements are made through a diverse group of intermediaries.
Some fit the description of either an ocean freight forwarder or an
NVOCC; some perform both functions for different shipments. The
Committee also recognizes that some countries use the term
‘‘freight forwarder’’ to include what the 1984 Act defines as NVOCC
functions, while many U.S. NVOCCs prefer to be identified by that
unique U.S. term. The substitute amendment changed this overarching term from ‘‘ocean freight forwarder’’ to ‘‘ocean transportation intermediary’’ in recognition of the above concerns. The new
definition retains the terms ‘‘ocean freight forwarder’’ and
‘‘NVOCC’’ for commercial use by those entities who perform those
narrow functions and prefer to be known by the existing terms for
commercial business reasons, while providing a single, new term to
describe entities who provide the wider variety of services.
Section 3(19), as redesignated, of the 1984 Act redefines the term
‘‘service contract’’ to provide shippers and common carriers with
greater flexibility in entering into contractual arrangements. First,
the new definition allows more than one shipper collectively to
enter into a service contract. The Committee intends that the Department of Justice ‘‘safe-harbor’’ guidelines should apply to the
collective activity of shippers with respect to a service contract.
Second, the new definition allows NVOCCs to enter into service
contracts as common carriers. Some U.S. ocean common carriers
have expressed concern that this change conflicts with section 2(3)
of the 1984 Act, which states that one of the purposes of the 1984
Act is to encourage the development of an economically sound and
efficient United States-flag liner fleet. The Committee, however, believes that this change will provide a more competitive ocean transportation system, and which will ultimately help smaller shippers
who often utilize NVOCCs to procure shipping services. The Committee also believes that U.S.-flag carriers provide quality service
options, which should benefit from the increased regulatory flexibility provided by the bill. Third, the new definition allows agreements among ocean common carriers, in addition to a conference,
to enter into service contracts. The Committee believes this change,
coupled with the addition of new section 5(b)(9) of the 1984 Act, as
amended by the bill, will substantially increase the competitive options available to shippers who wish to enter into service contracts
with multiple ocean carriers. Recent shipping trends indicate a
move away from larger carrier conference structure to smaller and

A215

20
more integrated alliance agreements. Finally, the new definition allows shippers to commit to provide a certain portion of their cargo
to a common carrier or agreement among ocean common carriers
in a service contract. The rationale for this change is described in
the analysis of section 3(13) above. Also, the new definition would
clarify that a bill of lading or a receipt for a particular shipment
may not be considered a service contract. The amendments to the
1984 Act made by the bill shall not affect the provisions of other
laws governing the handling of, and the accessibility of information
contained in, bills of lading, receipts, and similar documentation
associated with shipments of cargo.
Section 3(21), as redesignated, of the 1984 Act would consolidate
in a single location in the 1984 Act the circumstances in which a
person is considered a shipper by the 1984 Act. The revised definition is intended only to clarify the meaning of the term ‘‘shipper,’’
as it is defined in the 1984 Act, and interpreted by the FMC, not
to change that definition.
Section 103.—Agreements within the scope of the act
This section amends section 4 of the 1984 Act in two areas:
First, the bill deletes the reference to NVOCCs in section 4(a)(5)
of the 1984 Act. Section 4(a)(5) of the 1984 Act appears to allow
agreements between ocean common carriers and NVOCCs to be
filed in the same manner as ocean carrier conference agreements
and be provided antitrust immunity. This provision is inconsistent
with section 8 of the 1984 Act, which requires agreements between
ocean common carriers and NVOCCs to be filed as service contracts
subject to the antitrust laws. The FMC has decided that the treatment of these agreements pursuant to section 8 of the 1984 Act
should prevail. The Committee agrees and eliminates the conflicting provision in section 4.
Second, the bill amends section 4(b) of the 1984 Act to assure
that there is no gap in the coverage of agreements among marine
terminal operators that operate facilities serving both the foreign
and domestic commerce of the United States. For example, many
marine terminal operators enter into agreements that discuss, fix,
or regulate rates or other conditions of service that apply at terminals serving carriers that engage in both foreign and domestic commerce of the United States. The bill provides that such agreements
are not removed from the scope of the 1984 Act, as amended by the
bill, to the extent they involve ocean transportation in the domestic
commerce of the United States, but rather are fully encompassed
within the 1984 Act, as amended by the bill. Also, section 3(14) of
the 1984 Act, as amended by the bill, is amended by section 102
of the bill to implement this intent by defining a marine terminal
operator for the purposes of the 1984 Act to include a person that
provides wharfage, dock, warehouse, or other terminal facilities in
connection with a common carrier that operates in the foreign and
domestic commerce of the United States, as well as a carrier that
operates in only the foreign commerce of the United States.
Marine terminal operator agreements within the scope of the
1984 Act, as amended by this section of the bill, and the activities
conducted pursuant to these agreements, like all other agreements

A216

21
under the Act, are exempt from the antitrust laws in accordance
with section 7 of the 1984 Act.
Section 104.—Agreements
This section amends section 5 of the 1984 Act in three areas:
First, section 5(b)(8) of the 1984 is rewritten to shorten the notice
period for independent action on a conference tariff from 10 calendar days to five calendar days and to eliminate a provision which
some shippers contend could be interpreted to prevent independent
action on unfiled conference tariffs for commodities excepted or exempted from tariff filing by section 8(a)(1) or 16 of the 1984 Act.
The Committee intends that conference members have the right of
independent action on all conference tariffs.
Second, a new section 5(b)(9) is added to the 1984 Act to provide
a mandatory right of independent action on service contracts for
members of all ocean common carrier agreements required to be
filed under section 5(a), not only members of conference agreements. Ocean common carrier agreements would be: (1) required to
allow their members to take independent action on agreement service contracts; (2) required to allow their members to negotiate those
independent service contracts without disclosing to the other parties to the agreement the existence of that negotiation or the terms
and conditions of a resulting service contract, other than those
terms required to be published by new section 8(c)(3) of the 1984
Act, as amended by the bill; (3) prohibited from issuing mandatory
rules or requirements affecting a member’s right to negotiate and
enter into service contracts; and (4) allowed to issue voluntary
guidelines relating to the terms and procedures of agreement members’ service contracts so long as the guidelines do not require
agreement members to comply with the guidelines. The provisions
in new section 5(b)(9) of the 1984 Act, as amended by the bill, do
not extend to the discussion, agreement and adoption of voluntary
guidelines by agreement members concerning their negotiation and
use of individual service contracts. Thus, nothing in this Act is intended to preclude agreement members from promulgating voluntary guidelines relating to the terms and procedures of individual service contracts, as long as those guidelines make clear that
there is no penalty associated with the failure of a member to follow any such guideline. Conference members may also similarly
adopt voluntary guidelines for individual tariff matters. The adoption of voluntary guidelines by an agreement shall not result in an
agreement member or agreement members being penalized or otherwise disciplined by the agreement for choosing to deviate from
those guidelines. Amending the 1984 Act to provide agreement
members with the right to contract individually is intended to foster intra-agreement competition, promote efficiencies, modernize
ocean shipping arrangements, and encourage individual shippers
and carriers to develop economic partnerships that better suit their
business needs. The Committee believes that the right of individual
and independent service contracts is the most important change
made by the bill and is intended to develop an efficient and market-responsive ocean carrier industry.
Finally, a reference to the Intercoastal Shipping Act, 1933, is deleted. The Intercoastal Shipping Act, 1933, was repealed by the

A217

22
Interstate Commerce Commission Termination Act of 1995 (Public
Law 104–88).
The substitute amendment adopted by the Committee made several changes to the introduced bill’s version of new section 5(b)(9)
of the 1984 Act. The introduced bill applied the provisions of this
section to conferences, but not to other types of ocean common carrier agreements, and limited this independent action to individual
ocean common carrier service contracts. The introduced bill allowed
conferences to require their members to disclose the existence of
these members’ individual service contracts or negotiations on individual service contracts when the conference entered into negotiations with the same shipper. The introduced bill also did not require that conference voluntary guidelines relating to the terms
and procedures of conference members’ service contracts be filed
with the FMC. The net effect of the substitute amendment’s
changes to new section 5(b)(9) of the 1984 Act is to provide shippers with more options and a more competitive environment for negotiating service contracts with one or more ocean common carriers.
Section 105.—Exemption from antitrust laws
This section would amend section 7 of the 1984 Act to conform
it with other amendments to the 1984 Act made by the bill. Under
the 1984 Act, loyalty contracts, as currently defined, may be employed if in accordance with the antitrust laws and the FMC regulates their use. The bill would subject loyalty contracts, as redefined by the bill, to antitrust oversight by the Department of Justice. The FMC should provide the Department of Justice with copies of all loyalty contracts that are submitted to the FMC pursuant
to section 8(a) of the 1984 Act.
Section 106.—Tariffs
This section would amend section 8 of the 1984 Act in several
areas:
First, this section would add ‘‘new, assembled motor vehicles’’ to
the list of commodities excepted from tariff and service contract
publication requirements in section 8(a) of the 1984 Act. Most common carriage of automobiles is conducted by specialized roll-on,
roll-off vessels, usually in very large quantity, single shipment lots
pursuant to a service contract. This type of service more closely resembles unregulated contract carriage than common carriage regulated by the 1984 Act. Common carriers employing this method of
shipment have in the past petitioned the FMC to exempt them
from the publication requirements of section 8(c) of the 1984 Act.
Common carriage requirements are intended to protect shipper interests, and to encourage nondiscriminatory shipping practices. The
new, assembled automobile shipper market is very concentrated, it
employs unique shipping practices, and the Committee believes
that common carriage requirements are not necessary for this particular market.
Second, this section would eliminate the requirement in section
8(a) of the 1984 Act that common carrier tariffs be filed with the
FMC. The FMC, or its successor, retains its authority pursuant to
other sections of the 1984 Act, and other U.S. shipping laws, to

A218

23
suspend or prohibit the use of tariffs found to violate the 1984 Act,
or other U.S. shipping laws. Tariffs provide the shipping public
with notice as to the price and service terms of tendered shipping
services. The 1984 Act’s requirement that common carrier tariffs be
kept open to public inspection is retained. Instead of using the
FMC’s Automated Tariff Filing and Information System (ATFI) for
this purpose, the bill would require that common carriers publish
their tariffs electronically through private systems. Many common
carriers have already developed electronic information publication
systems, such as World Wide Web home pages, that are more advanced than ATFI and improve these common carriers’ business
processes with their customers. The Committee believes that this
innovative private sector approach should be encouraged and that
common carriers should be free to develop their own means of electronic publication either individually or collectively, including the
use of third party information providers. This section authorizes
the FMC to prescribe requirements for the accessibility and accuracy of automated tariff systems and review such systems from
time to time for compliance with the 1984 Act, as amended by the
bill. There should be no government constraints on the design of
a private tariff publication system as long as that system assures
the integrity of the common carrier’s tariff and of the tariff system
as a whole, and the system provides the appropriate level of public
access to the common carrier’s tariff information. However, the
Committee believes that tariff information should be simplified and
standardized.
Third, this section would make extensive changes to section 8(c)
of the 1984 Act concerning service contracts. Consistent with the
bill’s amendment to the definition of ‘‘service contract,’’ section
8(c)(1) would be amended to allow all common carriers, as defined
by the 1984 Act, including NVOCCs, and ocean common carriers
operating under all types of agreements, not only conference agreements, to enter into service contracts as common carriers with one
or more shippers, including a shippers’ association. Consistent with
the bill’s amendment to the 1984 Act’s tariff publication requirements, service contracts dealing exclusively with new, assembled
motor vehicles would no longer be filed with the FMC and service
contract terms for new, assembled motor vehicles would not be required to be published. The FMC shall not accept for filing any
service contract excepted or exempted by section 8(c)(2) or section
16 of the 1984 Act, as amended by the bill. The bill would retain
the 1984 Act provision providing that the exclusive remedy for a
breach of a service contract is an appropriate court, not the FMC.
Parties to a service contract may still agree to use a private dispute
resolution forum in lieu of a court, but in no case may the dispute
resolution occur in a forum controlled by, or affiliated with, one of
the parties to the contract. For example, a common carrier that is
owned and controlled by a government would be prohibited from
mandating in its service contracts that contract disputes be resolved in nationally run arbitration proceedings.
This section would substantially reduce the scope of service contract essential terms that are required to be made public. The
Committee recognizes that U.S. exporters are engaged in competition with foreign-based companies who can offer into the world

A219

24
market similar, if not identical, products. Those foreign-based companies do not currently publish, or otherwise disclose specific terms
of the ocean shipping contracts they sign with ocean carriers. Currently, many U.S. exporters are disadvantaged in the world market
because their foreign competitors are able to ascertain proprietary
business information from their published service contract essential
terms. The Committee seeks to eliminate this competitive disadvantage for U.S.-based exporters, and seeks to assure that U.S.
exporters continue to produce domestically for world markets. At
the same time, the Committee recognizes that the publication of
certain service contract essential terms provides U.S. ports,
longshore labor, ocean transportation intermediaries, and others
useful information for determining cargo flows and facilitate strategic planning and marketing efforts, including the U.S. port range
involved in handling shipments pursuant to a service contract. The
Committee seeks to ensure that the FMC, its successor, and the
shipping public continue to have access to the information necessary to enforce U.S. shipping laws. Additionally, the Committee
recognizes that in retaining ocean carrier dispensation from the
antitrust laws, while providing ocean carriers with greater discretion in contracting, this alternative regulatory structure must provide a mechanism to ensure that shipping malpractices are capable
of being ascertained, and the shipping public may petition a Federal agency for relief. The bill balances these often conflicting requirements by requiring the confidential filing of all service contracts with the FMC, protecting U.S. exporters’ most sensitive service contract information from public disclosure, and requiring common carriers and agreements among ocean common carriers to
publish certain service contract information to assist U.S. ports,
smaller shippers, shippers’ associations, and ocean transportation
intermediaries, and to ensure that antitrust immunity is not
abused.
To achieve this balance, the substitute amendment would require
the publication of only the commodity or commodities, the volume
or portion of the commodity or commodities covered by the service
contract, the duration of the service contract, and the U.S. port
range through which the common carrier intends to provide the
service covered by the contract. This publication requirement includes U.S. port ranges involved in the transshipment of cargo
from one foreign destination to another foreign destination, to the
extent that these service contracts are subject to the requirements
of the 1984 Act, as amended by the bill. The bill requires common
carriers and agreements among ocean common carriers to publish
this information for each of their service contracts in tariff format
through the same private electronic system they use to publish
their tariffs.
This section also adds new sections 8(c)(4) and 8(c)(5) of the 1984
Act, which provide for a new procedure for the disclosure by the
FMC, or its successor, of certain unpublished service contract essential terms to address certain collective-bargaining agreement
disputes. These provisions do not require the agency to develop expertise in laws and regulations concerning collective-bargaining
agreements. The Committee expects the agency to use its best
judgment in determining which common carrier service contract

A220

25
unpublished terms may be relevant as evidence in a collective bargaining dispute. The Committee directs the FMC, and its successor,
to give petitions filed in accordance with section 8(c)(4) of the 1984
Act, as amended by the bill, its highest priority in processing and
determination to facilitate the timely resolution of the associated
collective-bargaining disputes.
This section adds a provision to section 8 of the 1984 Act which
will permit marine terminal operators to establish and make available to the public, subject to section 10(d) of the 1984 Act, as
amended by the bill, a schedule of rates, regulations, and practices,
including limitation of liability for cargo loss or damage, pertaining
to the receiving, delivering, handling or storing of property on the
marine terminal. The limitations for cargo loss or damage must be
consistent with domestic law and international conventions and
agreements. Such schedules shall be enforceable by an appropriate
court, not by the FMC, as an implied contract, without proof of actual knowledge of its provisions. If a marine terminal operator has
an actual contract with a person covering the services rendered,
such a schedule would not be enforceable as an implied contract
with respect to that person. In the past, marine terminal operators
established and filed tariffs with the FMC for their services pursuant to FMC regulations. This new provision is necessary to ensure
that the operators of essential marine terminal transportation facilities are promptly and fairly compensated for the services they
provide to waterborne commerce.
This section also would amend section 8 of the 1984 Act to authorize the FMC to prescribe regulations for the accessibility and
accuracy of automated tariff systems and for the form and manner
of marine terminal operator schedules authorized by that section.
The agency also is authorized to prohibit the use of any automated
tariff publication system it determines has failed to meet the requirements established under section 8 of the 1984 Act, as amended by the bill.
Finally, this section would amend section 8 of the 1984 Act in
several places to conform this section with amendments made to
other sections of the 1984 Act by the bill.
The substitute amendment constituted a significant shift in the
bill sponsors’ direction on increasing confidentiality for service contract essential terms. The introduced bill would have authorized
complete confidentiality for service contracts signed by individual
ocean carriers and retained current filing and publication requirements for service contracts signed by two or more ocean carriers or
an agreement among ocean carriers.
The Committee found that the industry was divided over the
question of whether current ocean carrier antitrust immunity
should apply to ocean carrier discussions concerning individual
ocean carrier service contracts. Ocean carriers and large volume
shippers supported the extension of ocean carrier antitrust immunity to individual service contracts to enable ocean carrier agreements, such as the current ‘‘alliances,’’ to jointly negotiate confidential service contracts with shippers. Many shippers’ associations,
NVOCCs, and ocean freight forwarders opposed the application of
ocean carrier antitrust immunity to discussions or negotiations of
individual service contracts based on their concern that this would

A221

26
allow ocean carrier conferences to allocate confidential contracts
among their members and allow conferences to subject these
intermediaries to concerted, unfair discrimination under the protection of complete contract confidentiality. Also, smaller U.S. ocean
carriers that depended on cooperative ventures with other conference members to compete with larger ocean carriers stated their
need for individual ocean carrier and multiple ocean carrier service
contracts to be treated the same with respect to confidentiality of
service contract terms. To do otherwise, they argued, would provide
an incentive for smaller carriers to merge with other carriers in
order to remain competitive in the world market. In addition, the
committee questioned whether individual ocean common carrier actions could legally be segregated from ocean common carrier actions which were authorized to be considered collectively, which
could allow anticompetitive collective activity to occur under the
guise of confidential individual contracts.
The Committee believed that the original proposal on contract
confidentiality could produce undesirable results. Therefore, the
Committee chose a different approach to address service contract
confidentiality. The substitute amendment replaced the two-tiered
system where individual ocean carrier service contracts were not
filed and completely confidential, and multiple ocean carrier service
contracts were filed and published, with a single system in which
all contracts are filed, but substantially less service contract information is published. The substitute amendment attempts to balance competing considerations by shielding from public scrutiny
certain contract terms that disclose sensitive business information,
while providing the shipping public with certain terms for the purpose of monitoring shipping practices in order to petition for relief
of unfair or predatory actions.
The substitute amendment also would retain the current statutory language of section 8(d) of the 1984 Act, which the bill as introduced would have amended; prohibit the use of a biased forum
for the resolution of service contract disputes, which was not included in the introduced bill; and clarified the applicability of section 10 of the 1984 Act to the bill’s new marine terminal operator
schedule provision.
Section 107.—Automated tariff filing and information system
This section would repeal the authorization for the FMC’s Automated Tariff Filing and Information System, since the function of
providing tariff information would be delegated to private entities.
Section 108.—Controlled carriers
This section of the bill would amend section 9 of the 1984 Act
in several places to increase the FMC’s authority to prevent and
address unjust or unreasonable actions by controlled carriers. This
section would direct the FMC to take into account whether the constructive costs of a non-controlled carrier with similar service are
met by the controlled carrier’s challenged prices when the FMC is
not able to accurately determine the actual costs of the controlled
carrier; set the time period after the FMC’s request for information
in which the agency must make a determination on the controlled
carrier’s rates, charges, classifications, rules, or regulations; reduce

A222

27
the notice period for FMC actions pursuant to section 9 of the 1984
Act from 60 days to 30 days; and eliminate three exceptions to this
section of the 1984 Act. Also, this section would conform this section with other amendments made to the 1984 Act by the bill. The
Committee is concerned about the aggressive growth of certain controlled carriers, and would hope that new authority under section
9 will allow the FMC, and its successor, to move forward aggressively to ensure that carriers controlled by foreign governments not
be allowed to utilize the benefits of operating under the control of,
and with the support of, a government to displace carriers operating under normal commercial considerations.
Section 109.—Prohibited acts
This section would make several amendments to section 10 of the
1984 Act:
Amendments to section 10(b) of the 1984 Act—
The prohibited acts described in section 10(b) of the 1984 Act
would be substantially revised. Current sections 10(b)(1) through
(3) of the 1984 Act, which are intended to maintain the integrity
of the common carrier tariff and service contract systems, would be
replaced by a single new section 10(b)(2), which is intended to accomplish the same purpose. Current sections 10(b)(4) and (5) would
be redesignated as sections 10(b)(1) and (3), respectively. Current
section 10(b)(6), to be redesignated as section 10(b)(4), would be
amended to clarify that it applies only to service pursuant to a tariff and includes charges as well as rates. Current section 10(b)(7)
of the 1984 Act, to be redesignated as section 10(b)(6), would be
amended to replace the reference to ‘‘a fighting ship’’ with a description of the predatory behavior which the Committee believes
should be prohibited by the 1984 Act. The amendment to section
10(b)(6), as redesignated, was included in the substitute amendment, but not the bill as introduced.
Current sections 10(b)(9) through (13) of the 1984 Act would be
replaced with new sections 10(b)(5) and (8) through (10). New section 10(b)(5), combined with section 10(b)(4), as redesignated,
would provide the necessary guidance with respect to common carrier discriminatory practices pursuant to tariffs and service contracts in place of current section 10(b)(10). New sections 10(b)(8)
and (9) would provide the necessary guidance with respect to preference or advantage given, or prejudice or disadvantage imposed,
by a common carrier pursuant to tariffs and service contracts in
place of current sections 10(b)(11) and (12). New section 10(b)(10)
would provide the necessary guidance with respect to a common
carrier’s refusal to deal or negotiate in place of current sections
10(b)(12) and (13). The Committee determined that the current prohibited acts in section 10(b), which are a combination of prohibited
acts that were either originally enacted by the Shipping Act, 1916,
or added by the 1984 Act, yielded an unclear, and possibly contradictory, set of guidelines for common carrier actions. In addition
to providing common carriers and shippers greater flexibility to tailor service contracts to suit different shippers’ requirements without collapsing the service contract rate structure, the Committee
intended to revise section 10(b) to improve its overall clarity and
consistency.

A223

28
New sections 10(b)(4) and (8) retain the strong common carriage
requirements of the tariff system. Differences in rates charged pursuant to common carrier tariffs must be fair and just for all users
of the tariff system. Differences in services provided pursuant to
common carrier tariffs must be reasonable for all users of the tariff
system. These differences should be based on transportation-related factors in order to be fair and just or reasonable. The Committee
expects the FMC, and its successor, to interpret the standards included in these new provisions in the same manner as those standards in the related current provisions of the 1984 Act have been
interpreted.
New sections 10(b)(5) and (9) substantially increase the discretion given to common carriers to provide different service contract
terms to similarly situated shippers. In addition to eliminating the
current requirement in section 8(c) of the 1984 Act that ocean common carriers provide the same service contract terms to similarly
situated shippers, the bill narrows the application of the prohibited
acts with respect to service pursuant to common carrier service
contracts. Sections 10(b)(5) and (9) of the 1984 Act, as amended by
the bill, would restrict common carrier service contracting flexibility in only three, narrow, ways.
First, sections 10(b)(5) and (9) of the 1984 Act, as amended by
the bill, would protect localities from unjust discrimination and
undue or unreasonable preference, advantage, prejudice, or disadvantage as a result of common carrier service contracts. The
Committee intends the application of these prohibitions to a locality to be limited to circumstances in which the prohibited actions
are clearly targeted at the locality, not to circumstances where the
actions are targeted at a particular shipper or ocean transportation
intermediary which happens to be associated with that locality. An
example of this would include a clear pattern of service contracting
by a common carrier that imposes an unreasonable disadvantage
on all shipments from a specific nation or region of a nation, including the United States. Second, the amendments made by this
section would retain similar protections for ports from unjust discrimination and undue or unreasonable preference, advantage,
prejudice, or disadvantage as a result of common carrier service
contracts as currently exist under the 1984 Act through references
to ports and localities. Third, the amendments made by this section
would protect shippers and ocean transportation intermediaries
from unjust discrimination and undue or unreasonable preference,
advantage, prejudice, or disadvantage as a result of common carrier service contracts due to their status as shippers’ associations
or ocean transportation intermediaries.
The Committee intends the application of sections 10(b)(5) and
(9) of the 1984 Act, as amended by the bill, with respect to protection for shippers’ associations and ocean transportation
intermediaries to be limited to circumstances in which the prohibited actions are clearly targeted at shippers’ associations and ocean
transportation intermediaries in general, not to circumstances
where the actions are targeted at a particular shippers’ association
or ocean transportation intermediary. An example of such prohibited activity would include a clear pattern of unjustly discriminatory practices by a common carrier with respect to all shippers’ as-

A224

29
sociation service contracts. The Committee expects the amendments to the 1984 Act by the bill will result in a much more competitive environment for ocean transportation rates and services.
This environment should provide shippers’ associations and ocean
transportation intermediaries with more options when shopping for
ocean transportation services and free common carriers to compete
with each other to obtain shippers’ associations and ocean transportation intermediaries as customers. Therefore, the Committee
believes that shippers’ associations and ocean transportation
intermediaries require less protection as individuals in this more
competitive marketplace. The Committee intends that common carriers be afforded the maximum flexibility to differentiate their service contract terms and conditions with respect to individual shippers and ocean transportation intermediaries in this more competitive environment. The Committee directs the FMC, and its successor, to focus the efforts of its limited enforcement resources, with
respect to common carrier service contracts, on the most egregious
examples of unjust discrimination and undue or unreasonable preference, advantage, prejudice, or disadvantage as a result of common carrier service contracting.
This section also would conform section 10(b) of the 1984 Act
with other amendments made by the bill.
The substitute amendment’s changes to section 10(b) differ substantially from those of the introduced bill. The introduced bill continued the reference to ‘‘fighting ship’’ and amended current sections 10(b)(10) through (13) of the 1984 Act, redesignating them as
new sections 10(b)(7) through (10) to consistently apply the service
contract exception. The substitute amendment replaced current
sections 10(b)(10) through (13) of the 1984 Act with new sections
10(b)(5) and 10(b)(8) through (10), as described above.
Amendments to section 10(c) of the 1984 Act—
This section would conform section 10(c)(5) of the 1984 Act with
other amendments made by the bill.
Amendments to section 10(d) of the 1984 Act—
This section would amend section 10(d)(3) of the 1984 Act to revise the application of certain prohibited acts in section 10(b) to
marine terminal operators, and add the application of section
10(b)(13) of the 1984 Act, as amended by the bill, to ocean freight
forwarders. The bill would also conform section 10(d) of the 1984
Act with other amendments made by the bill. The application of
section 10(b)(13) of the 1984 Act, as amended by the bill, to ocean
freight forwarders was included in the substitute amendment, but
not in the introduced bill.
Section 110.—Complaints, investigations, reports, and reparations
This section would conform section 11 of the 1984 Act with other
amendments made by the bill.
Section 111.—Foreign Shipping Practices Act of 1988
This section would amend the Foreign Shipping Practices Act of
1988 to expand the authority of the FMC, and its successor, to take
actions against foreign carrier service contracts, as well as tariffs
and to conform the Foreign Shipping Practices Act of 1988 with
other amendments made by the bill.

A225

30
Section 112.—Penalties
This section would amend section 13 of the 1984 Act to provide
the FMC, and its successor, with the authority to enforce penalties
by providing authority to place a maritime lien on vessels operated
by ocean common carriers, authorize an additional penalty to authorize the refusal or revocation of clearances to conduct business
in U.S. ports, and conform section 13 with other amendments made
by the bill. Some ocean common carriers have expressed concern
that the authority provided to the FMC, and its successor, to authorize the refusal or revocation of clearances to conduct business
in U.S. ports in response to an ocean common carrier’s refusal to
produce information required by a subpoena would deprive that
carrier of the right to contest such a subpoena in court. The Committee notes that an ocean common carrier also has the right to
contest the imposition of this new penalty in court in such a situation.
Section 113.—Reports and certificates
This section would amend section 15 of the 1984 Act to eliminate
a requirement that the chief executive officer of each common carrier and other transportation companies provide periodic written
certifications to the FMC as to the company’s policy prohibiting the
payment or receipt of unlawful rebates. The elimination of this provision is intended to remove an unnecessary paperwork burden
from the ocean transportation industry, and should not be interpreted as relaxing the 1984 Act’s prohibition against deferred rebates.
Section 114.—Exemptions
This section would amend section 16 of the 1984 Act to facilitate
the exemption of classes of agreements between persons subject to
the 1984 Act or any specified activities of those persons from any
requirements of the 1984 Act by eliminating two of the four tests
applied to applications for such exemptions. The policy underlying
this change is that while Congress has been able to identify broad
areas of ocean shipping commerce for which reduced regulation is
clearly warranted, the FMC is more capable of examining through
the administrative process specific regulatory provisions and practices not yet addressed by Congress to determine where they can
be deregulated consistent with the policies of Congress.
Section 115.—Agency Reports and Advisory Commission
This section would repeal section 18 of the 1984 Act. Section 18
authorized the establishment of an Advisory Commission in order
to review the operation of the 1984 Act. The activities required or
authorized by this section of the 1984 Act were completed several
years ago.
Section 116.—Ocean freight forwarders
This section would amend section 19 of the 1984 Act in several
areas:
First, this section would apply the provisions of section 19 of the
1984 Act to all ocean transportation intermediaries, including
NVOCCs, not only to ocean freight forwarders. Under the 1984 Act,

A226

31
NVOCCs are required to maintain a bond, proof of insurance, or
other surety, but are not required to be licensed. This section would
now require certain NVOCCs to be licensed.
Second, this section would apply the licensing requirements only
to persons in the United States. The Committee directs the FMC
to determine when foreign-based entities conducting business in
the United States are to be considered persons in the United States
for the purposes of this section.
Third, this section would require the bonding of all ocean transportation intermediaries as a means of insuring their financial responsibility and add an alternative process for resolving claims
against such a bond. In determining the amount of the bond, the
Committee directs the FMC to consider that the licensing requirements in subsection (a) on the fitness of the ocean transportation
intermediary do not apply to certain foreign-based entities providing ocean transportation intermediary services in the United
States, and to consider the difference in potential for claims against
the bond between licensed and unlicensed intermediaries when developing bond requirements. The 1984 Act prescribes that a person
pursuing a claim against an NVOCC bond must obtain a court
judgment to collect on that claim. While the bill would provide for
a similar process for claims against ocean transportation
intermediary bonds, it would also allow the surety company to settle the claim with the consent of the insured ocean transportation
intermediary or after the ocean transportation intermediary has
failed to respond to adequate notice to address the validity of the
claim. The Committee directs the FMC to establish the minimum
time period which may be considered adequate notice for this purpose.
Damages which would be covered by the bond would include
those suffered by ocean common carriers, shippers and others arising from any activities authorized or required by the 1984 Act, as
amended by the bill, or referred to in the definition of ‘‘ocean transportation intermediary’’ in section 3(17) of the 1984 Act, as amended by the bill. This would include the activities of ocean freight forwarders as defined in section 3(17)(A), and the activities of
NVOCCs as defined in section 3(17)(B), including liabilities related
to service contract obligations. The bonds would cover judgments
and valid claims resulting directly or indirectly from, for example,
the loss or conversion of cargo by the bonded entity or from the
negligence or complicity of the bonded entity, as well as from nonperformance of services. Once a judgment is entered against a
bonded ocean transportation intermediary, the surety company
would be expected to pay the judgment from the bond funds, without requiring further evidence of bills of lading or other documentation going to the validity, rather than the subject matter, of the
claim. The Committee directs the FMC to prescribe regulations defining transportation-related activities of ocean transportation
intermediaries which are subject to the financial responsibility requirements of section 19(b)(1) of the 1984 Act, as amended by the
bill.
Due to the diversity of activities conducted by different ocean
transportation intermediaries, the Committee directs the FMC to
establish a range of licensing and financial responsibility require-

A227

32
ments commensurate with the scope of activities conducted by different ocean transportation intermediaries, and the past fitness of
the ocean transportation intermediary in the performance of
intermediary services.
Fourth, this section would include in the 1984 Act a provision
providing for reasonable ocean freight forwarder compensation by
groups of ocean common carriers that is currently included in section 641(I) the Tariff Act of 1930. This section of the bill would remove the requirement in current law that the freight forwarder
(section 3(17)(A) ocean transportation intermediary) also be a customs broker.
Finally, this section would conform section 19 of the 1984 Act
with other amendments made by the bill. The substitute amendment changed the process included in the introduced bill for payment of a claim against an ocean transportation intermediary’s
bond.
Section 117.—Contracts, agreements, and licenses under prior shipping legislation
This section would amend section 20 of the 1984 Act which includes savings provisions for certain agreements and contracts in
effect, suits filed, and regulations issued by the FMC prior to the
effective date of the amendments to the 1984 Act made by the bill.
Section 118.—Surety for non-vessel-operating common carriers
This section would repeal section 23 of the 1984 Act. Provisions
requiring a bond, proof of insurance, or other surety from NVOCCs
have been included in section 19 of the 1984 Act, as amended by
the bill.
Section 119.—Replacement of Federal Maritime Commission with
Intermodal Transportation Board
This section would amend the 1984 Act to conform with the
transfer of functions of the FMC to the ITB, effective January 1,
1999.
TITLE II—TRANSFER OF FUNCTIONS OF THE FEDERAL
MARITIME COMMISSION TO THE INTERMODAL TRANSPORTATION BOARD
This title would rename the Surface Transportation Board as the
Intermodal Transportation Board, transfer the functions of the
FMC to the ITB, adjust the membership of the ITB to reflect the
added maritime regulation responsibilities, and terminate the FMC
on January 1, 1999. Because this title would transfer responsibility
for administering the provisions of the 1984 Act, as amended by
the bill, to the ITB after those amendments are effective, this title
requires the FMC to consult with the STB during the development
of the regulations implementing the amendments made by the bill.
In amending the qualification requirements for ITB members, this
title would prevent domination within the Board of a particular
transportation mode (surface or maritime), sector (private or public), or political party by requiring the Board membership to be balanced in these three characteristics. This title also would authorize
FMC appropriations in the amount of $15 million for fiscal year

A228

33
1998. STB appropriations are currently authorized through fiscal
year 1998. The bill does not authorize appropriations for the FMC,
STB, or ITB for fiscal year 1999. The Committee expects to address
fiscal year 1999 authorizations for these agencies at a later date.
TITLE III—AMENDMENTS TO OTHER SHIPPING AND
MARITIME LAWS
Section 301.—Amendments to section 19 of the Merchant Marine
Act, 1920
This section would amend section 19 of the Merchant Marine
Act, 1920, to clarify that conditions unfavorable to shipping in the
foreign trade include pricing practices employed by owners, operators, agents, or masters of vessels of a foreign country. The FMC
has held that the term ‘‘practices employed by owners, operators,
agents, or masters of vessels of a foreign country’’ in section 19 of
the Merchant Marine Act, 1920, includes pricing practices. The
Committee agrees, and would amend section 19 to clarify that such
pricing practices are within the scope of that section. Section 301
of the bill would also clarify that service contracts of a common carrier are subject to actions by the agency under section 19 of the
Merchant Marine Act, 1920, and conform section 19 with amendments made to the 1984 Act by the bill.
Section 302.—Technical corrections
This section would make technical corrections in several laws to
conform with amendments made by the bill.
TITLE IV—MERCHANT MARINER BENEFITS
Section 401.—Merchant mariner benefits
This section would extend eligibility for veterans’ burial benefits,
funeral benefits, and related benefits for veterans of service in the
United States Merchant Marine in support of U.S. Armed Forces
from August 16, 1945 to December 31, 1946. Currently, the dates
provided for veterans’ benefits to U.S. merchant mariners for World
War II service are December 7, 1941 to August 16, 1945.
The efforts of American merchant mariners to secure veterans’
benefits pursuant to Public Law 95–202, have been long, and only
partially successful, despite merit and clear eligibility under the
statute. The casualty rate for the U.S. Merchant Marine during
World War II was higher than the casualty rate for the U.S. Army,
U.S. Navy, or U.S. Coast Guard, and only second to the U.S. Marine Corps. In all, 5662 merchant mariners lost their lives or were
declared missing in action. Another 609 merchant mariners became
prisoners of war and thousands were wounded. The Director of the
Selective Service System at the time, General Lewis B. Hershey,
wrote to local draft boards:
Service in the merchant marine * * * is so closely allied
to service in the armed forces that men found by the local
board to be actively engaged at sea may be considered engaged in the defense of the country. Such service may be
considered as tantamount to military service.

A229

34
Yet, in 1980, when a group of merchant mariners filed an application for veterans’ status pursuant to Public Law 95-202, it was
denied by the Secretary of the Air Force, to whom such authority
was delegated. The applicants sought judicial review of this adverse determination, and the Federal District Court held in 1987
that the Secretary abused his discretion under the statute in denying the application. As a consequence of the Court’s decision, the
Secretary reconsidered his denial and granted veterans’ status to
merchant mariners who served through V-J day, August 15, 1945,
even though hostilities were not declared ended by President Truman until December 31, 1946 (the date that was applied to veterans’ status for all branches of the U.S. Armed Forces). In addition,
another group similarly situated to U.S. merchant mariners, the
Guam Combat Patrol, was given veterans’ status without a cutoff
date (effectively through December 31, 1946) by the Secretary.
Numerous applications to the Secretary on behalf of remaining
merchant mariners to extend the cutoff date to December 31, 1946,
have been denied—despite the fact that between August 16, 1945
and December 31, 1946, ten U.S. Merchant Marine vessels operating in support of U.S. Armed Forces were damaged or lost and
merchant marine casualties were sustained as a result of enemy instruments of war. The Committee agrees with the District Court
that Public Law 95-202 gives the Secretary broad discretion to extend the cutoff date and rectify a blatant inequity. Frustrated by
the failure of the Secretary to do so for nearly a decade, the Committee reluctantly concludes that a legislative solution is the only
alternative.
TITLE V—CERTAIN LOAN GUARANTEES AND
COMMITMENTS
Section 501.—Certain loan guarantees and commitments
This section would prohibit the Secretary of Transportation from
issuing a guarantee or commitment to guarantee a loan for the construction, reconstruction, or reconditioning of a vessel under the
authority of title XI of the Merchant Marine Act, 1936, until the
FMC certifies that the operator of that vessel has not violated certain U.S. shipping laws within the previous five years and is not
under formal investigation by the FMC for a violation of those
shipping laws. This provision would apply to the operator of the
vessel to be constructed, reconstructed, or reconditioned with the
assistance of the title XI program, but not to any other affiliated
vessel operators. This provision would apply to guarantees and
commitments to guarantee made by the Secretary of Transportation after the date of enactment of the bill. This provision was
included in an amendment by Senator McCain that was adopted by
the Committee, and was not included in the introduced bill.
CHANGES

IN

EXISTING LAW

In compliance with paragraph 12 of rule XXVI of the Standing
Rules of the Senate, changes in existing law made by the bill, as
reported, are shown as follows (existing law proposed to be omitted

A230

35
is enclosed in black brackets, new material is printed in italic, existing law in which no change is proposed is shown in roman) 1:

Section 641, Tariff Act of 1930
[19 U.S.C. 1641]
§ 1641. Customs brokers
(a) DEFINITIONS.— As used in this section:
(1) The term ‘‘customs broker’’ means any person granted a
customs broker’s license by the Secretary under subsection (b).
(2) The term ‘‘customs business’’ means those activities involving transactions with the Customs Service concerning the
entry and admissibility of merchandise, its classification and
valuation, the payment of duties, taxes, or other charges, assessed or collected by the Customs Service upon merchandise
by reason of its importation, or the refund, rebate, or drawback
thereof. It also includes the preparation of documents or forms
in any format and the electronic transmission of documents, invoices, bills, or parts thereof, intended to be filed with the Customs Service in furtherance of such activities, whether or not
signed or filed by the preparer, or activities relating to such
preparation, but does not include the mere electronic transmission of data received for transmission to Customs.
(3) The term ‘‘Secretary’’ means the Secretary of the Treasury.
(b) CUSTOM BROKER’S LICENSES.—
(1) IN GENERAL.—No person may conduct customs business
(other than solely on behalf of that person) unless that person
holds a valid customs broker’s license issued by the Secretary
under paragraph (2) or (3).
(2) LICENSES FOR INDIVIDUALS.—The Secretary may grant an
individual a customs broker’s license only if that individual is
a citizen of the United States. Before granting the license, the
Secretary may require an applicant to show any facts deemed
necessary to establish that the applicant is of good moral character and qualified to render valuable service to others in the
conduct of customs business. In assessing the qualifications of
an applicant, the Secretary may conduct an examination to determine the applicant’s knowledge of customs and related laws,
regulations and procedures, bookkeeping, accounting, and all
others appropriate matters.
(3) LICENSES FOR CORPORATIONS, ETC.—The Secretary may
grant a customs broker’s license to any corporation, association, or partnership that is organized or existing under the
laws of any of the several States of the United States if at least
one officer of the corporation or association, or one member of
the partnership, holds a valid customs broker’s license granted
under paragraph (2).
1 In compliance with the last sentence of such paragraph, it is the opinion of the Committee
that it is necessary to dispense with the requirements of this paragraph, as they apply to mere
changes in references to the Surface Transportation Board in statutes not otherwise amended,
in order to expedite the business of the Senate.

A231

36
(4) DUTIES.—A customs broker shall exercise responsible supervision and control over the customs business that it conducts.
(5) LAPSE OF LICENSE.—The failure of a customs broker that
is licensed as a corporation, association, or partnership under
paragraph (3) to have, for any continuous period of 120 days,
at least one officer of the corporation or association, or at least
one member of the partnership, validly licensed under paragraph (2) shall, in addition to causing the broker to be subject
to any other sanction under this section (including paragraph
(6)) result in the revocation by operation of law of its license.
(6) PROHIBITED ACTS.—Any person who intentionally transacts customs business, other than solely on the behalf of that
person, without holding a valid customs broker’s license granted to that person under this subsection shall be liable to the
United States for a monetary penalty not to exceed $10,000 for
each such transaction as well as for each violation of any other
provision of this section. This penalty shall be assessed in the
same manner and under the same procedures as the monetary
penalties provided for in subsection (d)(2)(A).
(c) CUSTOMS BROKER’S PERMITS.—
(1) IN GENERAL.—Each person granted a customs broker’s license under subsection (b) shall be issued, in accordance with
such regulations as the Secretary shall prescribe, either or
both of the following:
(A) A national permit for the conduct of such customs
business as the Secretary prescribes by regulation.
(B) A permit for each customs district in which that person conducts customs business and, except as provided in
paragraph (2), regularly employs at least 1 individual who
is licensed under subsection (b)(2) to exercise responsible
supervision and control over the customs business conducted by that person in that district.
(2) EXCEPTION.—If a person granted a customs broker’s license under subsection (b) can demonstrate to the satisfaction
of the Secretary that—
(A) he regularly employs in the region in which that district is located at least one individual who is licensed
under subsection (b)(2), and
(B) that sufficient procedures exist within the company
for the person employed in that region to exercise responsible supervision and control over the customs business
conducted by that person in that district,
the Secretary may waive the requirement in paragraph (1)(B).
(3) LAPSE OF PERMIT.—The failure of a customs broker granted a permit under paragraph (1) to employ, for any continuous
period of 180 days, at least one individual who is licensed
under subsection (b)(2) within the district or region (if paragraph (2) applies) for which a permit was issued shall, in addition to causing the broker to be subject to any other sanction
under this section (including any in subsection (d)), result in
the revocation by operation of law of the permit.
(4) APPOINTMENT OF SUBAGENTS.—Notwithstanding subsection (c)(1), upon the implementation by the Secretary under

A232

37
section 413(b)(2) [19 U.S.C. 1413(b)(2)] of the component of the
National Customs Automation Program referred to in section
411(a)(2)(B)[19 U.S.C. 1411(a)(2)(B)], a licensed broker may appoint another licensed broker holding a permit in a customs
district to act on its behalf as its subagent in that district if
such activity relates to the filing of information that is permitted by law or regulation to be filed electronically. A licensed
broker appointing a subagent pursuant to this paragraph shall
remain liable for any and all obligations arising under bond
and any and all duties, taxes, and fees, as well as any other
liabilities imposed by law, and shall be precluded from delegating to a subagent such liability.
(d) DISCIPLINARY PROCEEDINGS.—
(1) GENERAL RULE.—The Secretary may impose a monetary
penalty in all cases with the exception of the infractions described in clause (iii) of subparagraph (B) of this subsection, or
revoke or suspend a license or permit of any customs broker,
if it is shown that the broker—
(A) has made or caused to be made in any application
for any license or permit under this section, or report filed
with the Customs Service, any statement which was, at
the time and in light of the circumstances under which it
was made, false or misleading with respect to any material
fact, or has omitted to state in any such application or report any material fact which was required to be stated
therein;
(B) has been convicted at any time after the filing of an
application for license under subsection (b) of any felony or
misdemeanor which the Secretary finds—
(i) involved the importation or exportation of merchandise;
(ii) arose out of the conduct of its customs business;
or
(iii) involved larceny, theft, robbery, extortion, forgery, counterfeiting, fraudulent concealment, embezzlement, fraudulent conversion, or misappropriation of
funds;
(C) has violated any provision of any law enforced by the
Customs Service or the rules or regulations issued under
any such provision;
(D) has counseled, commanded, induced, procured, or
knowingly aided or abetted the violations by any other person of any provision of any law enforced by the Customs
Service, or the rules or regulations issued under any such
provision;
(E) has knowingly employed, or continues to employ, any
person who has been convicted of a felony, without written
approval of such employment from the Secretary; or
(F) has, in the course of its customs business, with intent to defraud, in any manner willfully and knowingly deceived, misled or threatened any client or prospective client.
(2) PROCEDURES.—

A233

38
(A) MONETARY PENALTY.—Unless action has been taken
under subparagraph (B), the appropriate customs officer
shall serve notice in writing upon any customs broker to
show cause why the broker should not be subject to a monetary penalty not to exceed $30,000 in total for a violation
or violations of this section. The notice shall advise the
customs broker of the allegations or complaints against
him and shall explain that the broker has a right to respond to the allegations or complaints in writing within 30
days of the date of the notice. Before imposing a monetary
penalty, the customs officer shall consider the allegations
or complaints and any timely response made by the customs broker and issue a written decision. A customs
broker against whom a monetary penalty has been issued
under this section shall have a reasonable opportunity
under section 618 [19 U.S.C. 1618] to make representations seeking remission or mitigation of the monetary penalty. Following the conclusion of any proceeding under section 618 [19 U.S.C. 1618], the appropriate customs officer
shall provide to the customs broker a written statement
which sets forth the final determination and the findings
of fact and conclusions of law on which such determination
is based.
(B) REVOCATION OR SUSPENSION.—The Customs Service
may, for good and sufficient reason, serve notice in writing
upon any customs broker to show cause why a license or
permit issued under this section should not be revoked or
suspended. The notice shall be in the form of a statement
specifically setting forth the grounds of the complaint, and
shall allow the customs broker 30 days to respond. If no
response is filed, or the Customs Service determines that
the revocation or suspension is still warranted, it shall notify the customs broker in writing of a hearing to be held
within 30 days, or at a later date if the broker requests an
extension and shows good cause therefor, before an administrative law judge appointed pursuant to section 3105 of
title 5, United States Code, who shall serve as the hearing
officer. If the customs broker waives the hearing, or the
broker or his designated representative fails to appear at
the appointed time and place, the hearing officer shall
make findings and recommendations based on the record
submitted by the parties. At the hearing, the customs
broker may be represented by counsel, and all proceedings,
including the proof of the charges and the response thereto
shall be presented with testimony taken under oath and
the right of cross-examination accorded to both parties. A
transcript of the hearing shall be made and a copy will be
provided to the Customs Service and the customs broker;
which shall thereafter be provided reasonable opportunity
to file a post-hearing brief. Following the conclusion of the
hearing, the hearing officer shall transmit promptly the
record of the hearing along with the findings of fact and
recommendations to the Secretary for decision. The Secretary will issue a written decision, based solely on the

A234

39
record, setting forth the findings of fact and the reasons
for the decision. Such decision may provide for the sanction contained in the notice to show cause or any lesser
sanction authorized by this subsection, including a monetary penalty not to exceed $30,000, than was contained in
the notice to show cause.
(3) SETTLEMENT AND COMPROMISE.—The Secretary may settle and compromise any disciplinary proceeding which has
been instituted under this subsection according to the terms
and conditions agreed to by the parties, including but not limited to the reduction of any proposed suspension or revocation
to a monetary penalty.
(4) LIMITATION OF ACTIONS.—Notwithstanding section 621
[19 U.S.C. 1621], no proceeding under this subsection or subsection (b) (6) shall be commenced unless such proceeding is instituted by the appropriate service of written notice within 5
years from the date the alleged violation was committed; except that if the alleged violation consists of fraud, the 5-year
period of limitation shall commence running from the time
such alleged violation was discovered.
(e) JUDICIAL APPEAL.—
(1) IN GENERAL.—A customs broker, applicant, or other person directly affected may appeal any decision of the Secretary
denying or revoking a license or permit under subsection (b) or
(c), or revoking or suspending a license or permit or imposing
a monetary penalty in lieu thereof under subsection (d)(2)(B),
by filing in the Court of International Trade, within 60 days
after the issuance of the decision or order, a written petition
requesting that the decision or order be modified or set aside
in whole or in part. A copy of the petition shall be transmitted
promptly by the clerk of the court to the Secretary or his designee. In cases involving revocation or suspension of a license
or permit or imposition of a monetary penalty in lieu thereof
under subsection (d)(2)(B), after receipt of the petition, the Secretary shall file in court the record upon which the decision or
order complained of was entered, as provided in section 2635(d)
of title 28, United States Code.
(2) CONSIDERATION OF OBJECTIONS.—The court shall not consider any objection to the decision or order of the Secretary, or
to the introduction of evidence or testimony, unless that objection was raised before the hearing officer in suspension or revocation proceedings unless there were reasonable grounds for
failure to do so.
(3) CONCLUSIVENESS OF FINDINGS.—The findings of the Secretary as to the facts, if supported by substantial evidence,
shall be conclusive.
(4) ADDITIONAL EVIDENCE.—If any party applies to the court
for leave to present additional evidence and the court is satisfied that the additional evidence is material and that reasonable grounds existed for the failure to present the evidence in
the proceedings before the hearing officer, the court may order
the additional evidence to be taken before the hearing officer
and to be presented in a manner and upon the terms and conditions prescribed by the court. The Secretary may modify the

A235

40
findings of facts on the basis of the additional evidence presented. The Secretary shall then file with the court any new
or modified findings of fact which shall be conclusive of supported by substantial evidence, together with a recommendation, if any, for the modification or setting aside of the original
decision or order.
(5) EFFECT OF PROCEEDINGS.—The commencement of proceedings under this subsection shall, unless specifically ordered
by the court, operate as a stay of the decision of the Secretary
except in the case of a denial of a license or permit.
(6) FAILURE TO APPEAL.—If an appeal is not filed within the
time limits specified in this section, the decision by the Secretary shall be final and conclusive. In the case of a monetary
penalty imposed under subsection (d)(2)(B) of this section, if
the amount is not tendered within 60 days after the decision
becomes final, the license shall automatically be suspended
until payment is made to the Customs Service.
(f) REGULATIONS BY THE SECRETARY.—The Secretary may prescribe such rules and regulations relating to the customs business
of customs brokers as the Secretary considers necessary to protect
importers and the revenue of the United States, and to carry out
the provisions of this section, including rules and regulations governing the licensing of or issuance of permits to customs brokers,
the keeping of books, accounts, and records by customs brokers,
and documents and correspondence, and the furnishing by customs
brokers of any other information relating to their customs business
to and duly accredited officer or employee of the Customs Service.
The Secretary may not prohibit customs brokers from limiting their
liability to other persons in the conduct of customs business. For
purposes of this subsection or any other provision of this Act pertaining to recordkeeping, all data required to be retained by a customs broker may be kept on microfilm, optical disc, magnetic tapes,
disks or drums, video files or any other electrically generated medium. Pursuant to such regulations as the Secretary shall prescribe, the conversion of data to such storage medium may be accomplished at any time subsequent to the relevant customs transaction and the data may be retained in a centralized basis according to such broker’s business system.
(g) TRIENNIAL REPORTS BY CUSTOMS BROKERS.—
(1) IN GENERAL.—On February 1, 1985, and on February 1
of each third year thereafter, each person who is licensed
under subsection (b) shall file with the Secretary of the Treasury a report as to—
(A) whether such person is actively engaged in business
as a customs broker; and
(B) the name under, and the address at, which such
business is being transacted.
(2) SUSPENSION AND REVOCATION.—If a person licensed
under subsection (b) fails to file the required report by March
1 of the reporting year, the license is suspended, and may be
thereafter revoked subject to the following procedures:
(A) The Secretary shall transmit written notice of suspension to the licensee no later than March 31 of the reporting year.

A236

41
(B) If the licensee files the required report within 60
days of receipt of the Secretary’s notice, the license shall
be reinstated.
(C) In the event the required report is not filed within
the 60-day period, the license shall be revoked without
prejudice to the filing of an application for a new license.
(h) FEES AND CHARGES.—The Secretary may prescribe reasonable
fees and charges to defray the costs of the Customs Service in carrying out the provisions of this section, including, but not limited
to, a fee for licenses issued under subsection (b) and fees for any
test administered by him or under his direction; except that no separate fees shall be imposed to defray the costs of an individual
audit or of individual disciplinary proceedings of any nature.
ø(i) COMPENSATION OF OCEAN FREIGHT FORWARDERS.—
ø(1) IN GENERAL.—Notwithstanding any other provision of
law, no conference or group of two or more ocean common carriers in the foreign commerce of the United States that is authorized to agree upon the level of compensation paid to ocean
freight forwarders may—
ø(A) deny to any member of such conference or group the
right, upon notice of not more than 10 calendar days, to
take independent action on any level of compensation paid
to an ocean freight forwarder who is also a customs broker,
and
ø(B) agree to limit the payment of compensation to an
ocean freight forwarder who is also a customs broker to
less than 1.25 percent of the aggregate of all rates and
charges applicable under the tariff assessed against the
cargo on which the forwarding services are provided.
ø(2) ADMINISTRATION.—The provisions of this subsection shall be
enforced by the agency responsible for administration of the Shipping Act of 1984 (46 U.S.C. 1701, et seq.).
ø(3) REMEDIES.—Any person injured by reason of a violation of
paragraph (1) may, in addition to any other remedy, file a complaint for reparation as provided in section 11 of the Shipping Act
of 1984 (46 U.S.C. 1710), which may be enforced pursuant to section 14 of such Act (46 U.S.C. 1713).
ø(4) DEFINITIONS.—For purposes of this subsection, the terms
‘‘conference’’, ‘‘ocean common carrier’’, and ‘‘ocean freight forwarder’’ have the respective meaning given to such terms by section 3 of the Shipping Act of 1984 (46 U.S.C. 1702).¿

TITLE 28. JUDICIARY AND JUDICIAL
PROCEDURE
PART VI. PARTICULAR PROCEEDINGS
CHAPTER 158. ORDERS OF FEDERAL AGENCIES; REVIEW
§ 2341. Definitions
As used in this chapter—

A237

42
(1) ‘‘clerk’’ means the clerk of the court in which the petition
for the review of an order, reviewable under this chapter, is
filed;
(2) ‘‘petitioner’’ means the party or parties by whom a petition to review an order, reviewable under this chapter, is filed;
and
(3) ‘‘agency’’ means—
(A) the Commission, when the order sought to be reviewed
was entered by the Federal Communications Commission,
øthe Federal Maritime Commission,¿ or the Atomic Energy Commission, as the case may be;
(B) the Secretary, when the order was entered by the
Secretary of Agriculture or the Secretary of Transportation;
(C) the Administration, when the order was entered by
the Maritime Administration;
(D) the Secretary, when the order is under section 812
of the Fair Housing Act [42 U.S.C. 3612]; and
(E) the Board, when the order was entered by the øSurface¿ Intermodal Transportation Board.
§ 2342. Jurisdiction of court of appeals
The court of appeals (other than the United States Court of Appeals for the Federal Circuit) has exclusive jurisdiction to enjoin,
set aside, suspend (in whole or in part), or to determine the validity
of—
(1) all final orders of the Federal Communications Commission made reviewable by section 402(a) of title 47;
(2) all final orders of the Secretary of Agriculture made
under chapters 9 and 20A of title 7 [7 U.S.C. 181 et seq. and
501 et seq.], except orders issued under sections 210(e), 217a,
and 499g(a) of title 7;
ø(3) all rules, regulations, or final orders of—
ø(A) the Secretary of Transportation issued pursuant to
section 2, 9, 37, or 41 of the Shipping Act, 1916 (46 U.S.C.
App. 802, 803, 808, 835, 839[, and 841a]) or pursuant to
part B or C of subtitle IV of title 49 [49 U.S.C. 13101 et
seq. or 15101 et seq.]; and
ø(B) the Federal Maritime Commission issued pursuant
to—
ø(i) section 19 of the Merchant Marine Act, 1920 (46
U.S.C. App. 876) ;
ø(ii) section 14 or 17 of the Shipping Act of 1984 (46
U.S.C. App. 1713 or 1716); or
ø(iii) section 2(d) or 3(d) of the Act of November 6,
1966 (46 U.S.C. App. 817d(d) or 817e(d) [) ];
ø(iv), (v) [Redesignated]¿
(3) all rules, regulations, or final orders of the Secretary of
Transportation issued pursuant to section 2, 9, 37, 41, or 43 of
the Shipping Act, 1916 (46 U.S.C. App. 802, 803, 808, 835, 839,
or 841a) or pursuant to part B or C of subtitle IV of title 49
(49 U.S.C. 13101 et seq. or 15101 et seq.);
(4) all final orders of the Atomic Energy Commission made
reviewable by section 2239 of title 42;

A238

43
ø(5) all rules, regulations, or final orders of the Surface
Transportation Board made reviewable by section 2321 of this
title;¿
(5) all rules, regulations, or final orders of the Intermodal
Transportation Board—
(A) made reviewable by section 2321 of this title; or
(B) pursuant to—
(i) section 19 of the Merchant Marine Act, 1920 (46
U.S.C. App. 876);
(ii) section 14 or 17 of the Shipping Act of 1984 (46
U.S.C. App. 1713 or 1716); or
(iii) section 2(d) or 3(d) of the Act of November 6,
1966 (46 U.S.C. App. 817d(d) or 817e(d));
(6) all final orders under section 812 of the Fair Housing Act
[42 U.S.C. 3612]; and
(7) all final agency actions described in section 20114(c) of
title 49.
Jurisdiction is invoked by filing a petition as provided by section
2344 of this title.

TITLE 46—UNITED STATES CODE
*******
CHAPTER 112—MERCHANT MARINER BENEFITS
Sec.
11201.
11202.
11203.
11204.

Qualified service.
Documentation of qualified service.
Eligibility for certain veterans’ benefits.
Processing fees.

§ 11201. Qualified service
For purposes of this chapter, a person engaged in qualified service
if, between August 16, 1945, and December 31, 1946, the person—
(1) was a member of the United States merchant marine (including the Army Transport Service and the Naval Transportation Service) serving as a crewmember of a vessel that was—
(A) operated by the War Shipping Administration or the
Office of Defense Transportation (or an agent of the Administration or Office);
(B) operated in waters other than inland waters, the
Great Lakes, other lakes, bays, and harbors of the United
States;
(C) under contract or charter to, or property of, the Government of the United States; and
(D) serving the Armed Forces; and
(2) while so serving, was licensed or otherwise documented for
service as a crewmember of such a vessel by an officer or employee of the United States authorized to license or document
the person for such service.
§ 11202. Documentation of qualified service
(a) RECORD OF SERVICE.—The Secretary shall, upon application—

A239

44
(1) issue a certificate of honorable discharge to a person who,
as determined by the Secretary, engaged in qualified service of
a nature and duration that warrants issuance of the certificate;
and
(2) correct, or request the appropriate official of the Federal
government to correct, the service records of the person to the
extent necessary to reflect the qualified service and the issuance
of the certificate of honorable discharge.
(b) TIMING OF DOCUMENTATION.—The Secretary shall take action
on an application under subsection (a) not later than one year after
the Secretary receives the application.
(c) STANDARDS RELATING TO SERVICE.—In making a determination under subsection (a)(1), the Secretary shall apply the same
standards relating to the nature and duration of service that apply
to the issuance of honorable discharges under section 401(a)(1)(b) of
the GI Bill Improvement Act of 1977 (38 U.S.C. 106 note).
(d) CORRECTION OF RECORDS.—An official of the Federal government who is requested to correct service records under subsection
(a)(2) shall do so.
§ 11203. Eligibility for certain veterans’ benefits
(a) ELIGIBILITY.—
(1) IN GENERAL.—The qualified service of an individual referred to in paragraph (2) is deemed to be active duty in the
armed forces during a period of war for purposes of eligibility
for benefits under chapters 23 and 24 of title 38.
(2) COVERED INDIVIDUALS.—Paragraph (1) applies to an individual who—
(A) receives an honorable discharge certificate under section 11202 of this title; and
(B) is not eligible under any other provision of law for
benefits under laws administered by the Secretary of Veterans Affairs.
(b) REIMBURSEMENT FOR BENEFITS PROVIDED.—The Secretary
shall reimburse the Secretary of Veterans Affairs for the value of
benefits that the Secretary of Veterans Affairs provides for an individual by reason of eligibility under this section.
(c) PROSPECTIVE APPLICABILITY.—An individual is not entitled to
receive, and may not receive, benefits under this chapter for any period before the date of enactment of this chapter.
§ 11204. Processing fees
(a) COLLECTION OF FEES.—The Secretary shall collect a fee of $30
from each applicant for processing an application submitted under
section 11202(a) of this title.
(b) TREATMENT OF FEES COLLECTED.—Amounts received by the
Secretary under this section shall be credited to appropriations
available to the secretary for carrying out this chapter.

A240

45

Section 2, Public Law 89-777
[46 U.S.C. App. 817d]
§ 817d. Financial responsibility of owners and charterers
for death or injury to passengers or other persons
(a) AMOUNT; METHOD OF ESTABLISHMENT.—Each owner or
charterer of an American or foreign vessel having berth or stateroom accommodations for fifty or more passengers, and embarking
passengers at United States ports, shall establish, under regulations prescribed by the øFederal Maritime Commission¿ Intermodal Transportation Board, his financial responsibility to meet
any liability he may incur for death or injury to passengers or
other persons on voyages to or from United States ports, in an
amount based upon the number of passenger accommodations
aboard the vessel, calculated as follows: $20,000 for each passenger
accommodation up to and including five hundred; plus $15,000 for
each additional passenger accommodation between five hundred
and one and one thousand; plus $10,000 for each additional passenger accommodation between one thousand and one and one
thousand five hundred; plus $5,000 for each passenger accommodation in excess of one thousand five hundred: Provided, however,
That if such owner or charterer is operating more than one vessel
subject to this section, the foregoing amount shall be based upon
the number of passenger accommodations on the vessel being so operated which has the largest number of passenger accommodations.
This amount shall be available to pay any judgment for damages,
whether an amount less than or more than $20,000 for death or
injury occurring on such voyages to any passenger or other person.
Such financial responsibility may be established by any one of, or
a combination of, the following methods which is acceptable to the
øCommission:¿ Board: (1) policies of insurance, (2) surety bonds,
(3) qualifications as a self-insurer, or (4) other evidence of financial
responsibility.
(b) ISSUANCE OF BOND WHEN FILED WITH øCOMMISSION¿
BOARD.—If a bond is filed with the øCommission,¿ Board then such
bond shall be issued by a bonding company authorized to do business in the United States or any State thereof or the District of Columbia, the Commonwealth of Puerto Rico, the Virgin Islands, or
any territory or possession of the United States.
(c) CIVIL PENALTIES FOR VIOLATIONS; REMISSION OR MITIGATION
OF PENALTIES.—Any person who shall violate this section shall be
subject to a civil penalty of not more than $5,000 in addition to a
civil penalty of $200 for each passage sold, such penalties to be assessed by the øFederal Maritime Commission.¿ Intermodal Transportation Board. These penalties may be remitted or mitigated by
the øFederal Maritime Commission¿ Intermodal Transportation
Board upon such terms as it in its discretion shall deem proper.
(d) RULES AND REGULATIONS.—The øFederal Maritime Commission¿ Intermodal Transportation Board is authorized to prescribe
such regulations as may be necessary to carry out the provisions
of this section. The provisions of the Shipping Act of 1984 shall

A241

46
apply with respect to proceedings conducted by the øCommission¿
Board under this section.
(e) REFUSAL OF DEPARTURE CLEARANCE.—At the port or place of
departure from the United States of any vessel described in subsection (a) of this section, the Customs Service shall refuse the
clearance required by section 4197 of the Revised Statutes (46
U.S.C. 91) to any such vessel which does not have evidence furnished by the øFederal Maritime Commission¿ Intermodal Transportation Board that the provisions of this section have been complied with.

Section 3, Public Law 89–777
[46 U.S.C. App. 817e]
§ 817e. Financial responsibility for indemnification of passengers for nonperformance of transportation
(a) FILING OF INFORMATION OR BOND WITH øCOMMISSION¿
Board.—No person in the United States shall arrange, offer, advertise, or provide passage on a vessel having berth or stateroom accommodations for fifty or more passengers and which is to embark
passengers at United States ports without there first having been
filed with the øFederal Maritime Commission¿ Intermodal Transportation Board such information as the øCommission¿ Board may
deem necessary to establish the financial responsibility of the person arranging, offering, advertising, or providing such transportation, or in lieu thereof a copy of a bond or other security, in such
form as the øCommission,¿ Board, by rule or regulation, may require and accept, for indemnification of passengers for nonperformance of the transportation.
(b) ISSUANCE OF BOND WHEN FILED WITH øCOMMISSION;¿ Board;
Amount of Bond.—If a bond is filed with the øCommission,¿ Board,
such bond shall be issued by a bonding company authorized to do
business in the United States or any State thereof, or the District
of Columbia, the Commonwealth of Puerto Rico, the Virgin Islands
or any territory or possession of the United States.
(c) CIVIL PENALTIES FOR VIOLATIONS; REMISSION OR MITIGATION
OF PENALTIES.—Any person who shall violate this section shall be
subject to a civil penalty of not more than $5,000 in addition to a
civil penalty of $200 for each passage sold, such penalties to be assessed by the øFederal Maritime Commission¿ Intermodal Transportation Board. These penalties may be remitted or mitigated by
the øFederal Maritime Commission¿ Intermodal Transportation
Board upon such terms as it in its discretion shall deem proper.
(d) RULES AND REGULATIONS.—The øFederal Maritime Commission¿ Intermodal Transportation Board is authorized to prescribe
such regulations as may be necessary to carry out the provisions
of this section. The provisions of the Shipping Act of 1984 shall
apply with respect to proceedings conducted by the øCommission¿
Board under this section.
(e) REFUSAL OF DEPARTURE CLEARANCE.—At the port or place of
departure from the United States of any vessel described in subsection (a) of this section, the Customs Service shall refuse the

A242

47
clearance required by section 4197 of the Revised Statutes (46
U.S.C. 91) [46 U.S.C. Appx. 91] to any such vessel which does not
have evidence furnished by the øFederal Maritime Commission¿
Intermodal Transporation Board that the provisions of this section
have been complied with.

Section 19, Merchant Marine Act, 1920
[46 U.S.C. App. 876]
§ 876. Power of Secretary and øCommission¿ Board to make
rules and regulations
ø(1)¿ (a) The Secretary of Transportation is authorized and directed in aid of the accomplishment of the purposes of this Act—
ø(a)¿ (1) To make all necessary rules and regulations to carry out
the provisions of this Act;
And the øFederal Maritime Commission¿ Intermodal Transportation Board is authorized and directed in aid of the accomplishment of the purposes of this Act:
ø(b)¿ (2) To make rules and regulations affecting shipping in the
foreign trade not in conflict with law in order to adjust or meet
general or special conditions unfavorable to shipping in the foreign
trade, whether in any particular trade or upon any particular route
or in commerce generally, including intermodal movements, terminal operations, cargo solicitation, øforwarding and¿ agency services, ønon-vessel-operating common carrier operations,¿ ocean
transportation intermediary services and operations, and other activities and services integral to transportation systems, and which
arise out of or result from foreign laws, rules, or regulations or
from competitive ømethods or practices¿ methods, pricing practices,
or other practices employed by owners, operators, agents, or masters of vessels of a foreign country; and
ø(c)¿ (3) To request the head of any department, board, bureau, or agency of the Government to suspend, modify, or
annul rules or regulations which have been established by such
department, board, bureau, or agency, or to make new rules or
regulations affecting shipping in the foreign trade other than
such rules or regulations relating to the Public Health Service,
the Consular Service, and the Steamboat Inspection Service.
ø(2)¿ (b) No rule or regulation shall be established by any department, board, bureau, or agency of the Government which affect
[affects] shipping in the foreign trade, except rules or regulations
affecting the Public Health Service, the Consular Service, and the
Steamboat Inspection Service, until such rule or regulation has
been submitted to the board for its approval and final action has
been taken thereon by the board or the President.
ø(3)¿ (c) Whenever the head of any department, board, bureau,
or agency of the Government refuses to suspend, modify, or annul
any rule or regulation, or make a new rule or regulation upon request of the board, as provided in øsubdivision (c) of paragraph (1)¿
subsection (a)(3) of this section, or objects to the decision of the
board in respect to the approval of any rule or regulation, as provided in øparagraph (2)¿ subsection (d) of this section, either the

A243

48
board or the head of the department, board, bureau, or agency
which has established or is attempting to establish the rule or regulation in question may submit the facts to the President, who is
hereby authorized to establish or suspend, modify, or annul such
rule or regulation.
ø(4)¿ (d) No rule or regulation shall be established which in any
manner gives vessels owned by the United States any preference
or favor over those vessels documented under the laws of the United States and owned by persons who are citizens of the United
States.
ø(5)¿ (e) The øCommission¿ Board may initiate a rule or regulation under øparagraph (1)(b)¿ subsection (a)(2) of this section either
on its own motion or pursuant to a petition. Any person, including
a common carrier, tramp operator, bulk operator, shipper, shippers’
association, ocean øfreight forwarder,¿ transportation intermediary,
marine terminal operator, or any component of the Government of
the United States, may file a petition for relief under øparagraph
(1)(b) of this section¿ that subsection.
ø(6)¿ (f) In furtherance of the purposes of øparagraph (1)(b)¿ subsection (a)(2) of this section—
ø(a)¿ (1) the øCommission¿ Board may, by order, require any
person (including any common carrier, tramp operator, bulk
operator, shipper, shippers’ association, ocean øfreight forwarder,¿ transporation intermediary, or marine terminal operator, or an officer, receiver, trustee, lessee, agent, or employee
thereof) to file with the øCommission¿ Board a report, answers
to questions, documentary material, or other information which
the øCommission¿ Board considers necessary or appropriate;
ø(b)¿ (2) the øCommission¿ Board may require a report or
answers to questions to be made under oath;
ø(c)¿ (3) the øCommission¿ Board may prescribe the form
and the time for response to a report and answers to questions;
and
ø(d)¿ (4) a person who fails to file a report, answer, documentary material, or other information required under this
paragraph shall be liable to the United States Government for
a civil penalty of not more than $5,000 for each day that the
information is not provided.
ø(7)¿ (g) In proceedings under øparagraph (1)(b)¿ subsection
(a)(2) of this section—
ø(a)¿ (1) the øCommission¿ Board may authorize a party to
use depositions, written interrogatories, and discovery procedures that, to the extent practicable, are in conformity with the
rules applicable in civil proceedings in the district courts of the
United States;
ø(b)¿ (2) the øCommission¿ Board may by subpoena compel
the attendance of witnesses and production of books, papers,
documents, and other evidence;
ø(c)¿ (3) subject to funds being provided by appropriations
Acts, witnesses are, unless otherwise prohibited by law, entitled to the same fees and mileage as in the courts of the United States;

A244

49
ø(d)¿ (4) for failure to supply information ordered to be produced or compelled by subpoena under subdivision (b), the
øCommission¿ Board may—
ø(i)¿ (A) after notice and an opportunity for hearing, suspend øtariffs of a common carrier¿ tariffs and service contracts of a common carrier or that common carrier’s right
to øuse the tariffs of conferences¿ use tariffs of conferences
and service contracts of agreements of which it is a member, or
ø(ii)¿ (B) assess a civil penalty of not more than $5,000
for each day that the information is not provided; and
ø(e)¿ (5) when a person violates an order of the øCommission¿ Board or fails to comply with a subpoena, the øCommission¿ Board may seek enforcement by a United States district
court having jurisdiction over the parties, and if, after hearing,
the court determines that the order was regularly made and
duly issued, it shall enforce the order by an appropriate injunction or other process, mandatory or otherwise.
ø(8)¿ (h) Notwithstanding any other law, the øCommission¿
Board may refuse to disclose to the public a response or other information provided under the terms of this section.
ø(9)¿ (i) If the øCommission¿ Board finds that conditions that
are unfavorable to shipping under øparagraph (1)(b)¿ subsection
(a)(2) of this section exist, the øCommission¿ Board may—
ø(a)¿ (1) limit sailings to and from United States ports or the
amount or type of cargo carried;
ø(b)¿ (2) suspend, in whole or in part, øtariffs filed with the
øCommission¿ Board¿ tariffs and service contracts for carriage
to or from United States ports, including a common carrier’s
right to øuse the tariffs of conferences¿ use tariffs of conferences and service contracts of agreements in United States
trades of which it is a member for any period the øCommission¿ Board specifies;
ø(c)¿ (3) suspend, in whole or in part, an ocean common carrier’s right to operate under an agreement filed with the øCommission¿ Board, including any agreement authorizing preferential treatment at terminals, preferential terminal leases,
space chartering, or pooling of cargoes or revenue with other
ocean common carriers;
ø(d)¿ (4) impose a fee, not to exceed $1,000,000 per voyage;
or
ø(e)¿ (5) take any other action the øCommission¿ Board
finds necessary and appropriate to adjust or meet any condition unfavorable to shipping in the foreign trade of the United
States.
ø(10)¿ (j) Upon request by the øCommission¿ Board—
ø(a)¿ (1) the collector of customs at the port or place of destination in the United States shall refuse the clearance required by section 4197 of the Revised Statutes (46 App. U.S.C.
91) to a vessel of a country that is named in a rule or regulation issued by the øCommission¿ Board under øparagraph (1)
(b)¿ subsection (a)(2) of this section, and shall collect any fees
imposed by the øCommission¿ Board under øparagraph (9)
(d)¿ subsection (i)(4) of this section; and

A245

50
ø(b)¿ (2) the Secretary of the department in which the Coast
Guard is operating shall deny entry for purpose of oceanborne
trade, of a vessel of a country that is named in a rule or regulation issued by the øCommission¿ Board under øparagraph
(1)(b)¿ subsection (a)(2) of this section, to any port or place in
the United States or the navigable waters of the United States,
or shall detain that vessel at the port or place in the United
States from which it is about to depart for another port or
place in the United States.
ø(11)¿ (k) A common carrier that accepts or handles cargo for
carriage under a øtariff¿ tariff or service contract that has been
suspended under øparagraph (7) (d) or (9) (b)¿ SUBSECTION (G)(4) OR
(I)(2) of this section, or after its right to use another øtariff¿ tariff
or service contract has been suspended under those øparagraphs,¿
subsections is subject to a civil penalty of not more than $50,000
for each day that it is found to be operating under a suspended
øtariff¿ tariff or service contract.
ø(12)¿ (l) The øCommission¿ Board may consult with, seek the
cooperation of, or make recommendations to other appropriate Government agencies prior to taking any action under this section.

Section 2, Shipping Act of 1984
[46 U.S.C. App. 1701]
§ 1701. Declaration of policy
The purposes of this Act are—
(1) to establish a nondiscriminatory regulatory process for
the common carriage of goods by water in the foreign commerce of the United States with a minimum of government
intervention and regulatory costs;
(2) to provide an efficient and economic transportation system in the ocean commerce of the United States that is, insofar
as possible, in harmony with, and responsive to, international
shipping practices; øand¿
(3) to encourage the development of an economically sound
and efficient United States-flag liner fleet capable of meeting
national security øneeds.¿ needs; and
(4) to promote the growth and development of United States
exports through competitive and efficient ocean transportation
and by placing a greater reliance on the marketplace.

Section 3, Shipping Act of 1984
[46 U.S.C. App. 1702]
§ 1702. Definitions
As used in this Act—
(1) ‘‘agreement’’ means an understanding, arrangement, or
association (written or oral) and any modification or cancellation thereof; but the term does not include a maritime labor
agreement.

A246

51
(2) ‘‘antitrust laws’’ means the Act of July 2, 1890 (ch. 647,
26 Stat. 209), as amended; the Act of October 15, 1914 (ch.
323, 38 Stat. 730), as amended; the Federal Trade Commission
Act (38 Stat. 717) [15 U.S.C. 41 et seq.], as amended; sections
73 and 74 of the Act of August 27, 1894 (28 Stat. 570) [15
U.S.C. 8, 9], as amended; the Act of June 19, 1936 (ch. 592,
49 Stat. 1526), as amended; the Antitrust Civil Process Act (76
Stat. 548) [15 U.S.C. 1311 et seq.], as amended; and amendments and Acts supplementary thereto.
(3) ‘‘assessment agreement’’ means an agreement, whether
part of a collective-bargaining agreement or negotiated separately, to the extent that it provides for the funding of collectively bargained fringe benefit obligations on other than a uniform man-hour basis, regardless of the cargo handled or type
of vessel or equipment utilized.
(4) ‘‘Board’’ means the Intermodal Transportation Board.
ø(4)¿ (5) ‘‘bulk cargo’’ means cargo that is loaded and carried
in bulk without mark or count.
ø(5) ‘‘Commission’’ means the Federal Maritime Commission.¿
(6) ‘‘common carrier’’ means a person holding itself out to the
general public to provide transportation by water of passengers
or cargo between the United States and a foreign country for
compensation that—
(A) assumes responsibility for the transportation from
the port or point of receipt to the port or point of destination, and
(B) utilizes, for all or part of that transportation, a vessel operating on the high seas or the Great Lakes between
a port in the United States and a port in a foreign country,
except that the term does not include a common carrier engaged in ocean transportation by ferry boat, ocean tramp,
or chemical parcel-tanker. As used in this paragraph,
‘‘chemical parcel-tanker’’ means a vessel whose cargo-carrying capability consists of individual cargo tanks for bulk
chemicals that are a permanent part of the vessel, that
have segregation capability with piping systems to permit
simultaneous carriage of several bulk chemical cargoes
with minimum risk of cross-contamination, and that has a
valid certificate of fitness under the International Maritime Organization Code for the Construction and Equipment of Ships Carrying Dangerous Chemicals in Bulk.
(7) ‘‘conference’’ means an association of ocean common carriers permitted, pursuant to an approved or effective agreement, to engage in concerted activity and to utilize a common
tariff; but the term does not include a joint service, consortium,
pooling, sailing, or transshipment arrangement.
(8) ‘‘controlled carrier’’ means an ocean common carrier that
is, or whose operating assets are, directly or indirectly, owned
or controlled by øthe government under whose registry the vessels of the carrier operate;¿ a government; ownership or control
by a government shall be deemed to exist with respect to any
carrier if—

A247

52
(A) a majority portion of the interest in the carrier is
owned or controlled in any manner by that government, by
any agency thereof, or by any public or private person controlled by that government; or
(B) that government has the right to appoint or disapprove the appointment of a majority of the directors, the
chief operating officer, or the chief executive officer of the
carrier.
ø(9) ‘‘deferred rebate’’ means a return by a common carrier
of any portion of the freight money to a shipper as a consideration for that shipper giving all, or any portion, of its shipments to that or any other common carrier, or for any other
purpose, the payment of which is deferred beyond the completion of the service for which it is paid, and is made only if, during both the period for which computed and the period of
deferment, the shipper has complied with the terms of the rebate agreement or arrangement.¿
(9) ‘‘deferred rebate’’ means a return by a common carrier of
any portion of freight money to a shipper as a consideration for
that shipper giving all, or any portion, of its shipments to that
or any other common carrier over a fixed period of time, the
payment of which is deferred beyond the completion of service
for which it is paid, and is made only if the shipper has agreed
to make a further shipment or shipments with that or any other
common carrier.
ø(10) ‘‘fighting ship’’ means a vessel used in a particular
trade by an ocean common carrier or group of such carriers for
the purpose of excluding, preventing, or reducing competition
by driving another ocean common carrier out of that trade.¿
ø(11)¿ (10) ‘‘forest products’’ means forest products øin an
unfinished or semifinished state that require special handling
moving in lot sizes too large for a container,¿ including, but
not limited to lumber in bundles, rough timber, ties, poles, piling, laminated beams, bundled siding, bundled plywood, bundled core stock or veneers, bundled particle or fiber boards,
bundled hardwood, wood pulp in rolls, wood pulp in unitized
bales, øpaper board in rolls, and paper in rolls.¿ paper and
paper board in rolls or in pallet or skid-sized sheets.
ø(12)¿ (11) ‘‘inland division’’ means the amount paid by a
common carrier to an inland carrier for the inland portion of
through transportation offered to the public by the common
carrier.
ø(13)¿ (12) ‘‘inland portion’’ means the charge to the public
by a common carrier for the nonocean portion of through transportation.
ø(14)¿ (13) ‘‘loyalty contract’’ means a contract with an ocean
common carrier or øconference, other than a service contract or
contract based upon time-volume rates,¿ agreement by which a
shipper obtains lower rates by committing all or a fixed portion
of its cargo to that carrier or øconference.¿ agreement and the
contract provides for a deferred rebate arrangement.
ø(15)¿ (14) ‘‘marine terminal operator’’ means a person engaged in the United States in the business of furnishing wharfage, dock, warehouse, or other terminal facilities in connection

A248

53
with a common øcarrier.¿ carrier, or in connection with a common carrier and a water carrier subject to subchapter II of
chapter 135 of title 49, United States Code.
ø(16)¿ (15) ‘‘maritime labor agreement’’ means a collectivebargaining agreement between an employer subject to this Act,
or group of such employers, and a labor organization representing employees in the maritime or stevedoring industry, or an
agreement preparatory to such a collective-bargaining agreement among members of a multiemployer bargaining group, or
an agreement specifically implementing provisions of such a
collective-bargaining agreement or providing for the formation,
financing, or administration of a multiemployer bargaining
group; but the term does not include an assessment agreement.
ø(17) ‘‘non-vessel-operating common carrier’’ means a common carrier that does not operate the vessels by which the
ocean transportation is provided, and is a shipper in its relationship with an ocean common carrier.¿
ø(18)¿ (16) ‘‘ocean common carrier’’ means a vessel-operating
common carrier.
ø(19) ‘‘ocean freight forwarder’’ means a person in the United
States that—
ø(A) dispatches shipments from the United States via
common carriers and books or otherwise arranges space for
those shipments on behalf of shippers; and
ø(B) processes the documentation or performs related activities incident to those shipments.¿
(17) ‘‘ocean transportation intermediary’’ means an ocean
freight forwarder or a non-vessel-operating common carrier. For
purposes of this paragraph, the term
(A) ‘‘ocean freight forwarder’’ means a person that—
(i) in the United States, dispatches shipments from
the United States via a common carrier and books or
otherwise arranges space for those shipments on behalf
of shippers; and
(ii) processes the documentation or performs related
activities incident to those shipments; and
(B) ‘‘non-vessel-operating common carrier’’ means a common carrier that does not operate the vessels by which the
ocean transportation is provided, and is a shipper in its relationship with an ocean common carrier.
ø(20)¿ (18) ‘‘person’’ includes individuals, corporations, partnerships, and associations existing under or authorized by the
laws of the United States or of a foreign country.
ø(21) ‘‘service contract’’ means a contract between a shipper
and an ocean common carrier or conference in which the shipper makes a commitment to provide a certain minimum quantity of cargo over a fixed time period, and the ocean common
carrier or conference commits to a certain rate or rate schedule
as well as a defined service level—such as, assured space, transit time, port rotation, or similar service features; the contract
may also specify provisions in the event of nonperformance on
the part of either party.¿
(19) ‘‘service contract’’ means a written contract, other than a
bill of lading or a receipt, between one or more shippers and an

A249

54
individual common carrier or an agreement between or among
ocean common carriers in which the shipper or shippers makes
a commitment to provide a certain volume or portion of cargo
over a fixed time period, and the common carrier or the agreement commits to a certain rate or rate schedule and a defined
service level, such as assured space, transit time, port rotation,
or similar service features. The contract may also specify provisions in the event of nonperformance on the part of any party.
ø(22)¿ (20) ‘‘shipment’’ means all of the cargo carried under
the terms of a single bill of lading.
ø(23) ‘‘shipper’’ means an owner or person for whose account
the ocean transportation of cargo is provided or the person to
whom delivery is to be made.¿
(21) ‘‘shipper’’ means—
(A) a cargo owner;
(B) the person for whose account the ocean transportation
is provided;
(C) the person to whom delivery is to be made;
(D) a shippers’ association; or
(E) an ocean transportation intermediary, as defined in
paragraph (17)(B) of this section, that accepts responsibility
for payment of all charges applicable under the tariff or
service contract.
ø(24)¿ (22) ‘‘shippers’ association’’ means a group of shippers
that consolidates or distributes freight on a nonprofit basis for
the members of the group in order to secure carload, truckload,
or other volume rates or service contracts.
ø(25)¿ (23) ‘‘through rate’’ means the single amount charged
by a common carrier in connection with through transportation.
ø(26)¿ (24) ‘‘through transportation’’ means continuous transportation between origin and destination for which a through
rate is assessed and which is offered or performed by one or
more carriers, at least one of which is a common carrier, between a United States point or port and a foreign point or port.
ø(27)¿ (25) ‘‘United States’’ includes the several States, the
District of Columbia, the Commonwealth of Puerto Rico, the
Commonwealth of the Northern Marianas, and all other United States territories and possessions.

Section 4, Shipping Act of 1984
[46 U.S.C. App. 1703]
§ 1703. Agreements within scope of [the Act] 46 U.S.C. App.
1701 et seq.
(a) OCEAN COMMON CARRIERS.—This Act applies to agreements
by or among ocean common carriers to—
(1) discuss, fix, or regulate transportation rates, including
through rates, cargo space accommodations, and other conditions of service;
(2) pool or apportion traffic, revenues, earnings, or losses;

A250

55
(3) allot ports or restrict or otherwise regulate the number
and character of sailings between ports;
(4) limit or regulate the volume or character of cargo or passenger traffic to be carried;
(5) engage in exclusive, preferential, or cooperative working
arrangements among themselves or with one or more marine
terminal øoperators or non-vessel-operating common carriers;¿
operators;
(6) control, regulate, or prevent competition in international
ocean transportation; øand¿ or
(7) regulate or prohibit their use of service contracts.
(b) MARINE TERMINAL OPERATORS.—This Act applies to agreements ø(to the extent the agreements involve ocean transportation
in the foreign commerce of the United States)¿ among marine terminal operators and among one or more marine terminal operators
and one or more ocean common carriers to—
(1) discuss, fix, or regulate rates or other conditions of service; and
(2) engage in exclusive, preferential, or cooperative working
øarrangements.¿ arrangements, to the extent that such agreements involve ocean transportation in the foreign commerce of
the United States.
(c) ACQUISITIONS.—This Act does not apply to an acquisition by
any person, directly or indirectly, of any voting security or assets
of any other person.

Section 5, Shipping Act of 1984
[46 U.S.C. App. 1704]
§ 1704. Agreements
(a) FILING REQUIREMENTS.—A true copy of every agreement entered into with respect to an activity described in section 4 (a) or
(b) of this Act [46 U.S.C. App. 1703 (a) or (b)] shall be filed with
the øCommission¿ Board, except agreements related to transportation to be performed within or between foreign countries and
agreements among common carriers to establish, operate, or maintain a marine terminal in the United States. In the case of an oral
agreement, a complete memorandum specifying in detail the substance of the agreement shall be filed. The øCommission¿ Board
may by regulation prescribe the form and manner in which an
agreement shall be filed and the additional information and documents necessary to evaluate the agreement.
(b) CONFERENCE AGREEMENTS.—Each conference agreement
must—
(1) state its purpose;
(2) provide reasonable and equal terms and conditions for admission and readmission to conference membership for any
ocean common carrier willing to serve the particular trade or
route;
(3) permit any member to withdraw from conference membership upon reasonable notice without penalty;

A251

56
(4) at the request of any member, require an independent
neutral body to police fully the obligations of the conference
and its members;
(5) prohibit the conference from engaging in conduct prohibited by section 10(c) (1) or (3) of this Act [46 U.S.C. App.
1709(c) (1), (3)];
(6) provide for a consultation process designed to promote—
(A) commercial resolution of disputes, and
(B) cooperation with shippers in preventing and eliminating malpractices;
(7) establish procedures for promptly and fairly considering
shippers’ requests and complaints; øand¿
ø(8) provide that any member of the conference may take
independent action on any rate or service item required to be
filed in a tariff under section 8(a) of this Act [46 U.S.C. App.
1707(a)] upon not more than 10 calendar days’ notice to the
conference and that the conference will include the new rate or
service item in its tariff for use by that member, effective no
later than 10 calendar days after receipt of the notice, and by
any other member that notifies the conference that it elects to
adopt the independent rate or service item on or after its effective date, in lieu of the existing conference tariff provision for
that rate or service item.¿
(8) provide that any member of the conference may take independent action on any rate or service item upon not more than
5 calendar days’ notice to the conference and that, except for exempt commodities not published in the conference tariff, the
conference will include the new rate or service item in its tariff
for use by that member, effective no later than 5 calendar days
after receipt of the notice, and by any other member that notifies
the conference that it elects to adopt the independent rate or
service item on or after its effective date, in lieu of the existing
conference tariff provision for that rate or service item; and
(9) prohibit the agreement from—
(A) prohibiting or restricting the members of the agreement from engaging in negotiations for service contracts
with 1 or more shippers;
(B) requiring a member of the agreement to disclose a negotiation on a service contract, or the terms and conditions
of a service contract, other than those specified by section
8(c)(3) of this Act; and
(C) issuing mandatory rules or requirements affecting an
agreement member’s right to negotiate and enter into service contracts.
An agreement may issue voluntary guidelines relating to the terms
and procedures of agreement members’ service contracts if the guidelines explicitly state the right of members of the agreement not to
follow the guidelines and the guidelines are filed with the agreement.
(c) INTERCONFERENCE AGREEMENTS.—Each agreement between
carriers not members of the same conference must provide the
right of independent action for each carrier. Each agreement between conferences must provide the right of independent action for
each conference.

A252

57
(d) ASSESSMENT AGREEMENTS.—Assessment agreements shall be
filed with the øCommission¿ Board and become effective on filing.
The øCommission¿ Board shall thereafter, upon complaint filed
within 2 years of the date of the agreement, disapprove, cancel, or
modify any such agreement, or charge or assessment pursuant
thereto, that it finds, after notice and hearing, to be unjustly discriminatory or unfair as between carriers, shippers, or ports. The
øCommission¿ Board shall issue its final decision in any such proceeding within 1 year of the date of filing of the complaint. To the
extent that an assessment or charge is found in the proceeding to
be unjustly discriminatory or unfair as between carriers, shippers,
or ports, the øCommission¿ Board shall remedy the unjust discrimination or unfairness for the period of time between the filing
of the complaint and the final decision by means of assessment adjustments. These adjustments shall be implemented by prospective
credits or debits to future assessments or charges, except in the
case of a complainant who has ceased activities subject to the assessment or charge, in which case reparation may be awarded. Except for this subsection and section 7(a) of this Act [46 U.S.C. App.
1706(a)], øthis Act, the Shipping Act, 1916, and the Intercoastal
Shipping Act, 1933,¿ this Act and the Shipping Act, 1916 do not
apply to assessment agreements.
(e) MARITIME LABOR AGREEMENTS.—This Act and the Shipping
Act, 1916 do not apply to maritime labor agreements. This subsection does not exempt from this Act or the Shipping Act, 1916
any rates, charges, regulations, or practices of a common carrier
that are required to be set forth in a tariff, whether or not those
rates, charges, regulations, or practices arise out of, or are otherwise related to, a maritime labor agreement.

Section 6, Shipping Act of 1984
[46 U.S.C. App. 1705]
§ 1705. Action on agreements
(a) NOTICE.—Within 7 days after an agreement is filed, the
øCommission¿ Board shall transmit a notice of its filing to the Federal Register for publication.
(b) REVIEW STANDARD.—The øCommission¿ Board shall reject
any agreement filed under section 5(a) of this Act [46 U.S.C. App.
1704(a)] that, after preliminary review, it finds does not meet the
requirements of section 5 [46 U.S.C. App. 1704]. The øCommission¿
Board shall notify in writing the person filing the agreement of the
reason for rejection of the agreement.
(c) REVIEW AND EFFECTIVE DATE.—Unless rejected by the øCommission¿ Board under subsection (b) , agreements, other than assessment agreements, shall become effective—
(1) on the 45th day after filing, or on the 30th day after notice of the filing is published in the Federal Register, whichever day is later; or
(2) if additional information or documentary material is requested under subsection (d) , on the 45th day after the øCommission¿ Board receives—

A253

58
(A) all the additional information and documentary material requested; or
(B) if the request is not fully complied with, the information and documentary material submitted and a statement
of the reasons for noncompliance with the request. The period specified in paragraph (2) may be extended only by
the United States District Court for the District of Columbia upon an application of the øCommission¿ Board under
subsection (i).
(d) ADDITIONAL INFORMATION.—Before the expiration of the period specified in subsection (c) (1) , the øCommission¿ Board may
request from the person filing the agreement any additional information and documentary material it deems necessary to make the
determinations required by this section.
(e) REQUEST FOR EXPEDITED APPROVAL.—The øCommission¿
Board may, upon request of the filing party, shorten the review period specified in subsection (c) , but in no event to a date less than
14 days after notice of the filing of the agreement is published in
the Federal Register.
(f) TERM OF AGREEMENTS.—The øCommission¿ Board may not
limit the effectiveness of an agreement to a fixed term.
(g) SUBSTANTIALLY ANTICOMPETITIVE AGREEMENTS.—If, at any
time after the filing or effective date of an agreement, the øCommission¿ Board determines that the agreement is likely, by a reduction in competition, to produce an unreasonable reduction in
transportation service or an unreasonable increase in transportation cost, it may, after notice to the person filing the agreement,
seek appropriate injunctive relief under subsection (h) .
(h) INJUNCTIVE RELIEF.—The øCommission¿ Board may, upon
making the determination specified in subsection (g) , bring suit in
the United States District Court for the District of Columbia to enjoin operation of the agreement. The court may issue a temporary
restraining order or preliminary injunction and, upon a showing
that the agreement is likely, by a reduction in competition, to
produce an unreasonable reduction in transportation service or an
unreasonable increase in transportation cost, may enter a permanent injunction. In a suit under this subsection, the burden of proof
is on the øCommission¿ Board. The court may not allow a third
party to intervene with respect to a claim under this subsection.
(i) COMPLIANCE WITH INFORMATIONAL NEEDS.—If a person filing
an agreement, or an officer, director, partner, agent, or employee
thereof, fails substantially to comply with a request for the submission of additional information or documentary material within the
period specified in subsection (c), the United States District Court
for the District of Columbia, at the request of the øCommission¿
Board—
(1) may order compliance;
(2) shall extend the period specified in subsection (c)(2) until
there has been substantial compliance; and
(3) may grant such other equitable relief as the court in its
discretion determines necessary or appropriate.
(j) NONDISCLOSURE OF SUBMITTED MATERIAL.—Except for an
agreement filed under section 5 of this Act [46 U.S.C. App. 1704],
information and documentary material filed with the øCommis-

A254

59
sion¿ Board under section 5 or 6 [46 U.S.C. App. 1704 and this section] is exempt from disclosure under section 552 of title 5, United
States Code [5 U.S.C. 552] and may not be made public except as
may be relevant to an administrative or judicial action or proceeding. This section does not prevent disclosure to either body of Congress or to a duly authorized committee or subcommittee of Congress.
(k) REPRESENTATION.—Upon notice to the Attorney General, the
øCommission¿ Board may represent itself in district court proceedings under subsections (h) and (i) of this section and section 11(h)
of this Act [46 U.S.C. App. 1710(h)]. With the approval of the Attorney General, the øCommission¿ Board may represent itself in proceedings in the United States Courts of Appeal under subsections
(h) and (i) of this section and section 11(h) of this Act [46 U.S.C.
App. 1710(h)].

Section 7, Shipping Act of 1984
[46 U.S.C. App. 1706]
§ 1706. Exemption from antitrust laws
(a) IN GENERAL.—The antitrust laws do not apply to—
(1) any agreement that has been filed under section 5 of this
Act [46 U.S.C. App. 1704] and is effective under section 5(d) or
section 6 [46 U.S.C. App. 1704(d) , 1705], or is exempt under
section 16 of this Act [46 U.S.C. App. 1715] from any requirement of this Act;
(2) any activity or agreement within the scope of this Act,
whether permitted under or prohibited by this Act, undertaken
or entered into with a reasonable basis to conclude that (A) it
is pursuant to an agreement on file with the øCommission¿
Board and in effect when the activity took place, or (B) it is
exempt under section 16 of this Act [46 U.S.C. App. 1715] from
any filing or publication requirement of this Act;
(3) any agreement or activity that relates to transportation
services within or between foreign countries, whether or not
via the United States, unless that agreement or activity has a
direct, substantial, and reasonably foreseeable effect on the
commerce of the United States;
(4) any agreement or activity concerning the foreign inland
segment of through transportation that is part of transportation provided in a United States import or export trade;
(5) any agreement or activity to provide or furnish wharfage,
dock, warehouse, or other terminal facilities outside the United
States; or
(6) subject to section 20(e)(2) of this Act [46 U.S.C. App.
1719(e)(2)], any agreement, modification, or cancellation approved by the Federal Maritime Commission before the effective date of this Act under section 15 of the Shipping Act, 1916
[46 U.S.C. App. 814], or permitted under section 14b thereof,
and any properly published tariff, rate, fare, or charge, classification, rule, or regulation explanatory thereof implementing
that agreement, modification, or cancellation.

A255

60
(b) EXCEPTIONS.—This Act does not extend antitrust immunity—
(1) to any agreement with or among air carriers, rail carriers, motor carriers, or common carriers by water not subject
to this Act with respect to transportation within the United
States;
(2) to any discussion or agreement among common carriers
that are subject to this Act regarding the inland divisions (as
opposed to the inland portions) of through rates within the
United States; øor¿
(3) to any agreement among common carriers subject to this
Act to establish, operate, or maintain a marine terminal in the
United øStates.¿ States; or
(4) to any loyalty contract.
(c) LIMITATIONS.—
(1) Any determination by an agency or court that results in
the denial or removal of the immunity to the antitrust laws set
forth in subsection (a) shall not remove or alter the antitrust
immunity for the period before the determination.
(2) No person may recover damages under section 4 of the
Clayton Act (15 U.S.C. 15) [15 U.S.C. 15], or obtain injunctive
relief under section 16 of that Act (15 U.S.C. 26) [15 U.S.C.
26], for conduct prohibited by this Act.

Section 8, Shipping Act of 1984
[46 U.S.C. App. 1707]
§ 1707. Tariffs
(a) IN GENERAL.—
(1) Except with regard to bulk cargo, forest products, recycled metal scrap, new assembled motor vehicles, waste paper,
and paper waste, each common carrier and conference shall
øfile with the Commission, and¿ keep open to public øinspection,¿ inspection in an automated tariff system, tariffs showing
all its rates, charges, classifications, rules, and practices between all points or ports on its own route and on any through
transportation route that has been established. However, common carriers shall not be required to state separately or otherwise reveal in øtariff filings¿ tariffs the inland divisions of a
through rate. Tariffs shall—
(A) state the places between which cargo will be carried;
(B) list each classification of cargo in use;
(C) state the level of ocean freight forwarder compensation, if any, by a carrier or conference;
(D) state separately each terminal or other charge, privilege, or facility under the control of the carrier or conference and any rules or regulations that in any way
change, affect, or determine any part or the aggregate of
the rates or charges; øand¿
(E) include sample copies of any øloyalty contract,¿ bill
of lading, contract of affreightment, or other document evidencing the transportation øagreement.¿ agreement; and

A256

61
(F) include copies of any loyalty contract, omitting the
shipper’s name.
ø(2) Copies of tariffs shall be made available to any person,
and a reasonable charge may be assessed for them.¿
(2) Tariffs shall be made available electronically to any person, without time, quantity, or other limitation, through appropriate access from remote locations, and a reasonable charge
may be assessed for such access. No charge may be assessed a
Federal agency for such access.
(b) TIME-VOLUME RATES.—Rates shown in tariffs filed under subsection (a) may vary with the volume of cargo offered over a specified period of time.
ø(c) SERVICE CONTRACTS.—An ocean common carrier or conference may enter into a service contract with a shipper or shippers’ association subject to the requirements of this Act. Except for
service contracts dealing with bulk cargo, forest products, recycled
metal scrap, waste paper, or paper waste, each contract entered
into under this subsection shall be filed confidentially with the
Commission, and at the same time, a concise statement of its essential terms shall be filed with the Commission and made available to the general public in tariff format, and those essential
terms shall be available to all shippers similarly situated. The essential terms shall include—
ø(1) the origin and destination port ranges in the case of
port-to-port movements, and the origin and destination geographic areas in the case of through intermodal movements;
ø(2) the commodity or commodities involved;
ø(3) the minimum volume;
ø(4) the line-haul rate;
ø(5) the duration;
ø(6) service commitments; and
ø(7) the liquidated damages for nonperformance, if any.
øThe exclusive remedy for a breach of a contract entered into
under this subsection shall be an action in an appropriate court,
unless the parties otherwise agree.¿
(c) SERVICE CONTRACTS.—
(1) IN GENERAL.—An individual common carrier or an agreement between or among ocean common carriers may enter into
a service contract with one or more shippers subject to the requirements of this Act. The exclusive remedy for a breach of a
contract entered into under this subsection shall be an action
in an appropriate court, unless the parties otherwise agree. In
no case may the contract dispute resolution forum be affiliated
with, or controlled by, any party to the contract.
(2) FILING REQUIREMENTS.—Except for service contracts dealing with bulk cargo, forest products, recycled metal scrap, new
assembled motor vehicles, waste paper, or paper waste, each
contract entered into under this subsection by an individual
common carrier or an agreement shall be filed confidentially
with the ƒCommission≈ Board. Each service contract shall include the following essential terms—
(A) the origin and destination port ranges;
(B) the origin and destination geographic areas, in the
case of through inter modal movements;

A257

62
(C) the commodity or commodities involved;
(D) the minimum volume or portion;
(E) the line-haul rate;
(F) the duration;
(G) service commitments; and
(H) the liquidated damages for nonperformance, if any.
(3) PUBLICATION OF CERTAIN ESSENTIAL TERMS.—When a
service contract is filed confidentially with the ƒCommission≈
Board, a concise statement of the terms described in paragraphs
(2)(C), (D), and (F) and the United States port range shall be
published and made available to the public in tariff format.
(4) DISCLOSURE OF CERTAIN UNPUBLISHED TERMS.—A party
to a collective-bargaining agreement may petition the ƒCommission≈ Board for the disclosure of any service contract terms not
required to be published by paragraph (3) which that party considers to be in violation of that agreement. The petition shall include evidence demonstrating that
(A) a specific ocean common carrier is a party to a collective-bargaining agreement with the petitioner;
(B) the ocean common carrier may be violating the terms
and conditions of that agreement; and
(C) the alleged violation involves the moment of cargo
subject to this Act.
(5) ACTION BY ƒCommission≈ Board.—The ƒCommission≈
Board, after reviewing a petition under paragraph (4) , the evidence provided with the petition, and the filed service contracts
of the carrier named in the petition, may disclose to the petitioner only such unpublished terms of that carrier’s service contracts that the ƒCommission≈ Board reasonably believes may
constitute a violation of the collective-bargaining agreement.
The ƒCommission≈ Board may not disclose any unpublished
service contract terms with respect to a collective-bargaining
agreement term or condition determined by the ƒCommission≈
Board to be in violation of this Act.
(d) RATES.—No new or initial rate or change in an existing rate
that results in an increased cost to the shipper may become effective earlier than ø30 days after filing with the Commission.¿ 30
calendar days after publication. The øCommission¿ Board, for good
cause, may allow such a new or initial rate or change to become
effective in less than 30 calendar days. A change in an existing rate
that results in a decreased cost to the shipper may become effective
upon øpublication and filing with the Commission.¿ publication.
ø(e) REFUNDS.—The Commission may, upon application of a carrier or shipper, permit a common carrier or conference to refund a
portion of freight charges collected from a shipper or to waive the
collection of a portion of the charges from a shipper if—
ø(1) there is an error in a tariff of a clerical or administrative nature or an error due to inadvertence in failing to file a
new tariff and the refund will not result in discrimination
among shippers, ports, or carriers;
ø(2) the common carrier or conference has, prior to filing an
application for authority to make a refund, filed a new tariff
with the Board that sets forth the rate on which the refund or
waiver would be based;

A258

63
ø(3) the common carrier or conference agrees that if permission is granted by the Commission, an appropriate notice will
be published in the tariff, or such other steps taken as the
Commission may require that give notice of the rate on which
the refund or waiver would be based, and additional refunds
or waivers as appropriate shall be made with respect to other
shipments in the manner prescribed by the Commission in its
order approving the application; and
ø(4) the application for refund or waiver is filed with the
Commission within 180 days from the date of shipment.¿
(e) MARINE TERMINAL OPERATOR SCHEDULES.—A marine terminal operator may make available to the public, subject to section
10(d) of this Act, a schedule of rates, regulations, and practices pertaining to receiving, delivering, handling, or storing property at its
marine terminal. Any such schedule made available to the public
shall be enforceable by an appropriate court as an implied contract
without proof of actual knowledge of its provisions.
ø(f) FORM.—The Commission may by regulation prescribe the
form and manner in which the tariffs required by this section shall
be published and filed. The Commission may reject a tariff that is
not filed in conformity with this section and its regulations. Upon
rejection by the Commission, the tariff is void and its use is unlawful.¿
(f) REGULATIONS.—The ƒCommission≈ Board shall by regulation
prescribe the requirements for the accessibility and accuracy of automated tariff systems established under this section. The ƒCommission≈ Board may, after periodic review, prohibit the use of any automated tariff system that fails to meet therequirements established
under this section. The ƒCommission≈ Board may not require a
common carrier to provide a remote terminal for access under subsection (a) (2) . The ƒCommission≈ Board shall by regulation prescribe the form and manner in which marine terminal operator
schedules authorized by this section shall be published.

Section 502, High Seas Driftnet Fisheries
Enforcement Act
ø§ 1707a. Automated tariff filing and information system
ø(a) DEFINITIONS.—In this section, the following definitions
apply:
ø(1) Commission. The term ‘‘Commission’’ means the Federal
Maritime Commission.
ø(2) COMMON CARRIER.—The term ‘‘common carrier’’ means a
common carrier under section 3 of the Shipping Act of 1984 (46
App. U.S.C. 1702), a common carrier by water in interstate
commerce under the Shipping Act, 1916 (46 App. U.S.C. 801 et
seq.), or a common carrier by water in intercoastal commerce
under the Intercoastal Shipping Act, 1933 (46 App. U.S.C. 843
et seq.).
ø(3) CONFERENCE.—The term ‘‘conference’’ has the meaning
given that term under section 3 of the Shipping Act of 1984 (46
App. U.S.C. 1702).

A259

64
ø(4) ESSENTIAL TERMS OF SERVICE CONTRACTS.—The term
‘‘essential terms of service contracts’’ means the essential
terms that are required to be filed with the Commission and
made available under section 8(c) of the Shipping Act of 1984
(46 App. U.S.C. 1707(c)).
ø(5) TARIFF.—The term ‘‘tariff’’ means a tariff of rates,
charges, classifications, rules, and practices required to be filed
by a common carrier or conference under section 8 of the Shipping Act of 1984 (46 App. U.S.C. 1707), or a rate, fare, charge,
classification, rule, or regulation required to be filed by a common carrier or conference under the Shipping Act, 1916 (46
U.S.C. 801 et seq.), or the Intercoastal Shipping Act, 1933 (46
App. U.S.C. 843 et seq.).
ø(b) TARIFF FORM AND AVAILABILITY.—
ø(1) Requirement to file. Notwithstanding any other law,
each common carrier and conference shall, in accordance with
subsection (c), file electronically with the Commission all tariffs, and all essential terms of service contracts, required to be
filed by that common carrier or conference under the Shipping
Act of 1984 (46 App. U.S.C. 1701 et seq.), the Shipping Act,
1916 (46 App. U.S.C. 801 et seq.), and the Intercoastal Shipping Act, 1933 (46 App. U.S.C. 843 et seq.).
ø(2) Availability of information. The Commission shall make
available electronically to any person, without time, quantity,
or other limitation, both at the Commission headquarters and
through appropriate access from remote terminals—
ø(A) all tariff information, and all essential terms of
service contracts, filed in the Commission’s Automated
Tariff Filing and Information System database; and
ø(B) all tariff information in the System enhanced electronically by the Commission at any time.
ø(c) FILING SCHEDULE.—New tariffs and new essential terms of
service contracts shall be filed electronically not later than July 1,
1992. All other tariffs, amendments to tariffs, and essential terms
of service contracts shall be filed not later than September 1, 1992.
ø(d) FEES.—
ø(1) Amount of fee. The Commission shall charge, beginning
July 1 of fiscal year 1992 and in fiscal years 1993, 1994, and
1995—
ø(A) a fee of 46 cents for each minute of remote computer access by any individual of the information available
electronically under this section; and
ø(B) (i) for electronic copies of the Automated Tariff Filing and Information System database (in bulk), or any portion of the database, a fee reflecting the cost of providing
those copies, including the cost of duplication, distribution,
and user-dedicated equipment; and
ø(ii) for a person operating or maintaining information
in a database that has multiple tariff or service contract
information obtained directly or indirectly from the Commission, a fee of 46 cents for each minute that database
is subsequently accessed by computer by any individual.
ø(2) Exemption for Federal agencies. A Federal agency is exempt from paying a fee under this subsection.

A260

65
ø(e) ENFORCEMENT.—The Commission shall use systems controls
or other appropriate methods to enforce subsection (d).
ø(f) PENALTIES.—
ø(1) Civil penalties. A person failing to pay a fee established
under subsection (d) is liable to the United States Government
for a civil penalty of not more than $5,000 for each violation.
ø(2) Criminal penalties. A person that willfully fails to pay
a fee established under subsection (d) commits a class A misdemeanor.
ø(g) AUTOMATIC FILING IMPLEMENTATION.—
ø(1) CERTIFICATION OF SOFTWARE.—Software that provides
for the electronic filing of data in the Automated Tariff Filing
and Information System shall be submitted to the Commission
for certification. Not later than fourteen days after a person
submits software to the Commission for certification, the Commission shall—
ø(A) certify the software if it provides for the electronic
filing of data; and
ø(B) publish in the Federal Register notice of that certification.
ø(2) REPAYABLE ADVANCE.—
ø(A) Availability and use of advance. Upon the date of
enactment of this Act [enacted Nov. 2, 1992], the Secretary
of the Treasury shall make available to the Commission,
as a repayable advance, not more than $4,000,000, to remain available until expended. The Commission shall
spend these funds to complete and upgrade the capacity of
the Automated Tariff Filing and Information System to
provide access to information under this section.
ø(B) REQUIREMENT TO REPAY.—
ø(i) IN GENERAL.—Any advance made to the Commission under subparagraph (A) shall be repaid, with
interest, to the general fund of the Treasury not later
than September 30, 1995.
ø(ii) INTEREST.—Interest on any advance made to
the Commission under subparagraph (A) —
ø(I) shall be at a rate determined by the Secretary of the Treasury, as of the close of the calendar month preceding the month in which the
advance is made, to be equal to the current average market yield on outstanding marketable obligations of the United States with remaining periods to maturity comparable to the anticipated period during which the advance will be outstanding; and
ø(II) shall be compounded annually.
ø(3) USE OF RETAINED AMOUNTS.—Out of amounts collected
by the Commission under this section, amounts shall be retained and expended by the Commission for each fiscal year,
without fiscal year limitation, to carry out this section and pay
back the Secretary of the Treasury for the advance made available under paragraph (2).
ø(4) DEPOSIT IN TREASURY.—Except for the amounts retained
by the Commission under paragraph (3), fees collected under

A261

66
this section shall be deposited in the general fund of the Treasury as offsetting receipts.
ø(h) RESTRICTION.—No fee may be collected under this section
after fiscal year 1995.
ø(i) CONFORMING AMENDMENT.—Section 2 of the Act of August
16, 1989 (46 App. U.S.C. 1111c), is repealed.¿

Section 9, Shipping Act of 1984
[46 U.S.C. App. 1708]
§ 1708. Controlled carriers
(a) CONTROLLED CARRIER RATES.—No controlled carrier subject
to this section may maintain rates or charges in its tariffs or øservice contracts filed with the Commission¿ service contracts, or
charge or assess rates, that are below a level that is just and reasonable, nor may any such carrier establish øor maintain¿ maintain, or enforce unjust or unreasonable classifications, rules, or regulations in those tariffs or service contracts. An unjust or unreasonable classification, rule, or regulation means one that results or
is likely to result in the carriage or handling of cargo at rates or
charges that are below a just and reasonable level. The øCommission¿ Board may, at any time after notice and hearing, ødisapprove¿ prohibit the publication or use of any rates, charges, classifications, rules, or regulations that the controlled carrier has
failed to demonstrate to be just and reasonable. In a proceeding
under this subsection, the burden of proof is on the controlled carrier to demonstrate that its rates, charges, classifications, rules, or
regulations are just and reasonable. Rates, charges, classifications,
rules, or regulations øfiled by a controlled carrier that have been
rejected, suspended, or disapproved by the Commission¿ that have
been suspended or prohibited by the ƒCommission≈ Board are void
and their use is unlawful.
(b) RATE STANDARDS.—For the purpose of this section, in determining whether rates, charges, classifications, rules, or regulations
by a controlled carrier are just and reasonable, the øCommission¿
Board ømay take into account appropriate factors including, but
not limited to, whether—¿ shall take into account whether the rates
or charges which have been published or assessed or which would
result from the pertinent classifications, rules, or regulations are
below a level which is fully compensatory to the controlled carrier
based upon that carrier’s actual costs or upon its constructive costs.
For purposes of the preceding sentence, the term ‘constructive costs’
means the costs of another carrier, other than a controlled carrier,
operating similar vessels and equipment in the same or a similar
trade. The ƒCommission≈ Board may also take into account other
appropriate factors, including but not limited to, whether—
ø(1) the rates or charges which have been filed or which
would result from the pertinent classifications, rules, or regulations are below a level which is fully compensatory to the controlled carrier based upon that carrier’s actual costs or upon its
constructive costs, which are hereby defined as the costs of an-

A262

67
other carrier, other than a controlled carrier, operating similar
vessels and equipment in the same or a similar trade;¿
ø(2) ¿ (1) the rates, charges, classifications, rules, or regulations are the same as or similar to those øfiled¿ published or
assessed or assessed by other carriers in the same trade;
ø(3) ¿ (2) the rates, charges, classifications, rules, or regulations are required to assure movement of particular cargo in
the trade; or
ø(4) ¿ (3) the rates, charges, classifications, rules, or regulations are required to maintain acceptable continuity, level, or
quality of common carrier service to or from affected ports.
(c) EFFECTIVE DATE OF RATES.—Notwithstanding section 8(d) of
this Act [46 U.S.C. App. 1707(d)] and except for service contracts,
the rates, charges, classifications, rules, or regulations of controlled
carriers may not, without special permission of the øCommission¿
Board, become effective sooner than the 30th day after the date of
øfiling with the Commission.¿ publication. Each controlled carrier
shall, upon the request of the øCommission¿ Board, file, within 20
days of request (with respect to its existing or proposed rates,
charges, classifications, rules, or regulations), a statement of justification that sufficiently details the controlled carrier’s need and
purpose for such rates, charges, classifications, rules, or regulations
upon which the øCommission¿ Board may reasonably base its determination of the lawfulness thereof.
(d) øDISAPPROVAL OF RATES.—¿ PROHIBITION OF RATES.—Within
120 days after the receipt of information requested by the ƒCommission≈ Board under this section, the ƒCommission≈ Board shall determine whether the rates, charges, classifications, rules, or regulations of a controlled carrier may be unjust and unreasonable.
Whenever the øCommission¿ Board is of the opinion that the rates,
charges, classifications, rules, or regulations øfiled¿ published or
assessed by a controlled carrier may be unjust and unreasonable,
the øCommission¿ Board ømay issue¿ shall issue an order to the
controlled carrier to show cause why those rates, charges, classifications, rules, or regulations should not be ødisapproved.¿ prohibited. Pending a determination as to their lawfulness in such a proceeding, the øCommission¿ Board may suspend the rates, charges,
classifications, rules, or regulations at any time before their effective date. In the case of rates, charges, classifications, rules, or regulations that have already become effective, the øCommission¿
Board may, upon the issuance of an order to show cause, suspend
those rates, charges, classifications, rules, or regulations on not less
than ø60¿ 30 days’ notice to the controlled carrier. No period of
suspension under this subsection may be greater than 180 days.
Whenever the øCommission¿ Board has suspended any rates,
charges, classifications, rules, or regulations under this subsection,
the affected controlled carrier may øfile¿ publish new rates,
charges, classifications, rules, or regulations to take effect immediately during the suspension period in lieu of the suspended rates,
charges, classifications, rules, or regulations—except that the
øCommission¿ Board may reject the new rates, charges, classifications, rules, or regulations if it is of the opinion that they are unjust and unreasonable.

A263

68
(e) PRESIDENTIAL REVIEW.—Concurrently with the publication
thereof, the øCommission¿ Board shall transmit to the President
each order of suspension or final order of ødisapproval¿ prohibition
of rates, charges, classifications, rules, or regulations of a controlled
carrier subject to this section. Within 10 days after the receipt or
the effective date of the øCommission¿ Board order, the President
may request the øCommission¿ Board in writing to stay the effect
of the øCommission’s¿ Board’s order if the President finds that the
stay is required for reasons of national defense or foreign policy,
which reasons shall be specified in the report. Notwithstanding any
other law, the øCommission¿ Board shall immediately grant the
request by the issuance of an order in which the President’s request shall be described. During any such stay, the President shall,
whenever practicable, attempt to resolve the matter in controversy
by negotiation with representatives of the applicable foreign governments.
(f) EXCEPTIONS.—This section does not apply to—
(1) a controlled carrier of a state whose vessels are entitled
by a treaty of the United States to receive national or mostfavored-nation treatment; or
ø(2) a controlled carrier of a state which, on the effective
date of this section [see the Effective date of section note to
this section], has subscribed to the statement of shipping policy
contained in note 1 to annex A of the Code of Liberalization
of Current Invisible Operations, adopted by the Council of the
Organization for Economic Cooperation and Development;
ø(3) rates, charges, classifications, rules, or regulations of a
controlled carrier in any particular trade that are covered by
an agreement effective under section 6 of this Act [46 U.S.C.
App. 1705], other than an agreement in which all of the members are controlled carriers not otherwise excluded from the
provisions of this subsection;
ø(4) rates, charges, classifications, rules, or regulations governing the transportation of cargo by a controlled carrier between the country by whose government it is owned or controlled, as defined herein and the United States; or¿
ø(5) ¿ (2) a trade served exclusively by controlled carriers.

Section 10, Shipping Act of 1984
[46 U.S.C. App. 1709]
1709. Prohibited acts
(a) IN GENERAL.—No person may—
(1) knowingly and willfully, directly or indirectly, by means
of false billing, false classification, false weighing, false report
of weight, false measurement, or by any other unjust or unfair
device or means obtain or attempt to obtain ocean transportation for property at less than the rates or charges that would
otherwise be applicable;
(2) operate under an agreement required to be filed under
section 5 of this Act [46 U.S.C. App. 1704] that has not become

A264

69
effective under section 6 [46 U.S.C. App. 1705], or that has
been rejected, disapproved, or canceled; or
(3) operate under an agreement required to be filed under
section 5 of this Act [46 U.S.C. App. 1704] except in accordance
with the terms of the agreement or any modifications made by
the øCommission¿ Board to the agreement.
(b) COMMON CARRIERS.—No common carrier, either alone or in
conjunction with any other person, directly or indirectly, may—
ø(1) charge, demand, collect, or receive greater, less, or different compensation for the transportation of property or for
any service in connection therewith than the rates and charges
that are shown in its tariffs or service contracts;
ø(2) rebate, refund, or remit in any manner, or by any device, any portion of its rates except in accordance with its tariffs or service contracts;
ø(3) extend or deny to any person any privilege, concession,
equipment, or facility except in accordance with its tariffs or
service contracts;¿
ø(4) ¿ (1) allow any person to obtain transportation for property at less than the rates or charges established by the carrier
in its tariff or service contract by means of false billing, false
classification, false weighing, false measurement, or by any
other unjust or unfair device or means;
(2) provide services, facilities, or privileges, other than in accordance with the rates or terms in its tariffs or service contracts in effect when the service was provided;
ø(5) ¿ (3) retaliate against any shipper by refusing, or threatening to refuse, cargo space accommodations when available,
or resort to other unfair or unjustly discriminatory methods because the shipper has patronized another carrier, or has filed
a complaint, or for any other reason;
ø(6) ¿ (4) øexcept for service contracts,¿ for service pursuant
to a tariff, engage in any unfair or unjustly discriminatory
practice in the matter of—
(A) ørates;¿ rates or charges;
(B) cargo classifications;
(C) cargo space accommodations or other facilities, due
regard being had for the proper loading of the vessel and
the available tonnage;
(D) the loading and landing of freight; or
(E) the adjustment and settlement of claims;
(5) for service pursuant to a service contract, engage in any
unfair or unjustly discriminatory practice in the matter of rates
or charges with respect to any location, port, class or type of
shipper or ocean transportation intermediary, or description of
traffic;
ø(7) employ any fighting ship;¿
(6) use a vessel in a particular trade to drive another ocean
common carrier out of that trade;
ø(8) ¿ (7) offer or pay any deferred rebates;
ø(9) use a loyalty contract, except in conformity with the
antitrust laws;
ø(10) demand, charge, or collect any rate or charge that is
unjustly discriminatory between shippers or ports;

A265

70
ø(11) except for service contracts, make or give any undue or
unreasonable preference or advantage to any particular person,
locality, or description of traffic in any respect whatsoever;
ø(12) subject any particular person, locality, or description of
traffic to an unreasonable refusal to deal or any undue or unreasonable prejudice or disadvantage in any respect whatsoever;
ø(13) refuse to negotiate with a shippers’ association;¿
(8) for service pursuant to a tariff, give any undue or unreasonable preference or advantage or impose any undue or unreasonable prejudice or disadvantage;
(9) for service pursuant to a service contract, give any undue
or unreasonable preference or advantage or impose any undue
or unreasonable prejudice or disadvantage with respect to any
location, port, class or type of shipper or ocean transportation
intermediary, or description of traffic;
(10) unreasonably refuse to deal or negotiate;
ø(14) ¿ (11) knowingly and willfully accept cargo from or
transport cargo for the account of øa non-vessel-operating common carrier¿ an ocean transportation intermediary that does
not have a tariff and a bond, insurance, or other surety as required by øsections 8 and 23¿ sections 8 and 19 of this Act [46
U.S.C. App. 1707 and 1721];
ø(15) ¿ (12) knowingly and willfully enter into a service contract with øa non-vessel-operating common carrier¿ an ocean
transportation intermediary øor in which a non-vessel-operating common carrier is listed as an affiliate¿ that does not have
a tariff and a bond, insurance, or other surety as required by
øsections 8 and 23¿ sections 8 and 19 of this øAct;¿ Act, [46
U.S.C. App. 1707 and 1721] or with an affiliate of such ocean
transportation intermediary; or
ø(16) ¿ (13) knowingly disclose, offer, solicit, or receive any
information concerning the nature, kind, quantity, destination,
consignee, or routing of any property tendered or delivered to
a common carrier without the consent of the shipper or consignee if that information—
(A) may be used to the detriment or prejudice of the
shipper or consignee;
(B) may improperly disclose its business transaction to
a competitor; or
(C) may be used to the detriment or prejudice of any
common carrier.
Nothing in øparagraph (16) ¿ paragraph (13) shall be construed to prevent providing such information, in response to
legal process, to the United States, the ƒCommission≈ Board,
or to an independent neutral body operating within the scope
of its authority to fulfill the policing obligations of the parties
to an agreement effective under this Act. Nor shall it be prohibited for any ocean common carrier that is a party to a conference agreement approved under this Act, or any receiver,
trustee, lessee, agent, or employee of that carrier, or any other
person authorized by that carrier to receive information, to
give information to the conference or any person, firm, corporation, or agency designated by the conference, or to prevent the

A266

71
conference or its designee from soliciting or receiving information for the purpose of determining whether a shipper or consignee has breached an agreement with the conference or its
member lines or for the purpose of determining whether a
member of the conference has breached the conference agreement, or for the purpose of compiling statistics of cargo movement, but the use of such information for any other purpose
prohibited by this Act or any other Act is prohibited.
(c) CONCERTED ACTION.—No conference or group of two or more
common carriers may—
(1) boycott or take any other concerted action resulting in an
unreasonable refusal to deal;
(2) engage in conduct that unreasonably restricts the use of
intermodal services or technological innovations;
(3) engage in any predatory practice designed to eliminate
the participation, or deny the entry, in a particular trade of a
common carrier not a member of the conference, a group of
common carriers, an ocean tramp, or a bulk carrier;
(4) negotiate with a nonocean carrier or group of nonocean
carriers (for example, truck, rail, or air operators) on any matter relating to rates or services provided to ocean common carriers within the United States by those nonocean carriers: Provided, That this paragraph does not prohibit the setting and
publishing of a joint through rate by a conference, joint venture, or an association of ocean common carriers;
(5) deny in the export foreign commerce of the United States
compensation to an ocean øfreight forwarder¿ transportation
intermediary, as defined by section 3(17)(A) of this Act, or limit
that compensation to less than a reasonable amount; or
(6) allocate shippers among specific carriers that are parties
to the agreement or prohibit a carrier that is a party to the
agreement from soliciting cargo from a particular shipper, except as otherwise required by the law of the United States or
the importing or exporting country, or as agreed to by a shipper in a service contract.
(d) COMMON CARRIERS, OCEAN øFREIGHT FORWARDERS,¿ Transportation Intermediaries, and Marine Terminal Operators.—
(1) No common carrier, ocean øfreight forwarder,¿ transportation intermediary, or marine terminal operator may fail to
establish, observe, and enforce just and reasonable regulations
and practices relating to or connected with receiving, handling,
storing, or delivering property.
(2) No marine terminal operator may agree with another marine terminal operator or with a common carrier to boycott, or
unreasonably discriminate in the provision of terminal services
to, any common carrier or ocean tramp.
(3) The prohibitions in øsubsection (b) (11), (12), and (16)¿
subsections (b) (8), (9), (10), and (13) of this section apply to
marine terminal operators.
(4) The prohibition in subsection (b)(13) of this section applies
to ocean transportation intermediaries, as defined in section
3(17)(A) of this Act.

A267

72
(e) JOINT VENTURES.—For purposes of this section, a joint venture or consortium of two or more common carriers but operated
as a single entity shall be treated as a single common carrier.

Section 11, Shipping Act of 1984
[46 U.S.C. App. 1710]
§ 1710. Complaints, investigations, reports, and reparations
[Section 11, Shipping Act of 1984]
(a) FILING OF COMPLAINTS.—Any person may file with the øCommission¿ Board a sworn complaint alleging a violation of this Act,
other than section 6(g) [46 U.S.C. App. 1705(g)], and may seek reparation for any injury caused to the complainant by that violation.
(b) SATISFACTION OR INVESTIGATION OF COMPLAINTS.—The øCommission¿ Board shall furnish a copy of a complaint filed pursuant
to subsection (a) of this section to the person named therein who
shall, within a reasonable time specified by the øCommission¿
Board, satisfy the complaint or answer it in writing. If the complaint is not satisfied, the øCommission¿ Board shall investigate it
in an appropriate manner and make an appropriate order.
(c) øCOMMISSION¿ BOARD INVESTIGATIONS.—The øCommission¿
Board, upon complaint or upon its own motion, may investigate
any conduct or agreement that it believes may be in violation of
this Act. Except in the case of an injunction granted under subsection (h) of this section, each agreement under investigation
under this section remains in effect until the øCommission¿ Board
issues an order under this subsection. The øCommission¿ Board
may by order disapprove, cancel, or modify any agreement filed
under section 5(a) of this Act [46 U.S.C. App. 1704(a)] that operates
in violation of this Act. With respect to agreements inconsistent
with section 6(g) of this Act [46 U.S.C. App. 1705(g)], the øCommission’s¿ Board’s sole remedy is under section 6(h) [46 U.S.C. App.
1705(h)].
(d) CONDUCT OF INVESTIGATION.—Within 10 days after the initiation of a proceeding under this section, the øCommission¿ Board
shall set a date on or before which its final decision will be issued.
This date may be extended for good cause by order of the øCommission¿ Board.
(e) UNDUE DELAYS.—If, within the time period specified in subsection (d), the øCommission¿ Board determines that it is unable
to issue a final decision because of undue delays caused by a party
to the proceedings, the øCommission¿ Board may impose sanctions,
including entering a decision adverse to the delaying party.
(f) REPORTS.—The øCommission¿ Board shall make a written report of every investigation made under this Act in which a hearing
was held stating its conclusions, decisions, findings of fact, and
order. A copy of this report shall be furnished to all parties. The
øCommission¿ Board shall publish each report for public information, and the published report shall be competent evidence in all
courts of the United States.
(g) REPARATIONS.—For any complaint filed within 3 years after
the cause of action accrued, the øCommission¿ Board shall, upon

A268

73
petition of the complainant and after notice and hearing, direct
payment of reparations to the complainant for actual injury (which,
for purposes of this subsection, also includes the loss of interest at
commercial rates compounded from the date of injury) caused by a
violation of this Act plus reasonable attorney’s fees. Upon a showing that the injury was caused by activity that is prohibited by
øsection 10(b) (5) or (7) [46 U.S.C. App. 1709(b) (5), (7)]¿ section
10(b) (3) or (6) or section 10(c) (1) or (3) of this Act [46 U.S.C. App.
1709(c) (1), (3)], or that violates section 10(a) (2) or (3) [46 U.S.C.
App. 1709(a) (2), (3)], the øCommission¿ Board may direct the payment of additional amounts; but the total recovery of a complainant
may not exceed twice the amount of the actual injury. In the case
of injury caused by an activity that is prohibited by øsection 10(b)
(6) (A) or (B)¿ section 10(b)(4) (A) or (B) of this Act [46 U.S.C. App.
1709(b)(6) (A), (B)], the amount of the injury shall be the difference
between the rate paid by the injured shipper and the most favorable rate paid by another shipper.
(h) INJUNCTION.—
(1) In connection with any investigation conducted under
this section, the øCommission¿ Board may bring suit in a district court of the United States to enjoin conduct in violation
of this Act. Upon a showing that standards for granting injunctive relief by courts of equity are met and after notice to the
defendant, the court may grant a temporary restraining order
or preliminary injunction for a period not to exceed 10 days
after the øCommission¿ Board has issued an order disposing
of the issues under investigation. Any such suit shall be
brought in a district in which the defendant resides or transacts business.
(2) After filing a complaint with the øCommission¿ Board
under subsection (a), the complainant may file suit in a district
court of the United States to enjoin conduct in violation of this
Act. Upon a showing that standards for granting injunctive relief by courts of equity are met and after notice to the defendant, the court may grant a temporary restraining order or preliminary injunction for a period not to exceed 10 days after the
øCommission¿ Board has issued an order disposing of the complaint. Any such suit shall be brought in the district in which
the defendant has been sued by the øCommission¿ Board
under paragraph (1); or, if no suit has been filed, in a district
in which the defendant resides or transacts business. A defendant that prevails in a suit under this paragraph shall be allowed reasonable attorney’s fees to be assessed and collected as
part of the costs of the suit.

Section 10002, Foreign Shipping Practices
Act of 1988
[46 U.S.C. App. 1710a]
§ 1710a. Foreign laws and practices
(a) DEFINITIONS.—For purposes of this section—

A269

74
(1) ‘‘common carrier’’, ‘‘marine terminal operator’’, ø‘‘non-vessel-operating common carrier’’,¿ ‘‘ocean transportation
intermediary’’, ‘‘ocean common carrier’’, ‘‘person’’, ‘‘shipper’’,
‘‘shippers’ association’’, and ‘‘United States’’ have the meanings
given each such term, respectively, in section 3 of the Shipping
Act of 1984 (46 App. U.S.C. 1702) ;
(2) ‘‘foreign carrier’’ means an ocean common carrier a majority of whose vessels are documented under the laws of a country other than the United States;
(3) ‘‘maritime services’’ means port-to-port carriage of cargo
by the vessels operated by ocean common carriers;
(4) ‘‘maritime-related services’’ means intermodal operations,
terminal operations, cargo solicitation, øforwarding and¿ agency services, ønon-vessel-operating common carrier¿ ocean
transportation intermediary services and operations, and all
other activities and services integral to total transportation
systems of ocean common carriers and their foreign domiciled
affiliates on their own and others’ behalf;
(5) ‘‘United States carrier’’ means an ocean common carrier
which operates vessels documented under the laws of the United States; and
(6) ‘‘United States oceanborne trade’’ means the carriage of
cargo between the United States and a foreign country, whether direct or indirect, by an ocean common carrier.
(b) AUTHORITY TO CONDUCT INVESTIGATIONS.—The øFederal Maritime Commission¿ Intermodal Transportation Board shall investigate whether any laws, rules, regulations, policies, or practices of
foreign governments, or any practices of foreign carriers or other
persons providing maritime or maritime-related services in a foreign country result in the existence of conditions that—
(1) adversely affect the operations of United States carriers
in United States oceanborne trade; and
(2) do not exist for foreign carriers of that country in the
United States under the laws of the United States or as a result of acts of United States carriers or other persons providing
maritime or maritime-related services in the United States.
(c) INVESTIGATIONS.—
(1) Investigations under subsection (b) of this section may be
initiated by the øCommission¿ Board on its own motion or on
the petition of any person, including any common carrier, shipper, shippers’ association, ocean øfreight forwarder,¿ transportation intermediary, or marine terminal operator, or any
branch, department, agency, or other component of the Government of the United States.
(2) The øCommission¿ Board shall complete any such investigation and render a decision within 120 days after it is initiated, except that the øCommission¿ Board may extend such
120-day period for an additional 90 days if the øCommission¿
Board is unable to obtain sufficient information to determine
whether a condition specified in subsection (b) of this section
exists. Any notice providing such an extension shall clearly
state the reasons for such extension.
(d) INFORMATION REQUESTS.—

A270

75
(1) In order to further the purposes of subsection (b) of this
section, the øCommission¿ Board may, by order, require any
person (including any common carrier, shipper, shippers’ association, ocean øfreight forwarder,¿ transportation intermediary
or marine terminal operator, or any officer, receiver, trustee,
lessee, agent or employee thereof) to file with the øCommission¿ Board any periodic or special report, answers to questions, documentary material, or other information which the
øCommission¿ Board considers necessary or appropriate. The
øCommission¿ Board may require that the response to any
such order shall be made under oath. Such response shall be
furnished in the form and within the time prescribed by the
øCommission¿ Board.
(2) In an investigation under subsection (b) of this section,
the øCommission¿ Board may issue subpoenas to compel the
attendance and testimony of witnesses and the production of
records or other evidence.
(3) Notwithstanding any other provision of law, the øCommission¿ Board may, in its discretion, determine that any information submitted to it in response to a request under this
subsection, or otherwise, shall not be disclosed to the public.
(e) ACTION AGAINST FOREIGN CARRIERS.—
(1) Whenever, after notice and opportunity for comment or
hearing, the øCommission¿ Board determines that the conditions specified in subsection (b) of this section exist, the øCommission¿ Board shall take such action as it considers necessary
and appropriate against any foreign carrier that is a contributing cause to, or whose government is a contributing cause to,
such conditions, in order to offset such conditions. Such action
may include—
(A) limitations on sailings to and from United States
ports or on the amount or type of cargo carried;
(B) suspension, in whole or in part, of any or all tariffs
øfiled with the Commission,¿ and service contracts, including the right of an ocean common carrier to use any or all
tariffs and service contracts of conferences in United States
trades of which it is a member for such period as the
øCommission¿ Board specifies;
(C) suspension, in whole or in part, of the right of an
ocean common carrier to operate under any agreement
filed with the øCommission¿ Board, including agreements
authorizing preferential treatment at terminals, preferential terminal leases, space chartering, or pooling of
cargo or revenues with other ocean common carriers; and
(D) a fee, not to exceed $1,000,000 per voyage.
(2) The øCommission¿ Board may consult with, seek the cooperation of, or make recommendations to other appropriate
Government agencies prior to taking any action under this
subsection.
(3) Before a determination under this subsection becomes effective or a request is made under subsection (f) of this section,
the determination shall be submitted immediately to the President who may, within 10 days after receiving such determination, disapprove the determination in writing, setting forth the

A271

76
reasons for the disapproval, if the President finds that disapproval is required for reasons of the national defense or the
foreign policy of the United States.
(f) ACTIONS UPON REQUEST OF THE øCOMMISSION¿ Board.—
Whenever the conditions specified in subsection (b) of this section
are found by the øCommission¿ Board to exist, upon the request
of the øCommission¿ Board—
(1) the collector of customs at any port or place of destination
in the United States shall refuse the clearance required by section 4197 of the Revised Statutes (46 App. U.S.C. 91) to any
vessel of a foreign carrier that is identified by the øCommission¿ Board under subsection (e) of this section; and
(2) the Secretary of the department in which the Coast
Guard is operating shall deny entry, for purposes of oceanborne trade, of any vessel of a foreign carrier that is identified
by the øCommission¿ Board under subsection (e) of this section
to any port or place in the United States or the navigable waters of the United States, or shall detain any such vessel at the
port or place in the United States from which it is about to depart for any other port or place in the United States.
(g) REPORT.—The øCommission¿ Board shall include in its annual report to Congress—
(1) a list of the twenty foreign countries which generated the
largest volume of oceanborne liner cargo for the most recent
calendar year in bilateral trade with the United States;
(2) an analysis of conditions described in subsection (b) of
this section being investigated or found to exist in foreign
countries;
(3) any actions being taken by the øCommission¿ Board to
offset such conditions;
(4) any recommendations for additional legislation to offset
such conditions; and
(5) a list of petitions filed under subsection (c) of this section
that the øCommission¿ Board rejected, and the reasons for
each such rejection.
(h) The actions against foreign carriers authorized in subsections
(e) and (f) of this section may be used in the administration and
enforcement of section 13ø(b)(5)¿(b)(6) of the Shipping Act of 1984
(46 App. U.S.C. 1712ø(b)(5)¿(b)(6)) or section 19(1)(b) of the Merchant Marine Act, 1920 (46 App. U.S.C. 876).
(i) Any rule, regulation or final order of the øCommission¿ Board
issued under this section shall be reviewable exclusively in the
same forum and in the same manner as provided in section
ø2342(3)(B)¿ 2342(5)(B) of title 28, United States Code.

Section 13, Shipping Act of 1984
[46 U.S.C. App. 1712]
§ 1712. Penalties
(a) ASSESSMENT OF PENALTY.—Whoever violates a provision of
this Act, a regulation issued thereunder, or a øCommission¿ Board
order is liable to the United States for a civil penalty. The amount

A272

77
of the civil penalty, unless otherwise provided in this Act, may not
exceed $5,000 for each violation unless the violation was willfully
and knowingly committed, in which case the amount of the civil
penalty may not exceed $25,000 for each violation. Each day of a
continuing violation constitutes a separate offense. The amount of
any penalty imposed upon a common carrier under this subsection
shall constitute a lien upon the vessels of the common carrier and
any such vessel may be libeled therefore in the district court of the
United States for the district in which it may be found.
(b) ADDITIONAL PENALTIES.—
(1) For a violation of øsection 10(b) (1), (2), (3), (4), or (8)¿
section 10(b) (1), (2), or (7) of this Act [46 U.S.C. App. 1709(b)
(1), (2), (7)], the øCommission¿ Board may suspend any or all
tariffs of the common carrier, or that common carrier’s right to
use any or all tariffs of conferences of which it is a member,
for a period not to exceed 12 months.
(2) For failure to supply information ordered to be produced
or compelled by subpena under section 12 of this Act [46
U.S.C. App. 1711], the øCommission¿ Board may, after notice
and an opportunity for hearing, suspend any or all tariffs of a
common carrier, or that common carrier’s right to use any or
all tariffs of conferences of which it is a member.
(3) A common carrier that accepts or handles cargo for carriage under a tariff that has been suspended or after its right
to utilize that tariff has been suspended is subject to a civil
penalty of not more than $50,000 for each shipment.
(4) If the ƒCommission≈ Board finds, after notice and an opportunity for a hearing, that a common carrier has failed to
supply information ordered to be produced or compelled by subpoena under section 12 of this Act, the ƒCommission≈ Board
may request that the Secretary of the Treasury refuse or revoke
any clearance required for a vessel operated by that common
carrier. Upon request by the ƒCommission≈ Board, the Secretary of the Treasury shall, with respect to the vessel concerned, refuse or revoke any clearance required by section 4197
of the Revised Statutes of the United States (46 U.S.C. App. 91).
ø(4)¿ (5) If, in defense of its failure to comply with a subpena
or discovery order, a common carrier alleges that documents or
information located in a foreign country cannot be produced because of the laws of that country, the øCommission¿ Board
shall immediately notify the Secretary of State of the failure
to comply and of the allegation relating to foreign laws. Upon
receiving the notification, the Secretary of State shall promptly
consult with the government of the nation within which the
documents or information are alleged to be located for the purpose of assisting the øCommission¿ Board in obtaining the documents or information sought.
ø(5)¿ (6) If, after notice and hearing, the øCommission¿
Board finds that the action of a common carrier, acting alone
or in concert with any person, or a foreign government has unduly impaired access of a vessel documented under the laws of
the United States to ocean trade between foreign ports, the
øCommission¿ Board shall take action that it finds appropriate, including the imposition of any of the penalties author-

A273

78
ized under øparagraphs (1), (2), and (3)¿ paragraphs (1), (2),
(3), and (4) of this subsection.
ø(6)¿ (7) Before an order under this subsection becomes effective, it shall be immediately submitted to the President who
may, within 10 days after receiving it, disapprove the order if
the President finds that disapproval is required for reasons of
the national defense or the foreign policy of the United States.
(c) ASSESSMENT PROCEDURES.—Until a matter is referred to the
Attorney General, the øCommission¿ Board may, after notice and
an opportunity for hearing, assess each civil penalty provided for
in this Act. In determining the amount of the penalty, the øCommission¿ Board shall take into account the nature, circumstances,
extent, and gravity of the violation committed and, with respect to
the violator, the degree of culpability, history of prior offenses, ability to pay, and such other matters as justice may require. The
øCommission¿ Board may compromise, modify, or remit, with or
without conditions, any civil penalty.
(d) REVIEW OF CIVIL PENALTY.—A person against whom a civil
penalty is assessed under this section may obtain review thereof
under chapter 158 of title 28, United States Code [28 U.S.C. 2341
et seq.].
(e) FAILURE TO PAY ASSESSMENT.—If a person fails to pay an assessment of a civil penalty after it has become final or after the appropriate court has entered final judgment in favor of the øCommission¿ Board, the Attorney General at the request of the øCommission¿ Board may seek to recover the amount assessed in an appropriate district court of the United States. In such an action, the
court shall enforce the øCommission’s¿ Board’s order unless it
finds that the order was not regularly made or duly issued.
(f) LIMITATIONS.—
(1) No penalty may be imposed on any person for conspiracy
to violate section 10(a)(1), (b)(1), øor (b)(4)¿ or (b)(2) of this Act
[46 U.S.C. App. 1709(a)(1), ø(b)(1), (4)¿ (b)(1), (2)], or to defraud the øCommission¿ Board by concealment of such a violation.
(2) Each proceeding to assess a civil penalty under this section shall be commenced within 5 years from the date the violation occurred.

Section 15, Shipping Act of 1984
46 U.S.C. App. 1714]
§ 1714. Reports øand certificates¿
ø(a) REPORTS.—¿The øCommission¿ Board may require any common carrier, or any officer, receiver, trustee, lessee, agent, or employee thereof, to file with it any periodical or special report or any
account, record, rate, or charge, or memorandum of any facts and
transactions appertaining to the business of that common carrier.
The report, account, record, rate, charge, or memorandum shall be
made under oath whenever the øCommission¿ Board so requires,
and shall be furnished in the form and within the time prescribed
by the øCommission¿ Board Conference minutes required to be

A274

79
filed with the øCommission¿ Board under this section shall not be
released to third parties or published by the øCommission¿ Board.
ø(b) CERTIFICATION.—The Commission shall require the chief executive officer of each common carrier and, to the extent it deems
feasible, may require any shipper, shippers’ association, marine terminal operator, ocean freight forwarder, or broker to file a periodic
written certification made under oath with the Commission attesting to—
ø(1) a policy prohibiting the payment, solicitation, or receipt
of any rebate that is unlawful under the provisions of this Act;
ø(2) the fact that this policy has been promulgated recently
to each owner, officer, employee, and agent thereof;
ø(3) the details of the efforts made within the company or
otherwise to prevent or correct illegal rebating; and
ø(4) a policy of full cooperation with the Commission in its
efforts to end those illegal practices.
øWhoever fails to file a certificate required by the Commission
under this subsection is liable to the United States for a civil penalty of not more than $5,000 for each day the violation continues.¿

Section 16, Shipping Act of 1984
[46 U.S.C. App. 1715]
§ 1715. Exemptions
The øCommission¿ Board, upon application or on its own motion,
may by order or rule exempt for the future any class of agreements
between persons subject to this Act or any specified activity of
those persons from any requirement of this Act if it finds that the
exemption will not øsubstantially impair effective regulation by the
Commission, be unjustly discriminatory, result in a substantial reduction in competition, or be detrimental to commerce.¿ result in
a substantial reduction in competition or be detrimental to commerce. The øCommission¿ Board may attach conditions to any exemption and may, by order, revoke any exemption. No order or rule
of exemption or revocation of exemption may be issued unless opportunity for hearing has been afforded interested persons and departments and agencies of the United States.

Section 18, Shipping Act of 1984
§ 46 U.S.C. App. 1717
ø§ 1717. Agency reports and Advisory Commission¿
ø(a) COLLECTION OF DATA.—For a period of 5 years following the
enactment of this Act [enacted Mar. 20, 1984], the Commission
shall collect and analyze information concerning the impact of this
Act upon the international ocean shipping industry, including data
on:
ø(1) increases or decreases in the level of tariffs;
ø(2) changes in the frequency or type of common carrier services available to specific ports or geographic regions;

A275

80
ø(3) the number and strength of independent carriers in various trades; and
ø(4) the length of time, frequency, and cost of major types of
regulatory proceedings before the Commission.
ø(b) CONSULTATION WITH OTHER DEPARTMENTS AND AGENCIES.—
The Commission shall consult with the Department of Transportation, the Department of Justice, and the Federal Trade Commission annually concerning data collection. The Department of Transportation, the Department of Justice, and the Federal Trade Commission shall at all times have access to the data collected under
this section to enable them to provide comments concerning data
collection.
ø(c) AGENCY REPORTS.—
ø(1) Within 6 months after expiration of the 5-year period
specified in subsection (a), the Commission shall report the information, with an analysis of the impact of this Act, to Congress, to the Advisory Commission on Conferences in Ocean
Shipping established in subsection (d), and to the Department
of Transportation, the Department of Justice, and the Federal
Trade Commission.
ø(2) Within 60 days after the Commission submits its report,
the Department of Transportation, the Department of Justice,
and the Federal Trade Commission shall furnish an analysis of
the impact of this Act to Congress and to the Advisory Commission on Conferences in Ocean Shipping.
ø(3) The reports required by this subsection shall specifically
address the following topics:
ø(A) the advisability of adopting a system of tariffs
based on volume and mass of shipment;
ø(B) the need for antitrust immunity for ports and marine terminals; and
ø(C) the continuing need for the statutory requirement
that tariffs be filed with and enforced by the Commission.
ø(d) ESTABLISHMENT AND COMPOSITION OF ADVISORY COMMISSION.—
ø(1) Effective 51⁄2 years after the date of enactment of this
Act [enacted Mar. 20, 1984], there is established the Advisory
Commission on Conferences in Ocean Shipping (hereinafter referred to as the ‘‘Advisory Commission’’) .
ø(2) The Advisory Commission shall be composed of 17 members as follows:
ø(A) a cabinet level official appointed by the President;
ø(B) 4 members from the United States Senate appointed by the President pro tempore of the Senate, 2 from
the membership of the Committee on Commerce, Science,
and Transportation and 2 from the membership of the
Committee on the Judiciary;
ø(C) 4 members from the United States House of Representatives appointed by the Speaker of the House, 2
from the membership of the Committee on Merchant Marine and Fisheries, and 2 from the membership of the
Committee on the Judiciary; and
ø(D) 8 members from the private sector appointed by the
President.

A276

81
ø(3) The President shall designate the chairman of the Advisory Commission.
ø(4) The term of office for members shall be for the term of
the Advisory Commission.
ø(5) A vacancy in the Advisory Commission shall not affect
its powers, and shall be filled in the same manner in which the
original appointment was made.
ø(6) Nine members of the Advisory Commission shall constitute a quorum, but the Advisory Commission may permit as
few as 2 members to hold hearings.
ø(e) COMPENSATION OF MEMBERS OF THE ADVISORY COMMISSION.—
ø(1) Officials of the United States Government and Members
of Congress who are members of the Advisory Commission
shall serve without compensation in addition to that received
for their services as officials and Members, but they shall be
reimbursed for reasonable travel, subsistence, and other necessary expenses incurred by them in the performance of the
duties vested in the Advisory Commission.
ø(2) Members of the Advisory Commission appointed from
the private sector shall each receive compensation not exceeding the maximum per diem rate of pay for grade 18 of the General Schedule under section 5332 of title 5, United States Code
[5 U.S.C. 5332], when engaged in the performance of the duties
vested in the Advisory Commission, plus reimbursement for
reasonable travel, subsistence, and other necessary expenses
incurred by them in the performance of those duties, notwithstanding the limitations in sections 5701 through 5733 of title
5, United States Code [5 U.S.C. 5701–5733].
ø(3) Members of the Advisory Commission appointed from
the private sector are not subject to section 208 of title 18,
United States Code [18 U.S.C. 208]. Before commencing service, these members shall file with the Advisory Commission a
statement disclosing their financial interests and business and
former relationships involving or relating to ocean transportation. These statements shall be available for public inspection at the Advisory Commission’s offices.
ø(f) ADVISORY COMMISSION FUNCTIONS.—The Advisory Commission shall conduct a comprehensive study of, and make recommendations concerning, conferences in ocean shipping. The
study shall specifically address whether the Nation would be best
served by prohibiting conferences, or by closed or open conferences.
ø(g) POWERS OF THE ADVISORY COMMISSION.—
ø(1) The Advisory Commission may, for the purpose of carrying out its functions, hold such hearings and sit and act at
such times and places, administer such oaths, and require, by
subpena or otherwise, the attendance and testimony of such
witnesses, and the production of such books, records, correspondence, memorandums, papers, and documents as the Advisory Commission may deem advisable. Subpenas may be issued to any person within the jurisdiction of the United States
courts, under the signature of the chairman, or any duly designated member, and may be served by any person designated
by the chairman, or that member. In case of contumacy by, or

A277

82
refusal to obey a subpena to, any person, the Advisory Commission may advise the Attorney General who shall invoke the
aid of any court of the United States within the jurisdiction of
which the Advisory Commission’s proceedings are carried on,
or where that person resides or carries on business, in requiring the attendance and testimony of witnesses and the production of books, papers, and documents; and the court may issue
an order requiring that person to appear before the Advisory
Commission, there to produce records, if so ordered, or to give
testimony. A failure to obey such an order of the court may be
punished by the court as a contempt thereof. All process in any
such case may be served in the judicial district whereof the
person is an inhabitant or may be found.
ø(2) Each department, agency, and instrumentality of the executive branch of the Government, including independent
agencies, shall furnish to the Advisory Commission, upon request made by the chairman, such information as the Advisory
Commission deems necessary to carry out its functions.
ø(3) Upon request of the chairman, the Department of Justice, the Department of Transportation, the Federal Maritime
Commission, and the Federal Trade Commission shall detail
staff personnel as necessary to assist the Advisory Commission.
ø(4) The chairman may rent office space for the Advisory
Commission, may utilize the services and facilities of other
Federal agencies with or without reimbursement, may accept
voluntary services notwithstanding section 1342 of title 31,
United States Code [31 U.S.C. 1342], may accept, hold, and administer gifts from other Federal agencies, and may enter into
contracts with any public or private person or entity for reports, research, or surveys in furtherance of the work of the
Advisory Commission.
ø(h) FINAL REPORT.—The Advisory Commission shall, within 1
year after all of its members have been duly appointed, submit to
the President and to the Congress a final report containing a statement of the findings and conclusions of the Advisory Commission
resulting from the study undertaken under subsection (f) , including recommendations for such administrative, judicial, and legislative action as it deems advisable. Each recommendation made by
the Advisory Commission to the President and to the Congress
must have the majority vote of the Advisory Commission present
and voting.
ø(i) EXPIRATION OF THE COMMISSION.—The Advisory Commission
shall cease to exist 30 days after the submission of its final report.
ø(j) AUTHORIZATION OF APPROPRIATION.—There is authorized to
be appropriated $500,000 to carry out the activities of the Advisory
Commission.¿

A278

83

Section 19, Shipping Act of 1984
[46 U.S.C. App. 1718]
Ocean
øfreight
forwarders¿
transportation
intermediaries
ø(a) LICENSE.—No person may act as an ocean freight forwarder
unless that person holds a license issued by the Commission. The
Commission shall issue a forwarder’s license to any person that—
ø(1) the Commission determines to be qualified by experience
and character to render forwarding services; and
ø(2) furnishes a bond in a form and amount determined by
the Commission to insure financial responsibility that is issued
by a surety company found acceptable by the Secretary of the
Treasury.¿
(a) LICENSE.—No person in the United States may act as an
ocean transportation intermediary unless that person holds a license
issued by the ƒCommission≈ Board. The ƒCommission≈ Board
shall issue an intermediary’s license to any person that the ƒCommission≈ Board determines to be qualified by experience and character to act as an ocean transportation intermediary.
(b) FINANCIAL RESPONSIBILITY.—
(1) No person may act as an ocean transportation
intermediary unless that person furnishes a bond, proof of insurance, or other surety in a form and amount determined by
the ƒCommission≈ Board to insure financial responsibility that
is issued by a surety company found acceptable by the Secretary
of the Treasury.
(2) A bond, insurance, or other surety obtained pursuant to
this section—
(A) shall be available to pay any judgment for damages
against an ocean transportation intermediary arising from
its transportation-related activities described in section
3(17) of this Act, or any order for reparation issued pursuant to section 11 or 14 of this Act, or any penalty assessed
pursuant to section 13 of this Act; and
(B) may be available to pay any claim against an ocean
transportation intermediary arising from its transportation-related activities described in section 3(17) of this
Act with the consent of the insured ocean transportation
intermediary, or when the claim is deemed valid by the
surety company after the ocean transportation intermediary
has failed to respond to adequate notice to address the validity of the claim.
(3) An ocean transportation intermediary not domiciled in the
United States shall designate a resident agent in the United
States for receipt of service of judicial and administrative process, including subpoenas.
ø(b)¿ (c) SUSPENSION OR REVOCATION.—The øCommission¿ Board
shall, after notice and hearing, suspend of [or] revoke a license if
it finds that the ocean øfreight forwarder¿ transportation
intermediary is not qualified to render øforwarding¿ intermediary
services or that it willfully failed to comply with a provision of this
§ 1718.

A279

84
Act or with a lawful order, rule, or regulation of the øCommission¿
Board. The øCommission¿ Board may also revoke an
intermediary’s license for failure to maintain øa bond in accordance
with subsection (a)(2).¿ a bond, proof of insurance, or other surety
in accordance with subsection (b) (1).
ø(c)¿ (d) EXCEPTION.—A person whose primary business is the
sale of merchandise may forward shipments of the merchandise for
its own account without a license.
ø(d)¿ (e) COMPENSATION OF øFORWARDERS¿ INTERMEDIARIES BY
CARRIERS.—
(1) A common carrier may compensate an ocean øfreight forwarder¿ transportation intermediary, as defined in section
3(17)(A) of this Act, in connection with a shipment dispatched
on behalf of others only when the ocean øfreight forwarder¿
transportation intermediary has certified in writing that it
holds a valid ølicense¿ license, if required by subsection (a),
and has performed the following services:
(A) Engaged, booked, secured, reserved, or contracted directly with the carrier or its agent for space aboard a vessel or confirmed the availability of that space.
(B) Prepared and processed the ocean bill of lading, dock
receipt, or other similar document with respect to the shipment.
(2) No common carrier may pay compensation for services
described in paragraph (1) more than once on the same shipment.
ø(3) No compensation may be paid to an ocean freight forwarder except in accordance with the tariff requirements of
this Act.¿
ø(4)¿ (3) No ocean øfreight forwarder¿ transportation
intermediary may receive compensation from a common carrier
with respect to a shipment in which the øforwarder¿
intermediary has a direct or indirect beneficial interest nor
shall a common carrier knowingly pay compensation on that
shipment.
(4) No conference or group of 2 or more ocean common carriers in the foreign commerce of the United States that is authorized to agree upon the level of compensation paid to an
ocean transportation intermediary, as defined in section 3(17)
(A) of this Act, may—
(A) deny to any member of the conference or group the
right, upon notice of not more than 5 calendar days, to take
independent action on any level of compensation paid to an
ocean transportation intermediary, as so defined; or
(B) agree to limit the payment of compensation to an
ocean transportation intermediary, as so defined, to less
than 1.25 percent of the aggregate of all rates and charges
which are applicable under a tariff and which are assessed
against the cargo on which the intermediary services are
provided.

A280

85

Section 20, Shipping Act of 1984
[46 U.S.C. App. 1719]
§ 1719. Contracts, agreements, and licenses under prior shipping legislation
(a)—(c) [Omitted]
ø(d) EFFECTS ON CERTAIN AGREEMENTS AND CONTRACTS.—All
agreements, contracts, modifications, and exemptions previously
approved or licenses previously issued by the øCommission¿ Board
shall continue in force and effect as if approved or issued under
this Act; and all new agreements, contracts, and modifications to
existing, pending, or new contracts or agreements shall be considered under this Act.¿
(d) EFFECTS ON CERTAIN AGREEMENTS AND CONTRACTS.—All
agreements, contracts, modifications, and exemptions previously issued, approved, or effective under the Shipping Act, 1916, or the
Shipping Act of 1984 shall continue in force and effect as if issued
or effective under this Act, as amended by the Ocean Shipping Reform Act of 1997, and all new agreements, contracts, and modifications to existing, pending, or new contracts or agreements shall be
considered under this Act, as amended by the Ocean Shipping Reform Act of 1997.
(e) SAVINGS PROVISIONS.—
(1) Each service contract entered into by a shipper and an
ocean common carrier or conference before the date of enactment of this Act [enacted Mar. 20, 1984] may remain in full
force and effect and need not comply with the requirements of
section 8(c) of this Act [46 U.S.C. App. 1707(c)] until 15 months
after the date of enactment of this Act [enacted Mar. 20, 1984].
(2) This Act and the amendments made by it shall not affect
any suit—
(A) filed before the date of enactment of this Act [enacted Mar. 20, 1984], or
(B) with respect to claims arising out of conduct engaged
in before the date of enactment of this Act [enacted Mar.
20, 1984] filed within 1 year after the date of enactment
of this Act [enacted Mar. 20, 1984].
(3) The Ocean Shipping Reform Act of 1997 shall not affect
any suit—
(A) filed before the effective date of that Act; or
(B) with respect to claims arising out of conduct engaged
in before the effective date of that Act filed within 1 year
after the effective date of that Act.
(4) Regulations issued by the Federal Maritime Commission
shall remain in force and effect where not inconsistent with this
Act, as amended by the Ocean Shipping Reform Act of 1997.

A281

86

Section 23, Shipping Act of 1984
[46 U.S.C. App. 1721]
ø§ 1721. Surety for non-vessel-operating common carriers
[Section 23, Shipping Act of 1984]
ø(a) SURETY.—Each non-vessel-operating common carrier shall
furnish to the Commission a bond, proof of insurance, or such other
surety, as the Commission may require, in a form and an amount
determined by the Commission to be satisfactory to insure the financial responsibility of that carrier. Any bond submitted pursuant
to this section shall be issued by a surety company found acceptable by the Secretary of the Treasury.
ø(b) CLAIMS AGAINST SURETY.—A bond, insurance, or other surety
obtained pursuant to this section shall be available to pay any
judgment for damages against a non-vessel-operating common carrier arising from its transportation-related activities under this Act
or order for reparations issued pursuant to section 11 of this Act
[46 U.S.C. App. 1710] or any penalty assessed against a non-vesseloperating carrier pursuant to section 13 of this Act [46 U.S.C. App.
1712].
ø(c) RESIDENT AGENT.—A non-vessel-operating common carrier
not domiciled in the United States shall designate a resident agent
in the United States for receipt of service of judicial and administrative process, including subpoenas.
ø(d) TARIFFS.—The Commission may suspend or cancel any or all
tariffs of a non-vessel-operating common carrier for failure to maintain the bond, insurance, or other surety required by subsection (a)
of this section or to designate an agent as required by subsection
(c) of this section or for a violation of section 10(a) (1) of this Act
[46 U.S.C. App. 1709(a) (1) ].¿

TITLE 49. TRANSPORTATION
SUBTITLE I. DEPARTMENT OF TRANSPORTATION
CHAPTER 7. øSURFACE¿ INTERMODAL TRANSPORTATION
BOARD
SUBCHAPTER I. ESTABLISHMENT
§ 701. Establishment of Board
(a) ESTABLISHMENT.—There is hereby established within the Department of Transportation the øSurface¿ Intermodal Transportation Board.
(b) MEMBERSHIP.—
(1) The Board shall consist of ø3 members,¿ 5 members, to
be appointed by the President, by and with the advice and consent of the Senate. Not more than ø2 members¿ 3 members
may be appointed from the same political party.
ø(2) At any given time, at least 2 members of the Board shall
be individuals with professional standing and demonstrated
knowledge in the fields of transportation or transportation reg-

A282

87
ulation, and at least one member shall be an individual with
professional or business experience (including agriculture) in
the private sector.¿
(2) At any given time, at least 3 members of the Board shall
be individuals with professional standing and demonstrated
knowledge in the fields of surface or maritime transportation or
their regulation, and at least 2 members shall be individuals
with professional or business experience (including agriculture,
surface or maritime transportation, or marine terminal or port
operation) in the private sector. At any given time, at least 2
members of the Board shall be individuals with professional
standing and demonstrated knowledge in maritime transportation or its regulation or professional or business experience in
maritime transportation or marine terminal or port operation
in the private sector, and at least 2 members of the Board shall
be individuals with professional standing and demonstrated
knowledge in surface transportation or its regulation or professional or business experience in agriculture or surface transportation in the private sector. Neither of the 2 individuals appointed as surface transportation members under the preceding
sentence, and neither of the 2 individuals appointed as maritime transportation members under that sentence, may be members of the same political party.
(3) The term of each member of the Board shall be 5 years
and shall begin when the term of the predecessor of that member ends. An individual appointed to fill a vacancy occurring
before the expiration of the term for which the predecessor of
that individual was appointed, shall be appointed for the remainder of that term. When the term of office of a member
ends, the member may continue to serve until a successor is
appointed and qualified, but for a period not to exceed one
year. The President may remove a member for inefficiency, neglect of duty, or malfeasance in office.
(4) On January 1, 1996, the members of the Interstate Commerce Commission serving unexpired terms on December 29,
1995, shall become members of the Board, to serve for a period
of time equal to the remainder of the term for which they were
originally appointed to the Interstate Commerce Commission.
Any member of the Interstate Commerce Commission whose
term expires on December 31, 1995, shall become a member of
the Board, subject to paragraph (3).
(5) No individual may serve as a member of the Board for
more than 2 terms. In the case of an individual who becomes
a member of the Board pursuant to paragraph (4) , or an individual appointed to fill a vacancy occurring before the expiration of the term for which the predecessor of that individual
was appointed, such individual may not be appointed for more
than one additional term.
(6) A member of the Board may not have a pecuniary interest in, hold an official relation to, or own stock in or bonds of,
a carrier providing transportation by any mode and may not
engage in another business, vocation, or employment.
(7) A vacancy in the membership of the Board does not impair the right of the remaining members to exercise all of the

A283

88
powers of the Board. The Board may designate a member to
act as Chairman during any period in which there is no Chairman designated by the President.
(c) CHAIRMAN.—
(1) There shall be at the head of the Board a Chairman, who
shall be designated by the President from among the members
of the Board. The Chairman shall receive compensation at the
rate prescribed for level III of the Executive Schedule under
section 5314 of title 5.
(2) Subject to the general policies, decisions, findings, and
determinations of the Board, the Chairman shall be responsible for administering the Board. The Chairman may delegate
the powers granted under this paragraph to an officer, employee, or office of the Board. The Chairman shall—
(A) appoint and supervise, other than regular and fulltime employees in the immediate offices of another member, the officers and employees of the Board, including attorneys to provide legal aid and service to the Board and
its members, and to represent the Board in any case in
court;
(B) appoint the heads of offices with the approval of the
Board;
(C) distribute Board business among officers and employees and offices of the Board;
(D) prepare requests for appropriations for the Board
and submit those requests to the President and Congress
with the prior approval of the Board; and
(E) supervise the expenditure of funds allocated by the
Board for major programs and purposes.

Æ

A284

